<html>
<title> - AN OVERVIEW OF ASYLUM POLICY</title>
<body><pre>[Senate Hearing 107-274]
[From the U.S. Government Printing Office]



.                                                       S. Hrg. 107-274 
                      AN OVERVIEW OF ASYLUM POLICY
=======================================================================



                                HEARING

                               before the

                      SUBCOMMITTEE ON IMMIGRATION

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 3, 2001

                               __________

                          Serial No. J-107-15

                               __________

         Printed for the use of the Committee on the Judiciary







                     U.S. GOVERNMENT PRINTING OFFICE
77-386                       WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001









                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JEFF SESSIONS, Alabama               RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                CHARLES E. SCHUMER, New York
MITCH McCONNELL, Kentucky            RICHARD J. DURBIN, Illinois
                                     MARIA CANTWELL, Washington
                      Sharon Prost, Chief Counsel
                     Makan Delrahim, Staff Director
         Bruce Cohen, Minority Chief Counsel and Staff Director
                                 ------                                

                      Subcommittee on Immigration

                    SAM BROWNBACK, Kansas, Chairman
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
CHARLES E. GRASSLEY, Iowa            DIANNE FEINSTEIN, California
JON KYL, Arizona                     CHARLES E. SCHUMER, New York
MIKE DeWINE, Ohio                    RICHARD J. DURBIN, Illinois
                                     MARIA CANTWELL, Washington
                 James Rowland, Majority Chief Counsel







                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS



Brownback, Hon. Sam, a U.S. Senator from the State of Kansas.....     1
DeWine, Hon. Mike, a U.S. Senator from the State of Ohio.........    13
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     4
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................    10
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     3

                               WITNESSES

Acer, Eleanor, Senior Coordinator, Asylum Program, Lawyers 
  Committee for Human Rights, New York, NY.......................    40
Burhani, Mina, refugee from Afghanistan..........................    70
Glickman, Leonard, President and Chief Operating Officer, Hebrew 
  Immigrant Aid Society, New York, NY............................    83
Graham, Hon. Bob, a U.S. Senator from the State of Florida.......    12
Gyamtso, Amchok Thubten, refugee from Tibet......................    72
Hammond, Donald, Senior Vice President, World Relief, Washington, 
  DC.............................................................    77
Mkhizi, Patrick, refugee from the Democratic Republic of Congo...    67
Musalo, Karen, Resident Scholar, Hastings College of the Law, 
  University of California, San Francisco, CA....................    13
Stein, Dan, Executive Director, Federation for American 
  Immigration Reform, Washington, DC.............................   107
Young, Wendy A., Director of Government Relations, Women's 
  Commission for Refugee Women and Children, Washington, DC......    25

                       SUBMISSIONS FOR THE RECORD

Akin, Gump, Strauss, Hauer & Feld, L.L.P., Attorneys at Law, 
  Washington, DC, memorandum.....................................    54
Al-Torfi, Amin, refugee from Iraq, statement.....................    48
Boulankine, Denis and Tatiana, refugees from Russia, statement...    97
Curumi, Nusret, refugee from Albania, statement..................    43
Deffenbaugh, Ralston H., Jr., President, Lutheran Immigration and 
  Refugee Service, Baltimore, MD, statement and attachments......    85
Fofana, Mekabou, refugee from Liberia, statement.................    41
``Gonzalez, Aracelis'' (alias), asylum seeker from the Dominican 
  Republic, statement............................................    50
Jalloh, Makani, refugee from Sierra Leone, statement.............    53
Kamdem, Jean-Pierre, refugee from Cameroon, statement............    52
Keller, Allen S., M.D., Founder and Director, Bellevue/New York 
  University School of Medicine Program for Survivors of Torture, 
  New York, NY, statement........................................    45
Lutheran Immigration and Refugee Service, Baltimore, MD, paper...    91









                      AN OVERVIEW OF ASYLUM POLICY

                              ----------                              


                         THURSDAY, MAY 3, 2001

                               U.S. Senate,
                               Subcommittee on Immigration,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:01 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Sam 
Brownback, Chairman of the Subcommittee, presiding.
    Present: Senators Brownback, DeWine, and Feinstein.

 OPENING STATEMENT OF HON. SAM BROWNBACK, A U.S. SENATOR FROM 
                      THE STATE OF KANSAS

    Chairman Brownback. The hearing will come to order.
    I would like to welcome you to this first hearing on asylum 
under my chairmanship of the Senate Subcommittee on 
Immigration. This hearing will give a broad overview of asylum 
policy where we will attempt to identify areas where 
corrections are due and necessary.
    First, for the record, let it be known I intend to 
aggressively promote the proper treatment of those who arrive 
at our shores seeking freedom from persecution. In his 1801 
first annual message, President Thomas Jefferson asked a 
piercing question that is true today, 200 years later: ``Shall 
oppressed humanity find no asylum in this globe?''
    The answer is, yes, they shall, and America has provided 
and shall always provide asylum to those escaping tyranny, in 
1801 or in 2001.
    Further, it must be our continued aim that upon reaching 
these shores, persecution would end, dignity would be restored, 
and justice would prevail. This is a practical expression of 
America's core identity as both the defender of human dignity 
for the most vulnerable and a gracious refuge of escape for 
those fleeing gross injustice. We are a better Nation because 
of the asylees amongst us.
    As we give refuge to those worldwide who are desperate and 
facing extraordinary persecution, we are a better Nation 
because of our generosity. Moreover, asylees represent the best 
of American values. Often they are people who have stood alone 
at great personal cost. They have taken stands against hostile 
governments for principles which are fundamental to us, such as 
political and religious liberty. Therefore, as Americans with a 
noble legacy, we must continue to examine our asylum policies, 
ever vigilant that these most vulnerable asylee claiments 
receive fairness and justice.
    Throughout our history as a Nation, our refuge and asylum 
systems have reflected varied policy extremes. In 1939, more 
than 900 Jews aboard the SS St. Louis were within sight of 
Miami and they were yet denied entry and forced to return to 
Europe. Many were murdered in concentration camps. Yet when 
World War II ended, the United States led the effort to 
establish universal norms for human rights. The resulting 
adoption by the United Nations of the Universal Declaration of 
Human Rights on December 10, 1948 included a right to asylum.
    Over the next 30 years, the United States provided refuge 
to numerous people fleeing communism, including those involved 
in underground democracy movements in Hungary, Cuba, and 
Southeast Asia. Yet it was not until the Refugee Act of 1980 
that Congress enacted a comprehensive system available to those 
with ``a well-founded fear of being persecuted for reasons of 
race, religion, nationality, membership of a particular social 
group, or political opinion.''
    The Act provided that every person deemed inadmissible by 
an immigration officer at a port of entry had two rights: 
first, a right to a hearing before an immigration judge; and, 
second, a right to appeal an adverse judicial order. This was 
the norm for several years until passage of a new law in 1996. 
Notably, in that law, judicial review was partially, yet 
significantly, stripped and replaced with a process known as 
expedited removal. The flawed results of that law will be 
discussed highlighted in today's testimony.
    In this frequently employed procedure, an immigration 
officer is granted final authority to exclude particular 
classes of people, with a supervisor's authorization, without 
judicial review or right of appeal, barring re-entry for 5 
years. The policy challenge is twofold: First, we must ensure 
that persons fleeing persecution are not wrongly turned away at 
our shores because of unfair procedures. And, second, it must 
be remembered throughout the asylum process that today's asylee 
applicant may be tomorrow's American citizen. The bottom line 
is that all asylee applicants, future Americans or not, are 
entitled to humane treatment as a matter of justice.
    And let common sense prevail. No one escaping religious 
persecution should be restricted in their reasonable access to 
chaplains and scripture studies while in U.S. detention 
facilities, if they should be there at all. No one escaping 
torture and barbarous incarceration because of their stand for 
democracy should be detained in a U.S. facility in a windowless 
room for 23 hours a day for several months, or even years. This 
should not be. We are better than this, and we can do better 
than this. There are present problems with asylum we must begin 
to address.
    This is my goal. When this generation of asylees produces 
the next generation of Americans, I want that family story to 
be one of deliverance and celebration, and not one of 
bureaucratic mishandling and poor treatment.
    That is why I have invited three asylees here today from 
Afghanistan, the Congo, and Tibet to testify today about their 
asylum experiences. Additionally, there are several more 
asylees in the audience ready to talk with people after the 
hearing. Their dramatic stories should cause us to reflect on 
how we can do better.
    Our distinguished witnesses include experts in their field, 
and their testimony will provide an overview of asylum law 
while identifying problem areas. Such issues include current 
INS detention practices, the annual 10,000 cap for asylee 
adjustments of status, expedited removal, punishment for use of 
false documents by those escaping persecution, and the 1-year 
filing deadline for asylum applicants.
    I look forward to working together on this crucial task of 
promoting dignity, justice, and humanity in our asylum system.
    I am pleased to be joined by my colleague from California, 
and I would be happy to turn the microphone to her for an 
opening statement.
    Senator Feinstein. Thanks very much, Mr. Chairman. Thank 
you for holding these hearings, and if I may, I would like to 
introduce a statement from the ranking member, Senator Leahy, 
into the record.
    Chairman Brownback. Without objection.
    [The prepared statement of Senator Leahy follows:]

 Statement of Hon. Patrick J. Leahy, a U.S. Senator from the State of 
                                Vermont

    The asylum issues on the agenda today are among the most important 
immigration issues this Congress should address. I commend Senator 
Brownback for holding this important hearing, and for his efforts to 
reach out to Senator Kennedy and me in determining what witnesses and 
issues would be appropriate for today's hearing. And I thank the 
distinguished panels of witnesses who will testify today, including 
both the advocates and religious leaders who devote their careers to 
these issues, and the refugees whose desire to come to the United 
States has enabled them to overcome some of the obstacles that our 
current asylum system places in their way.
    Throughout most of its history, the United States has provided a 
safe harbor for people seeking refuge on our shores. Our first colonies 
were founded by those fleeing religious persecution, and our nation's 
success has been driven by the energy and commitment of emigrants from 
nations around the globe, including those who flee the political, 
religious, and ethnic prejudice and persecution that still regrettably 
infects countries on every continent. As Americans, we have much to be 
proud of--our commitment to those seeking to emigrate to the United 
States remains an example to those countries that follow a more 
exclusionary path. But we cannot be indifferent to the ways in which we 
have failed to honor our historic commitment to refugees. Our witnesses 
will be highlighting some of those ways in their testimony today.
    First, we maintain an expedited removal system at our ports of 
entry that lacks the necessary safeguards to ensure that people fleeing 
persecution are not returned to face their oppressors. Under this 
system, INS inspectors have wide-ranging authority to expel people 
entering the United States either without documentation or with 
facially valid documentation that the inspector simply suspects is 
fraudulent. This system--established during the anti-immigration mood 
that seized this Congress in 1996--ignores the reality that those who 
flee persecution do not always have time to obtain travel documents 
from the government that is persecuting them. It is true that those who 
know to say they are seeking asylum will not be immediately removed. 
But many who reach our shores have little or no knowledge of English or 
American immigration law, and have a deep distrust for government 
officials based on their experiences at home. Our current system fails 
those people and violates our commitments.
    In the last Congress, Senator Brownback and I introduced the 
Refugee Protection Act, which was cosponsored by Senators Kennedy and 
Durbin on this subcommittee. That bill would have restricted the use of 
expedited removal to times of immigration emergencies, an approach that 
the Senate supported in 1996 in a bipartisan vote to amend the Illegal 
Immigration Reform and Immigrant Responsibility Act. (The provision was 
removed in a fiercely partisan conference committee.) I am eager to 
work with Senator Brownback again to introduce a new version of the 
Refugee Protection Act in the coming weeks.
    Second, this hearing will look at the one-year filing deadline for 
asylum claims, which was also created in 1996. In the Refugee 
Protection Act, Senator Brownback and I proposed that the deadline be 
subject to a good cause exception, so that meritorious asylum claims 
brought after the deadline could still be considered. I believe we 
should consider eliminating the deadline altogether for those making 
affirmative asylum claims, and retain it--but with a good cause 
exception--only for those who make an asylum claim after proceedings 
have been brought against them. Many people who merit asylum, such as 
those who may have been tortured, may have difficulty recounting the 
persecution they underwent. Other deserving candidates may be unaware 
of the time limit. I believe we should seek to expand the ability of 
deserving asylum applicants to obtain refuge in the United States--
modifying current law in this area is one important avenue.
    Third, this hearing will examine the INS' detention of asylum 
seekers. Under current practice, the INS regularly detains asylum 
seekers whom immigration judges have found to have a credible fear of 
persecution. These detention periods can last for months or years, 
under conditions that are inappropriate for people who stand accused of 
no crime, and who have in fact entered the United States in accord with 
our laws. I have grown increasingly concerned about this issue as we 
have heard reports of the mistreatment of detainees, and I am 
interested to hear from those who closely follow this issue.
    Finally, we will hear today about the 10,000 annual cap governing 
how many asylees can become legal permanent residents of the United 
States. I believe we should increase that cap and help asylees build 
their lives in the United States, instead of placing them in a 
bureaucratic limbo.
    I hope this hearing prompts serious consideration of the problems 
with our current asylum policies, and legislation that might be able to 
fix them. I am eager to join my colleagues from both sides of the aisle 
in that effort.

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Mr. Chairman, the one issue I would like 
to mention today--and this particularly concerns me--is the 
manner in which children that come into this country seeking 
asylum are treated under our immigration system. Each year, the 
INS apprehends over 5,000 unaccompanied minors. These children 
are immediately detained and placed in deportation proceedings. 
There an immigration judge determines whether or not they have 
the right to legally remain in the United States.
    A substantial portion of these unaccompanied minors have 
valid asylum claims, yet under current policy, they are often 
denied the opportunity to present these claims. Worse yet, 
their experiences of detention and isolation are often as 
traumatic as the persecution they fled in their home countries.
    Unbelievably, some children who are in INS custody are 
subjected to such punitive actions as shackling, the use of leg 
manacles, and strip searches. Others are housed with violent 
juvenile offenders.
    Unaccompanied minors are the most vulnerable of the world's 
asylum seekers, and they deserve our support and protection. 
Many have fled the horrors of their homeland: child 
prostitution, bonded labor, female genital mutilation, and 
forced recruitment as child soldiers. They often lack the 
capacity to navigate the complexities of our immigration system 
without the assistance of a responsible adult to objectively 
act in their best interest.
    I recently introduced the Unaccompanied Alien Child 
Protection Act of 2001 because I believe that our Nation has an 
obligation to better protect these children.
    Let me just give you one example of what I am talking 
about. Yung Hong fled China alone when he was only 15 years 
old. He grew up in an abusive household in Fujian Province. 
There his parents beat him severely. They also forced him to 
quit school and work, apparently to help pay off their debts to 
the government for having Hong's sister, the second child in 
the family. Hong fled to the United States in 1998 where he was 
held in INS custody in a juvenile prison for over a year. There 
he was not provided with any educational or social services in 
his native Mandarin language, and he was required to fill out 
his asylum application in English. In other words, he was at 
the mercy of the U.S. Government to help him with his 
application.
    Unfortunately, with their overworked schedules, the 
immigration officers on hand were unable to assist Hong with 
his asylum claim. Even if they were able to help, Hong did not 
know how to ask. Nevertheless, he did his best through an 
interpreter to answer ever question the immigration judge asked 
of him at his immigration trial.
    During the proceeding, though, no one thought to ask him 
about some of the basics of his claim, such as whether his 
family subjected him to forced child labor to compensate the 
government for their violation of China's one-child policy, and 
whether he would be in danger because, on arriving in the U.S., 
he helped Federal prosecutors bring to justice the alien 
smugglers who transported him here in an overcrowded vessel.
    The immigration judge denied Hong's asylum on May 17th of 
last year. Afterwards, Hong obtained free counsel from the 
Catholic Legal Immigration Network in Los Angeles. His lawyer 
appealed his case before the Board of Immigration Appeals. On 
March 21, 2001, just a short time ago, 3 years after Hong 
arrived in the United States, the board remanded Hong's case 
back to the immigration judge, stating that Hong was not 
granted an opportunity to seek new counsel when his first 
counsel abandoned him, a right he did not know he possessed. 
The board allowed him to present his case again before the 
immigration judge, this time, though, with the assistance of 
his new counsel. On his second try, Hong was granted asylum, 
but only after he spent 3 years in INS custody.
    Cases like this are but the tip of the iceberg. They 
demonstrate a major problem with our immigration system. It is 
managed by a bureaucracy ill equipped to help the thousands of 
unaccompanied children in need of special protection.
    I have joined with Senator Graham of Florida and other 
colleagues in introducing S. 121, bipartisan legislation which 
would address this problem. The bill would place into law 
important protections for vulnerable children who are in INS 
custody. Among its provisions are those that would:
    One, create a special Office of Children's Services within 
the Department of Justice that would be responsible for 
ensuring that the children's needs are met and that their best 
interests are held paramount in all proceedings and actions 
involving them;
    Two, it would streamline INS procedures to provide better 
agency coordination when an unaccompanied child comes into 
Federal custody;
    And, three, the bill would establish minimum standards for 
the custody or, where appropriate, detention of unaccompanied 
alien children to assure that they are housed in appropriate 
settings.
    The bill would develop a core of child welfare 
professionals to act as guardians ad litem and to help the 
children articulate their needs and make recommendations 
regarding their custody, detention, release, and removal based 
on the best interests of each child.
    It would ensure adequate legal representation for the 
children, either through pro bono legal services or appointed 
counsel, to help them understand the gravity of the immigration 
proceedings they face.
    It would ensure that children awaiting adjudication of 
their asylum claims do not age out, which is a real problem. 
And it would require training for INS adjudicators, immigration 
judges, and other personnel on how to address children's needs 
in asylum claims.
    Mr. Chairman, Senator Graham and I have written to you to 
ask that you hold a hearing on the manner in which 
unaccompanied alien children are treated while in INS custody, 
and I would like to place a copy of that letter to you in the 
record today.
    [The prepared statement and letter follows:]

 Statement of Hon. Dianne Feinstein, a U.S. Senator from the State of 
                               California

    Thank you, Mr. Chairman, for holding this hearing today on asylum 
law and policy. There is one issue I'd like to mention that 
particularly concerns me--the manner in which children who come to this 
country seeking asylum are treated under our immigration system.
    Each year, the INS apprehends over 5,000 unaccompanied minors. 
These children are immediately detained and placed in deportation 
proceedings. There, an immigration judge determines whether or not they 
have the right to remain legally in the United States.
    A substantial portion of these unaccompanied minors have valid 
asylum claims. Yet, under current policy, they are often denied the 
opportunity to present their claims. Worse yet, their experiences of 
detention and isolation are often as traumatic as the persecution they 
fled in their home countries. Unbelievably, some children who are in 
INS custody are subjected to such punitive actions as shackling, the 
use of leg manacles, and strip searches. Others are housed with violent 
juvenile offenders.
    Unaccompanied minors are the most vulnerable of the world's asylum 
seekers, and they deserve our support and protection. Many have fled 
the horrors of their homeland--child prostitution, bonded labor, female 
genital mutilation, and forced recruitment as child soldiers. They 
often lack the capacity to navigate the complexities of our immigration 
system without the assistance of a responsible adult to objectively act 
in their best interest.
    I introduced the ``Unaccompanied Alien Child Protection Act of 
2001'' because I believe that our nation has an obligation to better 
protect these children.
    Let me just give one example of what I'm talking about:

Young Hong fled China alone when he was only 15 years old. He grew up 
        in an abusive household in the Fujan province There, his 
        parents beat him severely. They also forced him to quit school 
        and work--apparently to help pay off their debts to the Chinese 
        government for having Hong's sister, the second child in the 
        family.
Hong fled to the U.S. in 1998, where he was held in INS custody in a 
        juvenile prison for over a year. There he was not provided any 
        educational or social services in his native Mandarin language. 
        And, he was required to fill out his asylum application in 
        English. In other words, he was at the mercy of the United 
        States government to help him with his application.
Unfortunately, with their overworked schedules, the immigration 
        officers on hand were unable to assist Hong with his asylum 
        claim. Even if they were able to help, Hong did not know how to 
        ask. Nevertheless, he did his best, through an interpreter, to 
        answer every question the immigration judge asked of him at his 
        immigration trial.
During the proceeding, no one thought to ask him about some of the 
        basics of his claim--such as, whether his family subjected him 
        to forced child labor to compensate the government for their 
        violation of China's one-child policy; and whether he would be 
        in danger because, upon arriving in the U.S., he helped federal 
        prosecutors bring to justice the alien smugglers who 
        transported him here on a overcrowded vessel.
The immigration judge denied Hong's asylum claim on May 17, 2000. 
        Afterwards, Hong obtain free counsel from the Catholic Legal 
        Immigration Network in Los Angeles, CA. His lawyer appealed his 
        case before the Board of Immigration Appeals.
On March 21, 2001, three years after Hong arrived in the U.S., the 
        Board remanded Hong's case back to the immigration judge, 
        stating that Hong was not granted any opportunity to seek new 
        counsel when his first counsel abandoned him--a right he did 
        not know he possessed. The Board allowed him to present his 
        case again before the immigration judge, this time with the 
        assistance of his new counsel. On his second try, Hong was 
        granted asylum, but only after he had spent three years in INS 
        custody.

    And cases like this are but the tip of the iceberg. They 
demonstrate a major problem with our immigration system. It is managed 
by a bureaucracy ill equipped to help the thousands of unaccompanied 
children in need of special protection.
    I have joined with Senator Graham and other colleagues in 
introducing S. 121, bipartisan legislation that would address this 
problem. This bipartisan bill would place into law important 
protections for vulnerable children who are in INS custody. Among its 
provisions are those that would----

<bullet> create a special Office of Children's Services within the 
        Department of Justice that would be responsible for ensuring 
        that the children's needs are met and that their best interests 
        are held paramount in all proceedings and actions involving 
        them;
<bullet> streamline INS procedures to provide better agency 
        coordination when an unaccompanied child comes into federal 
        custody;
<bullet> establish minimum standards for the custody (or, where 
        appropriate, detention) of unaccompanied alien children to 
        ensure they are housed in appropriate settings;
<bullet> develop a corps of child welfare professionals to act as 
        guardians ad litem and to help the children articulate their 
        needs and make recommendations regarding their custody, 
        detention, release, and removal, based upon the best interests 
        of each child;
<bullet> ensure adequate legal representation for the children, either 
        through pro bono legal services or appointed counsel to help 
        them understand the gravity of the immigration proceedings they 
        face;
<bullet> ensure that children awaiting adjudication of their asylum 
        claims do not ``age-out''; and
<bullet> require training for INS adjudicators, immigration judges, and 
        other personnel on how to address children's needs in asylum 
        claims;

    Senator Bob Graham and I have written you, Mr. Chairman, to ask 
that you hold a hearing on the manner in which unaccompanied alien 
children are treated while in INS custody. I would like to place a copy 
of that letter into today's hearing record.
    Mr. Chairman, you are well known for your strong support for people 
fleeing persecution, and your strong support for children. I hope that 
you will join me and cosponsor my bill. And I hope I can count on your 
support for both a fair and swift hearing on this problem and prompt 
action on S. 121.
    Thank you, Mr. Chairman.

                                <F-dash>

                                      Hon. Dianne Feinstein
                                       United States Senate
                                          Washington, DC 20510-0504
                                                     April 23, 2001

Hon. Sam Brownback
Chairman
Subcommittee on Immigration
303Hart Senate Office Building
Washington, DC 20510

Dear Mr. Chairman:

    We are writing to request a hearing at the earliest possible date 
to examine the plight of the more than 4,600 unaccompanied children who 
are in the Immigration and Naturalization Service's (INS) custody each 
year, traumatized and in great need of special attention.
    Last year, four high profile cases have shaken both Congress' and 
the public's confidence in the INS's ability to deal with unaccompanied 
children in a way that reflects their best interests. These cases are:

<bullet> Elian Gonzalez, a six-year old child from Cuba, suffered 
        physical and emotional trauma after being lost at sea for two 
        days and witnessing the death of his mother. He has now been 
        reunited with his father and family in Cuba.
<bullet> Two young Haitian children arrived on a raft shortly after 
        Elian Gonzalez and were returned to Haiti while their mother 
        remained in the U.S. to file for asylum. After protests and 
        several weeks of separation from their mother, Federal 
        authorities finally permitted the children to be reunited with 
        their mother the U.S.
<bullet> A 15-year old Chinese girl was held in a juvenile jail for 
        eight months. At her asylum hearing, the young girl could not 
        wipe away the tears from her face because her hands were 
        chained to her waist. According to her lawyer, ``her only crime 
        was that her parents had put her on a boat so she could get a 
        better life over here.'' The INS held her in detention six 
        weeks after she had received political asylum.
<bullet> Phanupong Khaisri, a two-year old Thai national, was brought 
        to the U.S. by two individuals falsely claiming to be his 
        parents, but who were actually part of a major alien 
        trafficking ring. The child, who entered the U.S. with severe 
        flu-like symptoms has been diagnosed as HIV positive. After 
        inquiries by Congressional offices and a federal court order, 
        the INS agreed to allow the child to remain in the U.S. until 
        the agency could provide proper medical attention and determine 
        what course of action would be in his best interest.

    These cases are but the tip of the iceberg. Last year, 4,600 
unaccompanied children many of whom had been previously victimized or 
persecuted were held in INS detention. Of that number, nearly 2,000 
were held in correctional centers with juvenile offenders. Moreover, 
many of these children remained in INS detention for prolonged periods. 
One Chinese youth was held in a juvenile correctional facility for five 
years.
    Given these facts, we believe Congress should reexamine the way in 
which the immigration system handles foreign minors. As you know, we 
recently introduced S. 121, the ``Unaccompanied Alien Child Protection 
Act of 2001,'' which seeks to reform the manner in which the federal 
government treats unaccompanied children in U.S. custody. This bill is 
premised on the idea that we have a special obligation to ensure that 
every child who comes into contact with the INS is afforded fair and 
humane treatment. That does not appear to be the case today.
    We suggest the hearing include: (1) an examination of the 
particular circumstances causing children to travel to the U.S. without 
a parent or guardian; (2) the suitability of the facilities in which 
they are placed; (3) options for alternative placement; and (4) the 
Federal government's capacity to adequately address the special needs 
of alien children who are in its custody. A discussion involving 
various immigration law and child welfare experts may well provide 
groundwork for needed change within the INS to ensure proper placement 
of the children. For your convenience, we have attached a list of 
suggested panels and participants.
    We look forward to working with you to schedule a hearing. We and 
our respective staffs are prepared to provide you with whatever 
additional information you may need as the Committee prepares to 
address this important issue. If you or your staff have any questions 
on this matter, please do not hesitate to call us or have your staff 
contact LaVita Strickland at 2249641 or Caroline Berver at 202-224-
0852.

            Sincerely,

                                           Dianne Feinstein
                                                       U.S. Senator

                                                  Bob Grahm
                                                       U.S. Senator

                                <F-dash>

Proposed Judiciary Committee Hearing on Juveniles in the Custody of the 
                 Immigration and Naturalization Service

    Panel I--Members of Congress. Members of Congress who have 
introduced public and private bills on behalf of children should be 
permitted to testify on the need for reforming our immigration laws to 
provide the Attorney General discretion to handle children's cases in a 
way that comports with their best interests.
    Panel II--Government Witnesses Panel. An overview of the manner in 
which the INS and other federal agencies deal with unaccompanied alien 
children, with a particular focus on custody, detention and release, 
family reunification, interaction between federal and state 
authorities, and the special needs children face in adjudications and 
asylum. The witnesses should be prepared to address statistics on the 
number of children held in INS custody, the nationalities of the 
children encountered, types of cases, and case outcomes.
                          Suggested Witnesses:
<bullet> John Ashcroft, Attorney General, U.S. Department of Justice;
<bullet> John J. Pogash, National Juvenile Coordinator and Juvenile 
        Program Director, Immigration and Naturalization Service; and
<bullet> Michael Creppy, Chief Judge, the Executive Office for 
        Immigration Review.

    Panel III--Victims Panel. The personal experiences of several 
witnesses who can attest to the manner in which they were treated under 
the current system. The witnesses would highlight severe problems in 
detention and release decisions, conditions of detention, asylum cases 
for children, and the inadequacies of the Special Immigrant Juvenile 
Visa.
                          Suggested Witnesses:
<bullet> Mark Potter, immigration attorney for the 15-year old Chinese 
        asylum seeker detained for eight months;
<bullet> Catherine Brady, Immigrant Legal Resource Center, San 
        Francisco, California;
<bullet> Fauziya Kasindja, an asylum seeker from Togo, who as a youth 
        was detained for two years in an adult correctional facility 
        before being granted asylum.

    Panel IV--Experts Panel. A panel of expert service providers and 
program specialists who have worked on children's immigration issues. 
The witnesses would offer concrete solutions to how existing 
governmental structures, laws, procedures, and practices should be 
changed to address the problems children have in immigration 
proceedings.
                          Suggested Witnesses:
<bullet> Dr. Susan Martin, Georgetown University (former Executive 
        Director of the U.S. Commission on Immigration Reform);
<bullet> Elisa Massimino, Lawyers Committee for Human Rights;
<bullet> Ralston Deffenbaugh, Lutheran Immigrant and Refugee Services;
<bullet> Bishop Nicolas DiMarzio, U.S. Catholic Conference of Bishops; 
        and
<bullet> Wendy Young, Women's Commission on Refugee Women and Children.

    Senator Feinstein. Mr. Chairman, this first came to my 
attention when I learned that a young girl had been 7 months in 
custody without that situation being resolved. And then I 
looked into it, and I found that in any given year there are 
5,000 children that come into our country, do not understand 
the law, are not represented by counsel, very often end up in 
detention facilities under some of the harshest circumstances. 
Nobody knows they are there, and they can stay there year after 
year after year.
    It is, in a sense, a major scandal, and we need to move on 
it. So I would be hopeful, Mr. Chairman, that we could have a 
hearing on this bill. There are many examples of this same kind 
of thing, so I would be hopeful that we might be able to 
develop this Office of Children's Services and turn around what 
is a stagnant and terrible system.
    Chairman Brownback. Thank you very much. We will have that 
hearing. I hope you will work with us to get the people here to 
testify about this.
    I am very concerned about all of our asylees, minors and 
adults: the way we are treating them once they come into this 
country, and the amount of time we are leaving them in 
incarceration.
    Senator Feinstein. Right.
    Chairman Brownback. And there are better ways and there are 
better systems, and we can do better. So I think this would be 
a good key feature of that.
    Senator Feinstein. Thanks, Mr. Chairman. Senator Kennedy's 
and Senator Graham's statements are with the clerk. May I ask 
unanimous consent that they be submitted to the record?
    Chairman Brownback. Without objection.
    [The prepared statements of Senators Kennedy and Graham 
follow:]

 Statement of Hon. Edward M. Kennedy, a U.S. Senator from the State of 
                             Massachusetts

    I commend Senator Brownback for convening this important hearing on 
U.S. asylum policy and welcome all of the witnesses, especially the 
courageous refugees who are with us today. I understand how difficult 
it is for you to speak publicly about your asylum claims. All of us 
greatly appreciate your willingness to do so.
    This year marks a significant anniversary for an extremely 
important part of our immigration policy--the 50<SUP>th</SUP> 
anniversary of the United Nations Refugee Convention, which established 
the right of persons to flee their native land because of a ``well-
founded fear of being persecuted for reasons of race, religion, 
nationality, membership in a particular social group or political 
opinion.'' Since the passage of this Convention, United States policy 
has always been to welcome refugees fleeing persecution. However, in 
recent years, our government's respect for refugee rights has 
significantly diminished, even though the need for refugee protection 
is greater than ever.
    Today, more than 14 million people have been forced to leave their 
home countries in desperation, fearing not only for their own lives, 
but also for the lives of their loved ones. Some of these refugees 
arrive in the U.S. seeking asylum. We have a responsibility to see that 
they are able to request asylum in a fair and efficient manner.
    Unfortunately, in 1996, Congress enacted harsh immigration laws, 
which included an expedited removal process that gives INS inspections 
officers the authority to summarily remove potential asylum seekers if 
they arrive in the United States without proper papers, even though 
oppressive governments do not grant proper papers to those they are 
persecuting.
    The expedited removal process also requires individuals seeking 
asylum to specifically state their fear of persecution or their intent 
to apply for asylum immediately upon arriving in the U.S. But asylum 
seekers are often scared and traumatized. Many are unable to articulate 
their fears, especially to government officials whom they may view with 
distrust. Persons who have suffered particularly humiliating 
persecution, such as rape, may be unable speak to a stranger about 
their harrowing experience.
    The problem is made worse by the fact that many of these 
individuals speak very little, if any, English, and adequate 
translators are often not available to assist them in making their 
claims. Lack of language skills, combined with fear and intimidation, 
often make it impossible for newly arrived asylum seekers to overcome 
this significant obstacle. In addition, legal representation is not 
permitted at the initial and most critical phase of the expedited 
removal process, and the law contains no opportunity for judicial 
appeal of a decision on summary removal.
    The expedited removal process has caused great hardship for many 
vulnerable individuals. ``Mr. Antoun,'' a Coptic Christian who fled 
Egypt after repeated threats and beatings by Islamic extremists, was 
nearly deported under expedited removal after arriving at JFK 
International Airport in September 1999. When he began to explain to 
INS officials that he feared persecution in Egypt by Muslim extremists, 
an officer responded by saying: ``I'm Muslim. What is your problem with 
Muslims?'' Mr. Antoun immediately became worried about the 
confidentiality of his statements, and he expressed that concern to the 
officer. The officer then responded, ``We will contact your 
government.'' Terrified and intimidated, Mr. Antoun withdrew his claim 
for asylum and waited in confinement to be returned to Egypt. Finally, 
in desperation, he wrote a note to another INS officer; this action 
prevented his deportation.
    ``Mr. Keita,'' a member of the democratic opposition in Guinea, 
fled that country in January 2000 after his brother was arrested and 
killed by the ruling regime for supporting an opposition candidate. 
When Mr. Keita arrived at JFK International Airport, INS officials did 
not provide him with an adequate interpreter or an explanation of the 
protection available under U.S. law. Understanding only that he would 
be returned home if his travel documents were invalid, Mr. Keita was 
afraid to explain his situation, and he was summarily ordered removed. 
At the door of the plane, Mr. Keita broke into tears and said he would 
be killed if he went home. Nonetheless, INS officials continued their 
efforts to deport him. The deportation was halted at the last minute, 
after Mr. Keita was injured by INS officers, who dropped him several 
times while carrying him to the plane.
    Mr. Antoun and Mr. Keita's stories are shameful examples of the 
deplorable treatment that individuals have received under the expedited 
removal process. This treatment is inexcusable, and it is fortunate 
that their deportations were averted at the last minute. Countless 
other individuals are not so fortunate. They have been deported, and 
sent back to situations where they could well be subjected to torture, 
and even death.
    It is time for Congress to act to end these abuses involving the 
expedited removal program. The Refugee Protection Act, introduced last 
year by Senator Leahy and Senator Brownback, accomplishes this goal, 
and I urge this Congress to enact it following its reintroduction.
    In addition, asylum seekers who manage to request asylum are all 
too often subjected to mandatory detention. They are held in INS 
detention centers or state and county jails, often with criminal 
inmates, for months or even years. They have little access to legal 
representation, health care, or even contact with family, friends, or 
clergy who can assist them with their needs. Detention is extremely 
traumatizing for those who have already suffered so much.
    Consider the case of Adolphine Mwanza from the Democratic Republic 
of Congo. As a young woman, Adolphine was living in a Catholic convent 
studying to become a nun. But her family was brutally targeted by the 
rulers of her country.
    Her brother was killed and she was kidnaped, tortured and raped. 
She went into hiding and was eventually able to escape and reach the 
United States. Upon arrival, she was placed in detention. Her attorney 
filed a parole request with the INS, explaining that she would have 
housing and support if released. But her application was denied. She 
spent eight months in detention, before she was finally released and 
granted asylum.
    Her case is not an isolated example. Too many asylum applicants 
spend years in detention, even though they have committed no crimes. 
The incarceration is a tragedy, especially when fair alternatives are 
available. Asylum seekers could be released to family, friends, or 
community groups, including faith-based organizations, who are ready, 
willing and able to assist them. Such alternatives have been tested at 
pilot sites. They are cost-effective and successful and should be 
expanded to other sites.
    Also, persons who remain in INS detention must be safe and treated 
humanely. I commend the INS for issuing detention standards to 
accomplish this goal. The standards contain guidelines on issues 
ranging from visitation, to access to legal representation and 
materials, to a procedure for considering grievances. The 
implementation of these standards is an important step in the right 
direction. But the guidelines are not binding. Congress should codify 
them to make sure that they apply to all facilities of the INS. We 
should also guarantee effective monitoring and oversight of their 
implementation.
    Another worthwhile and proven program to assist asylum seekers 
involves legal orientation presentations. These programs accomplish 
four goals: 1) they identify persons with meritorious claims for relief 
and refer them to counsel at no cost to the government; 2) they 
convince those without legitimate claims to accept removal rather than 
tie up the system; 3) they reduce tension and improve security in 
detention facilities; and 4) they save the government money by making 
the judicial process more efficient and by reducing the need for 
prolonged detention. Congress should fund the expansion of this 
worthwhile program.
    Finally, two other problems affect asylum seekers. In 1996, 
Congress enacted a one-year filing deadline, requiring such persons to 
apply for asylum within a year of their arrival in the United States. 
The only exception to this deadline is if extraordinary circumstances 
prevent a timely filing. Since the enactment of this arbitrary 
deadline, more than 10,000 asylum seekers have had their claims 
rejected by the INS. In fiscal year 2000 alone, over 6,000 claims were 
rejected, based on failure to meet the filing deadline. Yet many of 
these individuals did not file their claims because they were 
unfamiliar with our legal system and did not know they were required to 
file a timely application.
    Asylum seekers should be able to apply for protection regardless of 
whether they file their claims before or after this arbitrary deadline. 
It serves no valid purpose. Instead, it creates yet another obstacle 
for bona fide refugees, and it should be eliminated.
    Immigration law also currently places a cap of 10,000 on the number 
of persons granted asylum whose status can be adjusted to that of 
lawful permanent resident in a fiscal year, regardless of the number of 
persons granted asylum in that year. Because the number of persons 
granted asylum each year exceeds 10,000, the cap has created a larger 
backlog. The INS estimates that there is a backlog of 57,000 asylees 
awaiting adjustment. This delay causes significant hardship to these 
deserving individuals and their families. No plausible reason exists 
for maintaining this cap. Congress should take the initiative to lift 
it.
    Again, I welcome the witnesses here today, and I look forward to 
working with them and with my colleagues on these important issues.

                                <F-dash>


 Statement of Hon. Bob Graham, a U.S. Senator from the State of Florida

    Mr. Chairman, I appreciate the chance to share my thoughts with the 
Subcommittee today. I want to discuss an issue I feel particularly 
strongly about--the fate of unaccompanied alien children in the United 
States.
    Last year 4,675 unaccompanied foreign children arrived here.
    These children have left behind their countries, their homes and 
their families. They arrive in our country without speaking the 
language or knowing the culture. They are often fleeing severe abuse or 
exploitation.
    They are brought here as ``human props'' in alien smuggling rings 
or they wander here in search of a safety net that does not exist in 
their home country. Instead, of offering a safety net, these children 
find iron bars.
    Our immigration laws often require detention upon arrival. 
Immigration and Naturalization Service-detention can mean handcuffs, 
shackles, strip-searches or incarceration in jails with violent 
juveniles.
    This is unacceptable treatment for one of the most vulnerable 
groups in our society, children. It is also unacceptable for a country 
like ours that has a long history of valuing and acknowledging the 
rights of refugees and asylum-seekers.
    So far, INS has failed to publish regulations on the treatment of 
children. There is no minimum standard for the custody of unaccompanied 
alien children. Indeed, immigration attorneys repeatedly complain about 
due process problems. I am particularly concerned about the placement 
of children in medium or high-security criminal facilities. These kids 
have, at most, limited access to education, physical recreation or 
health care.
    I urge the federal government to take action to treat unaccompanied 
alien children with respect to their vulnerability and special 
circumstances. We need to grant them reasonable standards of custody 
while their cases are pending. I would also like these children to have 
access to counsel. Our immigration laws are complex. How can we expect 
any child--let alone one traumatized or without command of the 
language--to navigate the complexity of our immigration laws? And yet, 
their claims for seeking asylum are reviewed by the same standards of 
proof as that of any adult. If they fail, the children will be 
deported.
    Exactly a year ago, the saga of Elian Gonzalez, the Cuban child who 
arrived in Florida, ended with his removal from the United States. 
Regardless of where you stood on the Elian case, there are two things 
we have learned from the incident. First, the current immigration law 
is too inflexible to take into account the best interest of the child. 
No legal provision allowed the evaluation of the child's special 
circumstances.
    To prevent a similar crisis, the INS today tries not to release a 
child to local relatives without first checking with a parent, even if 
the parent is overseas. It is only too easy to image how long such a 
procedure can take, especially if the parent is living in a country 
besieged by civil war or guerrilla activities. Meanwhile, the child is 
kept in detention.
    Second, we learned from the Elian case how rare it is that these 
children get the attention they deserve. We know about Elian, but who 
knows about the other 4674 children who were in INS custody last year? 
Who hears about the 15-year-old Guatemalan boy and the Chinese girl who 
in March were given half an hour to pack their personal belongings and 
no time to contact their lawyers before they were moved from Miami to 
Chicago?
    For all the above mentioned reasons, I urge my colleagues to 
support legislation Senator Feinstein and I have introduced. Our bill, 
the ``Unaccompanied Alien Child Protection Act of 2001'' will meet the 
special needs of these children. S.121 will create an Office of 
Children's Services within the Department of Justice to take care of 
unaccompanied alien children. An Office of Children's Services, with 
jurisdiction over custody and release decisions and oversight 
responsibility for juvenile, foster and shelter care, will ensure that 
the federal government fulfills its obligation to consider the special 
circumstances of unaccompanied alien children when making decisions 
regarding their custody and repatriation. The Office of Children's 
Services will also establish standards for custody and ensure that 
while in immigration proceedings, children have access to appointed 
counsel or a guardian ad litem.
    Let me also make clear what this law does not do. It does not 
change the jurisdiction over immigration law. Decisions on immigration 
status, benefits and enforcement will still be the responsibility of 
INS, the Executive Office of Immigration Review, and the Department of 
State. Also, S. 121 will not interfere with the custodial rights of a 
parent or guardian to make family reunification possible.
    Even more important, 5.121 does not seek to create new immigration 
or asylum claims. Our bill stays within the scope of the current U.S. 
immigration law.
    I look forward to working with all my colleagues to enact 
legislation that will take into account the special needs and 
circumstances of unaccompanied children who come to our country.

    Chairman Brownback. The Senator from Ohio?

STATEMENT OF HON. MIKE DEWINE, A U.S. SENATOR FROM THE STATE OF 
                              OHIO

    Senator DeWine. Very briefly, thank you, Mr. Chairman. Let 
me just first congratulate you for holding this hearing. I 
think it is long overdue, and the subject matter of this 
hearing is very, very important. The whole issue of asylum we, 
of course, have dealt with several times in Congress since I 
came here. We have dealt with it. I know my colleague from 
California and I were very much involved in the debate in 1995 
and 1996. We won some, we lost some. But I just again 
congratulate you, and I look forward to hearing the witnesses. 
I think the testimony we are going to hear is going to be very 
compelling, and I think it is going to be very instructive, and 
I just appreciate the fact that you are moving forward with 
this hearing.
    Chairman Brownback. Thank you very much, Senator.
    I will call up our first panel. The first speaker is Karen 
Musalo, director of an Expedited Removal Study produced in 
conjunction with Hastings College of Law at the University of 
California. Our second speaker is Wendy Young, director of 
Government Relations with the Women's Commission for Refugee 
Women and Children. Our third speaker is Eleanor Acer, director 
of the Asylum Representation Program with the Lawyers Committee 
for Human Rights.
    I welcome you all. We look forward to your testimony. Ms. 
Musalo, let's start with you, if you would present your 
testimony here today.

 STATEMENT OF KAREN MUSALO, RESIDENT SCHOLAR, HASTINGS COLLEGE 
OF THE LAW, UNIVERSITY OF CALIFORNIA, SAN FRANCISCO, CALIFORNIA

    Ms. Musalo. Thank you very much. Good afternoon. My name is 
Karen Musalo, and I am a resident scholar at the University of 
California, Hastings College of the Law. For the past 4 years, 
I have served as founding director and principal investigator 
of the Expedited Removal Study, a nationwide study of expedited 
removal. During the past 2 years, I have also served as an 
expert consultant to the Commission on International Religious 
Freedom on matters involving expedited removal. I would like to 
thank you, Mr. Chairman, and members of the Subcommittee for 
the opportunity to testify regarding expedited removal.
    As you said, Congress enacted expedited removal as part of 
the 1996 Immigration and Nationality Act reforms, and the 
procedures were first implemented in April 1997, and it allows 
the summary return of persons who are inadmissible for fraud or 
misrepresentation or for lack of valid or suitable travel 
documents.
    At ports of entry, immigration officers conduct initial 
examinations of all arriving individuals at primary inspection, 
and they route persons whose admissibility is in question to 
secondary inspection, which is a secure, closed area. And 
during secondary inspection, persons deemed to be inadmissible 
by the immigration officers may be ordered removed without any 
further process.
    Pursuant to the law, there are two groups of persons 
subject to expedited removal who are to be provided with 
additional protections rather than being immediately returned. 
These are persons who claim a legal right to reside in the 
United States, either U.S. citizens, permanent legal residents, 
asylees, or refugees; or persons who express a fear of 
persecution or an intent to apply for asylum.
    Persons who claim lawful status are to have those claims 
reviewed by an immigration judge before they are summarily 
removed, and persons who express a fear of persecution or a 
desire to apply for asylum are to be referred for an interview 
with an asylum officer, who will determine whether they have a 
credible fear of persecution such that they will actually be 
permitted to apply for asylum. This is something very new, to 
pre-screen people before allowing them to apply. And persons 
who establish that credible fear then will go on and be 
permitted to apply, and those who do not may request review by 
an immigration judge. There is no right to representation or to 
have a consultant present at that review. There is no further 
administrative or judicial review. And in both claimed status 
and credible fear cases, individuals who do not prevail before 
the immigration judge are summarily removed.
    Persons who--and I know my colleagues will address this 
more. Even those persons who are found to have a credible fear 
are put into detention, and although they are eligible for 
parole, there is some question about detention policies and 
whether they are, in fact, paroled.
    Expedited removal represents one of the most fundamental 
changes in immigration law and policy because it gives 
unprecedented authority to immigration inspectors to issue 
unreviewable orders of removal. And as the Chairman said, 
before its enactment, every person deemed inadmissible had the 
opportunity to go before an immigration judge and then to have 
that judge's decision reviewed by the Board of Immigration 
Appeals and the Federal courts. And, furthermore, persons 
seeking asylum did not have to pass through a screening process 
and first show they had a credible fear before they would be 
permitted a full hearing on their claims.
    When Congress was debating expedited removal, the critics 
of the process contended that it created an unacceptable risk 
that bona fide refugees would be returned to situations of 
persecution. It was feared that asylum seekers, of all people, 
who are often weary and traumatized when they arrive, would be 
unable to articulate their fears immediately upon arrival, 
especially if the form of persecution was of a particularly 
humiliating or personal nature, such as women who suffered rape 
or other forms of sexual torture. And there was the fear also 
that the officers might fail to even implement those safeguards 
that had been put into the process to assure that bona fide 
refugees would be identified.
    Now, as I mentioned when I began, I direct something called 
the Expedited Removal Study, and it was initiated in response 
to these and other concerns regarding expedited removal. And it 
was designed to examine all components of the procedure, and 
its objective was to determine whether expedited removal met 
the dual Congressional goals of preventing abuse of the system, 
while ensuring that bona fide asylum seekers and individuals 
with lawful status in the U.S. not be denied admission.
    Now, we had hoped to work with the cooperation of the 
Immigration Service and have access to the process and access 
to the data connected to the process so that we could do a fair 
evaluation and look into this issue about whether it meets the 
dual Congressional goals.
    At first, the INS was very positive and welcomed the idea 
of a study that could provide critical information to 
policymakers and the public. But shortly thereafter, they 
changed their attitude on this issue and denied the Expedited 
Removal Study as well as all other researchers who were 
interested in the process any access to the procedure. And the 
way in which we proceeded at that point with our study was to 
use the FOIA process--the Freedom of Information Act process--
as well as to seek out attorneys and non-governmental 
organizations who had contact with people who had been 
subjected to the process in order to gather information.
    Our study has released four reports on the expedited 
removal process, and, in general, we have identified a number 
of issues of substantial concern that have arisen both from our 
analysis of statistical data as well as our investigation of 
the processing in individual cases.
    In my written testimony, I have identified five cases. I 
would like to just very briefly highlight three of those five 
cases, which I think are illustrative of some of the problems 
that have been identified in expedited removal.
    Chairman Brownback. Ms. Musalo, if you could, let's 
summarize those because we may have to take a break here for a 
news conference on some judicial nominations. So I would like 
to get through the panelists as fast as possible, and we will 
take your full written statement in the record.
    Ms. Musalo. Yes. Just in very brief summary, Mr. Chairman, 
one of the cases involved an Algerian asylum seeker who, 
although he had been tortured and detained in his home country, 
when he arrived at the port in San Francisco, he was both 
taunted and ignored when he expressed fear. He was taunted and 
told that he would be sent back to his home country. He became 
so desperate with his treatment that he grabbed a coffee cup, 
broke it on a desk, and stabbed himself in the stomach. He was 
brought to a hospital, and it was only after this act of 
desperation that he was given a credible fear interview. He not 
only established a credible fear, but he was granted asylum.
    There was another case of some Ecuadoran asylum seekers who 
were precluded from applying in the United Kingdom because they 
would have an opportunity to apply in the U.S., but when they 
came to the U.S. were summarily returned to Ecuador.
    And there is another case I will not go into that involves 
a business traveler with legitimate travel documents who was 
returned because, although we focus mostly on asylum seekers, 
we have also looked at other people with a legitimate right to 
enter the United States.
    Just in summary, and really finishing up here, I would like 
to say that Congress has been aware of these concerns about 
expedited removal and has twice asked the General Accounting 
Office to conduct studies to try to ascertain if these kinds of 
stories that are coming out are simply anomalous and rare, or 
whether they represent some deeper, more fundamental problems 
with the process. And it has been our opinion--and we have 
issued a full report on this--that the General Accounting 
Office's two studies have failed to answer any of the key 
questions about expedited removal. And to the degree that any 
of their conclusions are reliable, they actually have raised 
additional concerns about the process.
    Let me end with that, and I thank you very much for holding 
this hearing, and I thank you very much for the opportunity to 
address you.
    [The prepared statement of Ms. Musalo follows:]

 Statement of Karen Musalo, Resident Scholar, Hastings College of the 
        Law University of California, San Francisco, California

                            1. Introduction
    Good afternoon. My name is Karen Musalo. I am resident scholar at 
the University of California, Hastings College of the Law. For the past 
four years I served as founding director and principal investigator of 
The Expedited Removal Study (``Study'') a nationwide scholarly study of 
expedited removal. During the past two years I have also served on two 
occasions as an expert consultant to the Commission on International 
Religious Freedom on matters involving expedited removal. I would like 
to thank you Mr. Chairman and members of the Subcommittee for the 
opportunity to testify regarding expedited removal.
                             II. Background
    Congress enacted the expedited removal law as part of the 1996 
Illegal Immigration Reform and Immigrant Responsibility Act (IIRAIRA), 
and the new procedures were implemented in April 1997. Expedited 
removal permits the summary return of persons \1\ who are inadmissible 
for fraud or misrepresentation \2\ or for lack of a valid or suitable 
travel document.\3\
---------------------------------------------------------------------------
    \1\ Expedited removal applies to ``arriving aliens.'' An ``arriving 
alien'' is defined as: an applicant for admission coming or attempting 
to come into the United States at a port-of-entry, or an alien seeking 
transit through the United States at a port-of-entry, or an alien 
interdicted in international or United States waters and brought into 
the United States by any means, whether or . not to a designated port-
of-entry, and regardless of the means of transport. 8 C.F.R. 
Sec. 1.1(q).
    \2\ INA Sec. 212(a)(6)(C)
    \3\ INA Sec. 212(a)(7)
---------------------------------------------------------------------------
    At ports of entry, immigration officers conduct initial 
examinations of all arriving individuals at primary inspection, and 
route persons whose admissibility is in question to secondary 
inspection, which is in a secure, closed area. During secondary 
inspection, persons deemed to be inadmissible for fraud or lack of 
proper documents may be ordered removed without further process. The 
removal order becomes final upon a supervisor's approval, and bars 
reentry to the United States for five years. The statute \4\ permits 
the withdrawal of an application for admission in the discretion of the 
Attorney General, in which case the applicant may depart without being 
subject to the five year bar on reentry.
---------------------------------------------------------------------------
    \4\ INA Sec. 235(a)(3)
---------------------------------------------------------------------------
    Pursuant to the law, there are two groups of persons subject to 
expedited removal who are to be provided with additional procedural 
protections, rather than being immediately returned at secondary 
inspection: (1) those who claim a legal right to reside in the United 
States based on citizenship, permanent resident, asylee or refugee 
status, and (2) those who express a fear of persecution or an intention 
to apply for asylum.
    Persons who claim lawful status are to have such claims reviewed by 
an immigration judge. Persons who express a fear of return or a desire 
to apply for asylum are to be referred to an interview with an asylum 
officer (AO) during which it will be determined if they have a credible 
fear of persecution. A ``credible fear'' of persecution is established 
if ``there is a significant possibility, taking into account the 
credibility of the statements made by the alien in support of the 
alien's claim and such other facts as are known to the officer, that 
the alien could establish eligibility for asylum under Section 208.'' 
\5\
---------------------------------------------------------------------------
    \5\ INA Sec. 235(b)(1)(B)(v).
---------------------------------------------------------------------------
    In order to assist in the identification of persons who fear return 
or desire to apply for asylum, immigration officers are required to ask 
three questions (referred to as the ``three fear questions'') during 
secondary inspection: (1) why did you leave your home country or 
country of last residence?; (2) do you have a fear or concern about 
being returned to your home country or removed from the U.S.?; and (3) 
would you be harmed if you were returned to your home country? 
Interpreters are to be provided if necessary for communication with the 
individual.\6\
---------------------------------------------------------------------------
    \6\ 8 C.F.R. Sec. 235.3(b)(2)(i).
---------------------------------------------------------------------------
    Persons who express a fear of return to their home country or an 
intent to apply for asylum, in response to these questions or at any 
time during secondary inspection, are to be referred to a credible fear 
interview. Among those to be referred are persons who express fear or 
an intent to apply for asylum through nonverbal acts.
    Persons who establish a credible fear of persecution at their 
interview with an asylum officer are permitted to apply for asylum. 
Persons found not to have a credible fear may request review by an IJ. 
There is no right to representation or to have a consultant present at 
this review.\7\ The statute precludes any further administrative or 
judicial review \8\ in claimed status and credible fear cases, and 
persons who do not prevail before the immigration judge are summarily 
removed from the United States.
---------------------------------------------------------------------------
    \7\ An applicant may consult with persons of his or her choice 
prior to IJ review of the credible fear determination. INA 
Sec. 235(b)(1)(B)(iv); 7 C.F.R. Sec. 208.30(b). However, immigration 
judges have the discretion as to whether consultants may be present at 
this review. If a consultant is allowed to be present, nothing entitles 
him or her to make an opening statement, call and question witnesses, 
cross examine, object to written evidence, or make a closing argument. 
Executive Office for Immigration Review, Interim Operating Policy and 
Procedure Memorandum 97-3: Procedures for Credible Fear and Claimed 
Status Reviews, at 4 (Mar. 25, 1997).
    \8\ INA Sec. 235(b)91)(c)
---------------------------------------------------------------------------
    The INA requires mandatory detention, until removal, of all persons 
subject to expedited removal proceedings.\9\ A narrow form of parole is 
available, in accordance with INA Sec. 212(d)(5), if ``the Attorney 
General determines, in the exercise of discretion, that parole is 
required to meet a medical emergency or is necessary for a legitimate 
law enforcement objective.'' \10\ Once a person establishes a credible 
fear of persecution, he is no longer subject to expedited removal 
proceedings, but rather to regular removal proceedings under INA 
Sec. 240, and therefore, may be eligible for parole under normal parole 
criteria.\11\ The INS has stated that persons subject to expedited 
removal who are determined to have a credible fear of persecution fall 
under the INS's low priority detention group, and that ``it is INS 
policy to favor release of aliens found to have a credible fear of 
persecution, provided that they do not pose a risk of flight or danger 
to the community.'' \12\
---------------------------------------------------------------------------
    \9\ INA Sec. (b)(1)(B)(iii)(IV); 8 C.F.R. Sec. 235.3(b)(2)(iii).
    \10\  8 C.F.R. Sec. Sec. 235.3(b)(2)(iii), (b)(4)(ii).
    \11\ Parole may be granted pursuant for 8 C.F.R. Sec. 212.5 on a 
case by case basis for urgent humanitarian reasons or significant 
public benefit, if such persons do not provide a security risk or a 
risk of absconding. This is a discretionary grant; the INS has 
instructed as follows:
      Parole is a viable option and should be considered for aliens who 
meet the credible fear standard, can establish identity and community 
ties, and are not subject to any possible bars to asylum involving 
violence or misconduct; for example, the applicant is an aggravated 
felon or a persecutor.
    Office of Field Operations, INS, Memorandum on Expedited Removal: 
Additional Policy Guidance (December 30, 1997).
    \12\ Office of Field Operations, INS, Memorandum: Detention 
Guidelines Effective October 9, 1998, at p. 3.
---------------------------------------------------------------------------
               III. Concerns Regarding Expedited Removal
    Expedited removal represents one of the most fundamental changes in 
immigration law and policy, because it gives unprecedented authority to 
immigration inspectors to issue unreviewable orders of removal. Before 
its enactment, every person deemed inadmissible by an immigration 
officer at a port of entry had the opportunity for a formal hearing 
before an immigration judge, and the right to appeal the judge's 
decision to the Board of Immigration Appeals (BIA) and the federal 
courts Asylum seekers were not required to establish a credible fear in 
a screening process in order to be permitted a full hearing on their 
claims.
    At the time when Congress was debating expedited removal, its 
critics contended that the process created an unacceptable risk that 
bona ride refugees would be returned to situations of persecution. It 
was feared that asylum seekers, who are often weary and traumatized, 
would be unable to articulate their fear immediately upon arrival, 
especially if such persons had suffered particularly humiliating forms 
of persecution, such as rape or other forms of sexual torture. There 
were also concerns that immigration officers might fail to comply with 
the requisite procedures--such as those requiring interpretation where 
necessary, or referral upon the verbal or non-verbal expression of 
fear--all of which could result in the summary removal of a bona fide 
asylum seeker. Critics also questioned whether the credible fear 
standard applied by asylum officers would be applied too rigorously, 
screening out persons with legitimate claims for asylum.
    In addition to these concerns focused on asylum seekers, opponents 
of the process also criticized the fact that expedited removal gave 
immigration officers the authority to make final decisions on 
admissibility, which previously had only been made by immigration 
judges, and which were subject to administrative and federal court 
review. This was seen as having the potential to prejudice legitimate 
travelers to the United States, as well as citizens and lawful 
permanent residents, who are entitled to only one tier of review if 
denied admission by an immigration officer.
                    IV. The Expedited Removal Study
    The Expedited Removal Study was initiated in response to these, and 
other concerns regarding expedited removal, and was designed to examine 
all components of the procedure. The Study's objective was to determine 
whether expedited removal met the dual congressional goals of 
preventing abuse of the system, while ensuring that bona fide asylum 
seekers, individuals with lawful status in the U.S., and other 
legitimate visitors (e.g. business visitors or tourists) not be denied 
admission.
    The Study's intended methodology contemplated cooperation with the 
Immigration and Naturalization Service (INS) so that researchers could 
have adequate access to observe and properly evaluate expedited removal 
procedures. Of special interest to the Study was the area of secondary 
inspection, where immigration officers make decisions regarding 
referral of asylum seekers to credible fear interviews, admissibility 
of persons with claimed lawful status, and admissibility of arriving 
aliens in general.
    Unfortunately, the INS, which initially welcomed the idea of a 
study that could provide critical information to policymakers and the 
public, refused to provide the requisite access to the process or its 
related data. Consequently, the Expedited Removal Study was forced to 
modify it research strategy and concentrate on the collection of data 
from attorneys and non-governmental organizations (NGOs) that represent 
persons who have been subject to expedited removal. The Study has also 
utilized the Freedom of Information Act (FOIA) process to obtain data 
from the INS and the Executive Office for Immigration Review (EOIR).
    The Expedited Removal Study has issued four reports on the 
expedited removal process; the last of its reports, issued in October 
2000, was an evaluation of the General Accounting Office's research on 
expedited removal. In general, the Expedited Removal Study has 
identified a number of issues of substantial concern arising both from 
its analysis of statistical data, as well as its investigation of the 
processing in individual cases. These issues give rise to the question 
whether bona fide asylum seekers, individuals with lawful status in the 
U.S., and other legitimate visitors (e.g. business visitors or 
tourists) are being improperly denied admission.
          select case studies from the expedited removal study
    From April 1997 through October 1999, almost 190,000 had been 
subject to expedited removal, and if the trend from 1997 to 1999 is any 
indication, the use of expedited removal may be expected to increase. 
In this time period, the clear majority of persons removed under 
expedited removal 99%--were removed at secondary inspection without a 
referral to a credible fear interview or claimed status review. The 
high percentage of cases involving a removal at secondary inspection 
underscores the importance of evaluating that stage of the proceeding.
    The Expedited Removal Studies has identified a number of cases 
which illustrate serious problems at secondary inspection, ranging from 
the failure of immigration officers to comply with required procedures, 
to affirmative misconduct on the part of officers. Because the INS has 
not permitted on-site observation, which would have allowed the Study 
to engage in a comprehensive analysis of processing at secondary 
inspection, it is not possible to conclude whether or not these 
troubling cases are representative of expedited removal cases in 
general. The following case studies, which are excerpted from the 
Study's annual reports, provide examples of failures in the expedited 
removal process.
                             Asylum Seekers
<bullet> Mr. A, an Algerian Asylum Seeker
    Mr. A, a twenty-six year old citizen of Algeria, was an active 
member of the Islamic Salvation Front (FIS), a major opposition 
political party, in 1990-92. FIS was outlawed by the military 
government in 1992, and elections that FIS was expected to win were 
canceled. From 1993-94, Mr. A was employed as a gardener for Benjadid 
Chadli, a former Algerian president. Early in 1994, while visiting his 
parents, Mr. A was arbitrarily detained and tortured for several days 
while in police custody. In late 1994, members of the Armed Islamic 
Group (GIA), a militant anti-government Muslim organization, broke into 
his family's home, abducted him and sought his cooperation in a plot to 
assassinate his employer. Mr. A quit his job out of fear and fled to 
the home of a friend. Months later, Mr. A and his friend encountered a 
group of GIA members who threatened their lives. After forcing them to 
a private area, the group beat both men, shot Mr. A's friend dead in 
front of him, and then again demanded Mr. A's cooperation with the 
assassination, saying it was his last chance.
    Mr. A fled to another city, where he was working in 1996 when his 
brother was arrested at the airport as he was attempting to leave the 
country to study abroad. Mr. A obtained a lawyer to help his brother, 
who was charged with treason, convicted and sentenced to twenty years 
in prison. Mr. A was arrested and released by police at the courthouse 
where his brother's hearing was taking place. In 1998, Mr. A's family 
was again targeted by the GIA when a group of rebels ransacked their 
home in search of Mr. A, then fled after engaging in a gun battle with 
police. Later in 1998, Mr. A was again arbitrarily arrested by Algerian 
security forces, detained and tortured over a fifteen day period.
    After this event, in September 1998, Mr. A fled Algeria. He 
traveled to Bulgaria and then to southeast Asia throughout 1999, 
eventually arriving in the U.S. at San Francisco International Airport 
on a flight from Shanghai, China, on January 30, 2000. Mr. A was 
traveling on a false Spanish passport which he disposed of after 
exiting the airplane. He approached an INS officer at primary 
inspection and asked for asylum.
    Mr. A was referred to secondary inspection. He explained with his 
limited English that he had destroyed his passport, which he reported 
appeared to have upset the INS officers. Although the regulations 
require interpretation under these circumstances, there was no 
interpreter at this point. Without interpretation Mr. A had difficulty 
understanding what the officers said to him, but he believes that one 
of the officers said, ``Algerians go back to Algeria.'' Mr. A was 
shackled hand and foot and held in a room together with an Iraqi man 
who was also shackled. An INS officer came into the room and asked Mr. 
A if he spoke English. Mr. A indicated that he did not, but a second 
officer said that Mr. A did speak English but did not want to talk. Mr. 
A reported that the first INS officer seemed very angry at him.
    Mr. A reports that he was taken by the first officer to a room 
where his handcuffs were removed. There was still no interpreter 
present. The INS officer told Mr. A to write down his name, and began 
typing into a computer. With his limited English, Mr. A repeated that 
he wanted asylum. Pursuant to expedited removal procedures, this should 
have resulted in a referral to a credible fear interview unless it 
became apparent from follow-up questions that the reason for his fear 
was totally unrelated to the refugee definition. Instead of being 
referred, the officer reportedly told him several times, ``[t]onight, 
you go back to China'' (the country he had transited immediately before 
his arrival in the United States). When Mr. A said he would be killed 
if he was returned to Algeria, the INS officer said that he did not 
care. Mr. A was upset and crying. When the officer briefly left the 
room, Mr. A grabbed a coffee cup, broke it against the desk, and 
stabbed himself in the abdomen, causing a deep wound. He then began 
slamming his head into the table. INS officers came into the room and 
restrained him. An incident report prepared later that day by an INS 
supervisor states that the stabbing occurred while the interviewing 
officer was out of the room to obtain a telephonic interpreter.
    Mr. A was taken to a hospital by ambulance, where he received 
stitches in his stomach. After a few hours at the hospital, Mr. A was 
brought back to the INS airport office for his secondary inspection 
interview. Mr. A was exhausted and in pain. At this point an 
interpreter was brought in, and Mr. A was interviewed by a different 
INS officer in his native Arabic. At the conclusion of the interview, 
Mr. A stated that he would be harmed if he was returned to Algeria. His 
case was referred to the Asylum Office for a credible fear interview. 
Mr. A was returned to the hospital, where he was seen by psychiatric 
emergency staff. He spent the night at the airport, and was taken the 
next morning to the INS office in San Francisco, then to Marin County 
Jail.
    Mr. A's credible fear interview took place February 14, 2000, in 
San Francisco. The interview, conducted in his native Arabic, lasted 
two hours and twenty minutes. Mr. A was found to have a credible fear 
of persecution on account of political opinion. After spending 
approximately five months in detention he was released from custody, 
and was granted asylum in the summer of 2000.

<bullet> Mr. C, an Egyptian Coptic Christian Asylum Seeker

    Mr. C is a twenty-five year old Egyptian citizen who worked in 
Egypt as an accountant and volunteered in a Coptic Christian church as 
a bread baker in his spare time. He was active in the church and 
identifiable as such in the neighborhood because he was in and out of 
the church on a regular basis. His religion could also be easily 
determined by his name. Mr. C was harassed and assaulted many times, 
including one incident involving a serious beating. The State 
Department has documented discrimination and other serious abuses of 
Christians in Egypt.
    Mr. C first came to the United States in mid-1998 on a tourist 
visa. During this visit, Mr. C volunteered at a Coptic church as a 
baker and worked at a restaurant for several months. In late 1998 he 
applied for and was granted an extension of his authorized stay. When 
his extension expired in mid-1999, Mr. C returned to Egypt. On his 
return, a Muslim group sought to extort money from him in the form of 
an unofficial ``tax.'' Mr. C was told that he either had to pay the tax 
or convert to Islam. Mr. C reported that the group had identified him 
as a target because he had traveled to the U.S. and was assumed to have 
money.
    As a result of these threats, Mr. C fled to the U.S. intending to 
seek asylum, arriving at a New York-area airport in September 1999. Mr. 
C was carrying his Egyptian passport with a valid tourist visa. He was 
referred to secondary inspection, where he spent most of the next eight 
hours shackled to a bench. A search of his belongings turned up a 
Social Security card, and Mr. C admitted to having previously worked in 
the U.S. without permission.
    During his interview with an INS officer at secondary inspection, 
Mr. C was asked whether he feared return to Egypt. Mr. C reported that, 
as he attempted to explain the problems he faced from Muslims, the INS 
officer interjected: ``I am a Muslim. What is your problem with 
Muslims?'' Mr. C was taken aback by the officer's statement. He said 
that he could explain but was concerned about his government finding 
out about his claim to asylum. According to Mr. C, the INS officer then 
told him that the INS would contact the Egyptian government about his 
case. Both of these statements by the INS officer were highly 
inappropriate, and made Mr. C extremely anxious, and he proceeded to 
respond to questions with neutral, careful answers, making sure that he 
said nothing disparaging of the government or about Islam. Intimidated 
by the remarks of the INS officer, Mr. C said that he was not seeking 
asylum. As a result, Mr. C was not referred to the Asylum Office for a 
credible fear interview and was detained pending his imminent removal 
from the United States.
    While in detention, however, Mr. C telephoned his sister in Egypt, 
and she informed him that the Muslim group had been looking for him 
since he left. She urged him not to return, saying that it was not safe 
for him in Egypt. Mr. C then contacted an INS officer at the detention 
facility and explained that he was afraid to return to Egypt and wished 
to seek asylum in the United States. Mr. C was referred for a credible 
fear interview and was subsequently found to have a credible fear of 
persecution. In February 2000, after five months in detention, Mr. C 
was granted asylum by an immigration judge.

<bullet> A, Y and W--Ecuadoran Asylum Seekers 23

    Mr. A, an Ecuadoran businessman, went into hiding after giving 
information to the police about a major crime in Ecuador. On July 1, 
1995, gold and jewelry worth twenty billion sucres (five million U.S. 
dollars) was stolen from an office of the Instituto Ecuadoriano de 
Seguro (IESS), Ecuador's Social Security department. The press dubbed 
the huge theft ``El Robo del Siglo'' (``The Theft of the Century''), 
and a large reward was offered in return for information leading to the 
discovery of the perpetrators. One of Mr. A's friends, Mr. Z, had some 
contacts in the town where the theft had taken place, and they obtained 
information about the perpetrators of the crime. Mr. A, Mr. Z and two 
other friends (Mr. X and Mr. Y) promptly went to the National Police 
and the IESS to report what they had learned.
    About a month later, the four men began to receive anonymous 
threats over the phone and by mail. Mr. A received three such phone 
calls. He was told that he would be killed because he had given 
information about the theft to the police.
    In March 1996, acting on the information provided by Mr A and his 
friends, the police arrested a number of suspects and charged them with 
participation in the theft. The suspects included a police officer and 
a well-known gang leader (who was later released). Two other police 
officers were implicated but never indicted. Following the arrests, Mr. 
X was attacked by unknown assailants, stabbed repeatedly with a 
machete, and left for dead. He was found and taken to the hospital. 
Upon Mr. X's recovery, he fled Ecuador and went to Colombia; Mr. A has 
not heard from him since.
    After this incident, Mr. A and his other friends went into hiding. 
Mr. Z eventually left for Belgium to seek asylum. Mr. A and Mr. Y hid 
in the home of a relative, Mr. W. They soon began to receive 
threatening notes and phone calls. They were afraid to report anything 
to the police because police officers were involved in the theft. After 
a few months, Mr. A and Mr. Y hid in another home located in a remote 
area. Members of Mr. W's family were targeted for helping the two men; 
one woman was attacked by three men while bringing food to the men in 
hiding. After that attack, Mr. A, Mr. Y and Mr. W sought assistance 
from the Comision Ecumenica de Derechos Humanos (CEDHU), a human rights 
organization. They were advised to leave Ecuador. The CEDHU obtained 
visas for the three men and made arrangements for them to travel to 
England to seek asylum.
    Mr. A and his two friends left Ecuador in mid-1997 with legitimate 
travel documents and British tourist visas. Although their destination 
was London, their flight had a stopover in Miami, Florida. Their flight 
from Quito had been delayed, and they missed the connecting flight. 
While the three men waited in the lounge for the next plane, Mr. A and 
Mr. W were summoned over the intercom to an immigration office where 
they were questioned about their travel plans. Mr. A explained that he 
and Mr. W were on their way to London to apply for asylum. An 
immigration officer told Mr. A that he did not believe that Mr. A had 
an asylum case and accused Mr. A of lying. The officer inspected the 
two Ecuadorans' documents. While Mr. A and Mr. W were being questioned, 
their plane departed. Mr. Y, who had not been summoned, left on that 
flight. He has applied for asylum in the United Kingdom, and his case 
is under review.
    Eventually, Mr. A and Mr. W were told that they would be allowed to 
continue on to London. There were no other flights scheduled that day, 
so they slept in chairs at the airport, under surveillance. The next 
morning they were escorted aboard a flight to London.
    In London, Mr. A and Mr. W were met by British immigration 
officials and they requested asylum. A British immigration officer 
examined their passports. Both passports had been stamped TWOV (Transit 
Without Visa) by the INS in the United States. The immigration officer 
explained that new laws in England prevented Mr. A and Mr. W from 
applying for asylum because the TWOV stamp indicated that they had made 
an entry in another country where they should have sought asylum. The 
two men were told that they would be sent back to the United States 
where they could apply for asylum. They were each given a document, 
Notification to Third Country Authority, which stated that the bearer 
had applied for asylum in the United Kingdom and his claim had ``been 
refused without substantive consideration because there is a safe third 
country'' to which he could be sent. They were told to present the 
document upon arrival and were assured that they would not be deported 
from the United States.
    That same day, Mr. A and Mr. W were escorted onto a flight bound 
for John F. Kennedy International Airport in New York. When they 
arrived, they were taken directly to an immigration office at the 
airport. Mr. A told an immigration officer that he wanted to apply for 
asylum because he was in danger in Ecuador. He showed the officer the 
British immigration document regarding their applications for asylum, 
but he was told: ``We have a different policy here.'' Mr. A was 
concerned and upset at the possibility of being returned to Ecuador. He 
said that he wished to apply for asylum in the United States, as the 
British officials had told him he would be able to do so, but he was 
simply ordered to sit down. The two men were not allowed to make a 
telephone call. An immigration officer informed Mr. A and Mr. W that 
they were to be returned to Ecuador the next day.
    The two men spent the night under guard at a nearby hotel; Mr. A 
was given no food, was not allowed to bathe and was handcuffed to a 
table next to the bed for the entire night. The next morning Mr. A and 
Mr. W were escorted aboard a flight to Ecuador. During a stopover in 
Miami, Mr. A explained his situation to some Spanish-speakers; they 
gave him money and he placed a call to CEDHU in Ecuador. That 
organization was able to make calls on their behalf to UNHCR in the 
United States, but was unable to prevent their return to Ecuador. Based 
on what they had been told in New York, the two men did not seek asylum 
while in Miami because they believed they were not eligible. They were 
returned to Ecuador. After his return, Mr. A fled once again. According 
to the latest information received by the Study, Mr. A has pursued a 
refugee status claim in a European country.
    As an interesting postscript to this case, it should be noted that 
one court in the United Kingdom has addressed the issue of whether the 
United States is a safe third country, and has decided that it is not. 
This decision was rendered in the case of another Ecuadoran asylum 
seeker, Mr. Juan Carlos Paredes Naranjo, who was summarily removed from 
the United States under similar circumstances to the applicants in the 
case study described above.
    Mr. Paredes Naranjo transited through Miami before he arrived in 
the U.K. and requested asylum. He was not permitted to apply in the 
U.K., but pursuant to the safe third country principle was returned to 
the United States to seek asylum. When he arrived in Miami and 
expressed his desire to apply for asylum, he was told that he could not 
do so because he had already applied in the U.K. He was immediately put 
on a flight to Ecuador. The U.K. court ruled that under these 
circumstances it did not consider the U.S. to be a safe third country 
as to Mr. Paredes Naranjo because it had sent ``him to another country 
or territory [i.e. Ecuador] other than in accordance with the [Refugee] 
Convention.
                           Non-Asylum Seekers
    Although it has not been its main focus, the Expedited Removal 
Study has also reported on the application of expedited removal to non-
asylum seekers, including citizens and those in possession of facially 
valid non-immigrant visas.

<bullet> Sharon McKnight--U.S. Citizen

    On June 10, 2000, Sharon McKnight, a United States citizen, arrived 
at New York's John F. Kennedy Airport on a flight from Jamaica. Ms. 
McKnight, who had been in Jamaica for months to visit a sick 
grandfather, was born in New York in 1965. She was referred to 
secondary inspection because INS officials thought her passport was 
fake. Ms. McKnight, who is said to have the mental capacity of a five 
year old, was handcuffed and left overnight in a room at the airport 
with her legs shackled to a chair.
    Ms. McKnight's family members, who were very concerned about her 
traveling by herself, were at the airport to greet and accompany her. 
They became concerned when she did not appear for two hours, and 
learned of her detention after making inquiries. They produced a birth 
certificate, but INS officials deemed that to be fake as well. Family 
members stayed at the airport until the next morning, pleading for her 
release, but Ms. McKnight was returned to Jamaica on a morning flight. 
Upon her arrival there, she was able to find her way to the home of a 
relative after baggage porters at the airport donated her bus fare.
    The INS asserted that the photograph in Ms. McKnight's passport had 
been replaced. An INS assistant area port director told a reporter: 
``Obviously, we would not send a U.S. citizen back under any 
circumstances.'' An INS public affairs officer later said that McKnight 
had told inspectors that she was born in Jamaica, was coming to the 
U.S. to work and that her passport had come from a relative. ``Based on 
all the evidence they had, the inspectors at Kennedy Airport made the 
reasonable decision that she was not admissible to the United States,'' 
he said.
    Ms. McKnight's mother, Eunice Benloss-Harris, said: ``They were 
asking her a lot of questions she cannot answer. She can't even read or 
write. This is a disgrace.''
    Ms. McKnight returned to the U.S. on June 18, with the assistance 
of New York Representative Michael Forbes, after her status as a U.S. 
citizen was confirmed in a meeting with the U.S. Consul General in 
Jamaica and reviewed by State Department officials in Washington, D.C. 
INS officials met McKnight at the airport as she disembarked, and 
apologized. ``We believe the individual is a U.S. citizen,'' Mark Zorn, 
an INS spokesman, told a reporter. ``We personally regret the 
circumstance that led to this situation and any harm this situation 
unduly caused the individual and the family.'' At an airport news 
conference, McKnight stated: ``They treated me like an animal .... I 
will have nightmares all my life.'' Id.

<bullet> Mr. G.P.--Holder of a Facially Valid Non-Immigrant Visa

    Mr. G.P., a Venezuelan national, was a long-term employee of F 
Corporation, a multinational corporation doing business in the U.S. and 
several other countries, and served as F's District Manager of Sales at 
F's Miami, Florida offices. Mr. G.P. obtained an L-LA visa, which 
permits certain non-U.S. citizen employees of multinational 
corporations to enter and temporarily stay in the United States as 
intracompany transferees. Between March 1996, and July 1996, Mr. G.P. 
traveled between Venezuela and Miami on numerous occasions without 
incident. In July, 1996, Mr. G.P.'s inspection was deferred. The 
immigration officer conducting the deferred inspection concluded that 
Mr. G.P.'s documents were proper and that he should be admitted. 
Thereafter, Mr. G.P. made several entries into the United States 
without incident.
    On June 15, 1997, Mr. G.P. arrived at Miami International airport 
and presented the same documents he had presented in the past-a valid 
Venezuelan passport with an unexpired L-1A visa. However, this time, 
Mr. G.P. was questioned by immigration officials, detained at the 
airport overnight, and then returned to Venezuela the next morning. He 
was issued an expedited removal order, as he was deemed to have an 
immigrant intent. Under the order, Mr. G.P. would be barred from 
entering the U.S. for five years.
    The immigration officer's denial of admission on the basis of Mr. 
G.P.'s immigrant intent was clearly erroneous. Although the L-IA visa 
is a non-immigrant visa, it permits dual intent; i.e., it explicitly 
allows the individual to qualify for the visa even though he may have 
immigrant intent. F Corporation filed a complaint against the INS and 
the Attorney General to the Miami U.S. District Court, alleging, among 
other things, that the expedited removal order issued by the defendants 
violated the immigration stature and relevant regulations.
    After spending over $50,000 in attorney fees, F Corporation reached 
a settlement with INS whereby INS re-issued Mr. G.P. a valid visa and 
canceled the order of expediting removal against him. In addition, INS 
agreed that any computer-generated advisories concerning Mr. G.P.'s 
previous visa cancellations would be removed from its databases.
    22. the general accounting office's studies of expedited removal
    Congress has twice directed the General Accounting Office (GAO) to 
carry out evaluations of the expedited removal process. Neither of its 
studies have adequately answered questions or alleviated concerns 
regarding improper or erroneous decision-making in the expedited 
removal process.
    Congress' first request for a GAO study was included in IIRAIRA 
itself, and directed the GAO to determine, among other issues, ``the 
effectiveness of such procedures in processing asylum claims by 
undocumented aliens who assert a fear of persecution, including the 
accuracy of credible fear determinations.''
    The GAO's March 1998 report, produced in response to the 
congressional request, principally examined INS management controls 
over the expedited removal process, reported on a range of INS 
expedited removal statistics, and compared the expedited removal 
process to previously existing exclusion procedures. The GAO declined 
to evaluate the accuracy of credible fear determinations, stating that 
it did not possess the legal expertise to carry out such an assessment. 
The GAO also declined to engage in a meaningful amount of on-site 
observation which would have allowed it to assess INS compliance with 
controlling laws and policies, as well as to evaluate qualitative 
aspects of the expedited removal process, such as the availability and 
quality of translation.
    In the fall of 1998 Congress requested a second GAO study; this 
request was included in the International Religious Freedom Act of 1998 
(IRFA), and directed the GAO to answer four specific questions 
regarding expedited removal:

<bullet> whether INS officers improperly encourage asylum seekers to 
        withdraw applications for admission;
<bullet> whether INS officers fail to refer asylum seekers to credible 
        fear interviews;
<bullet> whether INS officers incorrectly remove asylum seekers to 
        countries where they may be persecuted; and
<bullet> whether INS officers improperly detain asylum seekers or 
        detain such persons under inappropriate conditions.

    The four questions addressed all phases of the expedited removal 
process, and demonstrated a concern about possible INS misconduct, as 
well as the potential for erroneous decision-making. The first and 
second questions focused on the implementation of expedited removal at 
the ports of entry where immigration officers make decisions whether to 
refer asylum seekers to credible fear interviews, and, as question one 
itself reflects, where the opportunity exists for the officers to 
pressure asylum seekers to withdraw their requests for admission, 
rather than to pursue their claims. The third question constituted an 
inquiry into all phases of the expedited removal process, from ports of 
entry, through asylum officer and immigration judge decisionmaking on 
credible fear, and asked whether the process as an integrated whole is 
likely to render incorrect decisions which could result in the return 
of asylum seekers to persecution. The fourth question focused 
specifically on detention issues, and asked whether asylum seekers who 
qualify for release nonetheless remain in detention, and whether 
persons who are detained are held in suitable conditions.
    Prior to embarking on its study, GAO apprised the relevant 
congressional committees it would not attempt to directly answer the 
questions set forth by Congress in IRFA because it did not have the 
legal expertise, feasible methodology or resources to do so. In an 
effort to be what GAO has characterized as ``reasonably responsive'' to 
the questions, GAO proposed to the congressional committees an approach 
which focused primarily on INS management controls over the expedited 
removal process. The GAO's proposal also included an analysis of 
certain statistics on expedited removal and detention, as well as an 
evaluation of specified aspects of detention.
    The GAO released its second report on expedited removal in 
September 2000. Nothwithstanding its intention to be ``reasonably 
responsive'' to the questions posed by Congress, its report leaves all 
four questions largely unanswered. Nonetheless, the GAO did report on a 
number of specific aspects of expedited removal which heighten existing 
concerns regarding expedited removal. The GAO's findings included the 
following:

<bullet> In a random sample of fiscal year 1999 expedited removal 
        files, in 2% of the cases, a fear was expressed but there was 
        no referral to a credible fear interview. If this random sample 
        is representative, as many as 900 persons in fiscal year 1999 
        may not have been referred despite expressing a fear. A 
        breakdown by port indicates a failure to refer rate at JFK 
        which could be as high as 6%.
<bullet> A random sample of withdrawal associated with three specific 
        ports of entry indicated that a significant percentage of 
        persons (as high as 21 %) were not asked the ``three fear 
        questions'' which are part of required procedure to assist in 
        the identification of asylum seekers.
<bullet> A failure to establish nexus between the persecution and one 
        of the five statutory grounds (race, religion, nationality, 
        political opinion or membership in a particular social group) 
        was the basis for denial in 44 of the 45 cases the GAO examined 
        in which there was an adverse credible fear determination. 
        Nexus determinations can involve highly complicated factual and 
        legal issues, and the credible fear interview, which is not 
        intended to be a full asylum hearing, may not be an 
        inappropriate venue for making such complex decisions.
<bullet> There is a higher likelihood of a negative credible fear 
        determination at some asylum offices than at others, which 
        raises the question as to whether adjudication standards are 
        applied uniformly.
<bullet> District directors do not appear to be consistently applying 
        INS policy and parole criteria, which may result in non-uniform 
        parole decisions in the cases of asylum seekers.
<bullet> Conditions varied in the detention facilities, as well as at 
        ports of entry, resulting in asylum seekers receiving widely 
        disparate treatment depending solely on the location of their 
        detention and the degree of a particular facility's compliance 
        with standards. In violation of INS, American Correctional 
        Association (ACA) and United Nations High Commissioner for 
        Refugees (UNHCR), detained asylum seekers are not segregated 
        from the criminal population.

                             VI. Conclusion
    April 2001 marked four years since the implementation of expedited 
removal. The number of annual expedited removals may well be 
approaching 100,000, and if past trends are any indication, 99% of 
those individuals are removed without any further process. Researchers, 
refugee advocates, and the media have all reported on a disquieting 
number of cases involving 21 asylum seekers and non-asylum seekers 
alike who have not been processed in accordance with the law. In some 
instances, the reported cases have indicated a failure of protection to 
asylum seekers even where there has been compliance with the law, which 
raises questions as to whether the procedures themselves are adequate. 
Congress has reasons for serious concerns as to whether its objectives 
of deterring fraud while protecting bona fide refugees, and other 
individuals legitimately seeking admission to the U.S. are being met.

    Chairman Brownback. I appreciate your study and your 
information. I look forward to working with you to answer 
questions about the expedited removal procedure.
    Ms. Young?

STATEMENT OF WENDY A. YOUNG, DIRECTOR OF GOVERNMENT RELATIONS, 
WOMEN'S COMMISSION FOR REFUGEE WOMEN AND CHILDREN, WASHINGTON, 
                              D.C.

    Ms. Young. Good afternoon. On behalf of the Women's 
Commission for Refugee Women and Children, thank you for the 
opportunity to testify regarding the detention of asylum 
seekers. I also wish to submit my full written testimony to the 
record.
    Chairman Brownback. It will be in the record, without 
objection.
    Ms. Young. Thank you.
    The Women's Commission has assessed detention conditions in 
35 facilities across the country. We have found that asylum 
seekers often endure arbitrary and prolonged detention in 
conditions that undermine the U.S. commitment to refugee 
protection. Such individuals come to the United States 
expecting refuge. None expect imprisonment.
    Immigration detention has become the fastest growing prison 
program in the United States. The INS detains 20,000 
individuals a day, for an annual total of over 200,000. 
Approximately 5 percent of the detained population are asylum 
seekers. Women constitute 7 percent and children 3 percent.
    Statistics related to detention, however, are difficult to 
pin down because of the INS' poor data collection. In fact, the 
INS has failed to comply with a statutory provision which 
requires annual reports on detention data to Congress.
    What has been extensively documented are the harsh and 
inhumane conditions of detention. All the facilities used by 
the INS are prisons or the equivalent. Fences, cells, and 
locked doors define the detainees' living space. In fact, the 
term ``detention'' itself is misleading. ``Incarceration'' 
better reflects the experiences of asylum seekers.
    Moreover, detained asylum seekers have suffered sexual, 
physical, and verbal abuses, commingling with criminal 
offenders, handcuffing and shackling, inadequate health care, 
poor translation services, insufficient outdoor recreation, and 
a lack of appropriate religious services.
    Detention also impedes legal representation, which is 
critical to the success of an asylum claim. More than twice as 
many detained asylum seekers lack representation as compared to 
non-detained asylum seekers in removal proceedings. And 
represented asylum seekers are 4 to 6 times more likely to win 
their asylum claims than those who are unrepresented.
    Two examples demonstrate some of the problems in detention. 
First is sexual abuse at the Krome Detention Center in Miami, 
where women detainees have accused 15 officers of rape, 
molestation, and harassment. INS officers made false promises 
of release to women if they cooperated. They threatened them 
with deportation, transfer to county jails, or even death if 
they dared to resist. Instead of placing the women in an 
appropriate alternative to detention, the INS has responded by 
transferring them to a county prison, where many new problems 
have arisen.
    The treatment that some religious programs have received in 
detention centers serves as a second example. In 1999, the INS 
Newark District canceled an arrangement with Jesuit Refugee 
Services to provide religious services in the Elizabeth 
Detention Center. Among the INS' reasons was that a Bible study 
reading had been based on the gospel of Matthew, which preaches 
``welcoming the stranger.''
    The prisons and jails with which the INS contracts and 
which provide approximately 60 percent of INS detention space 
presents special problems because they are not designed to meet 
asylum seekers' legal and social service needs.
    It is also critical to address the situation of children in 
detention, as Senator Feinstein has pointed out. The some 5,000 
unaccompanied children in INS custody each year range in age 
from 18 months to 17 years old. The INS experiences an inherent 
conflict of interest with children it holds, as it is acting as 
their caregiver at the same time that it is seeking their 
deportation.
    While the INS does maintain approximately 600 shelter and 
foster care beds, it holds approximately one-third of children 
in juvenile jails for periods ranging from a few days to more 
than a year. Furthermore, less than half of the children in INS 
custody are represented by counsel. U.S. immigration law also 
fails to provide for the appointment of guardians ad litem, a 
regular practice in other court proceedings.
    The INS has recently developed standards for conditions of 
detention, an acknowledgment that detention practices should be 
consistent and facilities held accountable. However, the 
standards are fundamentally flawed because they are non-
binding, only the INS is monitoring their implementation, and 
it has only recently begun the process of applying the 
standards to prisons with which it contracts. They also do not 
apply to facilities in which children are detained.
    The fundamental question, however, is why is the INS 
detaining asylum seekers in the first place. It has stated that 
its policy should normally be to release asylum seekers who 
have established a credible fear of persecution, but many INS 
districts continue to detain asylum seekers for prolonged 
periods, sometimes years. The disparity between the national 
policy and local implementation is due to the tremendous 
discretion to parole asylum seekers delegated to district 
directors.
    The success of pilot projects that have explored the 
viability of alternatives to detention underscore the 
irrationality of current practice. Such pilots have ensured 
that asylum seekers appear for their hearings and that they are 
treated humanely in the interim. Alternatives have also proven 
to be much less costly.
    In 1990, the INS implemented a pilot project known as the 
Asylum Pre-Screening Officer Program. Under APSO, 97 percent of 
paroled asylum seekers appeared for their hearings. In 1997, 
the Vera Institute of Justice tested a supervised release 
program in New York. The program resulted in up to a 93 percent 
appearance rate, depending on the level of supervision. It also 
cost 55 percent less than detention.
    In 1999, the INS released 22 Chinese asylum seekers 
detained in the county prison in rural Illinois to local non-
profit shelters. All but one of the participants remained in 
the program, resulting in a 96 percent appearance rate.
    And, finally, New Orleans Catholic Charities has housed 
more than 34 formally detained asylum seekers in shelters, none 
of whom have absconded. The shelters cost the INS one-sixth the 
cost of detaining individuals in prisons.
    In conclusion, asylum seekers will remain vulnerable to 
arbitrary detention unless Congress mandates a rational parole 
policy, alternatives to detention, and the restoration of due 
process.
    We recommend the enactment of legislation that establishes 
that U.S. policy is generally not to detain asylum seekers; 
that delegates the authority to parole asylum seekers or to 
place them in a detention alternative to asylum officers and 
immigration judges; that mandates the establishment of 
alternatives to detention; and that provides government funding 
to facilitate legal orientation sessions.
    In addition, Congress should move quickly to pass S. 121, 
the Unaccompanied Alien Child Protection Act, which addresses 
the critical custody, care, and assistance needs of 
unaccompanied children.
    I would like to submit an excellent op-ed by Senator 
Feinstein from today's Oregonian regarding S. 121 in the 
record.
    Chairman Brownback. Without objection, it will be in the 
record.
    Ms. Young. Thank you.
    Depriving an individual of her freedom is one of the 
gravest actions a government can take. We believe that Congress 
must take the lead in restoring accountability, consistency, 
and compassion to U.S. detention policy. Thank you for holding 
this important hearing.
    [The prepared statement of Ms. Young follows:]

Statement of Wendy A. Young, Director of Government Relations and U.S. 
      Programs, Women's Commission for Refugee Women and Children

                            I. Introduction
    Good afternoon. My name is Wendy Young. I am the Director of 
Government Relations and U.S. Programs for the Women's Commission for 
Refugee Women and Children, a nonprofit organization which seeks to 
improve the lives of refugee women and children around the world by 
acting as an expert resource and engaging in a vigorous program of 
public education and advocacy. On behalf of the Women's Commission, I 
would like to thank you, Mr. Chairman and members of the Subcommittee, 
for the opportunity to testify regarding the detention practices of the 
Immigration and Naturalization Service (INS) and their impact on women 
and children seeking asylum.
    In 1996, the Women's Commission launched an assessment of detention 
conditions in the United States that has included visits to 
approximately 35 detention centers around the country and interviews 
with dozens of detained asylum seekers, the organizations providing 
them with legal and social services, and the INS and local government 
officials charged with their care. We have issued seven reports 
documenting widespread problems in the detention system that jeopardize 
the United States' legal and moral obligation to offer refugee 
protection.
    In general, we have found that asylum seekers often endure 
arbitrary and prolonged detention in conditions that fail to meet 
international standards of refugee protection and basic standards of 
decency and compassion. Some asylum seekers are women who have fled 
gender-related persecution, including rape, female genital mutilation, 
sexual slavery, honor killings, forced abortions, and forced marriages. 
Some are children who have fled recruitment as child soldiers, child 
marriages, forced prostitution, and child slavery. Some are survivors 
of torture. Some are victims of religious, ethnic, or political 
persecution. Virtually all have come to the United States expecting 
refuge and freedom from persecution. Virtually none expected 
imprisonment by the world's leading democracy and defender of human 
rights.
                             II. Background
    Immigration detention has become the fastest growing prison program 
in the United States today. On any given day, the INS has approximately 
20,000 individuals in detention, for an annual total of over 200,000. 
The agency estimates that approximately five percent of detainees are 
asylum seekers. Women constitute seven percent of the overall detained 
population and children three percent.
    The INS has reported that the average length of detention for 
aliens in removal proceedings was 29 days in Fiscal Year 1999. However, 
asylum seekers are often held for much longer. The Hastings College of 
Law reported that the average length of stay in the INS New York 
District, where large numbers of asylum seekers are detained, was 109 
days. The Dallas Morning News recently reported that of the 851 
indefinitely detained individuals in INS custody, defined as those in 
detention for more than three years, 361 are asylum seekers.\1\ The 
Women's Commission has interviewed many asylum seekers who have endured 
detention for years; in one case, a Chinese woman had been held in 
various facilities for almost five years before she was finally granted 
asylum and released.
---------------------------------------------------------------------------
    \1\ Dan Malone, ``More than 800 Detained Indefinitely by INS,'' 
Dallas Morning News (April 1, 2001).
---------------------------------------------------------------------------
    Statistics related to detention, however, are very difficult to pin 
down due to poor data collection. The INS, in fact, has failed to 
comply with a statutory provision enacted as part of the Fiscal Year 
1999 Omnibus Appropriations Act (P.L. 105-277) which requires annual 
reports to the Judiciary Committees in the House and Senate data 
pertaining to detained asylum seekers. This data is required to address 
the number of asylum seekers in detention; countries of origin; gender; 
ages; location of detention by detention facility; whether criminals 
are detained in the same facility, and if so, whether they are 
commingled with the INS detainees; the number and frequency of 
transfers; the rate of release from detention for each INS district; 
and a description of the disposition of detainees' asylum cases. The 
first report under this provision was to be submitted on October 1, 
1999, but it is our understanding that the INS has yet to release even 
this initial report.
    The cost that detention represents to U. S. taxpayers is extremely 
high. In interviews with facility administrators, the Women's 
Commission found that the INS is paying anywhere from $41 to $156 per 
day per detainee. In the case of local and county prisons, the INS 
typically pays the facility twice the rate it is paid for the 
incarceration of criminal inmates, even though such facilities rarely 
provide services to INS detainees beyond those provided to the criminal 
inmates.
                      III. Conditions of Detention
    The Women's Commission has evaluated the following conditions in 
facilities which it investigated: the physical settings used to detain 
asylum seekers; the treatment that women receive from INS and prison 
staff and criminal inmates; the availability of translation services; 
health care; recreation and access to the outdoors; the availability of 
spiritual support and religious services; and the availability of legal 
services.
    In recent years, the INS has developed approximately 35 standards 
that address conditions of detention ranging from attorney access to 
grievance procedures. These standards represent a critical 
acknowledgement by the agency that detention facilities should be 
consistent in their practices and held accountable to certain minimal 
standards. However, the standards are fundamentally flawed in several 
key areas. First, they are non-binding and serve only as guidelines. 
Second, the INS itself is charged with monitoring their implementation. 
Third, the INS has only recently begun the process of applying the 
standards to the county and local prisons with which it contracts, 
meaning that the majority of INS detainees continue to be held in 
facilities that fall outside the scope of the standards. And finally, 
the standards are based in large part on the standards used by the 
American Correctional Association, standards which were developed with 
a criminal population in mind, and not asylum seekers.
           types of facilities used to detain asylum seekers
    All of the facilities that the INS uses for detention are prisons 
or the equivalent. Locked doors, cells or institutional dormitories, 
hi-tech security systems, and concertina wire fences define the 
detainees' living space. On many levels, the term ``detention'' itself 
is misleading; ``incarceration'' and ``imprisonment'' better reflect 
the experience of asylum seekers held in the custody of the INS.
    The INS uses four types of facilities to detain asylum seekers. The 
agency operates nine of its own detention centers, known as ``Service 
Processing Centers.'' Second, the INS contracts with for-profit 
correctional companies that have benefited from the national trend to 
privatize prisons and have also found it lucrative to manage facilities 
that house only immigration detainees. Such facilities are known as 
``contract facilities.'' Third, the INS jointly manages two facilities 
with the Bureau of Prisons (BOP) and accesses other federal prisons as 
needed. Finally, the majority of INS detention (approximately sixty 
percent) is provided by county and local prisons from which the INS 
rents bed space for detainees as needed.
    The prisons and jails with which the INS contracts, of which there 
are hundreds, present special problems. Such facilities are 
fundamentally designed to punish criminal offenders and protect the 
surrounding communities, neither goal of which is compatible with 
meeting the critical legal and social service needs of asylum seekers.
    Staff in such facilities is typically not aware of nor trained in 
the special needs of asylum seekers. Many local officials interviewed 
by the Women's Commission expressed surprise upon learning that 
individuals in their care were seeking refugee protection and had not 
been convicted of any crimes. This can result in serious 
misunderstandings. For example, an asylum seeker may exhibit symptoms 
of Post Traumatic Stress Disorder that the prison staff perceive as 
behavioral problems meriting discipline rather than psychological 
support.
    Even after learning that asylum seekers lack criminal records, 
prison officials often are reluctant to differentiate among populations 
in the facility. The warden of the Turner Guilford Knight Correctional 
Center in Miami-Dade County recently stated, ``I can't treat the INS 
people differently. I'll have problems, and remember, I have 1,200 
inmates in here.'' The York County prison warden observed, ``The worst 
thing that you can do in a prison is separate a group out for special 
care.''
    Moreover, delegating the daily care of asylum seekers to local 
facilities, create a new level of bureaucracy. This often results in 
difficulties in addressing complaints about abuses and other problems, 
as the INS will place responsibility on local officials and vice versa. 
INS officials at all levels frequently refer to themselves as 
``guests'' of the prisons and declare themselves unable to influence 
prison policies, completely disregarding the fact that the INS retains 
custody of the individual, that the prison is under contract with the 
INS and therefore should be held accountable for meeting certain 
standards, and that the INS is paying local governments significant 
amounts of money to detain individuals.
    Detainees are frequently commingled with criminal inmates, despite 
the fact that they have not committed a crime themselves. Women are 
more likely than men to be commingled with the general prison 
population. Because they are fewer in number, the INS often cannot 
afford to rent a separate cell pod for the female detainees. The women 
report being terrified of the criminal inmates, who often harass the 
INS detainees.
    Many detention centers are overcrowded. In the York County Prison, 
INS-detained women frequently sleep in the gymnasium, due to a lack of 
bed space. Overcrowding at the Krome Service Processing Center is a 
chronic problem which forces detainees to sleep on temporary cots 
squeezed in between the permanent beds. Attorneys reported that when 
the facility is overcrowded, systems fail to keep pace, resulting in 
attorneys waiting hours to see their clients.
        treatment of detainees by ins officials and prison staff
    While many INS and prison officers treat detainees in their care 
with respect, professionalism, and compassion, there are also frequent 
reports of abuses and harassment. Detainees whom the Women's Commission 
has interviewed have reported verbal, physical, and sexual abuses; 
frequent pat, strip, and cavity searches; handcuffing and shackling; 
and excessive use of solitary confinement for minor infractions of 
facility rules.
    The treatment that women detainees have received in the Miami INS 
District is perhaps unrivaled in the seriousness of the abuses 
reported. For years the Krome Service Processing Center in Miami has 
been plagued with chronic problems and been the target of multiple 
federal investigations. In May 1999, controversy surrounding the 
facility again erupted when 20 separate allegations of sexual abuse by 
at least 15 Krome officers surfaced.
    Reported sexual abuses ranged from rape to sexual molestation and 
harassment. Women who cooperated in sexual activities were made false 
promises of release from detention. Threats of deportation, transfer to 
county jails, or even death were leveled at women who dared to resist 
or complain of abuses. While not all of these activities involved women 
asylum seekers, it is disturbing to note that such abuses had been 
reported as far back as 1990, and no follow up action was taken. 
Furthermore, physical and emotional abuses against women have also been 
reported, including officers demanding that Muslim women asylum seekers 
remove their veils before eating and denying the women meals when they 
refused to unveil.
    The Department of Justice has launched an investigation into Krome. 
One officer has been indicted for rape. It is critical, however, that 
the investigation not be allowed to drag out or fail to result in 
either criminal prosecution or disciplinary action against those 
officers shown to be involved. Unfortunately, that was the result of 
past investigations; some of the very same officers accused of sexual 
misconduct in 1990 were allegedly involved in the most recent abuses.
    Of grave concern in the meantime is the actions that have been 
taken by the INS to address the Krome problem. The Women's Commission, 
the Florida Immigrant Advocacy Center, and other advocates urged the 
INS to remove women from Krome and to develop an appropriate 
alternative to detention, such as shelter care in the community. While 
the INS did remove the women from Krome, it chose to transfer them to 
the Turner Guilford Knight Correctional Center, a nearby county prison. 
Conditions in the prison have failed to meet the most basic needs of 
women asylum seekers.
    Male detainees have also been the targets of abuse in some 
facilities. After a riot broke out in the Esmor Detention Center in 
Elizabeth, New Jersey due to poor living conditions,\2\ male detainees 
were transferred to the Union County Jail, also in Elizabeth. Officers 
there then tortured the detainees by forcing them to put their heads in 
the toilet, pulling their genitals with pliers, and ordering them to 
engage in sexual acts. Four of the guards were convicted and six others 
pled guilty to criminal charges of abusing the detainees.\3\ In the 
Jackson County Jail, the Florida Immigrant Advocacy Center reported 
that male detainees were shocked with stun guns, beaten, cursed, 
targeted with racial slurs, and placed in solitary confinement for 
requesting medical care or food.
---------------------------------------------------------------------------
    \2\ Esmor was shut down after the riot and then later reopened 
under new management. It is now known as the Elizabeth Detention 
Center.
    \3\ Ronald Smothers, ``3 Prison Guards Guilty of Abuse of 
Immigrants,'' The New York Times (March 7, 1998), p. A1.
---------------------------------------------------------------------------
    Women interviewed by the Women's Commission frequently reported 
callous behavior by prison guards and INS officers. In the Elizabeth 
Detention Center, a woman asylum seeker from the Democratic Republic of 
Congo described being dragged across the floor by INS officers when she 
resisted being taken to the airport for deportation. She told the 
Women's Commission that the officers laughed at her when her pants 
began to fall off due to the rough handling. Haitian asylum seekers 
detained at the Turner Guilford Knight prison began to cry as they 
described the humiliation of being transported in handcuffs and 
shackles, and stripped and cavity searched upon their arrival at the 
prison.
                          translation services
    The lack of readily available translation services is a pervasive 
problem in detention centers. Generally, the INS only provides 
interpretation during emergencies or medical examinations, and that is 
typically by telephone. Otherwise, it relies heavily on detainees to 
translate for each other.
    The inability to communicate compounds many of the problems faced 
by detainees, particularly those individuals who speak uncommon 
languages. For example, it exacerbates their fears about detention and 
the status of their asylum cases. It also results in an inability to 
request medical assistance or to report other problems. It leads to 
unnecessary disciplinary actions due to detainees' confusion about the 
facility regulations. Finally, it interferes with detainee's access to 
the few services available to them, because detainees remain unaware of 
the existence of such services or are unsure about how to request them.
    A Burmese woman asylum seeker in the Turner Guilford Knight 
Correctional Center was unable to communicate with INS officers and 
prison guards. The prison guard in charge of her cell pod persistently 
called her Chinese, unaware even of the woman's nationality. The woman 
had been there for several weeks with no information about her case. 
She struggled to communicate with the little Chinese and English that 
she was able to speak.
    The lack of translation services can also interfere with detainees' 
legal representation. The Elizabeth Detention Center, for example, 
recently informed attorneys that they could no longer meet with two 
detainees simultaneously, which in the past had facilitated detainees' 
ability to translate for each other during interviews or intakes. 
Furthermore, with the exception of ``know-your-rights'' presentations 
and initial screening interviews when portable telephones are made 
available, no telephones are regularly available in the attorney-client 
rooms. This makes it impossible at other times for attorneys to obtain 
telephonic translation, for example during intakes or interviews. The 
Catholic Legal Immigration Network, Inc. (CLINIC) reported that during 
a recent intake, it was only able to communicate with three asylum 
seekers out of the nine interviewed. It was unable, for example, to 
communicate with nationals from Iraq and Algeria due to language 
barriers.
    Furthermore, there are no translation services available in 
Elizabeth to assist non-English speaking or illiterate asylum seekers 
in completing their I-589s, the form required to raise an asylum claim. 
CLINIC reported that immigration judges posted to the facility have 
told such detainees that they must either return with a completed form 
or they will be ordered removed from the United States at their next 
hearing.
    Similar issues were recently raised by an immigration judge posted 
to the York County Prison in Pennsylvania. Immigration Judge Walt 
Darling indicated his intent to order the INS to provide an interpreter 
to assist unrepresented aliens in completing their immigration 
forms.\4\ The INS General Counsel responded by noting, ``It is the 
position of the Service that provision of interpreter services to 
unrepresented aliens is a conflict of interest for the Service. 
Furthermore, there is no legal authority for the Government to provide 
such services. Just as the alien has the right to representation in 
immigration hearings, but the Government is without authority to 
provide this representation, so too may the alien obtain interpreter 
services at his or her own expense.'' \5\
---------------------------------------------------------------------------
    \4\ Letter from the Honorable Walt Darling to INS Philadelphia 
District Counsel Kent Frederick (July 17, 2000).
    \5\ Letter from INS General Counsel Owen B. Cooper to The Honorable 
Walt Darling (July 25, 2000).
---------------------------------------------------------------------------
    INS and prison officers alike are often dismissive of the need for 
translation services. In the Wicomico County Jail in Salisbury, 
Maryland, an INS officer observed that he
    believed that sign language was adequate to communicate with INS 
detainees. The prison warden in the same facility said, ``The language 
barrier isn't a big problem. The detainees know what's happening.''
                              health care
    The inability to communicate, combined with the slow or 
inappropriate response of some facilities to medical complaints, has 
led to disturbing instances of serious medical problems being ignored 
or mismanaged by both INS and prison authorities. In other cases, the 
stress and trauma of prolonged detention have caused individuals to 
develop physical and mental health problems.
    The Public Health Service (PHS) provides medical services in INS 
Service Processing Centers and contract facilities. In most of the 
prisons with which it contracts, the INS utilizes the health services 
provided to the criminal inmates. Often, these services are provided by 
outside medical contractors. These services typically do not include 
medical staff trained to care for patients from different cultures. 
Moreover, there is frequently a lack of female medical staff. This can 
undermine the treatment of women detainees, many of whom come from 
cultures in which it is considered inappropriate to reveal sensitive 
medical information to male strangers.
    A Colombian woman asylum seeker detained in the Krome Service 
Processing Center was diagnosed with a stomach tumor. Despite the 
severity of her illness, the INS handcuffed and shackled her on the way 
to the hospital. She was then chained to the hospital bed. When the 
woman asked the INS officers to remove the chains, she reported that 
they responded with abusive language. She also reported that when her 
family tried to visit her at the hospital, the INS denied that she was 
there. The woman later told a fellow detainee that she would rather die 
than return to the hospital.
    Women at the Turner Guilford Knight Correctional Center complained 
that after their transfer, the prison medical staff greatly reduced the 
dosage of psychotropic drugs that had been prescribed to them while 
they were at Krome. The sudden change in medication led to drastic mood 
changes and the detainees' hospitalization. Other women reported that 
their drugs were administered erratically and several hours behind 
schedule.
    Many women whom the Women's Commission interviewed complained that 
they were experiencing physical ailments because of their prolonged 
detention. This included chronic stomach problems, such as nausea, 
heartburn, and diarrhea; dizziness; high blood pressure; irregular 
menstrual cycles; and significant weight changes. In some cases, women 
had been prescribed drugs to address their conditions but were ignorant 
of the nature and properties of the drugs.
    Asylum seekers who have fled violence and persecution in their 
homelands frequently are in poor health when they arrive in the United 
States. In addition, they may be suffering from Post Traumatic Stress 
Disorder or other mental health problems. It is critical that they be 
provided prompt, adequate, and culturally appropriate medical care.
                 recreation and access to the outdoors
    Detainees universally report boredom and listlessness as a result 
of the lack of recreational activities and outdoor access in detention 
centers. They frequently spend their days lying in bed or watching 
English-language television. Reading materials are also usually only in 
English.
    Access to the outdoors is severely limited in most detention 
centers, as minimal as one hour per week. Many facilities offer only 
rooftop exercise areas or walled areas covered by mesh fencing, through 
which little natural light filters. Many facilities also lack or have a 
minimal number of windows, adding to detainees' physical malaise'and 
disorientation.
    Some detainees have also reported that they do not avail themselves 
of outdoor exercise even when available. Sometimes this is because they 
are confused about the rules. Sometimes they fear intermingling with 
the criminal inmates. In other cases, they are subject to strip or pat 
searches upon re-entering and prefer not to endure that humiliation.
    Experience has shown that activities and outdoor access can make 
detention more tolerable. Several women, for example, expressed their 
appreciation at being detained in the minimum security portion of the 
York County Prison, where a large grassy outdoor area is available to 
the women throughout the day. They compared it favorably to being 
housed in the maximum security portion of the prison, where outdoor 
access is more limited, and to both the Elizabeth and Wackenhut 
Detention Centers (from which many women are transferred back and forth 
from York), where the outdoor areas are walled and fenced.
        availability of spiritual support and religious services
    Religious services in the prisons with which the INS contracts are 
generally made available through a facility's existing chaplain's 
office. Services for certain denominations are therefore readily 
available, while services for religious sects that are less common in 
the United States are unavailable or have to be arranged. Of particular 
concern is the fact that INS Service Processing Centers and contract 
facilities as yet fail to provide chaplains, although the INS has 
expressed interest in developing such programs.
    Also troubling is the treatment that some religious programs have 
received in INS centers. In November 1999, the INS Newark District 
abruptly cancelled an arrangement with Jesuit Refugee Services (JRS) 
under which JRS was providing religious services and English classes. 
The INS's stated rationale for the cancellation was the fact that a 
Bible study reading had been based on the gospel of Matthew 25, which 
preaches ``welcoming the stranger.'' The INS believed that this 
discussion would provoke unrest among detainees. It also criticized the 
programs for allowing detainees to speak about their concerns about 
detention, an obvious focus of conversation given the stress caused by 
detention. Despite repeated requests by JRS to renew the programs, the 
INS declined to do so and instead arranged for another program to 
replace JRS. The new religious service providers has signed an 
agreement that stipulates that it will refrain from discussing 
detention with detainees and that an INS officer will be present at all 
religious sessions.
    Religious service providers who visited women asylum seekers at the 
Turner Guilford Knight prison told the women that they would not return 
after their first visit, because it was so difficult to gain access 
into the facility. Among the problems they confronted was the lack of 
space for such services. They were forced to use a small attorney-
client visit room. This dual usage also disrupted legal services, since 
it is the only such room available.
    There are also disturbing instances of proselytizing in some 
prisons. In the Hancock County Justice Facility in Bay St. Louis, 
Mississippi, three Chinese women asked the Women's Commission 
delegation to let the American public know that they could be released 
because they now believed in Jesus Christ. The head chaplain in the 
York County Prison opposed efforts of local advocates to achieve 
release of Chinese detainees, arguing that the detainees should first 
convert to Christianity, then agree to deportation in order to carry 
Christianity back to China.
    Other detention facilities have made a concerted effort to provide 
a variety of religious services and sources of spiritual support. 
Detainees often find such support critical to their ability to cope 
while in detention.
                             visitor access
    Detainees frequently report a sense of isolation, confusion, and 
helplessness while in detention. They are typically cut off from 
relatives, friends, agencies, and individuals willing to assist them 
and act as a source of support. Factors which hinder the ability of 
such parties to visit detainees include the remote locations of many 
detention centers, limitations on phone calls, frequent transfers of 
detainees from facility to facility, limited visitation hours, and the 
slowness of some facilities to locate detainees when visitors request 
to see them. Other limitations include restrictions on who can visit a 
detainee. The Wicomico County Jail in Salisbury, Maryland, for example, 
will not allow minors under age 18 to visit inmates or detainees, even 
if the requested visit is with a parent.
    The recent experience of a Colombian woman transferred from the 
Turner Guilford Knight Correctional Center in Miami to the York County 
Prison exemplifies the isolation experienced by detainees. The woman 
was separated from her husband, who was detained in the Krome Service 
Processing Center. Three days after her detention began, she was 
transferred to the York County Prison. INS officers refused to tell her 
where she was being taken.
    The woman's husband, meanwhile, was released from Krome and 
traveled to Pennsylvania to visit his wife and bring her documents 
which the INS told her would be required for her parole. His request to 
visit her was refused. However, he was able to submit the requested 
documentation. His wife was told that she would be released in two 
days. Instead, however, the woman was transferred back to Miami. Her 
husband was waiting to visit her, but the INS refused to allow her to 
speak with him to inform him of her upcoming transfer. As she was being 
loaded onto a van for transport to the airport, she saw her husband in 
the prison parking lot and began to cry. The driver allowed her to 
speak to him from the van. The woman arrived back at the Turner 
Guilford Knight Correctional Center at 2:30 am. Her husband is stranded 
in Pennsylvania because he did not have enough money to return to 
Miami. He also missed his own court date as a result.
                 different treatment accorded to women
    Of particular concern to the Women's Commission is the disparity 
that exists in some facilities between services offered to men and 
women in detention. While detention of any asylum seeker often results 
in barriers to services, abuses, and hardship, the Women's Commission 
has documented several instances in which women were denied services 
offered to male detainees held by the same INS district.
    This discrimination appears to result from several factors. First, 
there are far fewer women in detention than men. This difference in 
numbers, for example, often means that INS-detained men are separated 
from criminal inmates in the prisons the INS utilizes, whereas the INS 
finds it hard to justify renting a separate cell pod for the handful of 
women held in the same facility. This was the case in such prisons as 
the Virginia Beach City Jail; the Kern County Lerdo Detention Center in 
Bakersfield, California; the York County Prison in York, Pennsylvania; 
the Berks County Prison in Reading, Pennsylvania; the New Orleans 
Parish Prison; and the DeKalb County Jail in Atlanta, Georgia. At the 
time of a Women's Commission visit to Puerto Rico, the INS district had 
temporarily shut down the female wing of the Aguadilla Service 
Processing Center, finding it cheaper to move the women to the federal 
prison in San Juan.
    The INS also used the relatively few number of women detained in 
the Kern County Lerdo Detention Center as a justification to decline 
bussing the women to meet with their attorneys in San Francisco, a 
service it offered to male detainees in the same facility when vans 
were travelling to the city for other reasons. This failure, however, 
had a detrimental effect on the ability of the women to obtain adequate 
legal representation. The prison is more than a five-hour drive from 
San Francisco, a prohibitive commute for lawyers offering pro bono 
services.
    Women detainees also often come from cultures in which they are 
taught not to question authority, and thus INS and prison officers 
frequently describe INS-detained women as ``docile.'' This 
characteristic, however, also means that the needs of women are easily 
neglected. The male Chinese asylum seekers who arrived on the ship the 
Golden Venture and were detained at the York County Prison, for 
example, were provided arts and crafts materials. Chinese women 
detained in the female wing, however, were not provided any form of 
recreation to occupy their time.
    Moreover, women are more at risk of certain abuses, including 
sexual attacks. Officers at the Krome Service Processing Center appear 
to have particularly targeted women detainees for rape and sexual 
harassment and molestation. This abuse, furthermore, undermined the 
women's access to legal representation. While it was critical to remove 
the women from exposure to the exploitation they were suffering in 
Krome, the INS chose to transfer the women to the Turner Guilford 
Knight Correctional Center, which has greatly interfered with the 
women's access to legal services. Local legal service providers are now 
struggling to offer services in both facilities. They have also 
reported that access to the prison is much more difficult than at 
Krome. Moreover, the INS has discontinued transporting the women back 
to Krome for their credible fear interviews before asylum officers 
posted at Krome, instead relying on telephone interviews with the 
women. Face-to-face interviews can fundamentally influence the outcome 
of the interview, as asylum officers are better able to assess body 
language and non-verbal cues.
          IV. Legal Representation of Detained Asylum Seekers
    Legal representation is critical to the ability of asylum seekers 
to pursue their asylum claims. The immigration bar typically considers 
asylum cases as among the most complex and time-consuming of the 
various types of legal problems its members address.
    Despite the critical need for assistance, however, the Institute 
for the Study of International Migration at Georgetown University has 
reported that more than twice as many detained asylum seekers lack 
representation as compared to non-detained asylum seekers in removal 
proceedings. Moreover, its analysis revealed that represented asylum 
seekers are four to six times more likely to win asylum than those who 
are unrepresented.\6\
---------------------------------------------------------------------------
    \6\ Memo from Andrew Schoenholtz, ``Asylum Representation,'' 
Institute for the Study of International Migration, Georgetown 
University (September 12, 2000).
---------------------------------------------------------------------------
    Several problems endemic to detention hamper the ability of asylum 
seekers to obtain representation. First, asylum seekers are often 
dependent on pro bono or low-cost legal representation. However, such 
programs are typically strapped for resources and struggling to meet 
the needs of the entire detained population, which has soared 
dramatically in recent years.
    Moreover, the lists of pro bono and low-cost legal service 
providers that the Executive Office for Immigration Review (EOIR) makes 
available to detainees are frequently inaccurate. This, combined with 
telephone systems that are often inadequate and expensive, makes it 
difficult for asylum seekers to contact lawyers. In many detention 
centers, moreover, a legal representative cannot leave messages for his 
or her clients, forcing the service provider to visit the detention 
center if he or she needs to communicate with the client. The INS has 
moved toward programming telephones in Service Processing Centers and 
contract facilities so that detainees can make toll-free calls to legal 
services programs, an important step in facilitating the ability of 
detainees to obtain counsel and remain informed about their cases.
    A further barrier to legal representation is the remote location of 
many detention centers, which deters attorneys from accepting detainees 
as clients. Many facilities are located in rural areas far from the 
legal services that are generally available in urban centers with 
strong immigrant traditions. In addition, attorneys report that they 
frequently have to wait hours before being allowed to see their 
clients. The combination of long commutes and time wasted waiting to 
speak to a client effectively means that attorneys may have to devote 
an entire day to visit one client.
    Furthermore, the INS regularly transfers detainees from detention 
center to detention center for fiscal and logistical reasons. Detainees 
therefore often end up in facilities hundreds of miles from their 
attorneys. The INS typically does not provide prior notification to 
attorneys before their clients are moved. The Women's Commission 
tracked the case of a woman asylum seeker from Cameroon who was 
transferred from the Wackenhut Detention Center in Queens, New York, 
where she had been detained for several months, to the York County 
Prison. Her attorney was not notified of the transfer.
    Service Processing Centers and contract facilities often lack 
adequate attorney-client visitation rooms, forcing attorneys to wait or 
to visit with their clients in non-contact visitation booths via 
telephone. In some centers, visitation rooms are also insufficiently 
sound-proofed. For example, during a visit to the Krome Service 
Processing Center, a Women's Commission delegation stood outside the 
attorney-client visitation rooms. The delegation clearly overheard what 
should have been a confidential conversation between an attorney and 
his client, who was revealing sensitive medical information.
    Finally, prisons occasionally pose special problems for attorney 
access. For example, prisons have denied entrance to immigration 
lawyers because they belong to state bars that do not issue bar cards. 
A Women's Commission delegate who was a member of the New York State 
bar, which does not issue bar cards, was delayed from entering the 
Federal Detention Center in downtown Miami for almost two hours while 
she argued with prison administrators about her lack of a bar card.
    Prisons are also often unfamiliar with the concept of non-attorneys 
representing detainees, as is the case with representatives accredited 
by the Board of Immigration Appeals (BIA). The Virginia Beach prison 
warden told an Amnesty International delegation in which the Women's 
Commission participated that he would normally deny access to a BIA-
accredited representative, because he had never heard of such a 
program. Prisons also sometimes fail to program telephone systems to 
provide toll-free access to immigration pro bono programs, even when 
such access is provided to criminal defense pro bono programs.
    The Women's Commission is also concerned about the increasing use 
of video teleconferencing to conduct immigration court proceedings. 
Attorneys participating in such hearings have complained about 
inadequate technology and the isolation of their clients, who often 
remain in the detention center while the judge, interpreter, and even 
the detainee's attorney are located in a different facility miles away. 
Reliance on such technology may seriously jeopardize due process, as 
detainees are confused and isolated throughout the conduct of the 
proceedings, and cannot confer with their counsel.
    We are encouraged by the INS's recent efforts to provide pro bono 
and low-cost legal service providers access to Service Processing 
Centers, contract facilities, and some prisons to offer group ``know-
your-rights'' presentations. Such programs have proven critical to 
providing detainees with accurate legal information, to identifying 
those detainees who are most in need of legal services, and in 
rendering the immigration proceedings more efficient by encouraging 
individuals with no relief available to them to accept removal.
    In Fiscal Year 1998, EOIR funded a pilot project to test the 
efficacy of ``know-yourrights'' presentations in three sites. In its 
final report on the pilot, EOIR observed, ``the rights presentation has 
the potential to save both time and money for the government while also 
benefiting detainees. During the pilot, cases were completed faster and 
detainees with potential meritorious claims to relief were more likely 
to obtain representation.'' It also suggested that expansion of the 
project should be explored.
    Legal representation can make the difference between an asylum 
seeker successfully winning her asylum claim or being returned to face 
further human rights abuses in her homeland. Representation is also 
perhaps the most vital link that a detainee can have to the outside 
world. In addition to the critical role that attorneys play in 
presentation of an asylum claim, they also can act as an intermediary 
between the INS and the detainee. They also offer hope to a detainee, a 
not insignificant function since many asylum seekers might otherwise 
abandon their claims and agree to deportation.
            V. INS Parole Policy for Detained Asylum Seekers
    Theoretically, parole from detention is available to asylum 
seekers. Such parole is allowed under sections 235(b)(1)(B)(iii)(IV) 
and 212(d)(5)(A) of the Immigration and Nationality Act, which provide 
for parole of aliens applying for admission to the United States on a 
case-by-case basis for urgent humanitarian reasons or significant 
public benefit. INS regulations further stipulate that certain 
categories of aliens are eligible for parole, including but not limited 
to pregnant women and juveniles.\7\ The INS itself has stated in field 
directives that its policy should normally be to release asylum seekers 
who have established a credible fear of persecution, a preliminary 
screening standard that asylum seekers must meet under expedited 
removal before they are allowed to pursue their asylum claims.\8\
---------------------------------------------------------------------------
    \7\ 8 C. F. R Sec. 212.5.
    \8\ Memorandum from Office of INS Deputy Commissioner, 
``Implementation of Expedited Removal'' (March 31, 1997) (stating that 
once an alien has established a credible fear of persecution, release 
may be considered under normal parole criteria); Memorandum from INS 
Executive Associate Commissioner for Field Operations, ``Expedited 
Removal: Additional Policy Guidance'' (December 30, 1997) (stating that 
parole is a viable option for aliens who have met the credible fear 
standard); Memorandum from INS Executive Associate Commissioner for 
Field Operations, ``Detention Guidelines'' (October 9, 1998) (stating 
that it is INS policy to favor release of aliens who have been found to 
have a credible fear of persecution).
---------------------------------------------------------------------------
    However, despite such instructions from INS headquarters to its 
district offices, many INS districts continue to detain asylum seekers 
for prolonged periods, in some cases for years. The disparity between 
the stated national policy and implementation at the local level is 
attributable to the fact that tremendous discretion to parole asylum 
seekers has been delegated to individual INS district directors. 
Belying the soundness of these decisions is the fact that many such 
asylum seekers are ultimately successful in their asylum claims. Sadly, 
they may have endured years of unnecessary incarceration in the 
meantime.
    Despite repeated inquiries from advocates and others and the 
submission of Freedom of Information Act requests by the Lawyers 
Committee for Human Rights, INS headquarters has failed to provide the 
national parole rate. Estimates have ranged from 10 to 40 percent.\9\ 
Disturbingly, the INS New York and Newark Districts, which host two of 
the largest detention centers, and which are dedicated almost 
exclusively to holding asylum seekers, are among the most restrictive 
in terms of their parole of asylum seekers. The Hastings College of 
Law's Expedited Removal Study found that those asylum seekers entering 
through Kennedy Airport in New York have the highest average length of 
detention in the country, at 124 days. Those arriving in Newark are 
held an average of 86 days. Of the major ports of entry surveyed, San 
Diego came in with the lowest average, at 11 days.\10\
---------------------------------------------------------------------------
    \9\ See ``Refugees Behind Bars,'' Lawyers Committee for Human 
Rights (August 1999), p. 25.
    \10\ Karen Musalo, Lauren Gibson, Stephen Knight, and J. Edward 
Taylor, ``Report on the First Three Years of Implementation of 
Expedited Removal,'' Center for Human Rights and International Justice, 
University of California, Hastings College of Law (May 2000), pp. 69-
71.
---------------------------------------------------------------------------
    The Women's Commission's interviews with INS officials have 
revealed tremendous differences in the stated rationale for decisions 
to detain or parole asylum seekers. Some district officials cite 
identity or security concerns. Others favor detention because they view 
it as a legitimate enforcement tool to deter individuals from seeking 
refuge in the United States. In a recent conversation, for example, a 
high-level INS official in Miami told the Women's Commission to expect 
parole rates in the district to drop because the district feared that 
high parole rates were encouraging Colombians to seek entry to the 
United States through the Miami International Airport rather than other 
international ports of entry where parole rates are less generous. 
Other INS officials have cited ``congressional intent'' as their reason 
for denying release to asylum seekers. This appears to be especially 
common in the INS New York District.
    In some cases, the stated rationale for release is equally without 
a sound basis. In 2000, the former Krome Service Processing Center 
officer-in-charge admitted to the Women's Commission that his primary 
reason for regularly paroling asylum seekers was the lack of detention 
bed space in the district. While the limitations in space was resulting 
in favorable release rates, he also indicated that he probably would 
not maintain the existing parole policy if more bed spaces became 
available.
    While the Women's Commission did not focus on the merits of the 
asylum claims of the women whom we interviewed, it was obvious that 
many were strong candidates for release. We spoke to women from many 
countries, the vast majority of which were experiencing armed conflict 
and human rights abuses. Many women stated that they had fled torture; 
threats to their lives; and persecution, including various forms of 
genderrelated persecution. Moreover, many of the women were later 
granted asylum.
                     VI. Alternatives to Detention
    Pilot projects that have explored the use of alternatives to 
detention for asylum seekers underscore the irrationality of U. S. 
detention practices. Such pilots have demonstrated considerable success 
in meeting the dual goals of ensuring that asylum seekers appear for 
their immigration court hearings and that they are treated humanely 
pending the outcome of those proceedings. They have also proven to be 
much less costly than detention.
    Such pilots date as far back as 1990 when INS headquarters 
implemented a pilot to test what became known as the Asylum Pre-
Screening Officer Program (APSO). Under APSO, asylum seekers were 
eligible for release if they met several criteria, including having a 
credible asylum claim, evidence of their identity, a place to live, a 
means of support, and legal representation. After APSO proved 
successful in terms of both alleviating the harsh consequences of 
detention on asylum seekers and freeing up INS detention space, the 
agency attempted to implement the parole policy nationwide through non-
binding guidelines.\11\ Unfortunately, some INS districts failed to 
implement the program adequately, and it gradually fell into disuse.
---------------------------------------------------------------------------
    \11\ Memorandum from INS Commissioner, ``Pilot Project for Aliens 
Seeking Asylum in ExclusionProceedings'' (April 27, 1990); Memorandum 
from INS Commissioner, ``Parole Project for Asylum Seekers at Ports of 
Entry and in INS Detention'' (April 20, 1992).
---------------------------------------------------------------------------
    In 1997, the INS contracted with the Vera Institute of Justice to 
test the viability of a supervised release program for asylum seekers 
in the INS New York District. This project indicated that supervised 
release met the INS's goal of tracking the whereabouts of asylum 
seekers and ensuring their appearance at their asylum proceedings as 
well as the humanitarian goal of allowing asylum seekers to live as 
normal a life as possible while their proceedings are pending. The 
findings of the Vera Institute clearly indicated that supervised 
release of asylum seekers is a viable option; 84 to 93 percent of the 
asylum seekers who participated appeared for their hearings, depending 
on the level of supervision provided. In addition, the pilot found that 
the cost of supervision of asylum seekers is 55 percent less than 
detention.\12\
---------------------------------------------------------------------------
    \12\ ``Testing Community Supervision for the INS: An Evaluation of 
the Appearance Assistance Program,'' Vera Institute of Justice (June 7, 
2000), pp. iii, 27.
---------------------------------------------------------------------------
    In 1999, the INS transferred a group of Chinese asylum seekers from 
Guam to a county prison in Ullin, Illinois after they had been 
determined to have a credible fear of persecution. These asylum seekers 
had originally been apprehended on the high seas after the Coast Guard 
intercepted the smugglers who were attempting to bring the Chinese to 
U.S. territory. After four months in jail in rural Illinois, the INS 
negotiated with local service providers, under the auspices of the 
Lutheran Immigration and Refugee Service and members of the Detention 
Watch Network, to release the asylum seekers to local shelters, the 
location of which was not revealed to protect the asylum seekers from 
the smugglers to whom they owed debts. Approximately 22 Chinese were 
released into the care of the shelters; all but one of them remained in 
the program.\13\
---------------------------------------------------------------------------
    \13\ Esther Ebrahimian, ``The Ullin 22: Shelters and Legal Service 
Providers Offer Viable Alternatives to Detention,'' Detention Watch 
Network News, Lutheran lmmigration and Refugee Service (August/
September 2000).
---------------------------------------------------------------------------
    Finally, INS districts have also tested local alternatives to 
detention in cooperation with charitable organizations. In New Orleans, 
for example, Catholic Charities has housed more than 30 formerly 
detained asylum seekers in non-secure shelter facilities. None of the 
asylum seekers who have participated in the program have absconded. 
Moreover, housing asylum seekers in the shelter costs the INS one-sixth 
the daily average cost of detaining individuals in local prisons. One 
INS official in New Orleans called it ``a great program.'' \14\
---------------------------------------------------------------------------
    \14\ Joan Treadway, ``Program Helps Immigrants Find Jobs and 
Shelter,'' The Times-Picayune (January 22, 2001).
---------------------------------------------------------------------------
    These pilot projects clearly demonstrate that alternatives to 
detention are both humane and cost-effective. They also meet the INS's 
concern that asylum seekers appear for their proceedings. Moreover, 
asylum seekers who are not detained are much more likely to obtain 
counsel, a service critical to ensuring due process in an adversarial 
court proceeding.
    The INS itself has expressed a commitment to continuing to test 
alternatives to detention. However, given the tremendous success and 
consistent results already demonstrated in past pilots, the Women's 
Commission believes that a national policy that embraces such 
alternatives should be legislatively mandated and implemented 
immediately.
                      VII. Children in INS Custody
    In each of the past three fiscal years (1998-2000), the INS has 
reported approximately 4,600 unaccompanied children in its custody. 
Many such children are fleeing armed conflict and human rights abuses 
in their homelands. Such abuses include recruitment as child soldiers, 
forced prostitution, forced labor, child marriages, female genital 
mutilation, and slavery. Other children have been abused, abandoned, or 
neglected by their families, and thus may be eligible for Special 
Immigrant Juvenile status. They range in age from 18-months-old to 17-
years-old, while approximately 60 percent of these unaccompanied 
children eventually reunite with family members, the remaining 40 
percent lack relatives in the United States.
    Subsequent to a class action settlement agreement known as Flores 
v. Reno (1997), the INS has opened nine shelters in which it houses 
children in its custody. The majority of these shelters are 
institutional in nature and offer an environment of soft detention. The 
children's activities are closely monitored, the doors are frequently 
locked or alarmed, and children are not allowed off the premises of the 
facility unless accompanied by facility staff. However, the children 
are allowed to wear street clothing, are offered educational classes, 
and are not locked in cells or cell pods. Occasionally, they engage in 
recreational or educational trips off-site in the company of shelter 
staff. The INS also has an extremely limited foster care program, 
generally used for young children, girls, or children with special 
needs.
    Unfortunately, the INS shelter and foster care system, which 
consists of approximately 600 beds, has failed to keep pace with the 
number of children in INS custody at any given time. As a result of the 
lack of bed space in the shelters and sometimes questionable placement 
decisions made by the INS, approximately one-third of children in INS 
custody spend time in a juvenile jail, for periods ranging from a few 
days to more than a year. The majority of these children have not 
committed a crime of any sort. Despite this, they are housed in highly 
punitive, restrictive settings; are sometimes commingled with youthful 
offenders; are subject to handcuffing and shackling; and are forced to 
wear prison uniforms. Children and their attorneys have reported 
beatings and other abuses.
    Staff in the juvenile jails are often ill-informed about the INS-
detained children and remain unaware of their legal, cultural, and 
mental health needs. Educational programs are typically conducted in 
English. Due to the remote location of many of the juvenile jails and 
the general lack of awareness of children in INS detention, immigration 
attorneys who can assist the children are often unavailable, resulting 
in the questionable removal of children who might actually be eligible 
for asylum or other forms of relief.
    The INS experiences an inherent conflict of interest with children 
in its custody the agency is acting as caregiver to children in its 
custody at the same time that it is seeking their removal from the 
United States. INS immigration enforcement concerns often result in 
decisions, including placement decisions in the detention context, that 
are not in keeping with the best interests of the child. Moreover, the 
INS lacks the expertise to care for children.
    This conflict of interest was recently exacerbated. In 2000, the 
INS consolidated its children's programs under its Detention and 
Removal branch. By doing so, it removed oversight of the children's 
shelters from the Office of International Affairs, which was staffed in 
part by child welfare professionals. The care of children is now lodged 
with a branch overwhelmingly staffed by law enforcement officials who 
specialize in detention and deportation and lack the expertise to 
identify and address children's unique needs.
    Also absent in the current system for children in INS custody are 
professionals who can shepherd the child through his or her immigration 
proceedings. Less than half of the children in INS custody are 
represented by counsel. U. S. law also fails to provide for the 
appointment of a guardian ad litem to unaccompanied children in 
immigration proceedings, a regular practice in other court proceedings 
affecting children.
    The Women's Commission was pleased and encouraged by the INS's 
issuance of Guidelines for Children's Asylum Claims in 1998. However, 
the success of these guidelines in identifying and ensuring protection 
of refugee children will hinge in large part on the adequacy of the 
assistance they are provided to navigate U. S. asylum law. Children 
must be provided the assistance of counsel to identify any relief for 
which they may be eligible and to advocate for such relief in 
immigration court. A guardian ad litem should be a child welfare 
professional who can ensure that the child's best interests are 
addressed by establishing trust with the child; identifying the 
circumstances that provoked his or her departure from the homeland; 
developing recommendations about the detention, custody and release of 
the child; ensuring that the child understands the proceedings in which 
he or she has been placed; and enabling the child to have his or her 
own voice heard in the proceedings.
    The recent handling of the case of an eight-year-old Nigerian girl, 
who is currently detained in the Boystown shelter in Miami, Florida, 
exemplifies the failure of the U. S. system to adequately protect 
unaccompanied children in INS custody. Despite her young age, the girl 
has been in detention since May 2000. The INS refused to allow the 
young girl to go to juvenile court to determine if she has been abused, 
abandoned, or neglected and is therefore eligible for long-term foster 
care, a prerequisite requirement before a Special Immigrant Juvenile 
visa can be pursued. In its denial, the INS claimed that the girl's 
parents are attempting to commit immigration fraud, despite the fact 
that both parents have explicitly stated that they no longer want the 
child. The girl's attorney, therefore, has decided to file for asylum 
before the immigration judge.
    Despite a prior agreement to the contrary, the INS is challenging 
the appointment of a guardian ad litem to the child. Furthermore, the 
INS trial attorney argued in immigration court that the child's 
attorney has no standing to represent the child, since the INS--as the 
child's custodial ``guardian''--has not agreed to such representation 
and is the only entity with the authority to appoint counsel. During 
the hearing, the district counsel actually suggested that the Krome 
officer-in-charge should represent the child. The case was continued 
for the sixteenth time while the attorney briefs both issues.
    Meanwhile, the child continues to suffer in detention, despite an 
expert opinion from a social worker that her development and mental 
well-being are deteriorating.
                         VIII. Recommendations
    Prolonged detention frequently erodes the physical, mental, and 
emotional health of asylum seekers. It also is an unnecessary waste of 
taxpayer dollars and limited detention space. Asylum seekers will 
remain vulnerable to arbitrary detention decisions by INS district 
directors unless Congress mandates a rational parole policy, 
alternatives to detention, and the restoration of due process.
    Specifically, the Women's Commission for Refugee Women and Children 
recommends that Congress expeditiously enact legislation that:

<bullet> Establishes that the policy of the United States is generally 
        not to detain asylum seekers who have established a credible 
        fear of persecution, and that the parole of asylum seekers 
        provides a significant public benefit. This will help ensure 
        that parole decisions are not made arbitrarily at the sole 
        discretion of INS district directors.
<bullet> Delegates the authority to determine whether to parole asylum 
        seekers or to place them in an appropriate alternative to 
        detention to asylum officers. Such decisions should be made 
        within one week after an asylum seeker submits a parole 
        request. Shifting parole authority away from the INS district 
        offices to asylum officers would introduce greater objectivity 
        into the decision-making process.
<bullet> Permits review of a parole denial by an immigration judge 
        within 30 days. If the parole denial is upheld, the immigration 
        judge should provide the reason for such denial in writing to 
        the asylum seeker and his or her legal representative. 
        Establishing a system to review parole denials would introduce 
        accountability into the decision-making process. A written 
        decision would assist asylum seekers and their legal 
        representatives to prepare for renewed parole requests with 
        enhanced documentation and other evidence supporting parole.
<bullet> Allows for a renewed request for parole if the asylum seeker 
        has new or additional information supporting the request. The 
        personal circumstances of the asylum seeker may change after 
        parole is denied. For example, a relative or other sponsor may 
        come forward and offer the asylum seeker a place to live.
<bullet> Mandates the establishment of alternatives to detention, that 
        at a minimum include unsupervised release from detention; 
        supervised release under the auspices of private nonprofit 
        voluntary agencies with expertise in meeting the legal, 
        spiritual, cultural, and psychological needs of asylum seekers; 
        and nonsecure shelter care or group homes also supervised by 
        such voluntary agencies. The current detention system offers 
        only two options: detention or release. The development of 
        alternatives to detention would better assist the INS in 
        meeting the needs of asylum seekers while ensuring their 
        appearance at their proceedings. Alternatives to detention are 
        cost-effective and have been proven to work.
<bullet> Mandates the development of regulations to both establish 
        standards for conditions of detention and create adequate 
        monitoring and oversight of their implementation. The INS has 
        developed standards to address conditions of detention. 
        However, they remain non-binding and are monitored and enforced 
        by the INS itself.
<bullet> Provides government funding to facilitate ``know-your-rights'' 
        presentations and legal representation to indigent asylum 
        seekers. Legal representation renders the asylum system more 
        efficient and ensures fairness in immigration proceedings.
<bullet> In addition, Congress should move quickly to pass 5. 121, the 
        Unaccompanied Alien Child Protection Act. We urge the 
        subcommittee to conduct an oversight hearing on the bill as 
        soon as possible. Introduced by Senator Dianne Feinstein, this 
        critical legislation comprehensively addresses the custody, 
        care, and assistance needs of unaccompanied children and closes 
        procedural gaps in the current system that jeopardize their 
        protection. Among other important steps, S. 121 addresses the 
        current conflict of interest experienced by the INS, which is 
        simultaneously charged with caring for the same children it is 
        seeking to deport, by establishing a new Office of Children's 
        Services within the Department of Justice. It also calls for 
        the development of adequate shelter and fostercare. Finally, it 
        calls for the appointment of counsel and guardians ad litem to 
        unaccompanied children to ensure that their eligibility for 
        relief is adequately considered.
                             IX. Conclusion
    Depriving an individual of his or her freedom is one of the gravest 
actions a government can take. The degree of neglect and abuse that the 
Women's Commission has documented in INS detention practices is 
alarming. We believe that Congress must play an active role in the 
design, implementation, and monitoring of U. S. detention policy. We 
urge you to move forward with legislation that restores accountability, 
consistency, and compassion to detention.
    Thank you again for holding this important hearing. The Women's 
Commission stands ready to work with your offices to assist in this 
process.

    Chairman Brownback. Thank you, Wendy. That was excellent 
testimony, very thoughtfully put forward. I appreciate the 
passage that you were talking about in Matthew, I believe it 
was Matthew 25: where the Son of Man comes in his glory, and he 
says he is going to judge all the nations and sort them into 
sheeps and goats and say to the one group, ``Come join me,'' 
and to the other, ``I am not going to bring you here because 
you didn't take care of me.'' and they will answer him, saying, 
``Lord, when did we see you hungry or thirsty or a stranger or 
naked or sick or in prison and did not minister to you?'' And 
he will answer them saying, ``Assuredly, I say to you, inasmuch 
as you did not do it to one of the least of these, you did not 
do it unto me.''
    They may have had quite a bit of wisdom. They were wanting 
to read that. I might also add that was the passage I heard 
read at Mother Teresa's funeral: the call to which she 
dedicated her life.
    Ms. Acer?

STATEMENT OF ELEANOR ACER, SENIOR COORDINATOR, ASYLUM PROGRAM, 
     LAWYERS COMMITTEE FOR HUMAN RIGHTS, NEW YORK, NEW YORK

    Ms. Acer. Thank you, Chairman Brownback, Senator DeWine. It 
is an honor to be here today to offer our views about U.S. 
asylum policy. You have shown tremendous leadership in 
protecting the rights of refugees.
    My name is Eleanor Acer, and I direct the Asylum Program at 
the Lawyers Committee for Human Rights. We have many serious 
concerns about the impact of the 1996 law on the ability of 
refugees to seek asylum in this country. I am honored today to 
be joined by a number of refugees, three of whom will be 
testifying before you shortly, and others who will be 
identified during my testimony and who will be submitting 
written statements to the subcommittee.
    The expedited removal provisions of the 1996 law empower 
INS inspectors--whose primary responsibility and training is in 
border enforcement rather than adjudication--to order the 
summary deportation of individuals arriving from abroad without 
proper documents. Although anyone who expresses a fear of 
persecution should under the law be referred to an asylum 
officer for a credible fear interview, no outside authority 
reviews these decisions. Immigration inspectors are, in effect, 
given the power to act as judges.
    While the INS has taken some steps to attempt to reduce the 
possibility that genuine asylum seekers will not be deported 
under these expedited procedures, those efforts have not 
succeeded in preventing mistaken deportations and other abuses. 
Indeed, mistakes are inevitable given the summary nature of the 
procedures.
    Expedited removal is a system that by its very design is 
destined to fail. It lacks the procedural safeguards that are 
necessary to ensure that legitimate asylum seekers are not 
mistakenly returned to face persecution: access to legal 
representation, appeal to an independent authority, the 
provision of notice prior to proceedings, and provision of 
qualified, independent translators.
    A process that lacks crucial safeguards will not be able to 
avoid mistakes. A Sudanese Christian woman was ordered deported 
by officers at the Texas border. A Kosovar student was turned 
away from a California airport, and another Kosovar refugee was 
deported from Newark Airport.
    Even U.S. citizens are not protected from these summary 
procedures. Just last year, a disabled woman from Long Island 
was detained at JFK airport, handcuffed, shackled, and deported 
to Jamaica under expedited removal.
    Given the dire consequences of a mistaken decision to send 
someone back to a place where they might face persecution, the 
fact that many genuine refugees do not speak English as well, 
one would think that the airport procedures would require the 
use of qualified interpreters who are fluent in an individual's 
language of fluency. Instead, refugees have reported that their 
requests for translators have been denied and that they did not 
even understand the process that they were being subjected to.
    I would like to ask Mekabou Fofana, a Liberian teenager, to 
stand. Mekabou arrived at JFK airport 9 days before his 16th 
birthday. Despite his request, he was not provided with a 
Mandingo interpreter. When INS officers twisted his arm and 
attempted to forcibly fingerprint him, he fell to the floor, 
hitting his head and bleeding so profusely that he had to be 
taken to the hospital. After a year and a half in detention in 
adult facilities, he was granted asylum and is now attending 
high school in New York City.
    I would like to request that Mekabou Fofana's written 
statement and the statements of the other refugees and asylum 
seekers who I will be identifying shortly be included in the 
record.
    Chairman Brownback. Without objection.
    [The prepared statement of Mekabou Fofana follows:]

           Statement of Mekabou Fofana, Refugee from Liberia

    Chairman Brownback and other Senators, thank you for the 
opportunity to submit this statement about the experience of refugees 
who seek asylum in this country. I am a refugee and I have been granted 
asylum in the U.S.
    I fled Liberia with my family as a young child. My family are 
ethnic Mandingos. We were targeted by the rebel forces of Charles 
Taylor because my father had supported the former president of Liberia. 
My father was killed. My mother, younger brothers, and I fled to the 
Ivory Coast. In 1999, two of my uncles were murdered and I was 
threatened by men who recognized me as my father's son. I feared that 
my uncles' murderers were with the former rebel movement of Charles 
Taylor. I fled to the United States to seek asylum, and because I did 
not have a passport from Liberia, I traveled on a false passport from 
the Ivory Coast.
    I arrived at JFK International Airport on July 11, 1999, nine days 
before my 16th birthday. I spoke only a few words of English and could 
not understand the INS officers who questioned me. Although I kept 
repeating ``Mandingo, speak Mandingo,'' the INS did not call a Mandingo 
interpreter. Instead, they brought an airline employee who spoke 
French. I spoke very little French and could not understand the 
translator. After the interview, I was given papers to sign. I refused 
to sign the papers because I could not read them and did not know what 
they were. I was then taken to be fingerprinted. I was frightened and 
did not understand what was happening to me. One of the INS officers 
grabbed my hand and tried to fingerprint me by force. I cried out, in 
Mandingo, ``Don't force me, you are hurting me.'' I was crying. The 
officer returned with four others. They grabbed me, twisted my arm, and 
tried to fingerprint me. I fell to the floor and slammed my head 
against the edge of a desk, cutting my head. One of the INS officers 
stepped on my shoulder. I was bleeding a lot and could not see. I was 
very scared and couldn't believe that they could hurt me like this in 
this country. I was handcuffed and taken to the hospital where I got 
stitches. I was afraid they would kill me in the hospital. My white 
shirt was covered in blood. I was taken back to the airport and 
shackled to a bench overnight. I still have pains in my head from that 
time. I do not understand the way I was treated at the airport. Is this 
what America is like?
    The next morning I was taken to the Wackenhut detention center in 
Queens, New York. I was held at the adult facility even though I was a 
minor, because the INS claimed that they could tell I was over 18 from 
a dental examination. I was detained at Wackenhut about six months. I 
was very sad at Wackenhut because I was put with adults and wasn't 
supposed to be with them. When I was very sick at Wackenhut and needed 
help, I had to wait before seeing the doctor. The doctor did not ask me 
what was wrong with me, but only gave me Ibuprofen. It made me feel 
that he didn't care about me. Every night I had nightmares that I was 
being deported.
    I have family in New York. My uncle is a U.S. citizen. My aunt is a 
legal permanent resident. My cousin was granted asylum. Even though I 
have family here, I was not released on parole. I asked for parole 
three times, but the INS denied it each time. While appealing the 
denial of my claim, I was transferred to Lehigh County Prison, a 
criminal prison in Pennsylvania--moving me far from my family and my 
pro bono lawyers. I was detained there with criminals for one week. I 
felt like I was treated like a criminal. I was the youngest one among 
them and was very scared that the criminal detainees would hurt me. My 
cellmate had killed someone and would tell me about the crimes he had 
done. I was so afraid, I couldn't sleep at night. After I requested to 
be moved, they changed me to another cell with INS detainees, where I 
was for over a month. When I had medical problems at Lehigh, I made 
many requests to see a doctor, but never had a response. It was not 
fair for the INS detainees at Lehigh, because we were not treated like 
human beings.
    After my treatment was mentioned in an article in the New York 
Daily News, I was transferred to York County Prison, another remote 
detention facility in Pennsylvania. I was detained there about five 
months. It was worse there than at Lehigh. They gave me a criminal 
uniform, which was different from the ones for INS detainees, and held 
me with criminals for one day. As I was transferred to my cell with INS 
detainees, I was handcuffed, chained, and shackled like a criminal. I 
was crying. One guard asked me why I was crying. I told him, ``I'm not 
a criminal.'' I felt like my life was finished. I was too young to be 
there. It was very hard to reach my family. I was sad that sometimes me 
and other Muslims were not allowed to meet with an imam, a religious 
leader, on Friday, our holy day. I thought that they should respect our 
religion.
    One day, I was told to pack my bags. I thought I was getting 
paroled, but instead they transferred me to a detention center in 
Welfare County, Pennsylvania. I was there for two days, and then was 
transferred to Carbon County Prison. I was detained at Carbon County 
for about nine months. While I was waiting to be transferred to my 
cell, I was kept in segregation for one week. It made me feel like I 
was going crazy, because I was so alone. While I was in segregation, I 
couldn't call my lawyer or my family. After I was transferred to my 
cell, I made many requests to go to English classes. It was only the 
week before I was released, that I was finally able to go to class. I 
was just happy to be able to pray every day.
    I was finally granted asylum in December 2000, after a year and a 
half in detention. I couldn't believe I would be released and was very 
happy. Even after I was released and was free, I would dream that I was 
still in detention. I am now living in New York City and am going to a 
local high school. I like school and am doing well. I like America, 
because I know that here, my life is protected.
    Thank you, Senators, for listening to my story. Please change the 
law so that refugees are guaranteed hearings in front of a judge and 
are not detained and not held with criminals.

    Ms. Acer. I would like to ask Nusret Curumi, an Albanian 
asylum seeker, to stand. Mr. Curumi arrived at O'Hare 
International Airport in Chicago last year and was dragged by 
his clothing by INS officers after he explained that he wished 
to apply for asylum. Despite his requests he was not provided 
with an Albanian interpreter whom he could understand, and INS 
officers yelled at him when he refused to sign documents in 
English that he could not understand.
    [The prepared statement of Mr. Curumi follows:]

            Statement of Nusret Curumi, Refugee from Albania

    In August of 2000 I fled my native Albania seeking safe haven and 
freedom of expression and political belief in the United States. In 
Albania I was arrested, threatened with death, beaten and tortured 
after I criticized the government for refusing to return money I had 
invested in a government sponsored pyramid scheme. The officers who 
arrested me, threatened to ``cut out my tongue'' for speaking against 
the government.
    When I arrived in the United States, I was shocked by what happened 
to me. My problems began at the O'Hare International Airport in 
Chicago. When I arrived and went through the immigration line, the INS 
officer who checked my passport asked me where I was going. I couldn't 
understand her. She called several other officers over. I immediately 
told the immigration officers as best I could in the little bit of 
English that I know that my passport was false and that I wanted 
asylum. Shortly afterward, four to five INS officers dragged me by my 
clothes and forced me into a room where they searched me without giving 
me any explanation of what was happening to me other than to say that I 
must talk now.
    The officers asked me what languages I spoke. I told them that I 
spoke Albanian and a little Italian. One officer knew some Italian, and 
asked me what I was doing in the United States. I tried to explain to 
him that I left Albania because the regime there was communist. The 
officer told me that ``ironically, it's also communist here.'' When he 
said that, I was afraid to respond to him and feared that he would beat 
me. ``You're going to sign here,'' he told me. I did not understand the 
document he showed me, so I wouldn't sign it. The officers continued to 
try to force me to sign the document in that room, but it was written 
in English and there was no Albanian translation, so I could not 
understand what it said. I was afraid; I didn't know what signing that 
statement would do. I feared that it could mean that I would be 
returned to Albania, where I could be jailed, tortured or killed. I 
kept telling them ``no.''
    After three to four hours of this, the officers finally got a 
translator on the telephone. However, I couldn't understand the 
translator well, as he sounded like he was Kosovar and spoke with an 
entirely different dialect than I speak. Every once in awhile I 
understood a word that he spoke, but I did not understand him well 
enough to know what was happening to me. To make matters worse, I could 
barely hear him, as he was working from his home and the conversation 
was continually interrupted by children who were yelling and arguing in 
the background. I tried to tell the translator that I could not 
understand him. I asked him to come to talk to me in person so that I 
could see him and ask him to repeat things I didn't understand. He told 
me that he was too far away and could not do that. I told him that I 
didn't understand the document they wanted me to sign. The translator 
told me that the officers were ``doing their job'' and that I should 
just sign the statement. ``How can I sign it, when I don't know what it 
says?'' I asked him.
    When I continued to refuse to sign the statement, the four 
officers, three uniformed and one in civilian clothes, stood me up and 
surrounded me. They all yelled at me for approximately one half hour, 
though I could not understand what they were saying. I said nothing 
except to try to explain in Italian, why I feared returning to Albania.
    When I still refused to sign the statement, one of the officers, 
without any explanation, took off my shoes and belt and pushed me into 
a room with two other detainees, four beds and one small window. I 
couldn't see outside, but thought that the officers might be observing 
me from the outer room. I was very afraid that I would be sent back to 
Albania.
    After about a half hour, the officers returned and brought me out 
to a different room, this time they gave me a blank piece of paper and 
told me just to write my name down. I don't understand whether they 
were just showing me what they wanted or whether they were trying to 
get me to sign. It wasn't clear. Either way, I was afraid that if I 
signed a blank piece of paper, the officers could write down anything 
they wanted and claim that I had knowingly signed it. I refused again. 
They had contacted the same Kosovar translator. I told him that I was 
exhausted from my trip and needed to sleep.
    The officers put me back in the room for about 45 minutes. Just as 
I started to fall asleep, one of the officers entered the room abruptly 
and took me back out into the room with the translator to try to get me 
to sign the document. I then refused to sign the document for the fifth 
time. 45 minutes later, I was taken to another room.
    Before I arrived at the airport, while I was in transit in Italy, I 
had called my family to tell them that I was on my way to the United 
States. As soon as he heard, my brother, Fatos, made the trip from 
Baltimore to Chicago to meet me at the airport. He arrived several 
hours after my flight landed. When he got to the airport, he looked 
around for me. Fatos was very concerned and asked a woman at the 
arriving flights information desk what had happened to me. She thought 
that I had been taken into INS custody, wrote down the telephone 
number, called it and gave Fatos the phone. Fatos spoke to the officer, 
gave his name, explained that he was looking for me and asked if they 
had any information. The INS officer told Fatos, ``Yeah, we've got 
him.'' When he learned that I had entered without a valid visa, Fatos 
asked what he should do, the INS officer told him ``Nothing. Go home.'' 
and hung up.
    Fatos waited a few minutes, went outside the airport and called 
back. An officer told him, ``Your brother has an attitude. He won't 
sign the papers.'' Fatos told him this was because I didn't know what I 
was signing. He offered to look at the papers so he could tell me 
whether or not to sign them. The officers told him that he couldn't 
come in because I was in a restricted area. He asked to speak with me. 
They told him ok, but said that I couldn't speak back to him. Then they 
told Fatos, ``Just tell him to sign.'' Fatos told the officer that he 
couldn't do that and again hung up. Finally he called back again and 
asked the officers to come outside to talk with him. When they came, 
they just told him to tell me to sign the paper. During all this time, 
no one mentioned anything about my right to seek asylum. It was Fatos, 
who came here several years ago as an asylum seeker, and has now won 
asylum, who told the officers that I should have a lawyer with me and 
that I had a right to ask for asylum. They said, ``Yeah, but he has to 
sign first.'' They said that if I didn't sign, they would send me back 
to Albania.
    My brother said that he would tell me to sign the document only if 
it was translated into Albanian. The officers went to the room where I 
was being held and left Fatos outside where he called in to speak to 
me. Fatos told me that if the document was written in Albanian to read 
it carefully and to sign it. He didn't know that the document was in 
English. I did not sign it. At that point, my brother left to find a 
hotel and a lawyer and I remained in INS custody.
    I spent that night in a locked room with the two other people who 
seemed to be in the same situation as I was. The next morning, two 
officers searched me and put me in a van. No one told me where I was 
being taken. It was the van driver who told me in Italian that I was 
going to a detention facility. I was taken to the Broadview detention 
facility where I spent the next three days, after which I was taken to 
jail. Still, no one ever told me if I had any rights or that I could 
ask for asylum. I was constantly very afraid that I would be returned 
to Albania. I learned what would probably happen next, not from any INS 
official, but from other Albanian INS detainees in the jail. They told 
me that I would probably have an interview where I could explain why I 
was afraid to return to Albania. I was kept in that jail for 10 days 
before I had that interview with INS. The same translator who I had not 
understood before was again used at my interview with the asylum 
officer.
    Once I was finally able to explain my situation to an Asylum 
Officer, I was held in INS custody for another 14 days even though my 
brother was willing and anxious to support me and take me to my 
hearings. When Fatos spoke to INS Detention officers about this they 
told him that the problem with my release was that officers at the 
airport had written that I had an ``attitude'' problem and refused to 
sign the documents they had given me. It was only after numerous phone 
calls made by my brother Fatos and his girlfriend, who is a U.S. 
citizen, that I was able to be released. Even when the officer told my 
brother that I would be released, he said that he couldn't tell him 
when.
    I don't understand why the INS treated me the way they did. I don't 
believe that it is right that they should try to force me to sign a 
document without translating it first. I was afraid during the entire 
ordeal with U.S. immigration that I would be sent back to be tortured 
and killed in Albania.
    Even though I am only an Albanian and a refugee in this country, I 
hope you will believe me. You may not understand how things are in 
Albania or what happened to me when I arrived in the United States. In 
order to get a valid passport in Albania, I would have had to pay more 
than $12,000; money I don't have. This is how corrupt the Albanian 
government can be. I was desperate. I was afraid for my life. I had to 
flee. I could not have gotten a passport legally even if I had the 
money because I would have risked being arrested and beaten by 
government officials for trying to leave the country. There weren't 
very many options for someone in my position.

    Ms. Acer. Many who seek asylum in this country are 
survivors of torture. Dr. Allen Keller, the director of the 
Bellevue NYU Program for Survivors of Torture, has prepared 
written testimony on behalf of his program, as well as 
Physicians for Human Rights and the National Consortium of 
Torture Treatment Programs. In that testimony, he details the 
difficulties that torture survivors face in speaking about 
their persecution and the difficulties that they face under 
expedited removal, as well as under the 1-year filing deadline 
and detention practices. I would like to request that Dr. 
Keller's statement be made part of the record as well.
    Chairman Brownback. Without objection.
    [The prepared statement of Dr. Keller follows:]

   Statement of Allen S. Keller, M.D., c/o Division of Primary Care 
    Medicine, New York University School of Medicine, New York, N.Y.

    On behalf of the Bellevue/NYU Program for Survivors of Torture, the 
National Consortium of Torture Treatment Programs and Physicians for 
Human Rights, I am submitting this statement in strong support of the 
Refugee Protection Act. This legislation is essential in addressing the 
ill effects of current immigration policy, which fundamentally 
undermines the rights and safety of refugees and asylum seekers coming 
to this country seeking protection.
    I have more than 15 years experience in working with and caring for 
refugees and asylum seekers. In 1985, I worked as a medical volunteer 
with the American Refugee Committee in a refugee camp along the Thai-
Cambodian border. I am the founder and director of the Bellevue/NYU 
Program for Survivors of Torture. This program is jointly sponsored by 
New York University School of Medicine and Bellevue Hospital, the 
nation's oldest public hospital. The Bellevue/NYU program provides 
comprehensive medical, psychological care and social services to 
victims of torture and refugee trauma. Since the program began in 1995, 
we have cared for nearly 600 men women and children from over 50 
different countries.
    I am on the Executive Committee of the National Consortium of 
Torture Treatment Programs. This consortium consists of 23 treatment 
centers throughout the United States who provide care to survivors of 
torture and refugee trauma. The oldest torture treatment center in the 
United States is the Center for Victims of Torture, which was started 
in 1985 and is located in Minneapolis, Minnesota.
    I am on the international advisory board of Physicians for Human 
Rights (PHR). PHR has a network of health professionals who voluntarily 
provide medical and psychological evaluations for survivors of torture 
and other human rights abuses applying for political asylum in the 
United States. I have participated in this asylum network since 1992 
and have conducted nearly 100 evaluations of asylum seekers. I have 
also participated in a number of PHR investigations including 
documenting the medical and social consequences of land mines in 
Cambodia (1993), a high incidence of torture among Tibetan refugees who 
fled to Dharamsalla India (1997), and patterns of human rights abuses 
among Kosovar refugees (1999).
    Torture is a worldwide health and human rights concern and is 
documented to occur in more than 90 countries worldwide. Survivors of 
torture arriving in this country have been persecuted for daring to 
question ruling powers, for expressing religious beliefs, or simply 
because of their race or ethnicity. For example, among the patients I 
have cared for are monks and nuns from Tibet, student leaders from 
Africa, and ordinary citizens from Bosnia.
    Torture can have devastating physical and psychological 
consequences. I have seen the scars from shackles, the marks from 
cigarette burns inflicted during interrogation and the wounds and 
broken bones from severe beatings. I have listened to stories of shame 
and humiliation, of haunting nightmares, and memories that will not go 
away. One patient of mine, for example, who was repeatedly submerged in 
a vat of water while being interrogated, would feel like he was gasping 
for air whenever he showered or went out in the rain.
    As a physician caring for survivors of torture and refugee trauma, 
I am very concerned about the current immigration policy of expedited 
removal, which provides for the immediate deportation of individuals 
who arrive without valid travel documents. Not surprisingly, torture 
victims often have to flee their countries without such documents since 
it is the torturers who control them.
    I have come to appreciate the extraordinary difficulty asylum 
seekers and refugees have in recounting their traumatic experiences, 
even months or years after the events took place. Individuals may have 
difficulties remembering all of the specific details of their trauma, 
either because they are trying to block out these disturbing memories, 
or because they may have been subjected to extreme conditions such as 
repeated episodes of torture/abuse, imprisonment under poor conditions 
(including deprivation of sleep, light, and food), which may make it 
difficult for them to remember all of the details. Individuals may feel 
very anxious about not being able to remember everything. Additionally, 
individuals may have suffered neurological impairments such as 
cognitive deficits or hearing/visual loss from head trauma, or they may 
be experience significant physical symptoms such as musculo-skeletal 
pain from prior beatings, which impedes on their ability to effectively 
communicate.
    Describing prior disturbing events under any circumstances can 
evoke symptoms of anxiety including fear, nervousness, palpitations, 
and dizziness. In fact, one of the hallmarks of Post-Traumatic Stress 
Disorder, which is a form of anxiety, is a trying to avoid thinking 
about the traumatic events. Furthermore, individuals may have strong 
feelings of shame and humiliation in recounting certain events such as 
sexual assault. Also individuals may have feelings of guilt from having 
escaped while friends and family did not. Individuals who recount 
events subsequently often have difficulty sleeping and recurrent 
nightmares of the events.
    For these reasons, many individuals want to avoid discussing their 
trauma. An asylum seeker may find recounting events to an immigration 
officer, immediately upon arrival after a long and difficult trip and 
in a foreign language, often without assistance, to be particularly 
stressful. A refugee's inability or extreme reluctance to tell of their 
experience under such circumstances is understandable. Unfortunately, 
such reluctance can be mistaken for a lack of credibility, especially 
by someone who does not have experience evaluating survivors of 
torture. Under current immigration policy, which allows for expedited 
removal, I am concerned that survivors of torture and other traumatic 
events are being turned back by INS inspectors at airports or other 
points of entry.
    The current law requiring individuals to apply for asylum within 
one year of arriving in this country also poses an unfair burden on 
asylum seekers. Many of the individuals I have evaluated and cared for 
are not aware of this policy. Others are not able to testify within one 
year because of the psychological and emotional consequences of their 
abuse.
    For example, one woman I cared for before the 1996 law went into 
effect was arrested in her country after participating in a pro-
democracy demonstration. During the course of her incarceration, she 
was repeatedly raped by police, who told her they were ``going to teach 
her a lesson for participating in such activities.''
    She once told me that she wasn't going to apply for asylum because 
she couldn't bear to have to tell her story. It was only after a 
trusting, therapeutic relationship with her was established that she 
was able to reveal the events of her abuse. It would have been 
psychologically devastating for her to have to recount these events 
immediately upon her arrival in this country, or even within a year of 
arrival. In all likelihood, she would have been unable to meet the one-
year filing deadline.
    Another area of concern with current immigration policy is 
imprisoning arriving asylum seekers in INS Detention Facilities, 
including county jails, pending adjudication of their asylum cases. 
This can often take months or years. Prior to being transferred to 
detention facilities, asylum seekers are often held at airports for 
several hours in hand cuffs and leg shackles. Individuals are 
subsequently kept in these restraints while being transported to 
detention facilities and at other times as well, including, in some 
instances, during their asylum hearings. Imprisonment and treating 
asylum seekers like criminals is retraumatizing and can have harmful 
effects on their physical and emotional well being. Many of the INS 
Detention Centers are windowless warehouses with little or no 
opportunity for detainees even to see the light of day. Imprisonment 
and such deprivation can result in exacerbating disturbing memories and 
nightmares of abuse the asylum seekers had suffered previously. 
Depression can be caused by detention and feelings of isolation, 
hopelessness and helplessness.
    Asylum seekers may experience worsening of physical symptoms, 
including musculoskeletal pain, because of their restricted activity. 
Somatic symptoms, such as headaches, stomach aches and palpitations can 
also result from detention.
    For example, Patrick is a young man from an African country. He 
witnessed his father beaten and killed for being a member of an 
opposition political party. Patrick was subsequently imprisoned and 
repeatedly tortured. He later escaped, and eventually made his way to 
this country. An INS asylum officer interviewed him. Patrick was tired, 
scared, and neither spoke English well nor adequately understood the 
process. The asylum officer wrongly concluded--in an interview 
conducted without an interpreter that Patrick was not from Congo 
because he could not speak French. The INS ordered that Patrick be 
deported. An immigration judge--in a ``review'' in which Patrick was 
unaided by counsel or an interpreter--failed to correct the asylum 
officer's mistake. Subsequently, Patrick was shackled and placed on a 
plane back to his country. As he was being dragged onto the plane he 
was crying and saying, ``Please, America is a human rights country. Why 
do you want to deport me? I don't want to be killed.'' Fortunately for 
Patrick, the plane's pilot heard his cries and refused to take off.
    Shortly after that incident, I examined Patrick in an INS Detention 
Facility. He had scars from where the shackles had been applied both in 
his country as well as ours. Subsequently, he remained in detention for 
more than 3 years. During that period, Patrick suffered from 
significant periods of depression and anxiety, for which he was 
inadequately treated. He frequently experienced extreme difficulty 
sleeping and nightmares of the abuse he had suffered in his country. He 
also frequently suffered from muscle aches, headaches and palpitations. 
I believe these symptoms resulted from his imprisonment here.
    After more than three years, Patrick was granted asylum and 
released. He is now working and making productive contributions to our 
society, though he still experiences nightmares and disturbing memories 
both of the abuse he suffered in his native country as well as his 
imprisonment upon arrival in our country.
    Another asylum seeker detained by the INS, whom I recently 
interviewed, had been brutally beaten by authorities in his native 
country because of his ethnicity. ``I came to America to be free,'' he 
told me. ``I came here to find peace and to live in peace. I never 
expected to be put in jail. They don't call it jail, they call it 
detention. But it is jail. Being in this jail reminds me a lot about 
what happened to me in my country. If I were free, I could be doing 
normal activities and I wouldn't think so much about what happened. I'm 
not saying these things would be eliminated, but I would feel much 
better because I am a free person.''
    While in INS Detention, many asylum seekers are held in county 
jails, again demonstrating that asylum seekers are treated like 
criminals. Many asylum seekers have never been in prison before. 
Furthermore, authorities in detention facilities utilize segregation 
(solitary confinement) or the threat of segregation as a means of 
behavior control. This is particularly cruel given that many 
individuals who were imprisoned and tortured in their own countries may 
have been placed in solitary confinement as part of their abuse.
    One detainee I interviewed described this: ``I saw an officer 
searching the bags of one of the detainees. Another detainee asked the 
guard not to search the man's bag without him being there. The officer 
called another officer and they took the detainee who had objected to 
the search away. He was in segregation for 3 days. I felt very sorry 
for that man. They showed him no respect. This is not how to treat 
another human being, and certainly no reason to put him in segregation. 
It made me sad and worried for myself. Could something like that happen 
to me?''
    Another detainee I interviewed recounted this event. ``One day, a 
guard was doing a bed count in my bunk. One of the other men in the 
bunk asked him why they were doing that since they had just counted. 
That was all he said. The guard came back with several other guards, 
put my bunkmate in handcuffs and took him away. He was there for four 
days. There are some people in isolation for a month or a month and a 
half.'' They subsequently had a hearing, and realized he hadn't done 
anything wrong and released him. But that was after four days. The 
guards like to threaten people with segregation. People get very scared 
of segregation because it is a room where you are by yourself, and it 
is small and very cold.''
    Treating individuals who have suffered horrific human rights abuses 
like criminals is morally reprehensible and can have harmful effects on 
their health. Furthermore, while in detention, asylum seekers often 
have difficulty accessing health services, particularly mental health 
services, which are essential to their recovery from the traumatic 
events they have suffered.
    Among the individuals being detained in these adult facilities are 
children, who given their youth, may be even more vulnerable to the ill 
effects of detention including worsening of symptoms of depression and 
anxiety. Furthermore, it is troubling that the INS is relying on dental 
x-rays to make determinations of the age of individuals. Such 
examinations are subject to variability. Even in the case of the most 
skilled individual performing age determination, the age range 
specificity is fairly wide and may be plus or minus 3 years or more for 
individuals between 16 and 18 years old.
    The Bellevue/NYU Program for Survivors of Torture, in collaboration 
with Physicians for Human Rights, is currently conducting a study 
evaluating the health status of asylum seekers held in detention by the 
INS. The results of this study will be available by the early fall.
    Current immigration policy poses an unfair and unhealthy burden on 
survivors of torture and other victims of human rights abuses who come 
to the United States seeking safety and political asylum. In our zeal 
to make our borders secure, we cannot--we must not forget who we are. A 
country of immigrants. A country of refugees.

    Ms. Acer. Given the fact that many asylum seekers have fled 
from often unspeakable torture and persecution, one would think 
that they would be treated with courtesy and professionalism. 
While we understand that the pressures on immigration 
inspectors are substantial and that the time pressures that 
they are under may affect their ability to treat people as 
hospitably as we might wish, there is no justification for the 
abusive treatment that many asylum seekers encounter.
    We have been told by asylum seekers who have arrived at 
airports across the country that they have been handcuffed, 
shackled, screamed at, sworn at, laughed at, intimidated, 
kicked, or pushed.
    One woman from Congo, who has since been granted asylum, 
was called a liar, laughed at, and kicked after she became 
dizzy and collapsed on the floor. Finally, another INS officer 
interceded and, realizing she was ill, called an ambulance for 
her.
    I would like to ask Fahim Danusmondi, a refugee from 
Afghanistan, to stand. Fahim was 19 when he arrived, 
traumatized by the recent killing of his father and separation 
from his mother and sister. When he told an INS officer that he 
did not have a passport, the officer jumped at him, pushed him, 
grabbed his pants and pulled them down, apparently looking for 
documents. He was chained to a bench for 25 hours. After 5 
months in detention, he was granted asylum.
    I would like to ask Amin Al-Torfi, a torture survivor from 
Iraq, to stand. Amin fled to this country after he and his 
family were persecuted by Saddam Hussein's regime because of 
their political and religious beliefs. At the airport, he was 
told that he would have to wait 3 days to get an Arabic 
interpreter. He was shackled by the leg to a bench for 8 hours, 
strip-searched, and led like a criminal, handcuffed to another 
asylum seeker, through the airport in front of other 
passengers. After 5 months in detention, Ami was granted 
asylum.
    [The prepared statement of Mr. Al-Torfi follows:]

             Statement of Amin Al-Torfi, Refugee from Iraq

    Chairman Brownback and other Senators, thank you for the 
opportunity to submit this statement about my experience as a refugee 
who sought asylum in this country. I was granted asylum in the United 
States on December 20, 2000.
    My name is Amin Al-Torfi, and I am from Iraq. I fled to this 
country after I was persecuted by Saddam Hussein's regime for my 
political opinion, my religious beliefs, and because of the political 
activities of my family. We are Shi'a Muslims from the South, and my 
father was an imam. Since the start of the Hussein regime, Shi'a 
Muslims have been persecuted as a minority group. In 1991, after the 
Gulf War, there was a major uprising against Saddam Hussein's regime. 
People hoped to change the government, and several of my family members 
were involved in an opposition political party. As a result, my 
brother, uncle and several cousins disappeared. I later learned that my 
brother and uncle had been killed. At that same time, the secret police 
also arrested my father and another brother, and detained them 
incommunicado for two years.
    In 1996, the secret police arrested me at my high school. I was 17 
years old. I was detained for three months, interrogated, accused of 
political activities against the Hussein regime and tortured.
    In 1999, my father preached against Saddam Hussein at the mosque. 
That year, while I was enrolled at college studying electronics, I 
joined a student organization which was affiliated with an opposition 
political party. I hoped to change the government so there would be 
democracy, religious freedom and respect for human rights. In February 
1999, there was a government crackdown against opposition activities. 
During this time, the secret police arrested my father and brother, and 
searched for me as well. I was forced to go into hiding for several 
months, fearing for my life. Thankfully, I was able to flee to the U.S. 
I had always known that the United States was a country that respected 
human rights and democracy. That's why I came here, to be safe from 
torture.
    I arrived in the U.S. in July 2000. Because it was impossible to 
obtain valid travel documents from the government that was persecuting 
me, I had no other choice but to use a false passport to attempt to 
enter the United States. At JFK airport, I requested asylum. I was sent 
to the secondary inspection area where I was interviewed in the open in 
front of 25 to 30 other passengers. At that time, I spoke little 
English. I requested an Arabic interpreter, but was told that there was 
none available, and that if I wanted to continue with the interview in 
Arabic, I would have to wait as long as three days at the airport until 
an interpreter was available. I was uncomfortable explaining my 
situation in English because I was afraid the officer would not 
understand what I was saying, and that I would be sent back to Iraq. It 
was also very difficult to explain my story in front of many other 
people. (When I later reviewed the transcript from my airport 
interview, it was listed that the officer asked me if I preferred to 
continue with the interview in private, though he had not asked me this 
question).
    After the interview, I was handcuffed by INS officers, and the 
handcuffs were attached to a chain around my waist. I thought that 
there was a mistake, that the INS officers did not understand that I 
was an asylum seeker. I asked why I was being handcuffed, and tried to 
explain that I was not a criminal. But the officer told me that it was 
the law. I was taken to another room, where I was shackled by the leg 
to a bench for eight hours. During this time, I was strip-searched by 
two guards. Afterwards, I was taken to the Wackenhut Detention Facility 
in Jamaica, NY. I was lead, handcuffed to another asylum seeker, 
through the airport where other passengers could see me.
    I was detained at the Wackenhut Detention Facility for about five 
months. Before I arrived, I expected it would be like a refugee camp 
where I would be free to come and go while applying for asylum. 
Instead, it was a prison. I couldn't believe it. I thought my eyes were 
seeing wrong. No one explained to me why I was there, or how long I was 
going to be there.
    When I arrived the officers took all my clothes and gave me orange 
prison clothing. They also took all of my personal belongings. I was 
fingerprinted and photographed. Then they sent me to my dorm.
    My dorm held up to forty other asylum seekers. There were five 
showers and four toilets, all of which were out in the open, and close 
to our beds. There was no privacy. There was a television, four phones, 
and eight tables where we ate all of our meals. There were no windows. 
We remained in this room for twenty-three hours a day. We were allowed 
out for one hour each day to go to ``indoor recreation,'' a windowless 
room where we could play basketball or use an exercise machine. There 
was nothing to do, and many of us suffered from boredom and depression. 
I spent my time thinking about my future, how long I was going to be in 
detention, how I could be released. I felt at that time, my life had 
stopped, that I was living like a plant: I couldn't move. It was very 
sad, and silent, and hopeless. I felt very isolated. My only break from 
this routine came from 11 p.m. to 2 a.m. five days per week when, for 
$1.00 per day, I and other detainees performed sanitation duty in 
certain areas of the facility.
    Most days, the food was served in small portions, so that I was 
often hungry. Over the course of my detention, I lost ten pounds.
    The asylum seekers at Wackenhut were treated like criminals. Our 
beds were searched three times each week, and guards patted us down 
every time we exited or entered the dorm for visits with our attorneys, 
to see the facility doctor or for our hour of recreation.
    Luckily, the Lawyers Committee for Human rights took my case, and 
found pro bono attorneys for me from the firm of Strook & Strook & 
Lavan. Because of their efforts, I was granted asylum in December 2000, 
after about five months in detention. I now live in New York City and 
work to help other refugees at the Hebrew Immigrant Aid Society. I 
would like to continue my studies in electronics and to work side by 
side with other Americans for U.S. improvement.
    I want to thank all of the Senators for giving me the opportunity 
to share my experience as a refugee in the United States. When I was 
detained by INS, I felt sadness and pain. Asylum seekers who flee 
torture and death in their countries should not be treated as I was. I 
hope that my testimony helps you to improve the system so that future 
refugees are not detained and are treated fairly.

    Ms. Acer. Also with us today is a man who we will call 
``Michael Antoun'' in order to protect his family members at 
home. Mr. Antoun is a Coptic Christian who fled religious 
persecution in Egypt. He was so intimidated by his treatment at 
the airport that he was afraid to request asylum and was 
actually scheduled to be deported to his country of 
persecution, until he luckily spoke with his sister, who 
reminded him of the dangers he would face. After 5 months in 
detention, he was granted asylum. Please note that Mr. Antoun's 
name has been supplied in confidence to the subcommittee, and 
we would like to request that Mr. Antoun's statement, as well 
as those of the others mentioned, be submitted into the record.
    Chairman Brownback. Without objection.
    [The prepared statement of Mr. Antoun was not available at 
the time of printing.]
    Ms. Acer. Even the next stage of the expedited removal 
process, the so-called credible fear process, which does offer 
some additional protections, lacks essential procedural 
safeguards. The only oversight of these determinations is a 
highly expedited review by an immigration judge, which must 
take place within 7 days, leaving little time for a refugee to 
find a lawyer or to gather additional evidence, and no other 
avenue of appeal. Patrick Mkhizi will testify later today about 
the INS' attempt to deport him after a mistaken determination 
that he did not meet that standard.
    I would now like to ask a woman whom we will call 
``Aracelis Gonzalez,'' in order to protect her identity and 
that of her children, to stand. She fled here after suffering 
brutal abuse and domestic violence, but she was ordered 
deported under expedited removal last year because the INS 
officers who interviewed her and the judge who conducted a very 
expedited review believed that she would not be able to make a 
case for asylum. She was spared deportation following the 
extraordinary efforts of Senator Leahy and several Members of 
Congress who wrote to the INS Commissioner expressing concern 
about the decision to deport her.
    [The prepared statement of Ms. ``Gonzalez'' follows:]

 Statement of ``Aracelis Gonzalez'', Asylum Seeker from the Dominican 
                                Republic

    Chairman Brownback and other Senators, thank you for the 
opportunity to submit this statement about the experience of refugees 
who seek asylum in this country. I am a refugee and an applicant for 
asylum in the U.S.
    I appreciate your cooperation in keeping my identity confidential, 
to protect my privacy and the safety of my children and my mother back 
home.
    I fled to the United States in last summer to escape from brutal 
domestic violence. For years, the man I lived with as my husband beat 
me, raped me, and threatened me with death. I could find no protection 
against him in my country. When I arrived in New York, I was sent to 
the Wackenhut Detention Center in Queens. Difficult and strange as 
detention was, at least I knew that I was safe. For the first time in 
years, I could sleep through the night in peace.
    But when I got the results of my credible fear interview, I found I 
had been ordered deported under expedited removal. The asylum officers 
who interviewed me said they found me credible and said that the harm I 
had suffered rose to the level of persecution. But they did not think I 
could claim asylum as a victim of domestic violence. A ``review'' was 
held within a few days, and the immigration judge did not change the 
INS decision. I was told I was being sent back to the Dominican 
Republic. I was terrified that my husband would kill me if I were sent 
back.
    I was saved thanks to the intervention of Senator Leahy and several 
members of Congress, who wrote to the INS and expressed concern about 
the decision to deport me without giving me a full hearing. After 
several months in detention, I was paroled in December 2000. I am now 
living with family while I wait for a hearing on my asylum case.
    I would like to thank those who helped save me from expedited 
deportation and to thank all of you, Senators, for giving me the 
opportunity to tell you about my experience. I hope you will improve 
the system so that other refugees who come here in fear for their lives 
are not sent back without a full hearing before an immigration judge.

    Ms. Acer. Although we should all be deeply disturbed by the 
manner in which asylum seekers are being treated under these 
provisions of law, we should not be surprised. Expedited 
removal is a system designed to fail, and to fail those we most 
want to protect. In 1996, when it was considered whether to 
adopt this system, the Senate rejected it as unfair, 
unnecessary, and a betrayal of American values. We agree.
    So, too, do others. The bipartisan Commission on 
Immigration Reform and the Advisory Committee on Religious 
Freedom Abroad to the Secretary of State have both recommended 
that expedited removal be repealed. The decision to deport an 
asylum seeker should only be made by a trained immigration 
judge in a fair proceeding that affords the person fundamental 
due process protections. Expedited removal should be used, if 
at all, only in extraordinary migration situations, and 
additional safeguards should be included in those situations 
where it is authorized.
    Under expedited removal, asylum seekers are subject to 
mandatory detention, and although they are eligible for parole 
once they successfully pass through that credible fear 
screening process, the parole decision is entrusted to the 
unreviewable discretion of local INS officials, who often 
administer this power in an arbitrary manner. There is no 
appeal of their decisions to an independent authority, not even 
to an immigration judge. Deserving refugees are denied parole 
even when they are deemed credible and have verifiable 
community ties.
    We will hear in a minute from a woman from Afghanistan who 
will explain how she was denied parole even though she has a 
U.S. citizen sister. Another client of the Lawyers Committee, a 
rape survivor who had been studying to become a nun in Congo, 
was denied parole even though a Catholic convent in New Jersey 
had agreed to house and support her.
    I would like next to ask Jean-Pierre to stand. The 7-month 
detention of this refugee, who had lost part of his leg as a 
result of the torture he had suffered, underscores the cruelty 
of our detention system. Jean-Pierre was a student activist in 
his home country and was arrested and repeatedly tortured 
there. When he fled for his life to the U.S., he was greeted 
with handcuffs at the airport. When he asked if it was a crime 
to ask for asylum, the INS officers told him ``this is the 
law.'' He was--
    Chairman Brownback. What is his home country?
    Ms. Acer. Cameroon. He was just granted asylum last week 
and was finally released after 7 months in detention, and he is 
here with us today. I would like to request that his statement 
as well be introduced into the record.
    Chairman Brownback. Without objection.
    [The prepared statement of Mr. Kandem follows:]

         Statement of Jean-Pierre Kamdem, Refugee from Cameroon

    Chairman Brownback and other Senators, thank you for the 
opportunity to submit this statement about the experience of refugees 
who seek asylum in this country. I am a refugee and have been granted 
asylum in the U.S.
    I was an activist for students' rights in Cameroon and was 
arrested, jailed, and tortured for criticizing my government. As a 
result of my torture I lost one of my legs. I fled the country after I 
narrowly escaped being arrested again for my political activities.
    When I arrived at J.F.K. Airport I explained my situation to the 
INS inspectors and explained that I was seeking asylum. After they took 
my statement, they put me in handcuffs. I was very surprised by this. I 
remember asking one of the officers whether it was a crime to ask for 
asylum. He replied: ``This is the law.'' After that they brought me to 
a detention center in New Jersey. I was even more surprised to be taken 
to a place where they took away my clothes and gave me the uniform of a 
prisoner.
    The concept of ``detention'' was new to me, because in Cameroon I 
had only experienced prison. I was not sure what to make of my status 
as an INS detainee. But then one day as I was watching television in 
the detention center, I saw a report on the news about a crime that had 
been committed. The criminal appeared on television, and he was wearing 
a uniform just like mine.
    I saw little difference between the deprivation of liberty we 
experienced in INS detention and prison. Of course it was very 
different from the experience of prison in my country. In Cameroon, 
prison means torture and terrible conditions that affect one so much 
physically that one does not have time to consider one's psychological 
suffering. There were problems with the conditions of detention in the 
U.S. as well-the routines were demeaning, I was unable to get exercise 
adapted to my condition, I suffered from insomnia and constant 
headaches under the harsh electric lighting, and there were basically 
no educational opportunities and few distractions from the stress and 
uncertainty of our condition. But the moral torment was the worst 
aspect of the experience. During my seven months in detention I 
wondered often about the long-term consequences of existing under that 
level of stress for such a length of time. I worry about this still. My 
help and consolation in detention was my religious life, and the 
support I received from a Catholic priest who visited me and other 
detainees regularly.
    I think that if I had in fact committed a crime, I would have found 
detention easier to bear. But I knew that asking for asylum was a right 
under international law. In my country, when I used to think about 
international law and human rights, the United States was the first 
country I associated with those ideals. What I experienced when I 
arrived here did not correspond to the vision that those outside of the 
United States have of this country.
    Two weeks ago I was granted asylum and released from detention. Now 
that I am free I feel full of hope. I am looking forward to beginning a 
new life in this country and resuming my interrupted education.
    I would like to thank you, Senators, for giving me the opportunity 
to describe my experience. I hope you will improve the system so that 
other refugees who arrive in this country seeking asylum in the future 
do not have to experience detention.

    Ms. Acer. Decisions to detain asylum seekers should not be 
entrusted to the discretion of local INS officials. Detention 
and parole decisions should be made pursuant to legally binding 
regulations, and they should be automatically and promptly 
referred for review to judicial or other competent and 
independent authority. In addition, the use of alternatives to 
detention should be maximized.
    I am going to talk for a few minutes very briefly about the 
asylum filing deadline. Since that deadline took effect, more 
than 10,000 asylum seekers have had their claims rejected by 
the INS. The Lawyers Committee has heard of many bona fide 
asylum seekers whose claims have been rejected since that 
deadline became effective.
    For instance, the asylum claim of a torture survivor and 
student activist from Burma was denied by an immigration court 
in California based on the deadline, even though the judge 
believed he was credible and otherwise eligible. He did not 
apply for asylum earlier because he hoped that the situation in 
his country would improve so that he could return to his 
family.
    Earlier this week, a Virginia immigration judge denied 
asylum to a woman from Afghanistan based on the asylum filing 
deadline, even though he concluded that her fear of being 
subject to an honor killing in Afghanistan was credible.
    I would like to ask Anna Smirnova, a refugee from Russia, 
to stand. The INS is currently contesting her grant of asylum 
on the ground that her claim is barred by the filing deadline. 
As she describes in her written statement, she missed the 1-
year deadline due to the burdens of pregnancy, a physical 
condition that should certainly have satisfied one of the 
exceptions to the deadline, and the results of the burden of 
caring for a new infant as a single mother. And, like many 
refugees, she was unaware of the deadline.
    [The prepared statement of Ms. Smirnova was not available 
at the time of printing.]
    Ms. Acer. Even refugees who do not file within 1 year have 
had their cases rejected by the INS because it claims asylum 
seekers do not have enough evidence to prove they have 
complied. For instance, the claim of Makani Jalloh, a torture 
survivor and mother from Sierra Leone, who applied shortly 
after her arrival in this country, was rejected, placing her 
and her two children into deportation proceedings. With the 
help of pro bono lawyers, Makani and her children eventually 
won asylum.
    [The prepared statement of Ms. Jalloh follows:]

         Statement of Makani Jalloh, Refugee from Sierra Leone

    Chairman Brownback and other Senators, thank you for the 
opportunity to submit this staatement about the experience of refugees 
who seek asylum in this country. I am a refugee and I have been granted 
asylum in the U.S.
    My husband and eldest son were murdered by the rebel forces of the 
Armed Forces Revolutionary Council and the Revolutionary United Front 
during an attack in December of 1998. After brutally attacking and 
beating me and making further threats towards the rest of the family, 
the rebels left our home. After the rebels murdered my husband and my 
son, I fled with my three children. Fearing for my safety and the 
safety of my children because of the rebels' attacks, I decided the 
only way that I could guarantee my family's security was to flee the 
country.
    I arrived in New York in July 1999. After I explained my past 
terror, a friend suggested that I should apply for asylum and he helped 
me draft my initial asylum application that I submitted in August 1999, 
nearly one month after my arrival. It is my understanding that my 
initial asylum request was denied because the government does not 
believe that I applied for asylum within one year of arriving. However, 
this is not true. I applied for asylum within six weeks of arriving in 
the United States.
    The INS placed me and my two children into deportation proceedings. 
I then learned about the Lawyers Committee for Human Rights, which 
found pro bono attorneys to take on my case. With the help of my pro 
bono lawyers, I and my children eventually won asylum before an 
immigration judge.
    Thank you, Senators, for giving me the chance to tell you what has 
happened to me. I hope that you can change the law so that refugees do 
not have a one year filing deadline when they apply for asylum.

    Ms. Acer. While a 1-year filing deadline may not seem 
unreasonable at first, a closer examination of the reality that 
faces many refugees when they arrive in this country makes 
clear that a deadline is indeed very difficult for many 
deserving refugees to meet. They may arrive here unable to 
speak English, unfamiliar with our legal system, unable to 
afford food and housing, let alone legal counsel, and often 
suffering from the effects of torture and persecution. The 
asylum filing deadline should be repealed so the deserving 
refugees should not be denied access to the system.
    I want to talk for just 3 minutes on the cap on asylee 
adjustments. When refugees are granted asylum, they are 
entitled under our law to apply for legal permanent resident 
status 1 year after their grant of asylum. But the annual cap 
on the number of asylees who may adjust means that refugees now 
have to wait several years to receive their legal permanent 
resident status. The law firm of Akin, Gump, Strauss, Hauer and 
Feld has prepared an excellent background memorandum on this 
issue, and I would ask that the paper be submitted into the 
record.
    Chairman Brownback. Without objection.
    [The memorandum follows:]

 Statement of Akin, Gump, Strauss, Hauer & Feld, L.L.P., Attorneys at 
Law, a Registered Limited Liability Partnership, Including Professional 
                              Corporations

                               MEMORANDUM
  TO:  Members of the United States Senate Subcommittee on Immigration
                         FROM:  Reed L. Russell
                         DATE:  April 25, 2001
 RE:  Elimination of the Cap on Adjustment of Status for Asylees Under 
         Section 209(b) of the Immigration and Nationality Act

    This memorandum advocates changing an arbitrary and ill-considered 
immigration statute, section 209(b) of the Immigration and Nationality 
Act (``INA''). Because of this statute, over 50,000 aliens lawfully 
admitted to the United States under grants of asylum are currently 
waiting to have their applications for lawful permanent residence 
status processed and, therefore, effectively being denied the 
opportunity to become active and productive members of our society.
    Under section 209(a) of the INA, an individual lawfully admitted to 
the United States as a refugee or through a grant of asylum must remain 
in the country for one year before he or she may apply to adjust his or 
her status to that of a lawful permanent resident. 8 U.S.C. 
Sec. 1159(a). However, there is an additional cap under section 209(b) 
that limits to 10,000 the number of asylees that may adjust status each 
year to become permanent residents, regardless of the number granted 
asylum. 8 U.S.C. Sec. 1159(b).
    The cap had no practical impact before 1995, because the number of 
asylees never reached 10,000.\1\ However, in 1995, the INS imposed 
significant reforms in the asylum process to counteract rampant fraud 
in applications and to streamline procedures. See United States DOJ, 
INS, Asylum Reform: Five Years Later (Feb. 1, 2000) (``Asylum 
Reform''). As a result, significantly fewer applications are filed each 
year but the number of grants now exceeds 10,000 annually. See id. 
Because that number exceeds the cap imposed by section 209(b), the 
statute has created a significant backlog in the processing of 
applications for permanent residence. Estimates from the INS as of 
March 31, 2001 place the backlog at 57,680 persons. Thus, given the 
10,000 person per year cap, someone granted asylum today will not be 
able to adjust his or her status to that of a permanent resident for at 
least six years.
---------------------------------------------------------------------------
    \1\ The cap was raised from 5,000 to 10,000 in 1990. See Pub. L. 
101-649, Sec. 104(a)(1) (1990).
---------------------------------------------------------------------------
    These individuals already have passed through a rigorous process 
that allows for grants of asylum only to those persons who come from 
countries with truly intolerable human rights conditions and who pass a 
criminal background investigation. See 8 C.F.R. Sec. 213. However, 
because of the delay in obtaining permanent residency, these lawfully 
admitted aliens often face significant difficulty obtaining employment. 
Moreover, they suffer the continued anxiety of not knowing whether they 
will be allowed to remain in the United States based on their asylum 
status.\2\ Finally, this delay also postpones these individuals' 
integration into society as citizens, because they cannot apply for 
citizenship until five years after obtaining lawful permanent residency 
status.
---------------------------------------------------------------------------
    \2\ Asylum status can be terminated in some circumstances even 
after it has been formally granted. See 8 U.S.C. Sec. 1158(c)(2)(A).
---------------------------------------------------------------------------
    This statute is irrational and unsupportable for at least three 
reasons. First, although it properly allows the processing of refugees 
based on the rational criteria of the number admitted each year, the 
statute inexplicably denies the same common-sense treatment to asylees 
by imposition of the 10,000-person cap. This is so even though the 
basic standard for admission is the same for refugees and asylees: an 
inability or unwillingness to return to the home country due to 
``persecution or a well-founded fear of persecution on account of race, 
religion, nationality, membership in a particular social group, or 
political opinion.'' 8 U.S.C. Sec. 1101(a)(42). Thus, the system for 
admitting refugees encourages their integration by allowing a refugee 
to obtain permanent residency within two years of arrival,\3\ while it 
delays that process for six years for individuals who receive grants of 
asylum, even though the basis for granting them admission to the United 
States could very well be identical. This situation is nonsensical at 
best and punitive at worst and it should be eliminated.
---------------------------------------------------------------------------
    \3\ The asylee must wait one year before applying for the 
application and then the application process takes approximately one 
year once it begins.
---------------------------------------------------------------------------
    The second reason the cap should be eliminated is that it creates 
an unnecessary administrative backlog and delays the orderly processing 
of applications for permanent residence. Individuals granted asylum 
have already been screened through a rigorous process where they must 
submit testimonial and/or documentary evidence supporting their claims 
and respond to questions by a trained asylum officer in an interview 
that often lasts at least one hour and in some cases two or more hours. 
Indeed, in some cases asylees must prove the bona fides of their claims 
in immigration court. Moreover, applicants must submit to a criminal 
background investigation. As evidence of the rigorous standards 
applied, a February 2000 report shows that even after reforming the 
system to eliminate most fraudulent claims, the INS still grants less 
than 40 percent of applications for asylum. See Asylum Reform, supra. 
Finally, the arbitrary cap creates an unnecessary strain on INS's 
scarce resources, which could be applied to enforcement or other 
immigration needs. Instead, these resources are allocated to manage a 
backlog of thousands of asylees that otherwise would be moving through 
the system in an orderly fashion. Individuals granted asylum already 
have established themselves as credible and free of a criminal 
background. Forcing them to wait beyond the statutory one-year 
probationary period to adjust status serves no apparent purpose and, in 
fact, creates an unnecessary strain on public resources. Moreover, we 
are not the first to reach this conclusion.
    In 1997, the United States Commission on Immigration Reform, a 
bipartisan commission of policy makers and immigration experts, issued 
a comprehensive report on recommended changes in the immigration law. 
See United States Commission on Immigration Reform, U.S. Refugee 
Policy: Taking Leadership (June 1997) (``Taking Leadership'').\4\ Among 
those recommendations was an elimination of the 10,000-person cap 
imposed by section 209(b). See id. at 35. Indeed, the Commission also 
advocated elimination of the statutory one-year waiting period in favor 
of granting permanent resident status to all individuals when they 
received a grant of asylum. See id. at 34.\5\
---------------------------------------------------------------------------
    \4\ The Commission was formed in 1990 under the Immigration Act of 
1990. Its members have included the following: Archbishop of Boston 
Bernard Cardinal Law (first Chairman); Barbara Jordan (second 
Chairwoman); Shirley Mount Husfstedler (third Chairwoman), former Ninth 
Circuit Judge and Secretary of Department of Education; Professor 
Lawrence Fuchs, former Executive Director of the Select Commission; 
Michael Teitelbaum of the Alfred P. Sloan Foundation, Richard Estrada, 
columnist for the Dallas Morning News; Harold Ezell, former INS 
Regional Commissioner; Robert Hill, immigration attorney; Warren 
Leiden, Executive Director of the American Immigration Lawyers 
Association; Nelson Merced, Massachusetts State Legislator, and Bruce 
Morrison, former Chairman of the House Subcommittee on Immigration, 
Refugees, and International Law.
    \5\ One commission member advocated a two-year conditional 
permanent resident status. Taking Leadership at 34n.* However, no one 
attempted to defend the current system.
---------------------------------------------------------------------------
    With respect to the elimination of the 10,000-person cap, the 
Commission provided two bases for its recommendation: (i) the 
inevitable backlog that would occur because of the excess of asylum 
grants over 10,000 per year and (ii) the rigorous asylum process. See 
id. at 35.

The Commission is seriously concerned that under the current system 
        [the excess of asylum grants over 10,000] will result in an 
        unnecessary backlog of adjustment applications. We strongly 
        reiterate our belief, stressed in our 1995 report on legal 
        immigration, that the federal government should not manage 
        immigration policy by backlogs and waiting lists. Given the 
        recent reforms in the asylum system and the rigorous standard 
        applied in granting asylum, numerical ceilings on adjustment 
        are neither necessary nor good public policy.

Id.
    The third reason for eliminating the cap, one that is related to 
the second, is that the statute is adverse to a basic common-sense 
principle: that the United States government should seek to integrate 
lawfully admitted aliens into the society as soon as possible so that 
they may participate and contribute to their full potential. As the 
Commission stated in advocating removal of both waiting periods: 
``Elimination of the delay in adjustment would greatly reduce continued 
uncertainty and instability in the lives of asylees even after their 
initial approval and would enable asylees and their families to 
integrate into the U.S. in a timely fashion.'' Taking Leadership at 35.
    Individuals granted asylum receive a work authorization card 
allowing them to obtain employment. However, the INS requires that the 
work-authorization card be renewed annually until the asylees become 
lawful permanent residents.\6\ As a result, many employers are 
reluctant to hire these individuals because of the uncertainty 
surrounding their residency status. Thus, the combination of the one-
year statutory waiting period and the multi-year administrative backlog 
makes it more difficult for asylees to gain long-term employment and 
become productive members of society. This result is counter to the 
common-sense principle that the United States government should be 
trying to make it easier, not more difficult, for willing and able 
individuals to be fully employed.
---------------------------------------------------------------------------
    \6\ Although the regulation provides for a work-authorization card, 
we are aware of no language in the regulation or the statute providing 
a basis for the INS's requirement that the card be renewed annually. 
See 8 C.F.R. Sec. 208.7 (work authorization).
---------------------------------------------------------------------------
    Furthermore, the delay operates in contravention to the well-
settled policy of integrating new immigrants into society as productive 
citizens. A lawful permanent resident has to wait five years before 
becoming eligible to apply for United States citizenship. This five-
year period cannot begin for an asylee until he or she obtains lawful 
permanent residency status. Thus, by delaying the time for asylees to 
become lawful permanent residents, the statute also delays the time for 
them to become naturalized citizens and, thus, prevents them from fully 
integrating into American society.
    Adding to the dilemma, many asylees arrive with families to 
support. Yet, because of the waiting period, these individuals are 
forced to support their families through transient and most likely 
menial jobs for several years. The effect is to impose an unnecessary 
hardship on individuals and families who are in the United States only 
because they have suffered from gross injustices in their home country.
    In short, section 209(b) (i) irrationally and inexplicably treats 
one class of lawfully admitted aliens worse than others similarly 
situated, (ii) causes unnecessary administrative delays, and (iii) is 
counterproductive and contrary to the interests of the United States. 
We propose several options to remedy this glaring inequity:

1) Adopt the recommendation of the United States Commission on 
        Immigration Reform and grant permanent resident status to 
        asylees, eliminating both the one year statutory waiting period 
        for refugees and asylees as well as the 10,000 person cap for 
        asylees; or
2) Amend section 209 to delete section 209(b), thus eliminating only 
        the 10,000-person cap on asylees; or

3) Enact special legislation providing for an elimination of the 
        waiting period for all those individuals who have received 
        grants of asylum and been present in the United States for at 
        least one year as of the date the legislation.

    Granting more timely permanent resident status to asylees would not 
increase the number of lawful immigrants in the United States or impose 
additional burdens on scarce public resources. Asylees already are 
lawfully in the country and eligible to remain for an indefinite period 
of time. Rather, granting asylees permanent resident status would have 
the salutary effect of allowing them to seek long-term employment and 
assimilate into their communities more quickly, thereby hastening their 
integration into society as full participating and contributing 
members. We hope that you will see the obvious logic of our position 
and lend your support to remedy this situation.

    Ms. Acer. The impact of this delay on refugees can be 
significant. It can undermine their ability to integrate into 
our society, to seek employment and advancement, to apply for 
citizenship, to travel to visit family members securely, and in 
some cases to be united with family members. One client of the 
Lawyers Committee, a refugee from Ethiopia, married after she 
was granted asylum. The delay of several years in receiving her 
adjustment needlessly delayed her ability to petition for her 
husband to come to the U.S. and join her. Because of the 
marriage, the U.S. has refused to issue the husband a visa to 
come to visit his wife and now young child. The couple has been 
separated for 4 years. Their son, now 3 years old, sees his 
father once a year during a brief visit. My client, who spent 
her childhood separated from her family because of the cruelty 
of the Mengistu regime, is very patient. But no policy interest 
is served by this unnecessary delay.
    Thank you very much. We really appreciate your hearing us 
today.
    [The prepared statement of Ms. Acer follows:]

Statement of Eleanor Acer, Senior Coordinator, Asylum Program, Lawyers 
                       Committee for Human Rights

                           Executive Summary
    Since the refugee Pilgrims first landed almost 400 years ago, the 
United States has served as a refuge for those fleeing persecution and 
oppression. After World War II, when America and so many other nations 
failed to protect many refugees from Nazi persecution, the United 
States led the effort to establish universally recognized human rights, 
including ``the right to seek and enjoy in other countries asylum from 
persecution.''
    Several provisions of the Illegal Immigration Reform and Immigrant 
Responsibility Act of 1996 have severely undermined the ability of 
genuine refugees to seek asylum here and have unduly restricted their 
access to protection. These provisions include expedited removal and 
the one-year filing deadline on asylum claims. The mandatory detention 
provision that accompanies expedited removal has reinforced the 
practice of detaining asylum seekers, resulting in the jailing of 
thousands of genuine asylum seekers and survivors of torture.
    Under the 1996 law's ``expedited removal'' system, a uniformed 
enforcement officer of the Immigration and Naturalization Service 
(INS)--as opposed to a specially trained immigration judge--can turn a 
refugee back at the airport or border crossing without due process and 
without meaningful review. The proceedings are conducted so swiftly 
that mistakes are inevitable, and those who are removed are barred from 
re-entering the United States for five years. Furthermore, secondary 
inspection-the stage of the process during which erroneous decisions 
are most likely to be made-is conducted behind closed doors, with 
virtually no meaningful scrutiny by independent observers.
    While the INS has taken some steps to attempt to reduce the 
possibility that genuine asylum seekers will not be deported under 
expedited removal, those efforts have not succeeded in preventing the 
mistaken deportations and other abuses that have been documented by 
academics, the press and non-governmental organizations.
    Expedited removal is a system that is, by its very design, destined 
to fail. It lacks the very procedural safeguards that are necessary to 
ensure that legitimate asylum seekers are not mistakenly returned to 
face persecution. We respectfully urge that steps be taken to ensure 
that the decision to deport an asylum seeker or other individual who 
arrives without proper documents will be made only by a trained 
immigration judge in a fair proceeding that affords the person 
fundamental due process protections: prior notice of the consequences 
of the proceedings; when the person is not fluent in English, a 
qualified translator who is fluent in the person's language of fluency 
and is bound to maintain confidentiality; the right to be represented 
by legal counsel; and the opportunity to have decisions reviewed on 
appeal.
    The use of expedited removal should be restricted to extraordinary 
migration situations. Additional safeguards should be included in those 
situations where expedited removal is authorized. These safeguards, 
which should include immigration judge review of all removal orders, 
will reduce the risk of mistaken deportations.
    We also urge that decisions to detain asylum seekers should no 
longer be entrusted to the discretion of local INS officials. Initial 
detention and parole decision should be made pursuant to legally 
binding regulations, and should be automatically and promptly referred 
for review to a judicial or other competent and independent authority. 
In those cases in which some form of detention or supervision is deemed 
necessary, and where there is no risk to the community, the use of 
alternatives to detention should be maximized, including for instance 
supervised release programs or release to community, religious or 
nongovernmental organizations trained in refugee resettlement.
    Congress should eliminate the one-year filing deadline. At the very 
least the filing deadline should be eliminated in affirmative asylum 
applications, and the fact that an application has been filed over one 
year after arrival should be considered a negative discretionary 
factor, subject to a good-cause exception, for asylum applications 
filed defensively before immigration judges. To the extent any filing 
deadline is retained, federal court review of filing deadline denials 
should be restored. If the deadline is eliminated or limited, those 
whose cases have been rejected based on the prior filing deadline 
provision should be allowed to reopen their cases.
    Finally, the cap on asylee adjustments should be lifted. Those who 
are granted asylum are entitled, under our law, to apply for permanent 
residency one year after their grant of asylum. These are deserving 
individuals, many of whom have suffered unspeakable harms. Their 
welcome into our society should not be delayed for years by the limit 
on the number on asylees that can become legal permanent residents.
                              Introduction
    Chairman Brownback, Senator Leahy, and members of the Subcommittee, 
it is an honor to be here today to offer our views about U.S. asylum 
policy. You and other distinguished members of this Subcommittee have 
shown tremendous leadership in protecting the rights of asylum seekers. 
We appreciate your focusing attention today on these important issues.
    My name is Eleanor Acer, and I direct the Asylum Program at the 
Lawyers Committee for Human Rights. The Lawyers Committee is a non-
profit, non-governmental organization that has worked since 1978 to 
protect and promote fundamental human rights and to ensure protection 
of the rights of refugees. We ground our refugee protection work in the 
international standards of the 1951 Convention relating to the Status 
of Refugees, the 1967 Protocol relating to the Status of Refugees and 
other international human rights instruments, and advocate adherence to 
these standards in U.S. law and policy.
    The Lawyers Committee vigorously opposed certain provisions of the 
Illegal Immigration Reform and Immigrant Responsibility Act of 1996--
among them the expedited removal provisions and the asylum filing 
deadline--because we believed those provisions would severely impede 
the right of refugees to seek and enjoy asylum and would result in the 
denial of protection to victims of torture and persecution. We have 
documented the impact of expedited removal on asylum seekers in two 
reports--Slamming The Golden Door: A Year of Expedited Removal, issued 
in March 1998 and Is This America? The Denial of Due Process to Asylum 
Seekers in the United States, issued in October 2000.
    The Lawyers Committee has also long-advocated for the rights of 
detained asylum seekers. We have urged effective and consistent 
implementation of parole guidelines for asylum seekers. We have issued 
several reports addressing the implementation by the INS of its parole 
guidelines for asylum seekers, including our 1999 report, Refugees 
Behind Bars; The Imprisonment of Asylum Seekers in the Wake of the 
19961mmigration Act, and have formally petitioned the INS to codify 
those guidelines in regulations. We have also advocated for 
alternatives to detention and the imposition of a check on the INS's 
authority to detain asylum seekers.
    In addition to our work on asylum policy, the Lawyers Committee 
operates one of the largest and most successful pro bono asylum 
representation programs in the country. With the assistance of 
volunteer attorneys, the Lawyers Committee provides legal 
representation, without charge, to hundreds of indigent refugees each 
year. Our program's clients include numerous--asylum seekers who have 
been subject to the expedited removal procedures, who have been 
detained at various detention facilities and county jails, and who have 
been affected by the asylum filing deadline. Some of those clients are 
here today and will be testifying or submitting testimony to you.
 i. u.s. leadership in protecting refugees and international standards.
    From the earliest days of the Republic, the United States has 
provided safe haven for people fleeing persecution. The principle of 
asylum is a deeply rooted American value, powerfully expressed since 
the founding of the Republic. In fact, it was President George 
Washington who set the precedent that the United States would not 
return people to persecution. This nation has long recognized its 
special responsibility to the persecuted. And the immortal words of 
Emma Lazarus, enshrined beneath the Statue of Liberty, reaffirm this 
nation's commitment to welcome those who flee to our shores ``yearning 
to breathe free.''
    The U.S. commitment to the protection of refugees was reinforced by 
the lessons of World War II. Modern refugee protection principles were 
incorporated into international treaties following the Nazi persecution 
of Jews and other groups during World War II. The U.S. led the effort 
to establish the United Nations and to articulate universally 
recognized human rights. In 1948 the United Nations General Assembly 
adopted the Universal Declaration of Human Rights, which affirmed that 
``[e]veryone has the right to seek and enjoy in other countries asylum 
from persecution.''
    Current U.S. asylum law derives from two treaties, the 1951 United 
Nations Convention relating to the Status of Refugees and 1967 Protocol 
relating to the Status of Refugees. The nonrefoulement provision of the 
Convention--binding on the U.S. as a result of its 1968 ratification of 
the 1967 Protocol--prohibits a signatory state from returning a refugee 
to any country in which the refugee's ``life or freedom would be 
threatened on account of his race, religion, nationality, membership in 
a particular social group or political opinion.'' Article 34 of the 
Convention requires that signatory states ``shall as far as possible 
facilitate the assimilation and naturalization of refugees.'' The 
asylum and non-refoulement obligations were made U.S. law by the 
Refugee Act of 1980. The international community and the United States 
have promised that never again will those who face persecution be 
denied refuge.
                         ii. expedited removal
    The expedited removal provisions of the 1996 law empower INS 
inspectors-whose primary responsibility and training is in border 
enforcement rather than adjudication-to order the summary deportation 
of individuals arriving from abroad without valid documents. Although 
individuals who fear return to their home countries are not supposed to 
deported, mistakes have been made. Indeed, mistakes are inevitable 
given the summary nature of the procedures.
    At the first stage of the expedited procedure, called ``secondary 
inspection,'' an individual can be ordered deported by an immigration 
inspector, without any review by a judge or independent authority. 
Although anyone who expresses a fear of persecution, or an intention to 
apply for asylum, should, under law, be referred to an asylum officer 
for a ``credible fear'' interview, no outside authority reviews these 
decisions. Immigration inspectors are, in effect, given the power to 
act as judges.
    Expedited removal is a system that is, by its very design, destined 
to fail because it lacks essential safeguards: there is no notice prior 
to secondary inspection of the consequences of the process (i.e., 
immediate deportation); there is no guarantee of a qualified 
interpreter to explain the process to an alien who is not fluent in 
English; there is no right to be represented by legal counsel; 
decisions are made not by independent adjudicators but by border 
enforcement personnel; and there is no right to have these decisions 
reviewed on appeal. Compounding these deficiencies is the speed of the 
process; expedited removal moves so quickly that mistakes are 
inevitable.
    A process that lacks crucial safeguards will not be able to avoid 
mistakes. For instance, Rita Joy Martins-Beckely, a Sudanese Christian 
woman who fled from religious and political persecution in Sudan was 
ordered deported under expedited removal by officers at the Texas 
border even though she told the officers that she was afraid to return 
to Sudan. A Kosovar student was turned away from a California airport 
in January 1999, and another Kosovar was deported from Newark Airport 
in 1998 even though he indicated that he was worried about being 
returned to his home country.
    Even U.S. citizens are not protected from these summary procedures. 
Just last year, Sharon McKnight, a disabled woman from Long Island, was 
detained at JFK airport, handcuffed and shackled overnight, and then 
deported to Jamaica under expedited removal--even though her mother 
gave immigration officials proof of Sharon's birth in the U.S.
    The danger of mistaken determinations, inherent in any system 
without checks, is compounded by the lack of due process and 
improprieties that plague the secondary inspection stage of expedited 
removal. The notorious practices of the INS at the Portland, Oregon 
airport, including the strip-searching and jailing of a Chinese 
businesswoman, earned the city the nickname of ``Deportland.''
    Given the dire consequences of a mistaken decision to send someone 
back to a place where they would face persecution, and the fact that 
many genuine refugees do not speak English, one would think that the 
procedures would require the use of qualified interpreters who are 
fluent in an individual's language of fluency and who are obligated to 
maintain confidentiality. Instead, refugees have reported that their 
requests for translators have been denied and that they did not 
understand that nature of the process they were subject to. For 
instance:
    Mekabou Fofana, a Liberian refugee who is here with us today, 
arrived at JFK airport on July 11, 1999, nine days before his 
16<SUP>th</SUP> birthday. He could not understand what the officers 
were saying to him, and although he said ``speak Mandingo,'' they did 
not provide him with a Mandingo interpreter. When the officers directed 
him to sign the papers they put before him, he refused because he did 
not know what the papers said. The officers twisted his arm and 
attempted to forcibly fingerprint him. Mekabou fell to the floor, hit 
his head, and bled so profusely that he was taken to the hospital for 
stitches. After a year and a half in detention, Mekabou was granted 
asylum and is now attending high school in New York City.
    Nusret Curumi, who is here with us today, fled from Albania after 
he was arrested and detained for making statements critical of his 
government. He arrived at O'Hare International Airport in Chicago in 
August 2000. After he told an INS officer that the passport he was 
traveling on was not his, he was dragged by his clothing to another 
room where he was searched and questioned. He was not provided with an 
Albanian interpreter, and was directed to sign documents even though he 
could not understand what they said. He was not told about his right to 
have a credible fear interview.
    Given the fact that many asylum seekers have fled from unspeakable 
torture and persecution, one would think that they would be treated 
with courtesy and professionalism. While we understand that the 
pressures on immigration inspectors are substantial, and that the time 
pressures they are under may affect their ability to treat people as 
hospitably as we might ideally wish, there is no justification for the 
abusive treatment many asylum seekers encounter when they arrive here. 
Asylum seekers at airports across the country are often handcuffed and 
shackled like criminals. We have spoken to asylum seekers who have been 
screamed at, sworn at, laughed at by INS officers charged to ensure 
their protection. Some have been intimidated, kicked and pushed.
    Let me tell you the story of one refugee woman who fled to the U.S. 
from the Democratic Republic of Congo (the former Zaire) and arrived at 
JFK airport in November. When she arrived, she had not eaten in days 
and was suffering from a severe tooth infection. Despite her need for 
an interpreter, the INS officers did not provide an interpreter that 
she could understand. When she started to cry, several officers accused 
her of lying. When she became dizzy and collapsed on to the floor, an 
INS officer kicked her, ordering her to get up. Later, another officer 
kicked her and accused her of being a liar, while other officers 
laughed at her. Finally, another INS officer interceded--realizing that 
she was ill, he called an ambulance for her. After six months in 
detention, she was finally granted asylum.
    Mr. Curumi was forcefully dragged through O'Hare airport in 
Chicago. An Algerian refugee who arrived at San Francisco international 
airport last year was shackled and told he was being deported; when he 
told an INS officer that he would be killed if returned to Algeria, the 
officer said he did not care. ``Mina Burhani'' will tell us later how 
she was strip-searched, shackled to a bench, and then transported in 
handcuffs and shackles.
    Amin Al-Torfi, a torture survivor from Iraq who is here with us 
today, fled to this country after he and his family were persecuted by 
Saddam Hussein's regime because of their political opinions and 
religious beliefs. When he requested an Arabic interpreter upon his 
arrival at JFK airport last year, he was told that an Arabic 
interpreter was not available and that he would have to wait three days 
at the airport to get one. He was shackled by the leg to a bench for 
eight hours, strip-searched, and led like a criminal, handcuffed to 
another asylum seeker, through the airport in front of other 
passengers. After 5 months in detention, he was granted asylum.
    A refugee from Afghanistan was pushed by an INS officer who grabbed 
his pants to search for documents. He was shackled to a bench over 
night, and all day the next day. After 5 months in detention, he was 
granted asylum.
    One refugee who is here with us today was so intimidated by his 
treatment at the airport that he initially did not request asylum and 
was scheduled to be returned to his country of persecution. ``Micheal 
Antoun,'' is a Coptic Christian who fled Egypt because he had been 
repeatedly threatened and beaten by Islamic extremists. (As he fears 
retaliation against family members at home, his real name will be 
supplied to the Subcommittee confidentially.) Mr. Antoun, while being 
held in solitary confinement at a detention facility awaiting 
deportation back to Egypt, spoke by phone to his sister who begged him 
not to return to Egypt because of the danger he would face. Luckily, he 
was able to contact someone who averted his deportation. After 5 months 
in detention, he was granted asylum.
    Even the next stage of the expedited removal process--the so-called 
``credible fear'' process--which offers some additional protections, 
lacks essential procedural safeguards. The only oversight of these 
determinations is a highly expedited ``review'' by an immigration 
judge, which must take place within seven days, leaving no time for a 
refugee to find a lawyer or gather additional evidence, and no other 
avenue of appeal. With us today is Patrick Mkhizi who will testify 
later about the INS's attempt to deport him after a mistaken 
determination that he did not meet the credible fear standard. Also 
here with us today is a woman who we will call ``Aracelis Gonzalez'' in 
order to protect her identity. She fled here after suffering brutal 
abuse and domestic violence in the Dominican Republic. But she was 
ordered deported under expedited removal last summer apparently because 
the INS officers who interviewed her, and the Immigration Judge who 
conducted the expedited review, believed that she would not be able to 
make a case for asylum based on gender-related persecution. She was 
spared from deportation following the extraordinary efforts of Senator 
Leahy and several Congress Members who wrote to the INS Commissioner 
expressing deep concern about the INS's decision to deport her under 
expedited removal.
    Although we should all be deeply disturbed by the manner in which 
asylum seekers are being treated under these provisions of the law, we 
should not be surprised. Expedited removal is a system designed to fail 
those we most want to protect. In 1996, when it considered whether to 
adopt this system, the Senate rejected it as unfair, unnecessary, and a 
betrayal of American values. We agree.
    So do others. Among the many voices calling for repeal of expedited 
removal are two major bodies established by Congress and by the 
president: the bipartisan Commission on Immigration Reform and the 
Advisory Committee on Religious Freedom Abroad to the Secretary of 
State and to the President of the United States.\1\ The Commission on 
Immigration Reform, referring to expedited removal, urged ``immediate 
correction of certain provisions [in the 1996 law] that can harm bona 
fide asylum seekers and undermine the efficiency of the asylum 
system.'' \2\ The Advisory Committee on Religious Freedom, created 
after the implementation of expedited removal, called for its repeal in 
its final report to the secretary of state in May 1999.
---------------------------------------------------------------------------
    \1\ U.S. Commission on Immigration Reform, U.S. Refugee Policy: 
Taking Leadership, June 1997, at 38; Final Report of the Advisory 
Committee on Religious Freedom Abroad to the Secretary of State and to 
the President of the United States, May 17, 1999, at 45.

[W]e must eliminate processes such as ``expedited removal'' that can 
        make victims of those fleeing religious persecution rather than 
        providing access to protection. . .Repeal of ``expedited 
---------------------------------------------------------------------------
        removal'' should be a high priority for the Administration.

    We respectfully urge that steps be taken to ensure that the 
decision to deport an asylum seeker or other individual who arrives 
without proper documents will be made only by a trained immigration 
judge in a fair proceeding that affords the person fundamental due 
process protections: prior notice of the consequences of the 
proceedings; when the person is not fluent in English, a qualified 
translator who is fluent in the person's language of fluency and is 
bound to maintain confidentiality; the right to be represented by legal 
counsel; and the opportunity to have decisions reviewed on appeal.
    Because of the demonstrated risk to refugees, expedited removal 
should only be used in extraordinary migration situations. Additional 
safeguards should be included in those situations where expedited 
removal is authorized. These safeguards, which should include 
immigration judge review of all removal orders, will reduce the risk of 
mistaken deportations.
                    iii. detention of asylum seekers
    The detention of arriving asylum seekers, a practice that expanded 
in the 1980s, was reinforced by the restrictive provisions of the 1996 
immigration law. Under expedited removal, asylum seekers are sub ject 
to ``mandatory detention'' and although they are eligible for parole 
once they successfully pass through the credible fear screening 
process, the parole decision is entrusted to the unreviewable 
discretion of local INS officials who administer this power in varying 
manners. There is no appeal of their decisions to an independent 
authority--not even to an immigration judge. And the INS has so far 
failed to issue enforceable regulations spelling out the parole 
criteria for asylum seekers.
    As a result, those who arrive in this country seeking protection 
are routinely imprisoned for months, and sometimes for years while 
their asylum cases are pending. Deserving refugees are denied parole 
even when they have been deemed credible and have verifiable community 
ties. Some of these refugees are here with us today.
    We will hear in a minute from a woman from Afghanistan who will 
explain how she was denied parole even though her U.S. citizen sister 
was willing to house and support her. Another client of the Lawyers 
Committee, a rape survivor who had been studying to become a nun in 
Congo, was denied parole even though a Catholic convent in New Jersey 
had agreed to house and support her. Mekabou, who stood up before us a 
few minutes ago, was denied parole despite his young age and even 
though he had a U.S. citizen uncle and other family members in this 
country. Patrick Mkhizi who we will hear from shortly was detained for 
3 and \1/2\ years and denied parole.
    The seven month detention of Jean-Pierre Kamdem, a survivor of 
severe torture, who lost part of his leg as a result of his torture, 
underscores the cruelty of our detention system. Mr. Kamdem, who is 
here with us today, was a student activist in Cameroon and was arrested 
and repeatedly tortured in his home country, leading to the loss of 
part of his leg. Last year, he narrowly escaped arrest again, and fled 
to the U.S. He was greeted with handcuffs at the airport. When he asked 
if it was a crime to ask for asylum, the INS officers told him ``this 
is the law.'' He was detained at the Elizabeth, New Jersey detention 
facility for seven months. He was just granted asylum last week and was 
finally released from detention.
    Our current system of detaining asylum seekers, a system which 
provides no meaningful access to parole for so many and no independent 
review of detention decisions, flies in the face of our obligations 
under international refugee protection treaties. Indeed, the Executive 
Committee of the United Nations High Commissioner for Refugees (UNHCR), 
of which the United States is a member, has concluded that detention of 
asylum seekers ``should normally be avoided.'' UNHCR's 1999 detention 
guidelines clearly call for procedural safeguards--including automatic 
review of detention decisions before an independent judicial or 
administrative body in those cases when asylum seekers are detained, 
and urge the maximum use of alternatives to detention.
    Our current detention system is also inconsistent with American 
traditions of due process and humanity, and places an unnecessary 
burden on U.S. taxpayers. The devastating impact of detention on 
individual torture survivors and other refugees which we see first-hand 
in our every day work, is documented in the testimony of Dr. Allen 
Keller, the Director of the Bellevue/NYU Program for Survivors of 
Torture, which is submitted in writing to the Subcommittee today. The 
impact is also clear in the lives of the refugees who have come here 
today to give us their firsthand testimony.
    We urge that decisions to detain asylum seekers should no longer be 
entrusted to the discretion of local INS officials. Initial detention 
and parole decision should be made pursuant to legally binding 
regulations, and should be automatically and promptly referred for 
review to a judicial or other competent and independent authority. In 
those cases in which some form of detention or supervision is deemed 
necessary, and where there is no risk to the community, the use of 
alternatives to detention should be maximized, including for instance 
supervised release programs or release to community, religious or non-
governmental organizations trained in refugee resettlement.
                     iv. the asylum filing deadline
    The Illegal Immigration Reform and Immigrant Responsibility Act of 
1996 imposed, for the first time, a one-year-from-arrival filing 
deadline on asylum claims filed with the U.S. government. The only 
exceptions to that filing deadline are for ``changed circumstances'' 
that materially affect an asylum seeker's eligibility for asylum or 
``extraordinary circumstances'' relating to the delay in filing the 
asylum application. The 1996 law also purports to preclude federal 
court review of determinations to bar asylum claims under the deadline.
    Since the filing deadline took effect, more than 10,000 asylum 
seekers have had their claims rejected by the INS. In fiscal year 2000 
alone, more than 6000 asylum claims were rejected based on the filing 
deadline.
    The Lawyers Committee has learned of many bona fide asylum seekers 
whose claims have been rejected because of the filing deadline, 
including asylum seekers represented through our pro bono 
representation program. Even asylum seekers whose circumstances 
squarely fit the statutory exceptions, and the regulations detailing 
those exceptions, have had their asylum claims rejected. For instance, 
the asylum claim of a torture survivor and student activist from Burma 
was denied by an immigration court in California based on the asylum 
filing deadline, even though the judge believed he was credible and 
otherwise eligible. The Burmese refugee had been repeatedly arrested 
and tortured by the Burmese military regime because of his peaceful 
political activities. He did not initially apply for asylum because he 
hoped that the situation in Burma would improve so that he could return 
to his family.
    Makani Jalloh, a refugee and mother from Sierra Leone, fled to the 
U.S. after her husband and son were killed, and she herself was 
brutally attacked. She arrived in the U.S. in July 1999. She did not 
read or write English, and had no money to support herself or to pay 
for a lawyer. With the help some fellow Sierra Leonians, she filed for 
asylum--within one year of her arrival. Makani was not able to afford 
to pay for a lawyer to accompany her to her asylum office interview, 
and the INS rejected her asylum case, claiming that she could not prove 
that she had been in the U.S. for less than one year. The INS placed 
Makani and her two children into deportation proceedings. Makani then 
learned about the Lawyers Committee for Human Rights, which found pro 
bono attorneys to take on her case. With the help of her pro bono 
lawyers, Makani and her children eventually won asylum before an 
immigration judge.
    Here today is Anna Smirnova, a national of Russia. The INS is 
currently contesting her grant of asylum on the ground that her claim 
is barred by the deadline. Anna fled from Russia fearing persecution 
based on her mixed nationality. She is part Jewish, and also part Arab 
and part African-American--her great-great grandfather was a prominent 
American civil rights leader. Anna arrived in the United States on 
April 17, 1998. She gave birth later that year, and began caring for 
the new infant. She missed the one-year filing deadline due to the 
burdens of being pregnant--a physical condition that should certainly 
have satisfied one of the exceptions to the filing deadline--and the 
resulting burden of caring for a new infant as a single mother. And, 
like many refugees, she was unaware of the deadline. However, once she 
became aware of the one-year requirement she immediately filed her 
claim, which was received by the INS on April 22, 1999. Yet despite 
extensive documentation of her fears of persecution and of her 
pregnancy, the INS rejected Anna's asylum claim based solely on the 
asylum filing deadline. Although an immigration judge eventually 
granted her claim, the INS is still seeking to deport her based in part 
on her failure to file within the one-year filing deadline. While her 
attorneys at the Hebrew Immigrant Aid Society are opposing the appeal, 
the INS is still maintaining that her claim is barred by the filing 
deadline.
    Ironically, the filing deadline has actually led to inefficiency 
and waste in the asylum system. Some deserving asylum claims--claims 
which would likely have been granted on the merits but for the asylum 
filing deadline--have been ``rejected'' procedurally by the INS based 
on the filing deadline. As a result, these cases have been referred to 
immigration court meaning that the system must bear the additional 
expense of a hearing in immigration court before the asylum seeker is 
granted asylum. Without the filing deadline, some of these cases would 
have been granted asylum by the INS without the additional expense of 
an immigration court hearing.
    It is now widely recognized within the U.S. government that the 
INS's 1995 asylum regulatory changes (known as ``asylum reform '') were 
a tremendous success: new asylum claims are now processed on a timely 
basis (generally within 180 days); the large backlog of asylum claims 
has been reduced; the number of asylum claims has declined dramatically 
from 123,884 in FY 1994 to 41,659 in FY 2000 (the FY 1999 numbers were 
even lower); and the asylum grant rate has increased, which appears to 
reflect that a higher percentage of meritorious asylum claims are being 
filed. Thus, many of the problems that led some to favor an asylum 
filing deadline have been remedied by the asylum reforms initiated in 
1995.
    While a one-year filing deadline may initially sound reasonable to 
some, a closer examination of the reality that faces many refugees when 
they arrive in this country makes clear that the filing deadline is 
indeed difficult for many deserving refugees to meet. Many genuine 
refugees arrive in this country unable to speak English, unfamiliar 
with our legal system, unable to afford food and housing, let alone 
legal counsel, and often suffering from the effects of the torture or 
persecution they have faced. Amchok Gyamtso Thubten will describe for 
us today the difficulties that many Tibetan refugees face in meeting 
the asylum filing deadline. Some who have been victims of ethnic or 
religious persecution, may not even realize they are eligible for what 
is often referred to as ``political'' asylum.
    Prior to the enactment of the filing deadline, the Lawyers 
Committee conducted a study of its own pro bono cases. This study 
revealed that only 38% of the Lawyers Committee's cases (cases that the 
Lawyers Committee had judged to be bona fide) were filed within one 
year of the refugees' arrival. This is understandable. As Dr. Allen 
Keller, the Director of the Bellevue/NYU Program for Survivors of 
Torture has explained: ``Generally, the most deserving asylum 
applicants are unable to speak about their persecution immediately 
after they arrive in the United States. Victims of torture, and others 
who suffer from Post-Traumatic Stress Disorder (PTSD), have great 
difficulty relating their stories both to their representatives and to 
U.S. authorities until they have had time to recover from their 
trauma.'' Dr. Keller has submitted written testimony to this 
Subcommittee today documenting this impact.
    We believe that the asylum filing deadline should be repealed. It 
is inefficient and is causing needless hardship to refugees who clearly 
deserve protection. Short of outright appeal, the filing deadline 
should at least be eliminated in affirmative asylum applications, and 
the fact that an application has been filed more than one year after 
arrival could be considered a negative discretionary factor, subject to 
a good-cause exception, in connection with asylum applications filed 
defensively before immigration judges. To the extent any filing 
deadline is retained, federal court review of filing deadline denials 
should be restored. If the deadline is eliminated or limited, those 
whose cases have been rejected based on the prior filing deadline 
provision should be allowed to reopen their cases.
                    v. the cap on asylee adjustments
    When refugees are granted asylum, they are entitled under our law 
to apply for legal permanent residence status one year after their 
grant of asylum. But as there is an annual cap on the number of asylees 
who may adjustment and a backlog of applications, refugees now have to 
wait several years to receive their legal permanent residence status. 
Amchok Gyamtso Thubten, a Tibetan refugee who will be testifying before 
you shortly, applied for legal permanent residence status in 1999. He 
has still not received his ``green card.'' It has been estimated that 
someone granted asylum today will not be able to adjust his or her 
status for 6 six years. The impact of this delay on refugees is 
significant--it undermines their ability to integrate into our society, 
to seek employment and advancement, to apply for citizenship, to travel 
to visit family securely and in some cases to be united with family 
members.
    One client of the Lawyers Committee, a refugee from Ethiopia, 
married after she was granted asylum. Her husband, a long-time family 
friend who lived in exile in Europe, was not eligible to be brought to 
the U.S. as an asylee because the marriage occurred after our client 
was granted asylum. The delay of several years in receiving her green 
card needlessly delayed her ability to petition for him to come to the 
United States and join her. While she visits him several times a year, 
the couple has been separated by an ocean for their four-year marriage. 
Because of the marriage, the U.S. has refused to issue the husband a 
visa to come to visit his wife and child. Their son, now 3 years old, 
sees his father for brief visits once a year. They hope that after she 
becomes a citizen, they will finally be able to live together as a 
family. My client, who spent her childhood separated from her family 
because of the cruelty of the Menguistu regime, is patient. But no 
reasonable policy interest is served by this unnecessary delay.
    The cap on asylee adjustments should be lifted. Those who are 
granted asylum are entitled, under our law, to apply for permanent 
residency one year after their grant of asylum. These are deserving 
individuals, many of whom have suffered terribly under governments who 
abuse the basic rights we in this country take for granted. Their 
welcome into our society should not be delayed for years by an 
arbitrary limit on the number on asylees that can become legal 
permanent residents.

    Chairman Brownback. Thank you, Eleanor. That was powerful 
testimony. I also want to thank all of you who came here today 
to present your statements in front of us.
    Could all of you stand again, please? Those of you that are 
here today with your asylum story, I thank you. I want to 
personally thank you for coming here and giving your time so 
that we could put a face on a very difficult situation. And I 
applaud you. I think it is wonderful what you have done and 
what you have fought on through. I hope you will continue to 
work with us to make the system better and forgive us for any 
deficiencies we have had in it. Thank you.
    Eleanor, thank you for presenting, and for all the 
arrangements that you made in getting people here. I want to 
ask just a couple quick questions. We have two more panels in a 
short afternoon.
    The most powerful statement I heard here regards the 
betrayal of American values. I do not know if it was you or Ms. 
Young, who made the statement, but it seems to me that this is 
what is going on here. We allow people, we encourage people to 
come to America and seek asylum; we say we do not want to see 
you persecuted in your homeland, and yet we treat them so 
poorly here.
    Has it always been this way in the United States, or prior 
to 1996 was it different, Ms. Acer?
    Ms. Acer. Yes, the procedures that existed prior to 1996 
were much superior. When asylum seekers arrived here in this 
country, they had a right to come in front of an immigration 
judge. They could not be summarily returned from the airport. 
That part of the process was much better.
    The detention problems existed before. They have been 
reinforced by the 1996 law. Those are longstanding problems 
that really need a fix, and it is wonderful that you are 
looking into those issues now and that hopefully can lead to a 
permanent improvement there as well.
    Chairman Brownback. I think these are both areas we really 
need to look at.
    Ms. Young?
    Ms. Young. In the detention context, certainly the INS had 
the authority to detain asylum seekers prior to the 1996 Act. 
But I think what we saw in 1996 was an increased emphasis on 
detention and also a provision that said that asylum seekers 
must be mandatorily detained until they prove credible fear. 
And, again, theoretically, parole is available once credible 
fear is established. However, what we see are INS districts 
implementing detention policies of their own. In fact, we have 
33 different detention policies across the United States, and 
some INS districts are more generous than others.
    Unfortunately, for example, the New York and Newark 
districts, where large numbers of asylum seekers are detained, 
have some of the tightest parole policies in the country.
    Chairman Brownback. Thank you.
    Senator DeWine?
    Senator DeWine. Mr. Chairman, let me again thank you for 
holding this hearing and thank our witnesses. I come at this 
not as an unbiased and impartial observer. I spoke out against 
this provision in 1995 and 1996. Candidly, the bill was much 
more draconian than it ended up when it started. And we were 
successful in some areas, but in other areas we were not.
    Let me, if I could, just read briefly what I said at the 
time in the floor debate, and I think that your testimony today 
has tragically confirmed what I feared 5 years ago when we were 
debating this. ``The most worthy cases for asylum would be 
excluded if we impose this new summary exclusion procedure. 
Among those excluded would be cases of victims of politically 
motivated torture and rape, the very people who are most likely 
to use false documents to flee. The few times in our history 
when we have turned our back on people who are persecuted--and 
there are examples of this, the Nazi Germany situations, for 
example, and those few times we have lived to regret it.''
    So I think that your testimony confirms, frankly, what I 
feared a few years ago when we were debating this bill, and I 
think frankly it is up to this Congress to try to take the 
lessons that we have learned and the testimony that we take 
from you and the other panel members today and maybe try to do 
something with that.
    Let me ask any member of the panel who can answer the 
question: We talk about the individuals who seek asylum who are 
detained, and do we have statistics that would indicate what 
the average time of detention is and what the range of time for 
detention is? Are those statistics available?
    Ms. Young. As I mentioned in my testimony, the INS has been 
notoriously poor at collecting detention statistics. However, 
having said that, what we do know is in terms of overall 
detention, which includes asylum seekers but also other 
populations, they reported in 1999 that the average length of 
detention I think was 29 days, if I recall correctly.
    However, we have seen that asylum seekers are held for 
much, much longer periods of time. Just to give one example, I 
interviewed a Chinese woman who was held in Bakersfield, 
California, who had been in detention for almost 5 years and 
eventually won asylum.
    Also, the length of detention, again, in districts such as 
New York and Newark, where large numbers of asylum seekers are 
held, tends to be much higher than that average that I just 
cited. I believe in New York it is around 124 days. Karen 
Musalo may know--
    Senator DeWine. So there is a great discrepancy, and you 
already testified to this. There is a great discrepancy in what 
area of the country--between the different areas.
    Ms. Young. Absolutely, and, again, that is, I think, 
because of the discretion that is granted to the INS districts 
in terms of what decisions they make in terms of parole or--
    Senator DeWine. And I am not sure I understand that. How 
does that play out? How is it that Congress has created a law 
that gives that much discretion? How does that work? Explain to 
me how that works.
    Ms. Young. To a certain extent, I think it is not unique in 
the detention context. The INS districts tend to exercise 
tremendous authority over a lot of decisionmaking. The INS is a 
very decentralized agency.
    But the problem is you have basically got the fox watching 
the henhouse because the districts are also charged with 
deporting people. So they tend to err on the side of law 
enforcement concerns as opposed to humanitarian or even fiscal 
concerns.
    Senator DeWine. Anybody else?
    Ms. Acer. I was just going to add that there is no appeal. 
For example, when parole is denied, you cannot go see a judge 
or anyone outside, an independent of the INS. And that is 
inconsistent even with the UNHCR's guidelines.
    Also, the Dallas Morning News recently, after having FOIA'd 
some statistics, I think discovered about, I think, 361 asylum 
seekers who had been detained over a year, I believe, if that 
is the correct number.
    Senator DeWine. Thank you, Mr. Chairman.
    Chairman Brownback. Thank you very much.
    I thank the panelists for bringing such compelling, 
excellent, well thought through, and well presented testimony, 
and I look forward to working with you.
    Our second panel will be three asylee witnesses and their 
presentation of their experiences. I apologize in advance for 
not getting these names accurate when I pronounce them, so 
please just bear with me. Patrick Mkhizi is an asylee from the 
Democratic Republic of the Congo. Our second speaker is Mina--
that is not her actual name, but a name given to protect her 
identity--who is an asylee from Afghanistan. And our third 
speaker is Amchok Gyamtso Thubten, an asylee from Tibet. We are 
grateful for your testimony here today. I apologize again for 
not getting your names right. You can call me ``Sam,'' if you 
would like. That may help explain why I have difficulty with 
some names.
    Patrick, would you please present us your testimony first? 
And if you could, get close to the microphone so we can clearly 
hear your testimony.

   STATEMENT OF PATRICK MKHIZI, REFUGEE FROM THE DEMOCRATIC 
                       REPUBLIC OF CONGO

    Mr. Mkhizi. Thank you.
    Chairman Brownback. Patrick, you are going to need to pull 
that microphone right up to you. It is kind of a ``get close 
and personal'' microphone.
    Mr. Mkhizi. Chairman Brownback and other Senators, thank 
you so much for asking me to come here today to talk about my 
own experience when I came to this country. I am a refugee and 
I have been granted asylum in the U.S.
    Chairman Brownback. Patrick, please, again, pull that 
microphone up closer to you, would you, please? The technology 
is not the best.
    Mr. Mkhizi. It seems almost a miracle that I am sitting 
here today. You see, when I first arrived in the United States, 
I was very nearly deported and then was detained for three and 
a half years. I came to the U.S. to escape from persecution in 
my country, which was Zaire. My father was a member of pro-
democracy party, which opposed the Mobutu regime. One terrible 
day, security forces raided our home and discovered opposition 
materials. They beat and tortured me, and they beat my father 
to death before my eyes. My mother and two sisters ran away 
from the house, and I have not seen them since. I knew I had to 
run away, too. I made my by boat to the United States. I 
arrived in Philadelphia in May 1997, just after the expedited 
removal procedures began.
    The INS put me in chains and took me to the detention 
facility in Elizabeth, New Jersey. An INS asylum officer sat 
with me and asked me a lot of questions. I did not understand 
what was happening because there was no interpreter, no lawyer 
to explain things to me, and I did not even know what asylum 
meant at the time. I was so afraid. I did not know what was 
going to happen to me, and I thought they might send me back to 
Zaire. The INS officer decided I did not have a credible fear 
and ordered me deported. I then had an immigration judge 
``review,'' but there was no lawyer or interpreter to help me 
understand. It was very confusing. The judge asked me questions 
in English which I could not understand. I was too terrified to 
answer because I was afraid of being sent back to Zaire to die.
    My fears came true. They brought me in chains to the 
airport to send me back. I was shaking with fear. At the 
airport, I cried out, ``This is a country of human rights! Why 
are you trying to deport me to my country, where I will be 
killed?'' I lay on the ground and refused to go. Three 
detention guards picked me up, handcuffed me tightly, and 
carried me onto the plane. I was absolutely terrified. I cried 
on the plane and pleaded with them not to deport me. The 
airline employees asked the guards to take me off the plane.
    I was returned to the detention facility and contacted the 
UNHCR. The INS finally changed its decision and decided that I 
really was afraid to go back and that I could apply for asylum.
    I was detained at Elizabeth for more than 2 years. 
Detention was very difficult experience for me. I had lost my 
family and had been tortured in my home country. I felt 
depressed and scared. My one comfort during this period was 
through the English classes and Bible classes offered by Jesuit 
Refugee Services, which were later stopped by INS. Through JRS, 
I met Charlie and Gerri Mulligan, who visited me and sponsored 
me for parole. I made a parole request, but the INS denied it.
    Then the INS transferred me to Sussex County Jail, where I 
was put in a cell with convicted criminals for 1 year. I lived 
in constant fear of being harmed by other inmates. After that 
jail, the INS transferred me to York Prison in Pennsylvania, 
where I was held for about a month.
    After living like a criminal in jail for three and a half 
years, I was finally granted asylum in November 2000. I could 
not believe at first that I was being released from detention. 
I was so happy to have my freedom. Now I am trying to build a 
new life. I am taking English classes and studying to become an 
auto technician. I am working as an auto technician. I am proud 
to say that recently I was employee of the month and student of 
the month. For me, this is the meaning of freedom. It is a way 
of showing my appreciate for getting my freedom back.
    I want to thank you, Senators, for giving me this 
opportunity to tell you about my difficulties. I came to this 
country seeking freedom and safety. But I was so close to being 
deported and then in jail for so long. The law is very harsh. I 
hope that you will make the system safer and more humane for 
refugees like me.
    Thank you.
    [The prepared statement of Mr. Mkhizi follows:]

  Statment of Patrick Mkhizi, Refugee from the Democratic Republic of 
                                 Congo

    Chairman Brownback and other Senators, thank you so much for asking 
me to come here today to talk about my own experience when I came to 
this country. I am a refugee and I have been granted asylum in the U.S.
    It seems almost a miracle that I am sitting here today. You see, 
when I first arrived in the United States, I was very nearly deported 
and then was detained for 3 and \1/2\ years. I came to the U.S. to 
escape from persecution in my country, which was Zaire. My father was a 
member of a pro-democracy party, which opposed the Mobutu regime. One 
terrible day, security forces raided our home and discovered opposition 
materials. They beat and tortured me, and they beat my father to death 
before my eyes. My mother and two sisters ran away from the house and I 
have not seen them since. I knew I had to run away too. I made my way 
by boat to the United States. I arrived in Philadelphia in May 1997, 
just after the expedited removal procedures began.
    The INS put me in chains and took me to the detention facility in 
Elizabeth, New Jersey. An INS asylum officer sat with me and asked me a 
lot of questions. I did not understand what was happening, because 
there was no interpreter, no lawyer to explain things to me, and I did 
not even know what asylum meant at the time. I was so afraid. I did not 
know what was going to happen to me and I thought they might send me 
back to Zaire. The INS officer decided I did not have a credible fear 
and ordered me deported. I then had an immigration judge ``review,'' 
but there was no lawyer or interpreter to help me understand. It was 
very confusing. The judge asked me questions in English which I could 
not understand. I was too terrified to answer because I was afraid of 
being sent back to Zaire to die.
    My fears came true. They brought me in chains to the airport to 
send me back. I was shaking with fear. At the airport, I cried out, 
``This is a country of human rights! Why are you trying to deport me to 
my country, where I will be killed?'' I lay on the ground and refused 
to go. Three detention guards picked me up, handcuffed me tightly, and 
carried me onto the plane. I was absolutely terrified. I cried on the 
plane, and pleaded with them not to deport me. The airline employees 
asked the guards to take me off the plane.
    I was returned to the detention facility and contacted the IJNHCR. 
The INS finally changed its decision and decided that I really was 
afraid to go back and that I could apply for asylum.
    I was detained at Elizabeth for more than two years. Detention was 
a very difficult experience for me. I had lost my family and had been 
tortured in my home country. I felt depressed and scared. My one 
comfort during this period was through the English and Bible classes 
offered by Jesuit Refugee Services, which were later stopped by INS. 
Through JRS, I met Charlie and Gerri Mulligan, who visited me and 
sponsored me for parole. I made a parole request, but the INS denied 
it.
    Then the INS transferred me to Sussex County Jail, where I was put 
in a cell with convicted criminals for one year. I lived in constant 
fear of being harmed by other inmates. After that jail, the INS 
transferred me to York Prison in Pennsylvania, where I was held for 
about a month.
    After living like a criminal in jail for three and a half years, I 
was finally granted asylum in November 2000. I couldn't believe at 
first that I was being released from detention. I was so happy to have 
my freedom. Now I am trying to build a new life. I am taking English 
classes and studying to become an auto technician. I am also working as 
an auto mechanic. I am proud to say that recently I was employee of the 
month and student of the month. For me, this is the meaning of freedom. 
It is my way of showing my appreciation for getting my freedom back.
    I want to thank you, Senators, for giving me the opportunity to 
tell you about my difficulties. I came to this country seeking freedom 
and safety. But I was so close to being deported and then in jail for 
so long. The law is very harsh. I hope that you will make the system 
safer and more humane for refugees like me.
    Thank you.

    Chairman Brownback. That was powerful. God bless you for 
being here.
    Mina?

      STATEMENT OF MINA BURHANI, REFUGEE FROM AFGHANISTAN

    Ms. Burhani. Chairman Brownback and other Senators, I am 
grateful for the chance to talk today about my own experience 
as a refugee seeking asylum here.
    I appreciate your cooperation in keeping my identity 
confidential as I fear that my family in Afghanistan might be 
further endangered if it was known that I have fled to the U.S. 
and spoken out about my treatment in Afghanistan.
    I was a medical student in Afghanistan before I was forced 
to leave school when the Taliban ordered women out of the 
schools. The Taliban took a particular interest in me because 
my sisters had converted to Christianity and because I ran a 
school to teach young girls. Though I tried to keep the school 
secret, the Taliban discovered what we were doing. They raided 
the school and closed it down. They beat me and threatened to 
kill me. They said that they knew I was a Christian probably 
because they knew that my sisters were Christian. They said 
that my punishment would be a lesson to others. I am sure that 
you know, Senators, that the Taliban treat those who disobey 
their orders very harshly. I was very frightened and knew that 
I had to flee from Afghanistan. When I left, I took only one 
extra set of clothes and some money. I did not bring 
identification with me because I knew that if the Taliban 
stopped me, it would be dangerous if they learned my identity, 
because my family is so despised by them.
    I fled to the U.S. and arrived at JFK airport in October 
1998. After the INS interviewed me, an officer ordered me to 
take my clothes off to search me. When I hesitated, she ordered 
me to do what she said. I was confused and humiliated. Then 
they shackled me to a bench. I thought that they were going to 
send me back to Afghanistan. I was so sacred that I fainted in 
the airport. As they took me to the hospital, I was still 
scared and told them, ``Do not send me back. Please kill me 
here, but do not send me back to Afghanistan.''
    I was eventually brought to Wackenhut, which is a kind of 
jail for asylum seekers like me. I was brought there in 
handcuffs and shackled to another person. At the Wackenhut 
facility, they took away my clothes and gave me an orange 
prison uniform. I was treated like a criminal. I was kept in a 
room with 11 other women for 23 hours a day. There was no 
privacy. The toilets and shower were in the same room behind 
only a low wall so that you could somebody's upper body as they 
sat on the toilet. We were only taken out of the room for an 
hour a day. The outdoor recreation area was really like a 
cage--an internal courtyard with a fence for a roof. We could 
not see the trees or anything other than a small patch of sky 
through the fencing.
    My lawyers tried to get me out of that terrible place. They 
applied for parole for me. I have one sister in this country 
that is a citizen of America. My sister signed an affidavit 
promising to house and support me if the INS would release me. 
But they refused. We could not appeal to a judge or anyone 
outside the INS. It was very difficult for me to be detained. 
When my sister came to visit me on Christmas Eve, she was so 
upset, she begged an INS official to release me. Meanwhile, the 
Lawyers Committee told Members of the U.S. Congress about what 
was happening to me, and one of them raised my case with the 
INS. It was only because someone so powerful and respected had 
compassion for me and intervened that I was not detained for a 
long time. I was detained like a criminal for 3 months and 14 
days, but many of the refugee women I met there were detained 
for even longer. One woman I knew who had fled from Uganda was 
detained for about 2 years before she was finally granted 
asylum.
    I am now attending the University of Baltimore and received 
a scholarship for my studies.
    I am happy to learn that there are U.S. Senators who are 
concerned about the treatment of asylum seekers in this 
country. I believe that this country is a wonderful country, 
and I thank you for your efforts to improve its treatment of 
refugees. Thank you.
    [The prepared statement of Ms. Burhani follows:]

          Statement of Mina Burhani, Refugee from Afghanistan

    Chairman Brownback and other Senators, I am greatful for the chance 
to talk today about my own experience as a refugee seeking asylum here.
    I appreciate your cooperation in keeping my identity confidential 
as I fear that my family in Afghanistan might be further endangered if 
it was known that I have fled to the U.S. and spoken out about my 
treatment in Afghanistan.
    I was a medical student in Afghanistan before I was forced to leave 
school when the Taliban ordered women out of the schools. The Taliban 
took a particular interest in me because my sisters had converted to 
Christianity and because, together with one sister, I ran a school to 
teach young girls. Though I tried to keep the school secret, the 
Taliban discovered what we were doing. They raided the school and 
closed it down. They beat me and threatened to kill me. They said that 
they knew I was a Christian probably because they knew that my sisters 
are Christian. They said that my punishment would be a lesson to 
others. I am sure that you know, Senators, that the Taliban treats 
those who disobey its orders very harshly. I was very frightened and 
knew that I had to flee from Afghanistan. When I left, I took only one 
extra set of clothes and some money. I did not bring identification 
with me because I knew that if the Taliban stopped me, it would be 
dangerous if they learned my identity, because my family is so despised 
by them.
    I fled to the U.S. and arrived at JFK airport in October 1998. 
After the INS interviewed me, an officer ordered me to take my clothes 
off. When I hesitated, she ordered me to do what she said. I was 
confused and humiliated. Then they shackled me to a bench. I thought 
that they were going to send me back to Afghanistan. I was so scared 
that I fainted. As they took me to the hospital, I was still scared and 
told them ``Don't send me back. Please kill me here, but don't send me 
back.''
    I was eventually brought to Wackenhut, which is a kind of jail for 
asylum seekers like me. I was brought there in handcuffs and shackled 
to another person I did not know who was also seeking asylum. At the 
Wackenhut facility, they took away my clothes and gave me an orange 
prison uniform. I was treated like a criminal. I was kept in a room 
with 12 other women for 23 hours a day. There was no privacy. The 
toilets and shower were in the same room behind only a low wall--so 
that you could see someone's upper body as they sat on the toilet. We 
were only taken out of the room for one hour a day; the outdoor 
recreation area was really like a cage--an internal courtyard with a 
fence for a roof. We could not see the trees or anything other than a 
small patch of sky through the fencing. Every day, guards woke us up at 
Gam and told to stand in a line to be counted. They searched us several 
times a week.
    My pro bono lawyers tried to get me out of this terrible place. 
They applied for parole for me. I have one sister in this country and 
she is an American citizen. My sister signed an affidavit promising to 
house and support me if the INS would let me out. But they refused. We 
could not appeal to a judge or anyone outside the INS. It was very 
difficult for me to be detained. When my sister came to visit me on 
Christmas Eve, she was so upset, she begged an INS official to release 
me. Meanwhile, the Lawyers Committee told some Members of the United 
States Congress about what was happening to me, and one of them raised 
my case with the INS. It was only because someone so powerful and 
respected had compassion for me and intervened that I wasn't detained 
for even longer. I was detained like a criminal for over three months, 
but many of the refugee women I met there were detained for even 
longer. One woman I knew who had fled from Uganda was detained for 
about 2 years before she was finally granted asylum.
    I am now attending the University of Baltimore and received a 
scholarship for my studies.
    I am happy to learn that there are U.S. Senators who are concerned 
about the treatment of asylum seekers in this country. I believe that 
this country is a wonderful country and thank you for your efforts to 
improve its treatment of refugees.

    Chairman Brownback. Thank you, and I wish the best to you 
in your studies. I hope they go marvelously for you. You 
certainly deserve it.
    Ms. Burhani. Thank you.
    Chairman Brownback. Amchok?

    STATEMENT OF AMCHOK THUBTEN GYAMTSO, REFUGEE FROM TIBET

    Mr. Gyamtso. Chairman Brownback, other Senators, it is an 
honor to speak before you today about the problems facing 
refugees who seek asylum in the U.S. My name is Amchok Thubten 
Gyamtso. I am a refugee from Tibet, and I have been granted 
asylum in this country.
    In Tibet, my family opposed the Chinese occupation of 
Tibet, and for that we suffered harsh persecution for many 
years. My father had been a Tibetan Government minister and was 
executed for opposing Chinese rule and resisting the Chinese 
invasion. My family was labeled an enemy of the communist 
regime, and I was expelled from school when I was 10 years old. 
I entered a Buddhist monastery when I was 14 years old. As a 
Buddhist monk, I distributed literature about the Dalai Lama 
and peacefully advocated for Tibetan independence. I had hoped 
to bring about more freedom for Tibetans who, like myself, were 
denied the same rights as Chinese citizens. Because of my 
activities, the Chinese Government held me in prison for 3 
years and 4 months. During those years, I was tortured.
    Fortunately, I managed to escape to this country. I arrived 
in November 1995, before there was such a thing as expedited 
removal and the filing deadline. With the help of the Lawyers 
Committee for Human Rights, I won asylum in 1997. Last year, 
lawyers at Latham and Watkins helped me to found Song Tsen 
Tibetan Community Outreach, a Tibetan community organization 
based in New York City. As the president of Song Tsen, I work 
to inform the Tibetan refugee community about the 1996 
immigration law's asylum filing deadline. In a survey that Song 
Tsen conducted with 600 Tibetan refugees in New York City, we 
found that more than half did not know about the 1-year filing 
deadline. I have worked with many Tibetan refugees who missed 
the filing deadline or did not know that it exists.
    Just recently, I worked as an interpreter with pro bono 
attorneys representing one Tibetan refugee who, like me, was 
detained and tortured by the Chinese authorities because of his 
peaceful activities on behalf of Tibetan independence. After 
arriving in the United States, he did not apply for asylum 
immediately because he could not understand English. He did not 
know about the 1-year filing deadline. He was also suffering 
from the effects of torture and had difficulty talking about 
what had happened to him. As a result, he missed the filing 
deadline. In March of this year, his asylum claim was rejected 
by the INS based on the filing deadline. I also know of other 
Tibetan refugees whose asylum claims have been rejected on the 
same basis.
    Through my work, I have also heard of Tibetan refugees who 
have come to the United States to seek asylum but were turned 
away after being stopped by the INS at JFK International 
Airport. For instance, I have heard of two Tibetan monks and a 
nun who were not permitted to apply for asylum and deported 
after arriving at the JFK airport. I do not know what has 
become of them.
    I have also recently visited a Tibetan refugee who is 
currently detained at the Elizabeth Detention Center in 
Elizabeth, New Jersey. He is a farmer who had peacefully 
protested when the Chinese removed the Dalai Lama's picture 
from a local monastery. As a result, he was wanted by the 
Chinese authorities. Fearing arrest and torture, he fled to the 
United States. He arrived at the JFK airport on New Year's Eve 
2000. No interpreter was provided for his interview with INS, 
and since he speaks almost no English, he had difficulty 
communicating with INS officers. Right now, he is the only 
Tibetan in detention, and it is hard for him to communicate 
with other detainees because he does not speak English. He has 
told me that he feels isolated and extremely lonely.
    Detention, expedited removal, filing deadlines--I am very 
grateful that these laws were not in place when I fled to this 
country. But you should also know, Senators, that even those 
fortunate refugees who overcome the many hurdles and are 
granted asylum must wait a long time before they can get legal 
permanent residence. For example, although I applied in 1998, I 
still have not been granted my permanent residence status.
    Thank you, Senators, for this opportunity to share my 
experiences and the difficulties of Tibetan refugees affected 
by the 1996 immigration law. I hope you can change U.S. 
immigration law for refugees in the near future.
    Thank you.
    [The prepared statement of Mr. Gyamtso follows:]

        Statement of Amchok Thubten Gyamtso, Refugee from Tibet

    Chairman Brownback and other Senators, it is an honor to speak 
before you today about the problems facing refugees who seek asylum in 
the U.S. My name is Amchok Thubten Gyamtso. I am a refugee from Tibet, 
and I have been granted asylum in this country.
    In Tibet, my family opposed the Chinese occupation of Tibet, and 
for that we suffered harsh persecution for many years. My father had 
been a Tibetan government minister and was executed for opposing 
Chinese rule and resisting the Chinese invasion. My family was labeled 
an enemy of the communist regime, and I was expelled from school when I 
was ten years old. I entered a Buddhist monastery when I was fourteen 
years old. As a Buddhist monk, I distributed literature about the Dalai 
Lama, and peacefully advocated for Tibetan independence. I had hoped to 
bring about more freedom for Tibetans, who like myself, were denied the 
same rights as Chinese citizens. Because of my activities, the Chinese 
government held me in prison for three years and four months. During 
those years, they tortured me.
    Fortunately, I managed to escape to this country, and arrived in 
November 1995, before there was such a thing as expedited removal and 
the filing deadline. With the help of the Lawyers Committee for Human 
Rights, I won asylum in 1997. Last year, lawyers at Latham & Watkins 
helped me to found Song Tsen Tibetan Community Outreach, a Tibetan 
community organization based in New York City. As President of Song 
Tsen, I work to inform the Tibetan refugee community about the 1996 
immigration law's asylum filing deadline. In a survey that Song Tsen 
conducted with 600 Tibetan refugees in New York City, we found that 
more than half did not know about the one year filing deadline. I have 
worked with many Tibetan refugees who missed the filing deadline or did 
not know that it exists.
    Just recently, I worked as an interpreter with pro bono attorneys 
representing one Tibetan refugee who, like me, was detained and 
tortured by the Chinese authorities because of his peaceful activities 
on behalf of Tibetan independence. After arriving in the United States, 
he did not apply for asylum immediately because he could not speak 
English, and did not know about the one year filing deadline. He was 
also suffering from the effects of torture, and had difficulty talking 
about what had happened to him. As a result, he missed the filing 
deadline. In March of this year, his asylum claim was rejected by the 
INS based on the filing deadline. I also know of other Tibetan refugees 
whose asylum claims have been rejected on the same basis.
    Through my work, I have also heard of Tibetan refugees who have 
come to the United States to seek asylum but were turned away after 
being stopped by the INS at J.F.K. International Airport. For instance, 
I have heard of two Tibetan monks and a Tibetan nun who were not 
permitted to apply for asylum and deported after arriving at JFK 
airport. I don't know what has become of them.
    I have also recently visited a Tibetan refugee who is currently 
detained at the Elizabeth Detention Center in Elizabeth, New Jersey. He 
is a farmer who had peacefully protested when the Chinese removed the 
Dalai Lama's picture from a local monastery. As a result, he was wanted 
by the Chinese authorities. Fearing arrest and torture, he fled to the 
United States. He arrived at JFK Airport on New Year's Eve, 2000. No 
interpreter was provided for his interview with INS, and since he 
speaks almost no English, he had difficulty communicating with INS 
officers. Right now, he is the only Tibetan in detention, and it is 
hard for him to communicate with other detainees because he doesn't 
speak English. He has told me that he feels isolated and extremely 
lonely.
    Detention, expedited removal, filing deadlines-I am very grateful 
that these laws were not in place when I fled to this country. But you 
should also know, Senators, that even those fortunate refugees who 
overcome the many hurdles and are granted asylum must wait a long time 
before they can get legal permanent residence. For example, although I 
applied in 1999, I still have not been granted my permanent residence 
status.
    Thank you, Senators, for this opportunity to share my experiences, 
and the difficulties of Tibetan refugees affected by the 1996 
immigration law. I hope you can change U.S. immigration law for 
refugees in the near future.

    Chairman Brownback. Thank you, Amchok. A year ago in 
January, I was in Katmandu, Nepal, and personally interviewed 
around 15 Tibetans who had fled over the Himalayas in the 
winter to get away from the Chinese oppression in Tibet--there 
were children and the aged. It was an incredible situation that 
they fled and all they had gone through just to get to that 
point. It is such a shame that upon reaching our shores more 
problems would be added to them. Each of them had individual 
stories of being locked up, of being beaten, of family members 
being persecuted. And it was just incredible the hardship they 
went through to walk over some of the regions in the 
wintertime. The human spirit present was just indomitable. It 
was compelling to see.
    I want to ask each of you about documentation when you 
reached America. Patrick, if I could ask you first, when you 
reached America, what sort of documentation did you have with 
you? I am presuming none was available since you were fleeing 
the regime in Zaire.
    Mr. Mkhizi. Yes, I had no documents. Since I came and 
arrived in Philadelphia, the INS inspectors, they interviewed 
me, but it was difficult to communicate with them. And it was 
my understanding that there was United Nations for Refugees, so 
I ask, I want to see them, and they say we are going to provide 
for you. But, otherwise, I did not have any documents.
    Chairman Brownback. And it would have been impossible for 
you to have had any documents.
    Mr. Mkhizi. Yes, because the day the soldiers came to my 
house, they just like attacked the house and came inside the 
room and found the pamphlets from my father, which is active in 
the political party against Mobutu. And so the same day they 
tried to--they beat me, they beat my father, and my mother and 
two sisters, they were outside, they escaped the same day. So I 
cannot get the documents. There is no time to get the 
documents.
    Chairman Brownback. Mina, your family has had a lot of 
education, and you have stated in your testimony that you 
feared traveling in Afghanistan with any documentation for fear 
of being captured and determining who you are. So you could not 
have brought any with you to verify to the INS what you have 
been through. Is that correct?
    Ms. Burhani. That is why I did not have any documents with 
me, because I did not want to be recognized by the Taliban.
    Chairman Brownback. And I take it that this is a fairly 
typical situation for most people fleeing persecution and 
seeking asylum. They are trying to get away from people who 
seek to do them harm or to kill them.
    Ms. Burhani. Yes.
    Chairman Brownback. Amchok, was that the case with you as 
well regarding any sort of documentation that you had when you 
left Tibet?
    Mr. Gyamtso. Yes, with my experience under the Chinese law 
as a Tibetan, we generally did not receive any passport or like 
that. But since I am personally involved in political issues 
and since the Chinese Government wanted at that point, it is 
very hard to get legitimate documents. And as you said right 
now, I fled to Nepal, eventually to India, and from there 
seeking asylum, and the Indian Government denied my application 
for asylum. From there, the only option I have is to use a fake 
document in order to come to United States.
    Chairman Brownback. Let me ask if any of you have 
suggestions from your experiences. Also, I apologize for the 
nature of what you have experienced once you arrived here. What 
would you change? How would you change the system, based on 
what you experienced once you reached the United States?
    Mr. Mkhizi. I think they should change to provide first in 
the airport, provide someone who is fluent in translation, like 
if it is French or any language of the world, provide a 
translator and privacy and give him the time, the refugee, to 
express his fear and all the confidential, because it is 
difficult. Our country, if the government is against you, it is 
difficult to come up here and to say anything against your 
government. For example, if I was in my country, I would be 
killed. So if you give me time, I can explain more, and you 
provide a lawyer and provide a translator so they can help. 
Another thing is to improve the system of detention. You should 
not detain. For safety and security reasons, it should not be 
even about a week. If somebody has a family outside, let them 
go to the family. You have the address. The security I believe 
is good. So that is how the system can be improved.
    Chairman Brownback. You will learn that in the United 
States you can freely speak out against the Government. Many 
people do this very well.
    Mina, do you have any suggestions?
    Ms. Burhani. I agree with him, what he said. I am not a 
legal expert. I do not know, but I think it should be at least 
fair to the asylum seekers. I do not think they are fair with 
them. That is all I can say.
    Chairman Brownback. Amchok?
    Mr. Gyamtso. I think my experience, if someone is seeking 
asylum, I think they should not be detained, and they should 
provide legal assistance and interpreter. And one with my 
experience as a Tibetan community leader, as I mentioned in my 
statement, we have a very difficult problem with the expedited 
removal, the filing deadline. For instance, in this past year, 
I have several friends who missed the filing deadline. One in 
particular was the monk from Tibet who came with a group of 
monks to the United States, and the group of monks were going 
to visit in nearly 30 States doing--created some Buddhist 
lectures, and after that project finished, he is 1 year and 1 
month, and he applied late last year, and early this year INS 
rejected his asylum application because--based on the filing 
deadline, which makes it very difficult for the refugees 
because while it takes nearly 2 or 3 years and during this 
period of time you are not eligible to legally work, and, for 
instance, if you have wife or child, you will be separated from 
your family members for nearly 6 or 7 years. Like my own, I 
came in 1995, and at that time the filing deadline was not yet 
placed. But I did apply in 1996 and still I did not receive 
that legal status, the permanent residence, which means I 
cannot travel, I cannot visit my mom, you know, which is a very 
difficult and devastating situation. So that monk, he is very 
devastated. He may be deported back to China because the case 
is much more difficult. And while nearly 2 years you have to 
wait, with no legal permission, you cannot work, and 
financially it is very difficult to this individual.
    I think there is a way probably to provide some kind of a 
short--and definitely I think people should not be detained.
    Chairman Brownback. Those are excellent suggestions on your 
part, and we will look to see if we can incorporate them.
    I want to thank the panelists for being here; you provide 
tremendous stories. I look forward to hearing from each of you 
twenty years from now and to knowing what your American journey 
becomes like. It has been a rough start for you, I realize, but 
many times in this country, the rough start causes you to sink 
your roots deeper and grow taller in the end. Thanks for being 
here.
    Mr. Gyamtso. Thank you.
    Chairman Brownback. The final panel, I would like to have 
them come forward. Dr. Donald Hammond is a senior vice 
president for World Relief, which is a humanitarian 
distribution arm for the National Association of Evangelicals. 
Leonard Glickman is president of the Hebrew Immigrant Aid 
Society, one of the oldest refugee advocates and resettlement 
organizations in America. And Dan Stein is the executive 
director of the Federation for American Immigration Reform. I 
look forward to the witnesses' testifying.
    Dr. Hammond, thank you for joining us, and I look forward 
to your testimony.

   STATEMENT OF DONALD HAMMOND, SENIOR VICE PRESIDENT, WORLD 
                    RELIEF, WASHINGTON, D.C.

    Mr. Hammond. Thank you, Senator Brownback. I would like to 
have my full testimony, the written testimony, submitted for 
the record.
    Chairman Brownback. Without objection, and all of you can 
summarize. Your full testimony will be included in the record.
    Mr. Hammond. Thank you. I especially thank you for the 
opportunity to address you today. In the brief time of your 
leadership of the subcommittee, you have been bringing up many 
issues that are important to asylum seekers and people that we 
have seen and heard from today.
    My voice will not be as powerful as theirs. Those are the 
ones that we need to listen to carefully, and we need to 
respond very carefully to what they are saying to us. Our 
country is a great country, and we cannot allow this to keep 
going on. We believe that there are critical changes that need 
to be made, and we have heard about them today very 
articulately.
    We are here today, I am here today to represent a segment 
of the U.S. constituency that has bipartisan roots, one that is 
concerned with justice, human dignity, and freedom. The issues 
that we are here to discuss have both common, shared concerns 
among those who want U.S. policy to reflect the great history 
that this country has been built on--a history of democracy, of 
liberty, and safety from oppression.
    World Relief is the relief, development, and refugee 
assistance arm of the National Association of Evangelicals. We 
are owned by 49,000 evangelical churches that represent various 
ethnic backgrounds within over 50 denominations in the United 
States. World Relief's historically conservative constituency 
is one that has modeled the evolution of immigration and 
refugee concerns.
    In 1994, an evangelical was one of the primary authors of 
Proposition 187 in California that barred undocumented 
immigrants from critical public services. But the categories 
and definitions of liberals and conservatives are fading away. 
This past year, the National Association of Evangelicals 
surveyed its members and found that almost 70 percent thought 
that immigrants are beneficial to our society--a stark change 
from writing a law that denies services to undocumented people 
in our society.
    Just weeks ago, at their annual convention, the NAE passed 
a resolution supporting asylum and refugee issues, such as the 
Refugee Protection Act, and in November of 2001, this fall, the 
World Evangelical Fellowship, the umbrella of evangelical 
associations worldwide, is holding its first ever evangelical 
consultations on refugees in Turkey. So this is an issue that 
our constituency is concerned about, and it has been raised to 
a level that, in my 20 years of working on these issues, has 
not been there before.
    Of great concern to our constituency are the thousands of 
people of faith who are forced to flee their homes due to 
religious persecution. The INS has not provided statistics on 
how many expedited removal cases are claiming religious 
persecution, but the link between asylum seekers and religious 
persecution cannot be denied. It is very clear.
    When we hear of rape and torture and death due to religious 
persecution, are we to point our finger back at those 
persecuted and say, as we so sometimes in expedited removal, 
``Yes, we know you are persecuted, but stay there in your 
country and things will work out''? No, I think there is a 
better thing for us to do.
    A Chinese pastor that was defended by the Rutherford 
Institute was recently granted asylum. Speaking of the 
repression he faced at the hands of the government for his 
evangelical Christian beliefs, he stated, ``that despite the 
Chinese Government's release of high-profile dissidents, the 
Chinese Government has become more strict with regard to 
individuals involved with religious activities and that 
religious individuals are feared more than political 
demonstrators.''
    This pastor was fortunate to be processed before the new 
expedited removal was implemented in 1997. Had he gone through 
the process a year later, even 6 months later, he might have 
been summarily removed and sent back.
    Karen Musalo's report on the implementation of expedited 
removal lists more than 100 nationalities with the highest 
numbers of people being sent back to their countries of origin. 
Of those countries, almost 40 percent appear on this year's 
Open Doors World Watch List of countries that severely restrict 
religious freedom.
    Without more information from the INS, we cannot draw the 
correlation directly, but the link between asylum and religious 
persecution cannot be dismissed.
    Mr. Chairman, in 1997, this body heard similar information 
of the link between asylum and religious persecution during the 
consideration of the International Religious Freedom Act. At 
that time, an effective coalition of conservative and liberal 
actors rose up to highlight these issues. It brought together 
those on the left and those on the right, faith-based and non-
sectarian communities, and those concerned with freedom and 
democratic principles, and set out in cooperation to demand 
reforms. Through the bipartisan efforts of many faithful and 
passionate people, the International Religious Freedom Act 
passed successfully through Congress. However, unfortunately, 
at that time the Senate declined to take action on asylum. Now 
is the time to resurrect that discussion on asylum and deal 
with the unfinished business.
    It is time for the U.S. to take a hard look at the drastic 
changes it made in the 1996 immigration policy and make sure 
that the lasting legacy is not one that causes death and 
further persecution and the mishandling that we heard of of 
people here on our shores and the further persecution of those 
that risk their lives for freedom. It is time for the pendulum 
to swing to the middle and for the U.S. to limit the tremendous 
authority given to the INS in 1996. It is time to limited 
expedited removal and restore due process to refugees.
    Mr. Chairman, I have heard some say, ``Why don't we only 
spare those who are fleeing from religious persecution and send 
back everyone else?'' To that I say if our law needs to be 
changed, then they must be changed for all--all who are truly 
persecuted, whether it is for reasons of race, religion, 
nationality, membership in a social group, or political 
opinion, and who have risked their life and limb to come to our 
shores to find safety. Those are the ones that we need to 
change the law for.
    Consider the story of Dominic, a political refugee, the son 
of an outspoken Liberian statesman. He fled the regime that 
murdered his parents and sisters as they lay sleeping in their 
beds during the Liberian civil war. After 7 years of living 
undercover in Monrovia and fleeing to the Ivory Coast, Dominic 
stowed away on a ship without even knowing its destination. 
When the ship docked in New York, he was taken to the INS 
Wackenhut Detention Center in Jamaica, Queens, and incarcerated 
for almost 2 years. Members of a local evangelical church, the 
Redeemer Presbyterian Church in Manhattan, befriended him and 
provided him modest support and arranged for lawyers from Yale 
and other places to give him pro bono advocacy. His 
applications for asylum were lost several times and delayed, 
and he came close, despairingly close, to being released. As a 
story that we heard, he was put on a plane and was taken off at 
the very last second before he was sent back to the Ivory 
Coast, where he would have very easily been repatriated 
forcibly back to death in Liberia.
    He now awaits--it took phone calls from several of us and 
other people, and faxes, to Commissioner Meissner at INS to 
reverse him being sent back that very day. And he was removed 
from the plane after our interventions. He now awaits his 
asylum hearing.
    This is only one story, and the story goes on and on and on 
with many examples that we could give you, but time is 
pressing.
    Mr. Chairman, in most faith traditions, caring for the 
stranger plays a central role in the living out of one's faith. 
My Muslin colleagues have told me many times that in Islamic 
tradition, anyone who dies a refugee holds a special position 
in heaven because of the hardship he or she experiences in 
life. The Jewish tradition speaks very highly of the strangers 
and how they are to be treated in Leviticus and Deuteronomy, as 
the law is laid out to them. We have heard about the Matthew 25 
passage, and it is in my testimony, and several people that 
have talked about it.
    For Christians, Jesus is very clear about how we are to 
live our faith out. There is no question about what we are to 
do. We are to care for those who are hungry, someone who needs 
a drink, to provide food and to care for the strangers and 
aliens in our midst. And when we do that, we are doing it as 
unto him. That call is so strong in our lives that we cannot 
let it pass.
    I am passionate about that in my life. I have spent 20 
years dedicated to that. I want to see our country reverse 
these rules that keep our country from doing that as well. We 
must as Christians cry out to our country to change these laws. 
And we will be there to help you and advocate on behalf of the 
changes that need to be made.
    If we seek justice, then we must seek justice for all. We 
should be in the business of protecting all those who are 
persecuted. If we save the Chinese pastor who fled abuse 
because of his religion, we are compelled to save Dominic, who 
was persecuted for his family's political involvement.
    Mr. Chairman, only with political will can we change our 
laws to protect the persecuted. It was done in 1997 for victims 
of religious persecution, it was done last year for victims of 
sex trafficking, and now it must be done for refugees.
    I was told a story by a friend--and I will close with 
this--from Britain who told me a story of how he is convinced 
that the United States is the only entity that hold 
international leadership on issues of refugees, that people of 
other countries around the world look to us to what they should 
do. They follow our example. We need to take leadership, sir, 
and we will be here to help you and to work with you in that 
regard.
    [The prepared statement of Mr. Hammond follows:]

    Statement of Donald Hammond, Senior Vice President, World Relief

                    Introduction: The Refugee Crisis
    Mr. Chairman, thank you for the great work you have done during the 
short time you have been in leadership with the Immigration 
Subcommittee. You have called attention to so many issues, including 
refugee resettlement and protection. We believe this is the year to 
make critical changes; as assistance to and protection for refugees 
falls to a critical low, the needs of those escaping from persecution 
and conflict continues to increase.
    The first reason we need to act now is the deteriorating conditions 
in refugee camps and other places around the world. Refugee needs are 
consistently underfunded and paid scant attention. Without resources 
from developed countries and other donors, obligations to the displaced 
are unmet. Such neglect can be seen in the increasing level of violence 
and insecurity in many refugee camps. Humanitarian groups cannot be 
expected to guarantee the safety of refugees when their own staff are 
being targeted by hostile armed groups. These working environments 
ultimately result in detrimental consequences for those who most need 
assistance and protection.
    As a timely example--and one of which I am sure you are aware--is 
the condition of Sierra Leonean refugees in Guinea which worsens with 
each passing day. Those who fled for their lives from the civil 
conflict in Sierra Leone and crossed into Guinea are now clamoring to 
return home, despite the fact that the war being waged by the 
Revolutionary United Front (RUF) rebels is still continuing. For 
refugees to want to go back to a place from which they escaped is 
telling of the conditions they are facing in the host country. Such 
circumstances are unacceptable in light of the resources available from 
donors around the world.
    In the Congo, war is also taking its toll on the civilian 
population. Just at the point when security in and access to more 
remote areas in the country seem to be improving, the U.S. government 
has pulled back on funding new initiatives. The Office of Foreign 
Disaster Assistance has almost reached its $15 million cap for the 
Congo, and Administration officials have indicated there are no plans 
to increase assistance to the area. We must do a better job at 
protecting refugees and displaced persons. We cannot continue to under-
fund assistance in explosive areas.
    The second reason we need to act now is because actual refugee 
admissions numbers have fallen dramatically. Over the eight years of 
the Clinton administration, refugee admissions fell over 40 percent 
from their historically high levels of the 1980s. For FY2001, the 
admissions ceiling was set at just 80,000. Inefficiencies in the 
refugee pipeline have resulted in even fewer refugees arriving annually 
than are allowed for under the admissions ceiling.
    Thirdly, we must act now to change U.S. refugee policy, as asylum 
and refugee protection laws are reflecting a harsher and more 
restrictive approach to immigration and asylum proceedings.
    The immigration laws enacted in 1996 put in place mechanisms that 
barred many people from pleading their cases before immigration judges. 
Individuals and families seeking asylum in the U.S. can now be turned 
away from our borders by low-level INS officers at ports of entry. 
Legitimate refugees have been forced to return to the conditions from 
which they were escaping.
    We believe these challenges must be overcome, and we welcome your 
efforts to consider what changes are needed, and to put in place those 
actions which will result in the increased protection and assistance 
for refugees seeking peace and stability within our shores.
                the bipartisan nature of refugee issues
    Thank you also for the chance to present our experience and 
knowledge of the asylum process. We are here today to represent a 
segment of the U.S. constituency that has bipartisan roots, one that is 
concerned with justice, human dignity, and freedom. The issues that we 
are here to discuss have become common, shared concerns among those who 
want U.S. policy to reflect the great history that this country was 
built on--a history of democracy, liberty, and safety from oppression.
    World Relief is the relief, development, and refugee assistance arm 
of the National Association of Evangelicals (NAE), which is owned by 
49,000 evangelical churches, that represent various ethnic backgrounds 
within over fifty denominations in the U.S. World Relief's historically 
conservative constituency is one that has modeled the evolution of 
immigration and refugee concerns, changing its stance from being anti-
immigrant to welcoming those who seek refuge in the U.S. Back in 1994, 
an evangelical was one of the primary authors of Proposition 187 in 
California, which barred illegal immigrants from being eligible for 
critical public services. This past year, however, the NAE surveyed its 
members and found that almost 70% thought that immigrants are 
beneficial to our society. Just weeks ago at their annual convention, 
the NAE passed a resolution supporting asylum and refugee issues, and 
urged the introduction and passage of legislation to limit expedited 
removal. In November 2001, the World Evangelical Fellowship, the 
umbrella for evangelical associations worldwide and a leader in the 
demand for religious liberty, will host the first-ever evangelical 
consultation on refugees in Turkey.
                   the link to religious persecution
    Of great concern to our constituency are the thousands of people of 
faith who are forced to flee their homes due to religious persecution. 
The INS cannot provide statistics on how many expedited removal cases 
were claiming religious persecution, but the link between asylum 
seekers and religious persecution cannot be denied. When we hear of 
rape, torture, and death due to religious persecution, are we to point 
the finger back at those persecuted to say, ``Yes, we know you are 
persecuted, but stay there and endure it in your country.?'' A Chinese 
pastor, defended by the Rutherford Institute, was recently granted 
asylum. He faced repression from the government of the People's 
Republic of China for his evangelical Christian beliefs and states, 
``that despite the Chinese government's release of high-profile 
dissidents, the Chinese government has become more strict with regard 
to individuals involved with religious activities and that religious 
individuals are feared more than political demonstrators.''
    Mr. Chairman, in 1997 this body heard similar arguments during 
consideration of the International Religious Freedom Act. At that time, 
an effective coalition of conservative and liberal actors rose up to 
highlight these and other issues. It brought together those on the left 
and the right, the faith-based and non-sectarian communities, and those 
concerned with freedom and democratic principles, and set out in 
cooperation to demand reforms. Through the bipartisan efforts of many 
faithful and passionate people, the International Religious Freedom Act 
passed successfully through Congress. However, at the time the Senate 
declined to take action on asylum.
    Last year, many of the same actors came together in another 
successful coalition effort coalesced around the sex trafficking 
legislation. The shared conviction that the sale and bondage of women 
and children is morally unacceptable and repudiates universally 
recognized human rights brought feminist organizations together with 
religious congregations and academic institutions, to call for an end 
to the practice of present-day slavery. Women and children who fled to 
our shores found that their lack of legal documentation put them in the 
category of ``criminal'' rather than victim. The successful passage of 
the sex trafficking legislation gave them status and has made our laws 
treat them with the care that they deserve.
    Now is the time to recommit ourselves to the passage of the Refugee 
Protection Act and deal with the business left unfinished from years 
past. Some of the same groups that fought for religious liberty and 
against human trafficking are now working together to secure the same 
safety and refuge for those fleeing from a ``well-founded fear of 
persecution,'' be it political, religious, or any other reason. It is 
time for the U.S. take a hard look at the drastic changes in made in 
1996 immigration policy and ensure that the lasting legacy is not one 
that causes death and further persecution to those who risk their lives 
for freedom. It is time for the pendulum to swing to the middle and for 
the U.S. to limit the tremendous authority give to the INS in 1996. It 
is time to limit expedited removal and restore due process for 
refugees. Karen Musalo's report on the implementation of expedited 
removal conducted by the University of California lists the 101 
nationalities with the highest numbers of people being sent back to 
their countries of origin. Of those 101 countries, almost 40% also 
appear on this year's Open Doors World Watch List of countries that 
severely restrict religious freedom. In other words, over a third of 
those who were subject to expedited removal from the U.S. were being 
sent back to countries which are known to persecute Christians. And 
these numbers do not even reflect those who are subject to persecution 
for other beliefs or faith traditions.
    In Laos, for example, there has been a significant and marked 
increase in the degree of persecution over the past year. These 
dramatic changes have resulted in Laos becoming the country with the 
second highest rate of religious persecution in the world, compared to 
its ranking of 19<SUP>th</SUP> in 1999, according to Open Doors. The 
situation in Indonesia also showcases the increased religious tension 
in many parts of the world. Although inhabitants of Maluku province 
have lived together peacefully for years, recent deadly campaigns by 
fundamentalist Muslim warriors have caused tensions to rise on the 
island. In China, the efforts of Falungong members to exercise their 
right to ``worship'' have elicited a strong response from the 
government, which has embarked on a campaign against ``evil cults.'' 
Indeed, religious disturbances seem to unsettle Chinese leaders more 
now than political demonstrations for democracy. And in Sudan, one of 
the countries the U.S. Commission for International Religious Freedom 
deems the world's most egregious abusers of religious freedom, 
Christians and animists--as well as Muslims who do not support the 
National Islamic Front regime--are systematically persecuted, to the 
extent that humanitarian relief agencies providing assistance to 
southern civilians are routinely targeted by government bombs.
    The above examples indicate the extent to which the expedited 
removal process has undermined the United States' historical commitment 
to protect and assist those who are fleeing from their countries of 
origin. As a nation founded by those who were escaping religious 
persecution, it is only fitting that our doors remain open to others 
who are in search of safety from oppression. Let us not turn our backs 
on those who need our help the most. Let us live up to the ideals and 
promises upon which this nation was established and institute changes 
which will restore hope and healing for refugees and asylum-seekers in 
this country.
        treatment for refugees fleeing all forms of persecution
    Mr. Chairman, I have heard some say, ``Why don't we only spare 
those who are fleeing from religious persecution.'' To that I say, if 
our laws need to be changed, then they must be changed for all--all who 
are truly persecuted and who have risked life and limb to come to our 
shores to find safety must be protected.
    Consider the story of Dominic, the son of an outspoken Liberian 
statesman, who fled the regime that murdered his parents and sisters as 
they lay sleeping in their beds during the bloody Liberian civil war of 
1990. After seven years of an undercover, hand--to- mouth existence in 
Monrovia and Ivory Coast, Dominic stowed away on a ship without even 
knowing its destination. When the ship docked in New York, he was taken 
to the INS Wakenhut Detention Center in Jamaica, Queens and 
incarcerated for almost 2 years, one of the longest incarcerations on 
record. Members of Redeemer Presbyterian Church in Manhattan befriended 
him and provided modest support. Human rights lawyers and Yale Law 
students became his legal advocates, pro bono. His applications for 
asylum were lost and delayed, and he came close to despairing of ever 
being released. Then in May 1999, with just a half hour's notice, he 
was released on to the streets of New York City. Though Dominic was 
granted witholding status to protect him from deportation to Liberia 
and given work authorization for 12 months, the immigration judge left 
open the possibility of a forced return to Ivory Coast. That became 
reality in April 2000, when he received notice to appear at INS for 
deportation to Ivory Coast, a country where he had no family or support 
networks, and where he would be in danger of being forcibly transported 
to Liberia, a fate that would mean certain death. Denied contact with 
his lawyer, he was sneaked onto a plane at JFK airport bound for Ghana 
without being given any travel documents by INS. Fortunately for 
Dominic, his friends and advocates were able to get him off the plane 
and released from detention. He awaits a final asylum hearing.
    In most faith traditions, caring for the stranger plays a central 
role in the living out of one's faith. My Muslim colleagues have told 
me that the spine of Islam is to care for refugees. It is said that 
anyone who dies a refugee holds a special position because of the 
hardship he/she experience in life. In the New Testament, Jesus tells 
us in Matthew 25, ``I was hungry and you gave me something to eat, I 
was thirsty and you gave me something to drink, I was a stranger and 
you invited me in.'' In the Old Testament we are told of the Jewish 
tradition of a special consideration for sojourners.
                            closing comments
    If we seek justice, then we must care for all who are persecuted. 
We cannot save the Chinese pastor who fled abuse because of his 
religion, but send Dominic to certain death. Mr. Chairman, only with 
political will can we change our laws to protect the persecuted. It was 
done in 1997 with victims of religious persecution, it was done last 
year for the victims of sex trafficking, and now, it must be done for 
refugees who seek freedom and safety from persecution on our shores.

    Chairman Brownback. Thank you, Dr. Hammond, and that was 
excellent testimony. Thank you for your hard work, too. It is 
great work that you are doing.
    Mr. Glickman?

 STATEMENT OF LEONARD GLICKMAN, PRESIDENT AND CHIEF OPERATING 
   OFFICER, HEBREW IMMIGRANT AID SOCIETY, NEW YORK, NEW YORK

    Mr. Glickman. Thank you, Mr. Chairman. My name is Leonard 
Glickman. I am president and CEO of the Hebrew Immigrant Aid 
Society. Today I am also testifying on behalf of the American 
Jewish Committee, the Anti-Defamation League, B'nai B'rith 
International, the Jewish Council for Public Affairs, the Union 
of American Hebrew Congregations, and United Jewish 
Communities. These are all sister agencies within the Jewish 
community who are deeply involved with the community's efforts 
to protect refugees.
    Chairman Brownback. Mr. Glickman, pull that microphone up 
more to you. I am sorry. It is very directional.
    Mr. Glickman. I am told my voice carries.
    Chairman Brownback. It does, but only to me and nobody in 
the back can hear you.
    Mr. Glickman. As HIAS celebrates its 120th anniversary, we 
would like to thank you, Chairman Brownback, for your 
leadership in the area of refugee protection and for convening 
this vitally important hearing and for giving us the 
opportunity to share a Jewish perspective on the U.S. asylum 
system.
    The Jewish community is greatly concerned about the major 
changes that were instituted in the U.S. asylum system in 1996, 
changes that we believe threaten to undermine refugee 
protection and U.S. global leadership in this area. This 
testimony presents a very brief overview of several problem 
areas in U.S. asylum law, highlights the issues from cases 
represented by HIAS attorneys and other advocates, and it 
reflects on the Jewish community's historical experience and 
this history's impact on our refugee protection concerns.
    As has already been reviewed in detail, the changes to 
asylum law in 1996 that created expedited removal, mandatory 
detention of asylum seekers, and the 1-year filing deadline 
have caused grave harm to individuals fleeing persecution. As 
an agency that assists asylum applicants and other immigrants, 
HIAS is also concerned that the provision permitted only 10,000 
asylees per year to adjust their status to that of lawful 
permanent resident stands as just one more unjust hurdle for 
victims of persecution. This cap should be eliminated. It 
serves no real purpose, and that asylees can now begin the 
process of integrating into our country. Furthermore, while 
U.S. policy on asylum is critically important in the lives of 
thousands of asylum seekers who are looking for safe haven in 
our country, our actions do have, as Don mentioned, a global 
impact of a magnitude that overshadows even these crucial 
domestic concerns.
    As the United States argues that nations around the world 
should open their doors and create camps for thousands of new 
refugees and that countries of first asylum should integrate 
these refugees into their societies, it will require a 
consistent policy of refugee protection on our part to 
successfully press for greater contributions from others. 
Similarly, if other countries can show that the United States 
is retreating from maintaining the highest standards of 
treatment for asylum seekers, they will have an excellent 
excuse to ignore our criticism of their own policies in this 
area.
    HIAS' perspective on these central issues in U.S. asylum 
law is based in large measure on our century-old experience 
providing representation to asylum seekers and other 
immigrants. Our staff of lawyers and other advocates provides 
assistance to applicants who are affirmatively applying for 
asylum before the INS, as well as in the courts when necessary. 
In recent years, out staff has assisted or represented hundreds 
of asylum seekers being held in detention under the expedited 
removal system.
    We have already heard about Anna Smirnova who is a victim 
of the 1-year filing deadline, a former HIAS client. Today with 
us are Denis and Tatiana Boulankine, and I would like to ask 
Denis and Tatiana to stand.
    Chairman Brownback. Welcome.
    Mr. Glickman. Denis and Tatiana are a married couple from 
southern Russia near Chechnya. Denis is a lawyer. He opposed 
the violence and the human rights abuses in the Russian war in 
Chechnya. Because of his activism, the military authorities 
harassed his entire family and threatened to send him either to 
the front lines of the war or to a filtration camp.
    On October 9th of 2000, Denis and Tatiana fled Russia using 
fake Hungarian passports with the intent of going to Canada, 
where they planned to apply for asylum. While transiting 
through Newark Airport, INS stopped them and detained them at 
the Elizabeth Detention Center. Notwithstanding having a U.S. 
citizen uncle living in New York City, Denis and Tatiana were 
kept in detention until their asylum case was granted, a total 
of over 5 months. During this time, despite being married, they 
were denied all contact visits except for two joint meetings 
with their HIAS legal representatives.
    Two other HIAS clients could not be here with us for this 
hearing. They are 16-year-old Mohamed Boukrage from Algeria and 
15-year-old Congolese girl we call L.K. Both of these children 
are asylum seekers who are currently incarcerated in New Jersey 
and New York adult detention facilities.
    This past Monday, an ecumenical delegation of over 20 
religious leaders toured the Wackenhut Detention Center in 
Queens, New York, to see firsthand the devastating impact of 
these policies. HIAS was pleased to join with colleagues from 
the Lutheran Immigration and Refugee Service and with the 
Lawyers Committee in organizing this event. I would like to ask 
that a copy of the religious leaders' joint statement and LIRS 
paper on alternatives to detention as well as the statements of 
Tatiana and Denis be included in the record.
    Chairman Brownback. Without objection.
    Mr. Glickman. Thank you.
    [The statements follow:]

     Statement of Ralston H. Deffenbaugh, Jr., President, Lutheran 
                    Immigration and Refugee Service

    I thank Senator Brownback and the other Members of the Subcommittee 
on Immigration for this opportunity to present testimony on our 
nation's treatment of asylum seekers. As a religious refugee service 
agency, Lutheran Immigration and Refugee Service (LIRS) is deeply 
concerned about the prolonged detention of asylum seekers who are 
forced to flee their homelands without proper travel documents. I take 
this opportunity to present the response of a group of religious 
leaders who have witnessed these detention practices just three days 
ago and put forth two proposals for humane and cost-effective 
alternatives to present practices.
    On April 30 LIRS, in cooperation with Hebrew Immigrant Aid Society 
and other faithbased service agencies, coordinated a tour for religious 
leaders of the Wackenhut Detention Center in Queens, New York, near 
John F. Kennedy Airport. These leaders, coming from Christian, Jewish, 
Muslim, Buddhist and Hindu faiths, were shocked that the United States 
would subject people seeking asylum who have no criminal convictions to 
months and sometimes years of such harsh conditions. In the attached 
joint statement following the tour, they call upon Congress and the 
Administration to correct these practices.
    Under current law, asylum seekers can be released on parole after 
passing a ``credible fear'' screening shortly after their arrival. Yet, 
thousands of asylum seekers are being unnecessarily detained, sometimes 
for long periods, in detention centers and jails across the United 
States. This costs taxpayers millions of dollars, and prolongs and 
exacerbates the suffering of asylum seekers who have come here seeking 
freedom. LIRS's attached proposal describes a humane and cost-effective 
alternative that would enable INS to release 2,500 asylum seekers to 
private nonprofit agencies. The model is based upon very effective 
programs tested in several communities across the country, all of which 
have appearance rates for all hearings of 93% or better. If Congress 
appropriates $7.3 million for this program, we project that the 
government will save a net $11.6 million through reduced detention 
costs.
    Lastly, I include LIRS's proposal for NGO legal orientation 
presentations for immigration detainees. This is another ``tested and 
proven'' program that helps to identify persons with meritorious claims 
for relief, convinces those without legitimate cases to accept removal, 
reduces tension and improves security in detention facilities and saves 
the government money by making the judicial process more efficient and 
reducing the need for prolonged detention. An appropriation of just 
$2.8 million would allow this program to expand to 10 sites and save 
the government $10 million.
    I urge Congress to correct the policies and practices that lead to 
the prolonged detention of asylum seekers and, in particular, urge the 
Members of this Subcommittee to ask your colleagues on the Subcommittee 
for Commerce, Justice and State Department Appropriations to fund these 
two worthwhile programs.

                                <F-dash>

  Statement From Faith Representatives Following April 30 Tour of the 
                       Wackenhut Detention Center

    As representatives of diverse faith traditions that lift up 
hospitality to the stranger as a fundamental principle, we are deeply 
troubled by the way our country is treating people who come to our 
shores fleeing persecution in their homelands. Today, we call upon 
Congress and the Administration to end policies and practices enacted 
in 1996, which seriously undermine our nation's commitment to refugee 
protection. We are particularly concerned about the impact of expedited 
removal and detention on adults and children seeking asylum here.
    Historically, our nation has been a beacon of hope and freedom for 
the oppressed. Many of our ancestors fled religious and other 
persecution and were welcomed here. Yet today, low-level officials have 
the power to turn asylum seekers away at our borders through on the 
spot, unmonitored interviews. Thousands of asylum seekers, including 
children, are also imprisoned in INS detention centers and county jails 
while they await decisions on their claims. Women, men and children who 
have suffered torture and imprisonment, witnessed the murder of their 
families and destruction of their homes, and endured long and dangerous 
journeys to reach freedom find themselves behind bars. Some remain 
there for months or even years, with little access to legal, social, 
and spiritual care.
    As a just and generous country that has traditionally stood for the 
protection of human rights around the world, we can and must do better. 
We urge Congress and the Administration to take immediate steps to 
correct the policies enacted into law in 1996 that are causing such 
severe human suffering.
    Signed
    The Rev. Dr. Stephen P. Bouman, Bishop of the Metropolitan New York 
Synod of the Evangelical Lutheran Church in America; Member of LIRS 
Board of Directors
    Mr. Ralston H. Deffenbaugh, Jr., President, Lutheran Immigration 
and Refugee Service--LIRS, Baltimore, Maryland
    Imam Salihou Djabi, Timbucktu Interfaith Center, New York
    The Rev. Dr. Bob Edgar, General Secretary of the National Council 
of Churches, New York
    Mr. Leonard Glickman, President, Hebrew Immigrant Aid Society--
HIAS, New York
    Ms. Mala Kadar, Ilankai Tamil Sangam, an association of American 
Tamils Tri-State Area
    The Venerable Michael S. Kendall, Archdeacon for Mission Episcopal 
Diocese of New York
    The Bishop Ernest S. Lyght, Resident Bishop, New York Area, The 
United Methodist Church
    The Rev. John McCullough, Executive Director, Church World Service, 
New York
    Mr. C. Richard Parkins, Director, Episcopal Migration Ministries, 
New York
    Rabbi Dan Polish, Director of the Joint Commission on Social Action 
of Reform Judaism, New York
    Carol J. Fouke-Mpoyo, Chair, Riverside Church Sojourners Ministry 
With Detained Immigrants, New York
    Rabbi Arthur Schneier, Park East Synagogue, New York; President, 
Appeal of Conscience Foundation; Member of HIAS Board of Directors
    The Msgr. Kevin Sullivan, Chief Operating Officer, Catholic 
Charities, Archdiocese of New York
    The Right Rev. Orris G. Walker Jr., Bishop of the Episcopal 
Archdiocese of Long Island, New York

                                <F-dash>

                       Alternatives to Detention
                                overview
    The 1996 immigration laws drastically increased the number of 
immigrants subject to mandatory detention. INS' daily detention 
capacity has expanded from 8,279 beds in 1996 to approximately 20,000 
today, and over 60% of those beds are in county jails. INS's detention 
and removal budget is now over $1 billion. However, INS is still 
detaining thousands of people who by law could be released. Two such 
groups are asylum seekers without sponsors or family to care for them 
and people whose removal orders are over 90 days old and who pose no 
danger to the community.
    Alternatives to detention are arrangements between INS and private, 
nonprofit agencies to supervise and refer people to community services 
rather than detain them at public expense. To establish an alternatives 
program, INS contracts with nonprofit agencies that have strong 
community ties and significant expertise in dealing with refugees and 
immigrants. The private agency screens potential participants, finds 
housing, coordinates the necessary services for participants outside of 
detention, and facilitates compliance with INS and court proceedings. 
INS retains authority over the program to decide whom to release to the 
program, to set reasonable reporting and other requirements for program 
participants, and to re-detain those who do not comply with those 
conditions or are ordered removed.
    If Congress appropriates $7.3 million for alternatives to 
detention, some 2,500 people eligible for release could be placed in 
such programs which have demonstrated 93% and higher appearance rates 
at all hearings. The federal government would save a net $11.6 million.
                               background
    The U.S. Commission on Immigration Reform expressly recommended 
that ``Alternatives to detention should be developed so that detention 
space is used efficiently and effectively.'' In particular, the 
Commission noted that ``detaining individuals who have met an initial 
threshold demonstrating their likelihood of obtaining asylum is not a 
good use of scarce detention resources.\1\
---------------------------------------------------------------------------
    \1\ U.S. Commission on Immigration Reform, Becoming an American: 
Immigration and Immigrant Policy, September 1997, pp. 139, 140.
---------------------------------------------------------------------------
    Asylum seekers are legally eligible for release on parole but some 
have no one to sponsor them upon release, and remain imprisoned even 
though they have committed no crime. In detention, they will have 
difficulty finding legal assistance and may suffer additional trauma. 
According to the Vera Institute of Justice, which tested supervised 
release for asylum seekers under contract with INS over three years, 
``Detention of asylum seekers is particularly unnecessary and unfair 
since they are so willing to attend their hearings and since so many of 
them win their cases.'' \2\
---------------------------------------------------------------------------
    \2\ Vera Institute of Justice, Testing Community Supervision for 
the INS: An Evaluation of the Appearance Assistance Program, June 7, 
2000, Volume I, p. 32.
---------------------------------------------------------------------------
    Other detainees have been ordered removed due to relatively minor 
convictions in the distant past but cannot actually be sent back. 
Although many no longer pose any danger to the community, they face 
indefinite detention and prolonged separation from their families for 
whom they may be the primary breadwinners. Alternatives to detention 
can humanely achieve INS' goal of ensuring community reintegration for 
this population.
    Alternatives tested in several locations have all achieved 93% or 
better appearance rates. INS funded the Vera Institute of Justice, a 
New York-based nonprofit agency, to test supervised release as an 
alternative to detention. The 3-year pilot program showed that 93 
percent of asylum seekers released to supervision appeared for all 
court hearings, and saved the federal government almost $4,000 per 
person.\3\ Other nonprofit agencies have tested alternatives with equal 
success. In New Orleans, INS releases asylum seekers and people with 
over 90-day-old removal orders to a program run by Catholic Charities 
with a 96% appearance rate.\4\ In another program coordinated by 
Lutheran Immigration and Refugee Service, INS released 25 Chinese 
asylum seekers from detention in Ullin, Illinois to shelters in several 
communities. This program also achieved a 96% appearance rate.\5\ INS 
officials have praised both programs.\6\
---------------------------------------------------------------------------
    \3\ Vera Institute of Justice, Volume I, p. 66.
    \4\ Joan Treadway, ``Detainees get chance to change their lives,'' 
New Orleans Times Picayune, Jan. 22, 2001, p. B-3.
    \5\ Esther Ebrahimian, ``The Ullin 22: Shelters and Legal Service 
Providers Offer Viable Alternatives to Detention,'' Detention Watch 
Network News, August/September 2000, p. 8.
    \6\ Joan Treadway, New Orleans Times Picayune, p. B-3 (quoting INS 
New Orleans District Director Christine Davis); Esther Ebrahimian, 
Detention Watch Network News, p. 8 (citing INS Field Operations chief 
Michael Pearson).
---------------------------------------------------------------------------
                Key Elements of Successful Alternatives
    Following is an outline of how alternatives to detention work, how 
responsibilities are divided between INS and the nonprofit and why 
these elements are important to achieving successful appearance rates 
in immigration proceedings. Attached is documentation with more 
detailed descriptions of the Vera Institute's Appearance Assistance 
Program (AAP), Catholic Charities' alternative in New Orleans and the 
release of Chinese asylum seekers from Ullin, Illinois.
    STEP ONE: Group screening in detention by nonprofit agencies. In a 
few detention facilities, private nonprofit agencies have worked with 
INS and the courts to ensure that group legal orientation presentations 
are conducted for everyone in detention. These presentations ensure 
that detainees have information about the proceedings and whether or 
not they may be eligible for relief from removal or for release from 
detention. This first contact between the nonprofit agency staff and 
people in detention is a good time to gather initial information about 
potential candidates for an alternative. In the case of the Chinese 
asylum seekers detained in Ullin, Illinois, INS paid the expenses for 
nonprofit legal representatives to conduct legal orientations for all 
88 detained Chinese. The information gathered proved critical to 
organizing effective services and evaluating release options.\7\
---------------------------------------------------------------------------
    \7\ Esther Ebrahimian, Detention Watch Network News, p. 2.
---------------------------------------------------------------------------
    STEP TWO: Individual screening before release to an alternative INS 
has the authority to decide whom to release to an alternative to 
detention. However, an indepth interview by a nonprofit representative 
can improve the Service's ability to make this decision. The nonprofit 
agency interviews each potential participant to ensure that the person 
meets the program's criteria and understands the responsibilities of 
participants in the program. Through this interview, the nonprofit may 
discover important information that affects the release decision. For 
example, the person may have family, in which case INS can consider 
releasing the person to his or her family instead of to an alternative. 
Such screening interviews were found to be critical to the success of 
Vera's Appearance Assistance Program.\8\
---------------------------------------------------------------------------
    \8\ Vera Institute of Justice, Volume I, p. 6.
---------------------------------------------------------------------------
    STEP THREE: Provision of services to individuals released to the 
alternative Access to assistance upon release--such as legal, social, 
medical, mental health and job placement services--can help ensure 
compliance with immigration proceedings.\9\ The nonprofit agency makes 
use of its community links to find available services. It also helps 
integrate each individual into the community (for example, by helping 
participants make contacts in their ethnic and/or religious 
communities). The nonprofit's ability to access these services depends 
on longestablished links with other agencies in the community. The 
services needed will vary depending on the population being served and 
on the individual. For example, asylum seekers are newcomers to the 
country. Help learning how to live in the United States and find legal 
assistance can be a critical factor in their making their court 
appearances.\10\ Long-term detainees usually already have experience 
living in this country, but may need intensive support to help them re-
start their lives and integrate into the community.\11\
---------------------------------------------------------------------------
    \9\ Vera Institute of Justice, Volume I, p. 73.
    \10\ Vera Institute of Justice, Volume I, p. 31.
    \11\ Sue Weishar, ``NGOs and INS Establish Successful Alternative 
in New Orleans,'' Detention Watch Network News, August/September 2000, 
p. 4 and Joan Treadway, New Orleans Times Picayune, p. B3.
---------------------------------------------------------------------------
    INS must grant work authorization to all those released, including 
asylum seekers, so that they can support themselves instead of relying 
on government or community sources to cover housing and living 
expenses. It also helps them use their time productively, contributing 
to the community instead of remaining idle. INS is granting work 
authorization in New Orleans to everyone released to Catholic 
Charities, and this is critical to the success of the program.\12\ The 
nonprofit agency running the alternative organizes temporary housing 
for those released, and assists them in finding a job and locating a 
place to live more permanently, all with the goal of helping the 
released person become self-sufficient.
---------------------------------------------------------------------------
    \12\ Sue Weishar, Detention Watch Network News, p. 8.
---------------------------------------------------------------------------
    STEP FOUR: On-going assistance, monitoring and informati Providing 
information about how the legal system works, detailing the 
requirements for compliance and describing how to meet them, explaining 
the consequences of not attending a court hearing, helping locate legal 
assistance and building a relationship of trust all help to ensure 
compliance.\13\ Immigration proceedings can be very confusing even for 
people who have lived in this country, let alone newly arrived asylum 
seekers. The opportunity to talk with a neutral party experienced in 
working with refugees and accessing services they need, greatly helps 
keep an asylum seeker engaged throughout the legal process. In New 
Orleans, program participants voluntarily contact Catholic Charities to 
ask questions, discuss problems and receive advice and assistance. In 
the Ullin project, community shelters reminded participants of their 
hearings and scheduled check-ins with INS, organized transportation and 
accompanied them to these appointments.\14\
---------------------------------------------------------------------------
    \13\ Vera Institute of Justice, Volume I, p. 7.
    \14\ In addition to the documentation attached, LIRS gathered 
information about the operation of these alternatives via telephone 
interviews with Catholic Charities and the shelters housing the Chinese 
released from Ullin.
---------------------------------------------------------------------------
    STEP FIVE: Enforcing final orders of deportation
    People released to alternatives to detention are more likely to be 
able to stay legally in the country at the conclusion of their 
proceedings. This is due to effective screening and increased access to 
legal representation outside of detention with the help of nonprofit 
agencies. More than half of the asylum seekers in the Appearance 
Assistance Program (AAP) won their cases.\15\
---------------------------------------------------------------------------
    \15\ Oren Root, ``The Appearance Assistance Program: An Alternative 
to Detention,'' Detention Watch Network News, August/September 2000, p. 
3.
---------------------------------------------------------------------------
    It is inevitable, however, that some people in alternatives to 
detention will lose their cases and be ordered removed. It remains the 
responsibility of INS, not the nonprofit agency, to enforce such 
orders. In order to achieve this, INS may re-detain at any time a 
person who does not comply with the conditions of an alternatives 
program. Conditions may include participants reporting to INS in person 
on a regular basis, showing up at all court hearings, and keeping INS 
informed of their actual address of residence. INS may also re-detain a 
participant upon issuance of the removal order. Participants in the AAP 
still appeared for their hearings 93% of the time even though they were 
informed that they would be re-detained if ordered removed in 
court.comparison group that did not face the possibility of such re-
detention had substantially poorer appearance rates.\16\
---------------------------------------------------------------------------
    \16\ Vera Institute of Justice, Volume I, p. 3.
---------------------------------------------------------------------------
    For asylum seekers who lose their cases in court and are ordered 
removed, Vera Institute suggests that INS could re-detain the person at 
the hearing, but release them again to a more intensive level of 
supervision if they decide to appeal.\17\ At earlier stages of 
proceedings, the Vera Institute's experience shows that asylum seekers 
need very minimal supervision, if any, in order to ensure good 
compliance rates. Vera Institute explains, ``When they are placed in 
proceedings, they understand that they must seek ...protection through 
the U.S. justice system and attend immigration court hearings.'' \18\ 
Vera Institute does not recommend that asylum seekers be detained 
throughout the appeals process.
---------------------------------------------------------------------------
    \17\ Vera Institute of Justice, Volume I, p. 32.
    \18\ Vera Institute of Justice, Volume I, p. 29-30.
---------------------------------------------------------------------------
                  Partnership with Nonprofit Agencies
    The Vera Institute recommends that the INS ``release to 
alternatives (such as community supervision) as many people as it can, 
as quickly as it can, while they complete their immigration court 
hearings'' \19\ and favors contracting with non-governmental 
entities.\20\ We agree.
---------------------------------------------------------------------------
    \19\ Vera Institute of Justice, Volume I, p. 72.
    \20\ Vera Institute of Justice, Volume I, p. 74.

Immigrants inside and outside detention are more likely to trust 
        representatives who do not work for the government, and will 
        therefore be more likely to cooperate with them. Trust and 
        confidentiality are important benefits of having non-
        governmental entities involved in alternatives.\21\ Once 
        immigrants have the trust of a nonprofit representative, they 
        may reveal information that they would not have readily given 
        to INS or to a prison official. The information they receive 
        from the nonprofit is also more trusted. In the process of 
        release of Chinese asylum seekers detained in Ullin, 
        nongovernmental representatives interviewed the entire group of 
        88 in detention, a step that was critical to the eventual 
        release of some 33 of them.\22\
---------------------------------------------------------------------------
    \21\ Vera Institute of Justice, Volume I, p. 72.
    \22\ Esther Ebrahimian, Detention Watch Network News, p. 2.
---------------------------------------------------------------------------
Nonprofit agencies have the necessary information and expertise to help 
        people access needed services, leading to greater compliance. 
        It takes a good deal of work to find out what legal, social and 
        pastoral services a person needs, and to help them access them. 
        This has been critical to success of all three programs to 
        date.\23\ Merely giving released individuals a list of 
        available services is not sufficient. Certain nonprofit 
        agencies, such as refugee resettlement agencies, have mufti-
        lingual, mufti-cultural staff with legal and social work 
        backgrounds, as well as strong, established links in the 
        community that facilitate service provision and job placement. 
        These agencies also have solid ties to immigrant and faith 
        communities, both of which can be important in avoiding 
        isolation.
---------------------------------------------------------------------------
    \23\ Oren Root, Detention Watch Network News, p. 9.
---------------------------------------------------------------------------
Help in understanding the legal process, and the consequences of not 
        showing up at INS check-ins and court hearings, is crucial to 
        ensuring that people comply. Such help has been shown to be 
        most effective when it comes from a non-governmental 
        representative who has gained the trust of the released 
        individual.\24\ The nongovernmental agencies involved in these 
        projects have spent a good deal of time working with 
        participants to explain proceedings to them, remind them of 
        meetings with INS and the courts, and even transport them to 
        those meetings and hearings. They are also able to answer 
        questions on an on-going basis once someone is released, 
        helping the participant to overcome fears and misinformation 
        that otherwise might have caused him or her to stop complying.
---------------------------------------------------------------------------
    \24\ Vera Institute of Justice, Volume I, p. 73.
---------------------------------------------------------------------------
Facilitating access to legal representation is a critical role of a 
        non-governmental agency implementing an alternative to 
        detention. While INS cannot fund legal representation, adequate 
        legal assistance can help reduce delays in proceedings (for 
        example, due to a lack of information on the part of the 
        immigrant), help ensure compliance, and lead to a fairer 
        process. For vulnerable populations such as asylum seekers, 
        legal representation is particularly crucial, and it is hard to 
        find in detention. Attorneys who do represent people in 
        detention encounter much greater difficulties preparing these 
        cases.\25\
---------------------------------------------------------------------------
    \25\ Esther Ebrahimian, Detention Watch Network News, p. 8.
---------------------------------------------------------------------------
In the case of the Chinese asylum seekers released from Ullin, 
        nonprofit agencies found pro bono attorneys for all of those 
        released to community shelters. Locating quality representation 
        was a time-consuming process, and was only possible because of 
        the longestablished relationships that the nonprofit agencies 
        had with bar associations, law firms, and the pro bono legal 
        community. Even after representation was secured, the nonprofit 
        agencies played a critical role answering the questions of 
        attorneys and helping ensure good communication between the 
        attorneys and the immigrants. For example, the local legal 
        service agencies assisting those released from Ullin helped 
        find volunteer interpreters for attorneys to interview their 
        clients--critical assistance to busy attorneys working on pro 
        bono cases. Good communication between an attorney and his or 
        her client also helps make sure the immigrant is engaged in the 
        process, increasing the likelihood of compliance.
<bullet> A good working relationship between INS officials, the 
        nonprofit agency carrying out the alternatives program, and 
        other key community members is essential. An alternative to 
        detention requires significant cooperation between INS and the 
        nonprofit to structure the program, work out logistics and 
        respective responsibilities, and work out creative ways to 
        address situations as they arise. Success in doing so depends 
        critically upon these good relationships. In New Orleans, INS, 
        Catholic Charities and community leaders met on a quarterly 
        basis for a number of months, establishing communication, trust 
        and cooperation, before the alternative program was even 
        conceived.\26\
---------------------------------------------------------------------------
    \26\ Sue Weishar, Detention Watch Network News, p. 8.

            Justification of Costs/Demonstration of Savings
                                 costs
    The Vera Institute of Justice, which conducted the AAP pilot from 
1997-2000 in the New York metropolitan area, carefully documented the 
costs involved in running an alternative to detention. Our costs and 
savings estimates are based on this documentation with one notable 
exception. The Vera model included a labor-intensive reporting 
requirement which was found not to contribute to the appearance rate of 
asylum seekers. According to Vera, ``the most consistent factors [in 
hearing compliance] are having community and family ties in the United 
States, and being represented by counsel . ... Participant asylum 
seekers achieved a higher appearance rate than those released on parole 
because the program more effectively screened for community ties.'' 
\27\ Screening for community ties and facilitating access to counsel 
are two aspects that will be notably enhanced with the participation of 
NGOs with substantial refugee resettlement experience, community 
involvement and legal referral networks. Indeed, the even higher 
appearance rates obtained by the Ullin and Catholic Charities examples 
confirm this. In the AAP program about half of the staff time was 
devoted to the extraneous reporting requirement.\28\ Accordingly, at 
least the variable costs of Vera's projected program could be halved by 
eliminating that function, amounting to an average cost of $710,000 per 
site.\29\ At that rate, it would cost about $7.1 million to serve a 
total of 2,500 persons who otherwise would have to be detained. A 
national coordinating center to conduct training and maintain 
consistent quality control would cost an additional $200,000 bringing 
the total annual cost of the program to $7.3 million.
---------------------------------------------------------------------------
    \27\ Vera Institute of Justice, Volume I, p. 7.
    \28\ Telephone conversation with Oren Root, Senior Associate, Vera 
Institute, April 24, 2001.
    \29\ Vera projected $1.1 million for a site serving 250 persons. 
Vera Institute of Justice, Volume II, Appendix V, p. 3. This includes 
$320,000 in fixed costs and $780,000 in variable costs, conservatively 
estimated. Halving the latter and adding it to the former yields 
$710,000.
---------------------------------------------------------------------------
                                savings
    The average cost of detaining an asylum seeker through his or her 
hearing is $7,259.\30\ The cost of using an alternative is $2626 per 
case heard (including the costs of detention prior to screening and re-
detention later, if necessary).\31\ Thus, the government can save the 
difference, or $4,633 for each asylum seeker released to the 
alternative program. If 2,500 asylum seekers are released to 
alternatives, these savings would amount to more than $11.6 million.
---------------------------------------------------------------------------
    \30\ Vera Institute of Justice, Volume I, p. 66.
    \31\ Vera Institute of Justice, Volume II, Appendix V, p. 5. The 
AAP's $12 per day cost is adjusted to $8, reflecting the fact that the 
streamlined model proposed costs 66% of the projected AAP, similarly 
expanded, i.e., $7.3/11 million.
---------------------------------------------------------------------------
    Another group that could be released to the program is those who 
have already been ordered removed but whose removal cannot be carried 
out because INS cannot obtain travel documents from the home country. 
They are eligible for release beginning 90 days after their removal 
orders. Catholic Charities in New Orleans already successfully serves 
this group, along with asylum seekers, without the reporting 
requirements used by the AAP. (Savings from releasing people in this 
group are likely to be even higher than for asylum seekers, because 
many might remain in detention indefinitely without these programs. 
Because firm figures are not available for savings for this population, 
however, we conservatively base our figures on asylum seekers.)

                                <F-dash>

Legal Orientation for Immigration Detainees Program Implementation Plan
                              Prepared by:
             Florence Immigrant and Refugee Rights Project
                Lutheran Immigration and Refugee Service
    This document lays out a plan for implementing legal orientation 
presentations to be conducted by private sector nonprofit agencies in 
immigration detention centers. Legal orientations reduce government 
costs and increase efficiency in immigration proceedings. They also 
help secure the due process rights of persons detained during 
immigration proceedings and ensure that those with meritorious claims 
for asylum or other relief from removal can adequately present them.
    A 1998 U.S. Department of Justice pilot project found that legal 
orientation presentations successfully reduce detention time, speed up 
immigration court proceedings, increase their efficiency and improve 
security in detention centers. The U.S. Senate and the U.S. Commission 
on Immigration Reform have recommended that such programs be funded and 
implemented nationwide.
    With an appropriation of $2.8 million, private sector nonprofit 
agencies can implement legal orientations at ten major detention sites, 
generating net projected savings of $10 million.
                       background of the problem
    With the passage of the Illegal Immigration Reform and Immigrant 
Responsibility Act of 1996 (IIRAIRA), Congress greatly expanded the 
number of people the Immigration and Naturalization Service (INS) must 
detain. From 1996 to 2000, INS increased its detained population from 
8,279 to over 20,000 immigrants and asylum seekers on any given day; 
annually, the figure is over 200,000.
    The detention and removal process is enormously expensive with a 
budget over $1 billion annually, including an average detention cost of 
$65.61 per bed-day. Reducing the length of immigration removal 
proceedings saves money by significantly lowering the number of bed-
days that individuals spend in detention.
    The efficiency of the system suffers when unrepresented individuals 
seek repeated continuances to find counsel, when extra time is required 
to identify and narrow the relevant legal issues and when hearing times 
are extended because of unfamiliarity with the court procedures. Under 
these circumstances, judges are often hesitant to proceed in the 
absence of representation. Facilitating access to legal advice and 
representation can improve the efficiency of removal proceedings while 
strengthening the courts' commitment to due process.
    An estimated 90 percent of immigration detainees go unrepresented 
due to poverty and the remote locations of detention sites.\1\ These 
individuals, often with limited education and proficiency in English, 
alone must navigate the labyrinths of U.S. immigration law, which has 
been compared to the U.S. tax code in its complexity. Many are confused 
about their rights, options and prospects. Some unnecessarily delay 
their cases even though they are not eligible for relief, while others 
with meritorious claims erroneously waive their rights and are wrongly 
deported.
---------------------------------------------------------------------------
    \1\ Margaret H. Taylor, Promoting Legal Representation for Detained 
Aliens: Litigation and Administrative Reform, 29 Corm. L. Rev., 1647, 
1663 n.60 (1997) (citing FY 96 EOIR statistics entitled ``Immigration 
Judge Decisions in FY 96 by Custody and Representation Status'').
---------------------------------------------------------------------------
                    legal orientation presentations
    The Florence Immigrant and Refugee Rights Project, Inc. in 1989 
created the model legal orientation process at the Florence (AZ) INS 
Service Processing Center. The program consists of a live presentation 
for all detainees before or at the time of their initial hearing with 
follow up screening and case assessment for those without private 
counsel. Additional legal assistance, referral or representation is 
provided when available.\2\
---------------------------------------------------------------------------
    \2\ Christopher Nugent, Strengthening Access to Justice: Prehearing 
Rights Presentations For Detained Respondents, Interpreter Releases, 
Vol. 76, No. 27, July 19, 1999.
---------------------------------------------------------------------------
    The Florence Project's lepl orientations benefited the INS and the 
Court by increasing the efficiency of the process.\3\ The U.S. Senate 
and U.S. Commission on Immigration Reform have recognized the value of 
such programs.\4\
---------------------------------------------------------------------------
    \3\ Immigration Control: Immigration Policies Affect INS Detention 
Efforts, United States General Accounting Office Report, GAO/GGD-92-85, 
June 1992.
    \4\ Senate Resolution 284, 1034 Congress 2d Session, 1994 
(enacted); Letter from U.S. Senators Dennis DeConcini, Orrin Hatch, 
Edward M. Kennedy, Paul Simon, and Alan K. Simpson to Attorney General 
Janet Reno, November 14, 1994; U.S. Commission on Immigration Reform, 
Becoming an American: Immigration and Immigrant Policy, September 1997, 
pp. 135-37.
---------------------------------------------------------------------------
    During fiscal year 1998 the U.S. Department of Justice funded a 
pilot project through EOIR to document the benefits of legal 
orientations. The project was implemented at three detention sites by 
three private sector nonprofit agencies \5\ over a three-month period. 
Based on case data from the pilot period, the evaluators from EOIR 
found that legal orientations save both time and money for the 
government while also benefiting detainees. They determined that legal 
orientations reduced overall bed days in detention by 4.2 days per 
detainee and found that ``[d]uring the pilot, cases were completed 
faster and detainees, with potential meritorious claims to relief, were 
more likely to obtain representation.'' In addition, they found that 
such programs were useful management tools that ``strengthen the 
capability of INS to operate safer detention facilities.'' In 
conclusion, the evaluators recommended that the government should 
expand legal orientations to all INS detention facilities.\6\
---------------------------------------------------------------------------
    \5\ The agencies and detention sites included the Florence Project 
at the Florence INS SPC in Florence, AZ, Catholic Legal Immigration 
Network (CLINIC) at the San Pedro Detention Center near Los Angeles, 
CA, and South Texas Pro Bono Asylum Representation Project (ProBAR), a 
project of the American Bar Association, at Port Isabel Detention 
Center in Harlingen, Texas.
    \6\ U. S. Department of Justice, Executive Office for Immigration 
Review, ``Evaluation of the Rights Presentation,'' 1998.
---------------------------------------------------------------------------
     rationale for pubic-private partnership in legal orientations
    Private sector nonprofits with demonstrated legal expertise in 
immigration matters, experience in working with detained immigrants and 
ability to refer cases to pro bono counsel are best suited to provide 
independent professional advice to detained individuals and have 
spearheaded limited efforts to assist immigrants in removal 
proceedings. They do not, however, have the resources to sustain 
funding of this type of systemic initiative on their own nor are there 
sufficient alternative private sector resources.\7\ The government is 
statutorily barred from funding legal representation in immigration 
proceedings.\8\ The scope of the statute, however, does not prohibit 
fundin? items and programs that facilitate immigrants obtaining 
representation such as legal orientations.\9\
---------------------------------------------------------------------------
    \7\ Letters from officers of the Open Society Institute, the Ford 
Foundation, the Fund for Immigrants and Refugees, the Lawyers Trust 
Fund of Illinois and the New York Community Trust, August--September 
2000.
    \8\ Immigration and Nationality Act '240(b)(4)(A); 8 U.S.C. 1229a.
    \9\ David A. Martin, INS General Counsel, Memo, ``Funding of a 
Pilot Project for the Representation of Aliens in Immigration 
Proceedings,'' December 21, 1995.
---------------------------------------------------------------------------
                               objectives
<bullet> To implement legal orientation programs at 10 detention 
        facilities so that all at those sites receive legal 
        information, evaluation and counseling as well as referral for 
        representation when available
<bullet> To measurably increase the efficiency of immigration court 
        proceedings, decrease the duration of detention and reduce 
        tension and behavioral problems in the facilitie
<bullet> To measurably increase detainees' ability to make a timely 
        decision about their cases through early and accurate legal 
        information and orientation
<bullet> To provide information, training, technical assistance and 
        ongoing advice through a National Support and Training Center 
        to private nonprofit agencies conducting legal orientations at 
        designated sites
<bullet> To evaluate and quantify the costs, savings, benefits, and 
        other effects of the legal orientations and evaluate the merits 
        of expansion to other sites
<bullet> Through an interagency national working group, to develop 
        system-wide procedural recommendations for the INS, EOIR, and 
        private nonprofit agencies to improve justice and efficiency 
        through legal orientation programs
                         program implementation
A. National Implementation
    EOIR will administer the program at the national level using the 
standard government ``Request for Proposal'' (RFP) process. The agency 
will select the appropriate organizations and be accountable for 
ensuring that all proposed activities are carried out.
    An interagency working group should be established at the national 
level, bringing together the INS, EOIR, and the designated agencies 
share information and ensure consistent implementation of the program. 
Such a group has met several times in past years to discuss the 
feasibility of such program and would be ready to build on those 
relations and that practical experience. This working group will also 
address the movement of detainees, access to facilities and court 
procedures, and will provide oversight and guidance to the local sites 
of the project.
    The establishment of a National Legal Orientation Support and 
Training Center will also help ensure quality, consistent 
implementation of legal orientations nationwide. The Center will offer 
the nonprofit agencies training and consultation in program development 
and substantive legal issues, will coordinate evaluations and will 
assist EOIR and the interagency working group to develop standards for 
the programs. The original model for legal orientations has been 
developed and refined over a ten-year period at the Florence INS 
Service Processing Center in Florence, AZ. The D.O.J. pilot project 
found that this model was effectively used at all three pilot sites and 
recommended its replication at other sites to standardize the provision 
of information and evaluation. The agency chosen to carry out the 
training should have significant expertise in implementing this model.
B. Local Implementation at Each Detention Site
    At each detention site, the nonprofit agency will be in charge of 
implementing the program and will be primarily responsible for the 
screening, assessment and referral functions. These tasks will include:

<bullet> To review the charging documents filed with the court of those 
        attending the orientation
<bullet> To give a presentation to all detainees before or at the time 
        of their initial court appearance, integrating questions and 
        answers throughout
<bullet> To briefly screen each respondent at the end of the 
        orientation to determine whether he or she wants to accept 
        removal, seek voluntary departure or have an individual 
        interview with the nonprofit's staff
<bullet> To conduct individual interviews when requested to assess 
        potential relief from removal and release eligibility
<bullet> To distribute additional written orientation materials at the 
        conclusion of the interview
<bullet> To orient pro se respondents before each additional court 
        hearing
<bullet> To provide further legal assistance, referral or 
        representation when available and at no expense to the 
        government

    A basic formula for core staffing includes at least one attorney 
and paralegal per courtroom in addition to one full-time clerical 
support person and part-time supervisory support. For example, in a 
detention facility with 500 beds and two courtrooms, at least 5.5 staff 
members are required (including attorneys, paralegals, clerical and 
part-time supervisory support). The lead agency will supervise and 
educate the core staff. Legal staff would maintain time records to 
ensure that government funding is not used for direct representation.
C. Keys To Success
    Previous assessments of successful legal orientations have 
identified several key elements that are necessary to make the project 
a success. These include:
    Cooperation: Effective implementation of legal orientations 
requires cooperation between all parties at both the local and national 
levels. Adjustments to sometimes long-standing operating procedures are 
a necessary element of the model, particularly information-sharing and 
access to detainees. Accordingly, each site will form a local working 
group, bringing together the Officer-inCharge of the detention 
facility, the EOIR court administrator, the INS trial attorneys and the 
nonprofit agency as well as INS District level staff when necessary. 
This working group will set initial site-specific base-line conditions, 
program goals and cooperative operating procedures will continue to 
meet over the course of the program to address concerns or problems 
that arise.
    Access and Collaboration: In preparation for implementation, the 
local working groups will review the facility operating procedures and 
access rules to ensure that they meet the guidelines set forth in the 
INS Detention Standards. The program will respect the distinct roles 
and obligations of the stakeholders. It will be the responsibility of 
the nonprofit agency at each site to make postorientation decisions 
regarding service, representation or referral. No federal government 
entity will make such determinations.
    Securi: The program will respect the security and custodial 
obligations of the INS and EOIR within the guidelines set forth in the 
INS Detention Standards.
    Lead Agency: A single ``lead agency'' will be identified at each 
detention site to provide the continuous presence of a core staff to 
implement the legal orientations, centralize key functions, provide 
continuity in the court and a central, accountable clearinghouse for 
problem solving. Each of the local sites will have a single agency as 
the point of contact with primary oversight for the screening, 
assessment and referral functions, representing the interests of all 
local nonprofit agencies. A core staff from the lead agency will be 
present at all master calendar hearings.
                           measuring success
    The local working groups at the ten detention sites, in 
consultation with the national working group, will measure the effect 
of legal orientations upon the following:

<bullet> The efficiency of the immigration courts
<bullet> The provision of legal screening/advice and an appropriate 
        level of legal services to all immigration detainees in the 
        selected sites
<bullet> The efficiency of deportation of individuals with no legal 
        recourse
<bullet> Number of detention days
<bullet> Number of security incidents
<bullet> Qualitative assessment of improvements in detainee access to 
        justice and due process rights

    At the end of the twelve-month period, the national interagency 
working group, in coordination with the local groups, would report to 
EOIR on their findings. In addition, the agencies will produce a 
written report of their activities at each site.
                expansion to additional detention sites
    The plan proposes implementation of legal orientation programs to 
ten detention sites during a oneyear period. This is based on a 
realistic assessment of how many legal orientation programs could be 
implemented in one year. However, expansion to additional detention 
sites in future years will take advantage of the efficiencies, savings, 
and protection of due process rights afforded by legal orientations. 
The year-end reports conducted by the private sector nonprofit agencies 
and the national interagency working group will assist in evaluating 
the merits of expansion to other sites. The reports will also provide 
guidance to the various governmental and nongovernmental agencies in 
their efforts to continue to improve justice and efficiency through the 
continued expansion of legal orientations.
            Justification of Costs/Demonstration of Savings
                                overview
    With $2.8 million appropriated for legal orientation presentation 
programs at ten major detention facilities, the government will save 
$12.8 million in detention costs for a net savings of $10 million.
    $2.2 million covers the costs of legal orientation presentations at 
$200,000 per site, and includes an additional $200,000 for the training 
center. INS and EOIR expenses at the sites are estimated at $600,000 
yielding a total cost of $2.8 million. Using EOIR's FY 2000 immigration 
court processing figures at ten major facilities, the per person cost 
of the presentations is $63, about the average cost of one night in 
detention. According to EOIR's evaluation, those who attendsuch 
presentations spend an average of 4.2 fewer days in detention. 
Consequently, the program can yield net savings of over $200 per 
person, or about $10 million if implemented at 10 detention centers.
                             program costs
Grants to NGOs
    It will cost an estimated $200,000 for a non-governmental 
organization to carry out legal orientations at a detention facility 
for a year. This is based on a site with two courtrooms. Personnel 
costs are estimated at $133,000, and include a project director at .5 
FTE ($25,000), two attorneys at .5 FTE each ($40,000), two paralegals 
at.5 FTE each ($25,000) and administrative support staff at .5 FTE 
($10,000), and benefits estimated at 33% of salary. Non-personnel costs 
include 50% of yearly operating costs, and are estimated at $67,000. 
This includes office rental, telephone, purchase of two laptop 
computers, a photocopier and a fax machine and other basic office 
expenses.\10\
---------------------------------------------------------------------------
    \10\ The EOIR pilot project grants were approximately $20,000 each 
to cover 3 months of presentations, implying an annual cost of $80,000 
per site. However, this figure cannot be extrapolated to a larger, 
nationwide program. The three agencies in the pilot had existing 
programs and were supplemented by privately-raised funds. This is not 
sustainable and would not ensure consistent legal orientation for all 
detainees at a facility. Agencies will still need to raise their own 
funds to cover other activities that cannot be government-funded, such 
as legal representation for people in immigration proceedings.
---------------------------------------------------------------------------
    Costs of the national training center are estimated at $200,000 
annually. Personnel costs of $80,000 include a training coordinator at 
1.0 FTE ($50,000, including benefits) and an administrative assistant 
at 1.0 FTE ($30,000, including benefits). Office operations are 
estimated at $50,000 a year. Costs of organizing and hosting trainings 
for NGO staff at all sites and travel for site visits are an estimated 
$70,000.
Cost to INS and EOIR
    EOIR reports in its evaluation of the 90-day pilot project that at 
one site, INS incurred a cost of $20,000 over the 3 months to pay for 
guards to bring detainees to court the evening before their hearing for 
the presentation. These costs were not reported at the other two sites, 
but two court administrators reported that hosting the presentations 
required some time for court support staff.\11\
---------------------------------------------------------------------------
    \11\ ``Evaluation of the Rights Presentation,'' Executive Office of 
Immigration Review, 1999, p. 14.
---------------------------------------------------------------------------
    We doubled the one site's cost figure to cover unreported costs and 
to allow for the possibility that more than one-third of the facilities 
would incur such costs and estimate, therefore, that combined costs 
amount to $40,000 over three months at three sites, for an average of 
$54,000 per site per year. For ten sites, this adds up to $540,000. For 
administration of the program at the national level, EOIR will require 
a small percentage of program costs, estimated at 3% of $2.2 million or 
$66,000. Thus, the total cost to the government is estimated at 
$606,000, rounded to $600,000.
                   savings resulting from the program
    EOIR's evaluation estimates a savings of approximately $8 million 
were the program to be expanded to 16 detention sites, based on the 
pilot's average savings of 4.2 detention bed-days for every detainee 
who attends a rights presentation, an average cost of $65.61 per bed-
day, and a total of 29,131 detainees appearing in court at 16 detention 
facilities in FY 1999.\12\
---------------------------------------------------------------------------
    \12\ ``Evaluation of the Rights Presentation,'' Executive Office of 
Immigration Review, 1999, p. 12.
---------------------------------------------------------------------------
    To estimate savings for legal orientations at ten sites, we choose 
ten courts at detention facilities for which the Yearbook provides 
figures of ``immigration matters received.'' These are all facilities 
at which INS detention standards are now in force (they are all INS-
operated or contracted facilities, not county or local jails). These 
standards require the facilities to allow legal orientation 
presentations by non-profit organizations. The total number of 
immigration matters received at these ten courts in FY 2000 was 
46,392.\13\
---------------------------------------------------------------------------
    \13\ Statistical Yearbook, Executive Office of Immigration Review, 
January 9, 2001, Table 1, p. B3. Detention facilities included are: 
Batavia SPC, Eloy Bureau of Prisons Facility, Florence SPC, Houston 
SPC, Krome North SPC, New York Varick SPC, Oakdale Federal Detention 
Center, Otay Mesa, Port Isabel SPC, and San Pedro SPC. This total is 
larger than the FY 1999 figure EOIR used in the rights presentation 
evaluation for 16 facilities. The 2000 Statistical Yearbook documents 
an overall increase of immigration matters received at all courts of 
10% over FY 1999 figures (p. B2).
---------------------------------------------------------------------------
    If legal orientations save an average of 4.2 bed-days per detainee 
at $65.61 per bed-day, and 46,392 people attend presentations, INS' 
gross savings amount to $12.8 million. If, as described above, it costs 
a total of $2.8 million to carry out legal orientation presentations at 
ten sites for a year, the net savings to the federal government is an 
estimated $10 million.
    As legal orientations cost about $63 per person, and, as EOIR's 
evaluation demonstrates, save an average of 4.2 days in detention, the 
net savings per person is about $212.
    Based on the statistics from the EOIR evaluation, however, it is 
likely that on average, legal orientations save more than 4.2 bed-days. 
The report arrived at this figure by comparing how long it took at the 
three sites to complete a case before the pilot period, with how long 
it took during the pilot period. The average difference between the 
number of completed cases before and during the pilot for all three 
sites was 4.2 bed-days.\14\ However, legal orientation presentations 
were occurring in the same manner at Florence before and during the 
pilot. Therefore, at Florence there is not much difference between the 
number of completed cases before and during the pilot. Therefore, 
including Florence in the calculation brings the average down.\15\
---------------------------------------------------------------------------
    \14\ ``Evaluation of the Rights Presentation,'' Executive Office of 
Immigration Review, 1999, pp. 11-12.
    \15\ While the EOIR evaluation does not provide a breakdown of 
these figures by site, it does provide a breakdown of another set of 
figures that supports the assertion that the average number of bed days 
per person would be the same before and during the pilot. On page 8, 
statistics are presented per site regarding the length of time it took 
to process unrepresented detainees who did not apply for relief from 
removal. This is not the same as the figures used to calculate the 4.2 
average--those figures include all cases, represented and unrepresented 
and including those who applied for relief. For unrepresented detainees 
not applying for relief, at both San Pedro and Port Isabel (where 
presentations had not taken place before) it took on average 9 days 
less during the pilot project to process these cases. At Florence, it 
only took 23 days less, which is not a substantial difference. As the 
report itself states, this is because Florence was conducting rights 
presentations before as well as during the pilot.
---------------------------------------------------------------------------
        Support for Legal Orientation for Immigration Detainees
    ``We urge you to actively pursue such a pilot program and to 
seriously consider the Florence Service Processing Center Project as a 
model. It is our understanding that the project at the processing 
center in Florence has not only cut the time and costs associated with 
the deportation of aliens, but at the same time has ensured that aliens 
are apprised of their rights in deportation proceedings.''

--Senators Dennis DeConcini, Orin Hatch, Edward Kennedy, Paul Simon and 
        Alan Simpson, Letter to Attorney General Janet Reno, November 
        14, 1994
    ``In our view. . .INS is not prohibited from expending appropriated 
funds for things that will facilitate aliens' obtaining 
representation.''

--INS General Counsel David Martin, December 21, 1995 Memorandum

    ``The system suffers further because many aliens are unrepresented 
and thus do not receive advice on whether to go forward because they 
have a chance of being granted relief. . .. the removal process works 
much more efficiently when aliens receive advice of counsel. Those with 
weak cases generally do not pursue relief through proceedings if they 
understand from counsel that they will be wasting their time.''

--The U.S. Commission on Immigration Reform, Becoming a Citizen: 
        Immigration and Immigrant Policy, September 1997

    ``The Executive Branch should be authorized to develop, provide, 
and fund programs and services to educate aliens about their legal 
rights and immigration proceedings. Such programs should also encourage 
and facilitate legal representation where to do so would be beneficial 
to the system and the administration of justice. . . the alien would 
not have a right to appointed counsel but the government could fund 
services to address some of the barriers to representation.''

--The U.S. Commission on Immigration Reform, Becoming a Citizen: 
        Immigration and Immigrant Policy, September 1997

    ``I strongly support the work of the Florence Project and the need 
for similar efforts in INS detention facilities around the country.. . 
.I can tell you with certainty that the detainee population here 
suffers from less anxiety and stress, which are major causes of unrest, 
than detainees at other SPCs. . . . As the Officer in Charge it is 
extremely helpful in managing the facility to have the Project staff on 
hand to work with those who need special attention.''

--Donald B. Looney, Officer in Charge, Florence INS SPC, 27-year 
        veteran of INS, Letter of May 5, 1998

    ``Based on case data from the pilot period, the rights presentation 
has the potential to save both time and money for the government while 
also benefiting detainees. During the pilot, cases were completed 
faster and detainees, with potential meritorious claims to relief, were 
more likely to obtain representation. Moreover, the rights presentation 
is a useful management tool for controlling a detained population. As a 
result, the rights presentation may strengthen the capability of INS to 
operate safer detention facilities.''

--Evaluation of the Rights Presentation, U.S. Department of Justice, 
        Executive Office for Immigration Review

                                <F-dash>

               Statement of Denis and Tatiana Boulankine

    My name is Denis Boulankine. My wife, Tatiana, and I are from 
southern Russia, near Chechnya. I have relatives in Chechnya, and 
support the Chechen people's right to self-determination. I was 
involved in protests against the war in Chechnya, and was persecuted by 
the Russian military who threatened to send me to a filtration camp, 
from which I would likely never return.
    In many ways, I had a promising future in Russia. I recently 
graduated from law school and got married. However, my life was in 
danger due to my political views, and my wife and I made the difficult 
decision to leave Russia. Due to the fact that military officers were 
looking for me, there was no way we could legally leave the country. My 
in-laws paid a smuggler for fake passports. When we reached Newark 
airport on October 12, 2000, we were stopped by an immigration officer 
and requested political asylum.It was a surprise when we were taken to 
an immigration detention center, where we lived like prisoners. It was 
especially painful to be separated from my wife Tatiana. At the time we 
arrived, we had only been married for five months. While in detention, 
we were only allowed to visit with a plexiglass wall between us, 
speaking over a telephone. The only time we were allowed to be in the 
same room together was when our legal representative from the Hebrew 
Immigrant Aid Society (HIAS) was preparing us for our hearing in 
court.My attorney filed a parole request for us. My uncle Boris, who is 
a US citizen, would have been happy to support us if we were released. 
However, the INS denied the request. We remained in detention for five 
and a half months, until the immigration judge granted us political 
asylum in the United States on March 30, 2001. We are grateful to have 
asylum, but hope that other people will not have to endure the pain of 
separation and prolonged detention.

    Mr. Glickman. HIAS, its sister Jewish community 
organizations, and other faith-based organizations approach the 
issues of asylum and refugee protection based on our commitment 
to biblical imperatives to ``defend the stranger'' and to 
``redeem the captives.'' The lessons of Jewish history, rife 
with persecution and wanderings, impress upon us the importance 
of preserving an open door for individuals seeking protection 
and refuge. American immigration policy has at times allowed 
the Jewish community to find a home and the chance to live 
freely, to practice our faith and to build a strong community. 
However, at other times, the Jewish community has had to watch 
as fellow Jews perished overseas without the hope of safe haven 
in this country. We cherish the opportunities that we have 
here, and we have learned the painful lessons taught by periods 
in our history when the doors were closed.
    HIAS and much of our community trace our involvement with 
refugee protection to efforts to help Russian Jews during the 
final years of Czar Alexander II's reign from 1870 to 1881. It 
was in 1881 that HIAS was born, in part for this reason. In a 
letter to American Jews, the Russian Jewish pleaded for help, 
writing: ``We ask you, we pray, we implore, we beseech you to 
come to our rescue, to take us out of our bondage, out of our 
misery; to give us a chance in your great and glorious land of 
liberty, whose broad and trackless acres offer an asylum and a 
place for weary hearts and courageous souls willing to toil and 
by the sweat of the brow earn their daily breads...''
    The values that these refugees expressed--a longing for 
liberty, safety, and an opportunity to work--are at the heart 
of the movement of immigrants to the United States in the late 
19th, early 20th centuries. This wave of immigration brought 
the ancestors of many in today's Jewish community, as well as 
countless other Americans, to this country.
    As President Bush recently noted at the U.S. Holocaust 
Memorial Museum, ``History records many atrocities before and 
after the 1930's and 1940's. But it was the Holocaust that 
forced us to find a new term for horrors on such a scale--a 
crime against humanity. Human evil has never been so ambitious 
in scope, so systematic in execution, and so deliberate in its 
destruction...In places like this, the evidence has been kept. 
Without it, we might forget the past, and we might neglect the 
future...''
    President Bush's call to memory is one that the Jewish 
community takes as a solemn mission.
    Our colleague, Abe Foxman, a survivor of the Holocaust and 
national director of the Anti-Defamation League and a former 
HIAS client, superbly expressed the connection between the 
lessons of the Holocaust and contemporary refugee policy in a 
Miami Herald op-ed. He wrote about the plight of the more than 
900 Jews on the ship that you mentioned, Mr. Chairman, earlier 
in your opening remarks, the St. Louis, which in 1939, while 
fleeing Nazi persecution, came within view of our coast, but 
were ultimately sent back to Europe where most of them 
perished. In discussing current expedited removal, Foxman 
wrote:
    ``It was a dark moment, when fear of foreigners led us to 
betray one of our most cherished traditions: providing safe 
haven for the persecuted. In the years since the end of World 
War II, one principle has been at the core of America's policy 
toward refugees; never another St. Louis....'' He later 
concluded, ``We can't go back and change the fact that the St. 
Louis was turned away. But we should learn from the sad history 
of America's indifference to refugees from Nazism. We can stop 
its modern sequel.''
    Tragically, the modern sequel to the St. Louis continues 
every day at the expedited removal system is implemented and 
asylum seekers are denied a fair process.
    As we reflect on these and other lessons and their 
relevance to contemporary asylum policy, there is a cruel irony 
in the fact that Congress honors Holocaust hero Raoul 
Wallenberg with a statue in the Capitol building while at the 
same time maintaining such a harsh expedited removal process at 
our own borders.
    At the heart of the story of Swedish diplomat Raoul 
Wallenberg were his efforts to provide Swedish protective 
passports to Jews. These documents were essential in helping 
these refugees to escape from Nazi-controlled Hungary. These 
false papers meant the difference between life and death for 
thousands. Wallenberg, whose courage and cunning saved so many 
lives, disappeared at the end of World War II. In 1981, the 
U.S. conferred honorary U.S. citizenship on him, an honor only 
Winston Churchill shares. Wallenberg was also honored in 1986 
by the renaming of a portion of a street in Washington as 
``Raoul Wallenberg Place,'' and in 1995 with the dedication of 
a Wallenberg statue in the Capitol.
    The lesson of this story--that desperate times for refugees 
require desperate measures such as falsification of documents--
sadly has not been learned. Expedited removal is triggered by 
the absence of documents or the suspicion that the documents 
being used are fraudulent. And yet refugees who have opposed 
their government's actions or fled persecution and violence may 
not be able to obtain valid documents before they seek this 
entrance to the United States. Thus, refugees begin the process 
in America facing a system that utterly fails to respond to 
their basic need for protection.
    Just as the Russian Jews of the 1880's called upon the 
American Jewish community and the U.S. Government to free them 
from their bondage and offer them a chance for a new life, 
refugees continue to call out to us to provide safety and a 
hope for a future. To respond to this call, the Jewish 
community strongly recommends that refugee protection--refugee 
protection--be placed at the core of U.S. immigration policy.
    Chairman Brownback, I once again would like to express our 
great appreciation for your work defending refugees and asylum 
seekers and to acknowledge Senator DeWine's efforts as well. 
Your efforts with the Subcommittee will go a long way in 
building a seamless web of protection for those fleeing 
persecution and violence.
    Thank you.
    [The prepared statement of Mr. Glickman follows:]

Statement of Leonard Glickman, President and CEO, Hebrew Immigrant Aid 
                                Society

    Mr. Chairman and Distinguished Members of the Subcommittee:
    My name is Leonard S. Glickman, President and CEO of the Hebrew 
Immigrant Aid Society (HIAS). Today I am also testifying on behalf of 
the American Jewish Committee, Anti-Defamation League, B'nai B'rith 
International, Jewish Council for Public Affairs, Union of American 
Hebrew Congregations and United Jewish Communities--sister agencies 
within the Jewish community who are deeply involved with the 
community's efforts to protect refugees.
    As the oldest international migration and refugee resettlement 
agency in the U.S., HIAS, the migration arm of the organized American 
Jewish community, played a major role in the rescue and relocation of 
Jewish survivors of the Holocaust and of Jews from Morocco, Ethiopia, 
Egypt and the communist countries of Eastern Europe. More recently, 
since the mid-70s, HIAS has helped more than 300,000 Jewish refugees 
from the former Soviet Union and its successor states, as well as many 
thousand non-Jews seeking refuge in the United States, to escape 
persecution and rebuild their lives in this country. This life-saving 
resettlement work is undertaken in partnership with local Jewish 
communities throughout our country. The most recent example of this 
effort is the Tucson Jewish Family and Children's Services resettlement 
of Sudanese youth who, after years of wandering and living in terrible 
conditions in refugee camps are now making new lives for themselves in 
America.
    As HIAS celebrates its 120<SUP>th</SUP> anniversary, I would like 
to thank you--Chairman Brownback--for your leadership in the area of 
refugee protection, for convening this vitally important hearing, and 
for giving us the opportunity to share a Jewish perspective on the US 
asylum system. We also greatly appreciate Senator Kennedy and other 
members of this subcommittee who have also made crucial contributions 
to defending refugees both at home and abroad. As this year progresses, 
you and your colleagues on this subcommittee will play a critical role 
in shaping the United States' response to the international refugee 
crisis--both through refugee resettlement and assistance, and through 
our domestic policy towards asylum seekers.
    The Jewish community is greatly concerned about the major changes 
that were instituted in the U.S. asylum system in 1996, changes that we 
believe threaten to undermine refugee protection and US global 
leadership in this area. This testimony presents a very brief overview 
of four problem areas in U.S. law, the human side of the issue based on 
cases represented by HIAS attorneys and other advocates, and 
reflections on the Jewish community's historical experience and this 
history's impact on our refugee protection concerns.
              Selected Problems in the U.S. Asylum System
    Three crucial changes to the United States' asylum law that were 
enacted in 1996, as well as the continued use of an older provision 
relating to the adjustment of status of asylees, stand in direct 
opposition to America's historic role as a refuge for the persecuted. 
How these policies are addressed will have a tremendous impact not only 
on individuals seeking protection in this country, but also on the 
international refugee protection system as a whole.
                           expedited removal
    Under the Illegal Immigration Reform and Immigrant Responsibility 
Act (IIRIRA) of 1996, individuals fleeing persecution and oppression 
are no longer afforded one of the fundamentals of due process--the 
right to present their case before a judge. Unlike today, previous law 
permitted asylum seekers time to prepare their cases, find legal 
counsel and appropriate translators, and adjust to the difficult 
process of reliving and retelling past trauma and current fear.
    Under the new expedited removal system, INS inspectors are placed 
in a position to make life or death decisions with only the most 
cursory review from a supervisor. Any person who arrives in the United 
States without valid travel documents, or even with facially valid 
travel documents that the inspector merely suspects are fraudulent, may 
be immediately removed. If the person, who may have been kept for many 
hours in shackles and other extremely difficult conditions, asks for 
asylum or expresses fear he or she is supposed to receive an interview 
with an asylum officer. However, if the person cannot communicate 
adequately in English, or fails to articulate fear, he or she could be 
immediately returned to a country of persecution. Thus, many refugees 
may not be able to make their claim because of trauma suffered in their 
home country, or because of cultural barriers on speaking freely with 
uniformed officials.
    The cruel reality of this system is that refugees fleeing 
persecution often rely on false papers and may well be too afraid to 
speak when confronted by an INS official at a port of entry. Since 
expedited removal nearly always occurs without any independent 
monitoring, we cannot say conclusively how many bona fide refugees have 
been removed through this process. However, cases of immigrants who 
were removed and later returned and were granted asylum have been 
identified. When dealing with the life and death issues confronting 
many refugees, the price of making a mistake is too high to justify an 
expedited process when a full and fair examination of the facts is 
required to guarantee protection.
                      detention of asylum seekers
    Also under the 1996 IIRIRA law, asylum seekers who are subject to 
expedited removal face mandatory detention while waiting for a credible 
fear interview with an asylum adjudicator. While those who pass this 
interview may be paroled and allowed to join close family and friends 
who will assist them as they pursue a full asylum hearing, the INS 
often keeps asylum seekers locked up in detention despite findings that 
they do not pose a threat to society and are not a flight risk.
    Asylum seekers who are denied parole have no avenue to appeal this 
decision of an INS district director to an immigration judge and are 
held for months or even years in a variety of prison facilities--
including local jails. In these facilities, asylum seekers who have not 
committed crimes are often housed with criminal inmates. While in 
detention, asylum seekers face harsh conditions, inadequate health 
services, and severe restrictions on their ability to fully pursue 
their claims. Many, including those who have obtained legal assistance, 
may be moved to facilities in other states because of overcrowding at 
INS facilities, taking them far away from their lawyers who are thus 
hampered in providing representation.
    INS has not pursued a broad policy of alternatives to detention. 
The vast majority of asylum seekers, individuals who are not criminals, 
would be much better and more cheaply served through a non-prison 
oriented sheltering system. A system that detains so many asylum 
seekers in prisons and prison-like environments is inappropriate for 
people who are seeking to avail themselves of the United States' 
protection.
                  the one-year asylum filing deadline
    While not part of the expedited removal system, the one-year filing 
deadline for asylum applications, also enacted in 1996, is a similarly 
draconian rule when dealing with victims of persecution. This arbitrary 
deadline, with only extremely limited exceptions, threatens refugees 
with removal to their country of persecution for purely bureaucratic 
reasons despite the many legitimate reasons for missing the deadline. 
Already thousands of claims have been rejected based on this provision.
    Among the reasons why an asylum seeker might miss this one-year 
deadline are, lack of familiarity with the US immigration system, 
including what type of applicant might qualify for political asylum, or 
even understand the basics of the English language itself. 
Additionally, arriving immigrants must find work to support themselves, 
and then try to find legal assistance to help them prepare their 
applications, a difficult undertaking due to the shortage of 
representation for poor applicants. Some may also miss the deadline 
because they hope conditions in their homelands will change, or because 
their families would be at risk if they made their claims public. Most 
importantly, many asylum applicants who suffered torture, rape or other 
forms of extreme persecution may need more time to prepare themselves 
emotionally for the trauma of reliving these horrors. Besides the 
humanitarian arguments for permitting victims of persecution to present 
their claims, the one-year deadline is a poor use of resources since it 
focuses on investigating the timeliness of an application rather than 
reviewing the persecution claim to determine if it warrants a grant of 
asylum.
                         asylee adjustment cap
    A fourth area of U.S. asylum law that warrants review is the use of 
a numerical cap on the adjustment of status to lawful permanent 
resident (LPR) for asylum seekers. The Immigration and Nationality Act 
establishes a limit of 10,000 asylees each fiscal year whose status may 
be adjusted to that of an LPR. This has resulted in a current backlog 
of over 50,000 pending asylee adjustment applications. Unlike the much 
more rational process that permits refugees who were adjudicated abroad 
to apply for LPR status with no cap after one year of residence in the 
United States, asylees may apply after one year but are subject to this 
arbitrary cap.
    The use of the cap has no impact on the number of applicants who 
are granted asylum and are offered protection in the United States--
these asylees are part of our country and will ultimately become 
citizens. The question is whether these deserving individuals should be 
permitted to begin the process of integrating into American life or if 
they will be required to wait in limbo for years before their dreams of 
citizenship can even begin. Sadly, the backlog in asylee adjustment 
ends up being another hurdle placed in the path of asylees who have 
already survived persecution and the difficult process of obtaining 
protection in the United States.
               the worldwide impact of u.s. asylum policy
    US policy on asylum is critically important in the lives of the 
thousands of asylum seekers who are looking for safe haven in this 
country. But decisions made in the United States have a global impact 
of a magnitude that overshadows even these grave domestic concerns.
    As the United States argues that nations around the world should 
open their doors and create camps for thousands of new refugees, and 
that countries of first asylum should integrate these refugees into 
their societies, it will require a consistent policy of refugee 
protection on our part to successfully press for greater contributions 
from others. Similarly, if other countries can show that the United 
States is retreating from maintaining the highest standards of 
treatment for asylum seekers, they will have an excellent excuse to 
ignore our criticism of their own policies in this area.
                 The Humanitarian Imperative for Reform
    HIAS' perspective on these central issues in U.S. asylum law is 
based in large measure on our nearly century old experience providing 
representation to asylum seekers and other immigrants. Our staff of 
lawyers and other advocates provides assistance to applicants who are 
affirmatively applying for asylum before the INS, as well as in the 
courts when necessary. In recent years, our staff has assisted or 
represented hundreds of asylum seekers being held in detention under 
the expedited removal system.
    A sampling of recent HIAS clients--some of whom are here with us 
today--who after suffering persecution in their homelands suffered 
again at the hands of the U.S. asylum system are attached to this 
testimony as Appendix A. These cases highlight several key injustices 
of the current U.S. asylum system including: use of expedited removal 
for individuals who enter using false documents despite this being the 
only way many refugees can escape persecution (Boulankine and ``Mussa 
''); separation of families, including married couples, for extensive 
periods of time (Boulankine); extremely long periods of detention 
(Abass); detention of children (Boukrage and LK); harsh, threatening 
and degrading conditions while being processed under expedited removal 
(Mussa); hostile conditions while in detention (Boukrage); inadequate 
translation resources and medical care in detention (LK); transferring 
of asylum applicants to distant facilities thereby hampering 
preparation of their asylum claim (Abass); INS opposition to legitimate 
asylum claims based solely on failure to comply with the one year 
filing deadline (Smirnova); denial of parole requests of non-dangerous 
applicants with no opportunity to appeal to an Immigration Judge 
(Boulankine, Abass, Boukrage, and LK); and limbo in the asylee 
adjustment backlog (Boulankine and Abass).
The Jewish Community, Support for Refugee Protection and the Legacy of 
                             the Holocaust
                  american jews and refugee protection
    HIAS and its sister Jewish community organizations approach the 
issues of asylum and refugee protection based on its commitment to 
biblical imperatives to ``defend the stranger'' and to ``redeem the 
captives.'' The lessons of Jewish history, rife with persecution and 
wanderings, impress upon us the importance of preserving an open door 
for individuals seeking protection and refuge. American immigration 
policy has at times allowed the Jewish community to find a home and the 
chance to live freely, to practice our faith and to build a strong 
community. While at other times the Jewish community has had to watch 
as fellow Jews have perished overseas without the hope of safe haven in 
this country. We cherish the opportunities we have here, and have 
learned the painful lessons taught by periods in our history when the 
doors were closed.
    HIAS, and much of the American Jewish community, trace our 
involvement with refugee protection to efforts to help Russian Jews 
during the final years of Czar Alexander II's reign (1870 to 1881). In 
a letter to American Jews, the Russian Jews pleaded for help, writing: 
``We ask you, we pray, we implore, we beseech you to come to our 
rescue, to take us out of our bondage, out of our misery; to give us a 
chance in your great and glorious land of liberty, whose broad and 
trackless acres offer an asylum and a place for weary hearts and 
courageous souls willing to toil and by the sweat of the brow earn 
their daily bread. . .''
    The values these Jews expressed--a longing for liberty, safety and 
an opportunity to work--are at the heart of the movement of immigrants 
to the United States in the late 19<SUP>th</SUP> and early 
20<SUP>th</SUP> centuries. This wave of immigration brought the 
ancestors of many in today's Jewish community, as well as countless 
other Americans, to this country.
                  closing the gates and the holocaust
    Today, just a few weeks after Holocaust Remembrance Day, the Jewish 
community is very aware of the tragic consequences of the United 
States' decision in the early 1920s to close the doors to large-scale 
immigration. When Europe's Jews needed a place of refuge, America had 
shut its gates.
    A few excerpts from HIAS' annual reports from that period offer a 
contemporaneous chronicle of the catastrophic effects of U.S. 
immigration policy of that time.

``Due to an outcry against immigrants, the after-effects of the war, 
        and the consequence of a general hysteria of fear that the 
        country would be overrun by hordes of aliens, the immigration 
        restrictionists succeeded in having passed by Congress, what is 
        known as the Three Percent Immigration Law. We, who believed 
        that no danger was threatening the United States from an 
        avalanche of immigrants; we, who knew by the infallible test of 
        history that immigrants benefited America, just as America has 
        benefited them, opposed the Bill. We saw in its passage the 
        great hardship which will be inflicted upon the immigrants, we 
        foresaw the impossibility of setting up an administrative 
        machinery which would function justly and righteously . . 
        ..''--1922
``It is totally fallacious to contend that closing of the gates tends 
        to solve the economic problems from which a country is 
        suffering. Economists of the highest caliber are already 
        sounding a note of warning of the baneful effects of the 
        continuance of a policy of restriction . . ..''--1932
``Under the impact of 1938 events, European Jewry is, with small 
        exceptions, a vale of fears and tears. The paramount hope of 
        scores of thousands in the German and Austrian concentration 
        camps or even of those who are, so to speak, at liberty, is 
        linked with their chance to emigrate . . ..Rescue through 
        emigration is not a mere phrase which has been coined to 
        dramatize the situation. These words spell the very last hope 
        upon which the physical existence of hundreds of thousands of 
        men, women and children . . .hinges.''--1938
``At this time our eyes are focused on some 200,000 displaced Jews in 
        Europe who are still languishing in camps. Wondering what the 
        free world expects to do with them . . .The number of refugees 
        fleeing persecution in Poland trebled; the long-awaited 
        solution to the Palestine question failed to materialize; 
        President Truman's directive to permit the entrance of 39,000 
        refugees to the United States fell far short of its goal, and 
        governments, in general, moved sluggishly and apathetically in 
        migration matters.''--1946

    This story of closed doors and the failure to protect refugees is 
chillingly and succinctly depicted in a graph of the numbers of 
immigrants over the history of the United States. In the early 1940s--
when the need was so great--the absolute level of immigrant admission 
was lower than at any point in U.S. history, except for the mid 1830s. 
Knowing how many lives were at risk during those years makes this 
valley on the graph even more poignant. [a copy of the graph is 
attached]
                        lessons of the holocaust
    As President Bush recently noted at the United States Holocaust 
Memorial Museum: ``History records many atrocities before and after the 
1930s and 1940s. But it was the Holocaust that forced us to find a new 
term for horrors on such a scale--a crime against humanity. Human evil 
has never been so ambitious in scope, so systematic in execution, and 
so deliberate in its destruction. . .In places like this, the evidence 
has been kept. Without it, we might forget the past, and we might 
neglect the future. . .''
    President Bush's call to memory is one that the Jewish community 
takes as a solemn calling.
    Our colleague, Abraham Foxman, a survivor of the Holocaust, 
National Director of Anti Defamation League and a former HIAS client, 
superbly expressed the connection between the lessons of the Holocaust 
and contemporary refugee policy in a 1999 Miami Herald Op Ed. He wrote 
about the plight of the more than 900 Jews on the ship the St. Louis 
who in 1939, while fleeing Nazi persecution, came within view of the 
Florida coast, but were ultimately sent back to Europe where most 
perished. In discussing current expedited removal, Foxman wrote:
    ``It was a dark moment, when fear of foreigners led us to betray 
one of our most cherished traditions: providing safe haven for the 
persecuted. In the years since the end of World War II, one principle 
has been at the core of America's policy towards refugees: never 
another St. Louis. . ..'' Foxman later concluded, ``We can't go back 
and change the fact that the St. Louis was turned away. But we should 
learn from the sad history of America's indifference to refugees from 
Nazism. We can stop its modern sequel.''
    Tragically, the modern sequel to the St. Louis is continuing daily 
as the expedited removal system is implemented and asylum seekers are 
denied a fair process.
    As we reflect on the lessons of the Holocaust and their relevance 
to contemporary asylum policy, there is a cruel irony in the fact that 
Congress honors Holocaust hero Raoul Wallenberg with a statue in the 
United States Capitol building while at the same time maintaining a 
harsh expedited removal process at United States' borders.
    At the heart of the story of Swedish diplomat Raoul Wallenberg were 
his efforts to provide Swedish protective passports to Jews. These 
documents were essential in helping these Jews to escape from the Nazis 
controlled Hungary. These false papers meant the difference between 
life and death for thousands of Jews. Wallenberg, whose courage and 
cunning saved so many lives, disappeared at the end of World War II and 
is believed to have died in Soviet custody. In 1981 the United States 
conferred honorary US citizenship on Wallenberg, only the second person 
in history after Winston Churchill to receive this honor. Wallenberg 
was also honored in 1986 by the renaming of a portion of a street in 
Washington as ``Raoul Wallenberg Place,'' and in 1995 with the 
dedication of a Wallenberg statue in the U.S. Capitol.
    The lesson of the Wallenberg story--that desperate times for 
refugees require desperate measures such as falsification of 
documents--sadly has not been learned. Expedited removal is triggered 
by the absence of documents or the suspicion that the documents being 
used are fraudulent. And yet, refugees who have opposed their 
government's actions or have fled persecution and violence may not be 
able to obtain valid documents before they seek entrance to the United 
States. Thus refugees begin the process in America facing a system that 
utterly fails to respond to their basic need for protection.
    While we are grateful to the United States Congress for marking 
Raoul Wallenberg's brave contribution to Jewish, American, and world 
history, I believe that the highest honor we could bestow would be for 
our refugee and asylum policy to honor his memory by providing the 
greatest degree of protection to those who seek safety in our country.
                     Conclusion and Recommendations
    Just as the Russian Jews in the 1880s called upon the American 
Jewish community and United States government to free them from bondage 
and offer them a chance for a new life, refugees continue to call out 
to us to provide safety and a hope for a future. Whether they are 
contemporary Russian Jewish refugees, Sudanese boys seeking 
resettlement in locations like Tucson, Colombians fleeing guerrilla and 
paramilitary violence, or asylum seekers appearing at our border 
looking for protection, the Jewish community supports efforts to place 
refugee protection at the core of U.S. immigration policy.
    We therefore recommend the following:
    1. Expedited removal should be repealed. At a minimum, the use of 
expedited removal procedures should be limited only to immigration 
emergencies as declared by the Attorney General. Even in emergency 
situations, expedited removal should not be used in connection with 
individuals fleeing from countries with poor human rights records. Non-
governmental organizations and independent researchers should be 
afforded reasonable access to monitor and evaluate the secondary 
inspection process.
    2. Immigration Detention should be overhauled, specifically by:

<bullet> Mandating a parole policy for asylum seekers to ensure that 
        compassion is applied toward individuals forced to flee their 
        homelands to escape war and human rights abuses, and bringing 
        U.S. detention policy into compliance with international 
        principles of refugee protection and basic notions of decency 
        and compassion;
<bullet> Mandating the development and consistent implementation of 
        alternatives to detention of asylum seekers, including by 
        parole under the asylum parole criteria, supervised release, 
        and the creation of shelters operated by appropriate 
        nongovernmental organizations;
<bullet> Providing for independent review by an immigration judge of a 
        decision to detain;
<bullet> Encouraging the Department of Justice, after appropriate 
        review, to issue regulations facilitating the parole of asylum 
        seekers, specifying the criteria for their release, providing 
        for immigration judge review, and ensuring the release of 
        individuals granted ``withholding of removal'' who present no 
        danger to the community; and
<bullet> Creating an Office of Detention Oversight within the 
        Department of Justice to monitor detention facilities and 
        enforce detention standards.

    3. The filing deadline for asylum applications should be repealed.
    4. The annual cap on the adjustment of status of asylees should be 
eliminated.
    For future consideration, we also commend to the subcommittee's 
attention the difficult circumstances that asylum seekers face while 
waiting for their cases to be decided, frequently struggling without 
work authorization for extended periods of time.
    Chairman Brownback, I once again would like to express our great 
appreciation for your work defending refugees and asylum seekers. Your 
efforts with the subcommittee will go a long way in building a seamless 
web of protection for those fleeing persecution and violence.
    Thank you again for the opportunity to testify today on this 
crucial issue.
                               APPENDIX A
                     asylum seekers--case summaries
Denis & Tatiana Boulankine from Russia
    Denis and Tatiana Boulankine are a married couple from southern 
Russia near Chechnya. Denis, a lawyer, took part in student protests 
against the war, and spoke at several rallies. He was then called to 
the local military office, detained for a day and roughed up. The 
military threatened to send him to the front of the war, or to a 
filtration camp (these are concentration camps, and a major site of 
human rights abuses). He toned down his activities a bit (still going 
to protests, but not speaking), but was again threatened by the 
military. This time, they illegally changed his military rank and draft 
status to insure that he would go to Chechnya. Military officers came 
to his parents' house looking for him, and harassed them. Based on 
their opposition to the war and the human rights abuses being carried 
out by the Russian military, the Boulankines, with the help of 
Tatiana's parents, hired a smuggler who got them fake Hungarian 
passports with the intent of going to Canada, where they planned to 
apply for asylum.
    They were transiting through Newark Airport, when INS stopped them 
on October 12, 2000. They asked for asylum and were detained at the 
Elizabeth, NJ detention center. On November 15, 2000, they had credible 
fear interviews, and on December 5, 2000 were found to have credible 
fear. HIAS made a parole request on December 21, 2000, with an 
affidavit of support from their U.S. citizen uncle, a New York City 
resident. The INS was in possession of a very large number of their 
original documents and had found at the credible fear interview that 
their identity was determined. Nonetheless, the Boulankines received a 
form-letter rejection of the parole request on Jan 31, 2001 with this 
item checked off: ``Based on the particular facts of their cases, 
including manner of entry, INS cannot be assured that they will appear 
for immigration hearings or other matters as required.'' The couple 
then was kept in detention until their asylum case was granted on March 
30th--a total of over five months--where, despite being married, they 
were denied all contact visits except for one joint meeting with their 
HIAS representative.
``Mr. Mussa'' from Sierra Leone
    ``Mr. Mussa,'' a national of Sierra Leone, was a school teacher and 
active member of the local teacher's union. Rebel forces captured him 
in 1997, shortly after the coup against President Kabbah. He was held 
as a suspected government sympathizer for about six months. After 
managing to escape, he was captured by Komojors, a pro-government 
militia, and held as a rebel sympathizer, since he had come from rebel 
territory, for nearly a year. He then escaped from the Komojors and 
eventually made his way to Mali, and from there to the U.S. Upon 
arrival at JFK, he was found to be holding a fraudulent passport and 
detained. He was held from Saturday morning, November 13, 1999, and was 
transferred to the Elizabeth Detention Center in the early morning 
hours of Monday, November 15. He was kept chained to a bench most of 
this time, except for brief bathroom breaks and to speak to INS 
officers. He was only fed once each day. He did not receive a full INS 
interview until Sunday morning and was repeatedly threatened that he 
would be sent back immediately. ``Mr. Mussa'' was detained until 
January 19 2000, over two months total time, and was then paroled to 
his brother, who is a lawful permanent resident and a New York City 
high school teacher.
Mohammed Abass
    Mohammed Abass was born in Iraq in 1974. He was arrested for 
connections to antigovernment demonstrations in Iraq, interrogated and 
beaten. He had serious health problems for some time as a result of 
this beating. He also had further problems with security forces--
harassment, pressure to join the Ba'ath Party, etc. While he was in 
hiding, his father was arrested and interrogated about his whereabouts. 
Through the help of his cousin, he was able to leave Iraq in late 1999, 
traveling via Jordan, Turkey, Cuba and Ecuador--arriving in NY on Dec 
2, 1999. Upon requesting asylum, he was detained at the Wackenhut 
Detention Facility in Queens, New York.
    The Immigration Judge denied Mr Abass asylum on April 21, 2000. As 
Mr Abass had difficulties with his initial private attorney, HIAS took 
over the case and wrote the appeal brief. While his appeal was pending, 
Mr Abass was transferred to a county jail in York, Pennsylvania, far 
away from his attorney and friends. Despite the fact that he had a U.S. 
citizen friend willing to sponsor him, he was unable to obtain parole. 
Mr. Abass' transfer to York made it much more difficult for his 
attorneys to prepare the case and to monitor the conditions of 
detention for their client. Ultimately, the Board of Immigration 
Appeals remanded the case to the Immigration Judge who granted Mr 
Abass' request for asylum on March 21, 2001. When finally released, Mr. 
Abass had spent over a year in detention.
Mohamed Boukraize from Algeria
    Sixteen-year-old Mohamed Boukrage came to the United States on 
October 23, 2000 aboard a ship and was placed in INS custody. Mr. 
Boukrage left his home village at the age of ten after a bomb killed 
his parents and younger sister. Mr. Boukrage fled Algeria because his 
father was viewed as a French sympathizer. Mr. Boukrage had told the 
interviewing officer his birthday was June 25, 1984. When Mr. Boukrage 
arrived at Newark airport his teeth were checked by a doctor who 
claimed that the test determined that he was over18 years old. Because 
of this, he was transferred to Elizabeth Detention Center in Elizabeth, 
New Jersey. Mr. Boukrage has been in detention ever since.
    Mr. Boukrage has had a very difficult time in this adult detention 
facility. As the smallest and the youngest person in the detention 
center, Mr. Boukrage has been attacked and threatened by other inmates. 
Due to this harassment, Mr. Boukrage has spent a significant amount of 
time in solitary confinement where he is not permitted to participate 
in any activities with other detainees. As an orphaned youth, Covenant 
House in Newark, New Jersey has offered to care for Mr. Boukrage. After 
surviving a considerable amount of trauma in his young life, Mr. 
Boukrage has been forced to endure detention instead of receiving 
protection in a safe environment while his asylum case is heard.
L.K. from the Democratic Republic of Congo
    Fifteen-year-old L.K. arrived in the United States via Abidjan, 
Cote D'Ivoire on January 20, 2001 at the JFK International Airport. Ms. 
K fled the Congo because one day her entire family was taken away by 
government troops for being supporters of the deposed President Mobutu. 
When her family was arrested she fled to Brazzaville, Republic of 
Congo, and waited for a plane ticket and passport from her mother who 
is in Canada. She arrived in the United States alone, but expected to 
continue on to Toronto to meet her mother. However, she was stopped at 
JFK Airport and questioned by US INS officials. After a brief dental 
examination, the INS asserted that Ms. K was over eighteen years of age 
and transferred her to the Wackenhut Detention center in Queens, New 
York--an adult facility. Concerning Ms. K's age, notes in her medical 
records declared first that she was 23 years old, on the next day that 
she was 22 years old, and three weeks later that she was approximately 
17 years old--once again a minor--all the while keeping her in the 
Wackenhut Detention center.
    Ms. K's stay in detention has not been easy because of her health 
and age. When Ms. K arrived in the United States she was diagnosed with 
malaria, and had to undergo medical treatment at the detention center 
medical facility. Ms. K complained several times that she did not 
understand the type of treatment that she was getting. She also called 
her attorney on two occasions complaining that she did not understand 
why she had to take certain medications because the medical procedure 
was not explained to her (Ms. K. is French-speaking with no English 
language ability). Ms. K still does not understand why she is detained 
at Wackenhut, and does not even fully understand the concept of 
political asylum. She knows, however, that her life will be threatened 
if she returns to the Congo.
Anna Smirnova from Russia
    Anna Smirnova, a national of Russia, fled from Russia fearing 
persecution based on her mixed nationality. She is part Jewish, and 
also part Arab and part African-American (her great-great grandfather 
had been a prominent American civil rights leader). Anna arrived in the 
United States on April 17, 1998. She gave birth later that year, and 
began caring for the new infant. She missed the one-year filing 
deadline due to the burdens of being pregnant (a physical condition 
that should have satisfied one of the exceptions to the filing 
deadline), and the resulting burden of caring for a new infant as a 
single mother. And, like many refugees, she was unaware of the 
deadline. However, once she became aware of the one-year requirement 
she immediately filed her claim, which was received by the INS on April 
22, 1999. Despite extensive documentation of her fears of persecution 
and of her pregnancy, the INS rejected Anna's asylum claim based solely 
on the asylum filing deadline. Although an immigration judge eventually 
granted her claim, the INS has appealed that decision based in part on 
her failure to file within the one-year filing deadline. While her 
attorneys at HIAS are opposing the appeal, the INS still maintains that 
her claim is barred by the filing deadline.
                               APPENDIX B
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Brownback. Thank you, Mr. Glickman. I appreciate 
your testimony. I also want to say thank you to your 
organization: for over 100 years it has stood for those who did 
not know the system, did not understand the system, could not 
advocate for themselves; yet you stood there with them, 
regardless of their background, other than that they wanted to 
be free and to be in the U.S. Thanks for doing that.
    Mr. Glickman. Thank you, Mr. Chairman.
    Chairman Brownback. Mr. Stein, thank you for joining us in 
the committee.

  STATEMENT OF DAN STEIN, EXECUTIVE DIRECTOR, FEDERATION FOR 
         AMERICAN IMMIGRATION REFORM, WASHINGTON, D.C.

    Mr. Stein. Mr. Chairman, thank you very much for the 
opportunity to be here today. My name is Dan Stein. I am 
executive director of FAIR, the Federation for American 
Immigration Reform, the Nation's leading organization working 
for what we feel are improved immigration laws, improved 
immigration enforcement, overall reductions in overall 
immigration levels, consistent with U.S. population 
stabilization, and an end to illegal immigration.
    Mr. Chairman, I appreciate your willingness to hear our 
point of view in these hearings, and I am hopeful that we are 
able to find some areas of common ground as the years progress. 
I do believe that our position, while at some variance with the 
testimony we have heard today, is nevertheless, I hope, a 
legitimate point of view that deserves some credence and is 
broadly reflective of what we feel is not only the views of our 
70,000 members all across the country but the broad sense of 
the American people in general that immigration laws have to 
serve the needs of this country, first and foremost, and other 
priorities be established second.
    That said, numbers do matter, both in immigration and 
refugee policy. The Census Bureau is now projecting that with 
today's high immigration levels, our population is likely to 
exceed 400 million by 2050, an additional 130 or 140 million 
people today, and, frankly, given the findings of the 2000 
census, those numbers are likely to be low in terms of 
projections. As far as we can tell, the country has not made 
any adequate provision for the infrastructure, schools, roads, 
transportation, housing, and other assorted things that would 
be required for all those additional people have not been 
planned out, and we see the effects of that gap between the 
immigration policies of the country and their residual impacts 
on highways and schools and other things all across the country 
even today.
    Numbers do matter, but legitimate and merit-based refugee 
and asylum admissions deserve our highest priority and 
attention as a Nation. They are the ultimate fulfillment of the 
purpose of immigration in a country like ours. Arguably, they 
should take priority over virtually every other migration 
policy decision that we make as a Nation.
    Nevertheless, because of today's high levels of 
immigration, legal and illegal, we have to consider asylum and 
refugee policy within the framework of any effort to regulate 
the overall admission of people, and we do believe that our 
asylum policy can continue to be implemented with rationality 
and discipline, and still fall within generally accepted 
international norms for asylum policy.
    Matthew talked a good deal about the stranger. Matthew did 
not talk a lot about temporary protected status, deferred 
departure, parole, expedited removal, and all the other 
immigration bits of alphabet soup that people try to deal with.
    The asylum system of this country is something that 
ultimately reflects the broad balance that has to be made 
between the huge numbers of people who have an enormous 
incentive to come to this country through fraudulent means 
while exercising our obligation to try to provide protection 
for people who truly need it.
    Now, Mr. Chairman and Senator DeWine, we got into this 
situation today as a result of the immigration policy, the 
asylum policy having basically broken down as a result of a 
series of decisions beginning in 1980 and taking us up to 1993, 
which, when Senator Kennedy commented in the Washington Post, 
he said, ``The asylum system has broken down, and it's up to 
Congress and the administration to fix it.'' According to 
former INS Commissioner Doris Meissner, ``The problem we have 
faced in recent years''--this is March 1994--``is that people 
with no legitimate claim to asylum are applying in record 
numbers, some brought by smugglers, some using fake documents, 
and some overstaying the visas granted to them as visitors.''
    Before expedited removal was passed and the credible fear 
reforms were made and additional improvements made 
administratively by INS, the no-show rate for asylum seekers 
who were paroled was over 50 percent, with virtually no 
sanction for their failure to appear.
    Now, Mr. Chairman, it would be great if we could give O.J. 
Simpson's procedural process to every alien who shows up on our 
jurisdiction asking for political asylum. But ultimately there 
have to be some practical limitations in what the taxpayer can 
provide in the way of resources. Freedom House estimates now 
that there are well over 3 billion people living under 
conditions that we would consider not free. And so ultimately 
our asylum policies have to be integrated within our refugee 
policies and other policies which also provide humanitarian 
admissions. Let's recognize that asylum policy also operates 
coincident with policies like the Cuban Adjustment Act that 
provide a virtually on-demand parole for people who come here 
from Cuba, for example. The refugee admissions, which are the 
result of a more orderly consultation process which operates 
through the State Department, and these broad temporary 
protected status grants or class-based release grants that are 
ultimately then transformed into some kind of rolling amnesty 
or relief provision--we have had a number of these in the last 
5 or 6 years--that while we do not get credit internationally 
or from the U.N. High Commission on Refugees, still represent 
part of our humanitarian commitment as a Nation in admitting 
people. So we basically believe that asylum policy should 
adhere to these basic principles.
    Asylum policy is designed to provide temporary protection 
here for persons to work for positive political change back 
home. The goal is to strike a balance between providing 
protection for those who need it while encouraging people, 
where possible, to stay home to work for positive political 
change.
    Now, suppose Thomas Jefferson, great Founding Father that 
he was, had said, Well, the United States is great, but, you 
know, the war started and I do not really know who is going to 
win, so maybe I will take my chances and stay in France. Well, 
ultimately we want people who are dissatisfied and discontented 
with conditions in their home country to stay and bloom where 
they are planted and improve conditions where they are. So 
ultimately you are trying to strike a balance between providing 
protection for people who need it while not draining off all 
the political opposition to a regime that actually might be 
there to try to stay and improve conditions. And I think we see 
that policy operating quite strongly to effect in Cuba, where 
anyone who might have disagreed with Castro has been encouraged 
to move to the United States by our very broad admissions 
policies with that particular country.
    Asylum policy should be integrated with refugee policy to 
provide a single unitary statutory scheme. Asylum standards 
should not create incentives for persons to get within U.S. 
jurisdiction first with the expectation of preferred treatment 
over similarly situated persons applying as refugees overseas 
for the obvious reason that it would then create an incentive 
for people to come here to apply for asylum because of the 
enormous procedural or legal advantages that come with getting 
onto U.S. jurisdiction first.
    Because asylum allows an alien to line-jump in front of 
millions of other people who are waiting in line for their 
visas, and, theoretically, hundreds of millions of people who 
would like to live here as well, the grant must be made with 
care, consistent with the statutory scheme. The management of 
asylum policy must take into account the enormous worldwide 
backlogs for visas on waiting lists and the incentives to gain 
residency through false claims.
    I wish it were a perfect world, Mr. Chairman. I wish that 
every person who makes self-serving and uncorroborated 
declarations without any documentary evidence, who has 
destroyed transit documents en route, not between the home 
country and this country but between the last safe country they 
left and this country, could be believed as telling the truth. 
But the bottom line is the asylum claim often turns on the 
credibility of the asylum claimant, without any independent 
documentary evidence of veracity for the claim. Someone wiser 
than I once speculated if only refugees are admitted, then 
everyone will be a refugee.
    Other than for countries of first asylum, which were 
generally Mexico and Canada--there are a few others by boat--
temporary asylum should be restored to its original purpose: to 
provide temporary protection for persons who are here legally 
who, as a result of unforeseeable changed circumstances can no 
longer return home. Certain evidentiary presumptions are 
appropriate in certain cases where a claimant is from a 
particular religious group or social group and we possess very 
little home-country information that would allow verification 
of claims.
    Asylum is to be a temporary status for people to work here 
for positive political change back home. Matthew talks about 
welcoming the stranger. What I think the Lord is telling us is 
that we have an obligation to minister to the stranger, to help 
the stranger, to provide food, take him into our house as a 
guest, to provide temporary protection and shelter where 
needed, and then do what we can to help restore the status quo. 
Taking everybody in need into your own home is not a fit 
solution and ultimately not a realistic way of helping people. 
Most people this country has to help has to do it through 
helping them where they are, improve their conditions where 
they are and encourage repatriation as soon as possible. So 
asylum is not to be viewed as a regular alternative to regular 
immigration. It is great to hear these wonderful human interest 
stories about how well people are doing, but ultimately asylum 
is not about people coming here and going to college. It is 
about providing people temporary protection generally for 
reasons they could not have foreseen when they originally 
entered to try to bring about positive political change back 
home. Ultimately resettlement here over time is appropriate if 
there is no possibility of repatriation, but let's not view 
asylum as a back-door immigration program.
    Asylum seekers should not be subject to preferred 
procedural or legal standards that give an advantage to the 
would-be asylum seeker to get to the U.S. to make the claim. 
The credible fear pre-screening standard for summary return 
must remain in the law and be actually used by the government. 
Frankly, Mr. Chairman, the data are so weak in terms of what is 
going on in asylum procedures, and the exercise of detention 
standards and the nature of the asylum claims being granted and 
under what kinds of claims, that it is almost impossible to 
make a judgment about how these programs are working, but 
ultimately the summary exclusion provision seems to be 
operating, barely used, if at all--how much time do I have? I 
will move it along here.
    Chairman Brownback. Yes, if you could wrap it up, that 
would be good, Mr. Stein, particularly if you have any specific 
policy recommendations or changes.
    Mr. Stein. All right. Well, asylum seekers should be 
expected to make a claim for protection at the first available 
opportunity in the country of refuge. Asylum claimants should 
not forum-shop or otherwise be allowed to pick and choose where 
they make their claim, passing through several safe-haven 
countries before making their claim when they get to the U.S. 
The legal standard for asylum should be consistent with 
international obligations.
    We recommend that one legislative change is that state 
action must be at the core of the claim of persecution. The 
newly evolving standards that allows claims to be made on 
behalf of an alleged absence of state protection for entire 
classes of social groups is fraught with peril, is 
unmanageable, and an invitation to fraud. We believe also that 
the category ``membership in a social group'' is now being 
defined beyond what is realistically administered in an asylum 
procedure, involving classes, wholesale classes of people who 
are subject to disparate treatment in their home society under 
cultural norms and rules that may have prevailed for thousands 
of years. This is not the original purpose of political asylum.
    As a practical matter, under our current system, 
adjudicating claims often involves allegations of abuse that 
took place tens of thousands of miles away. Objective evidence 
that may be entirely lacking in the entire claim may rest on 
the subjective judgment of an asylum officer. Where the 
procedural, legal, or evidentiary standards become unworkable, 
it is up to Congress to intervene and reassert proper standards 
to ensure a manageable program.
    Ultimately a lot of our asylum problems are going to have 
to be dealt with on a multilateral basis. All the countries 
that are targets of asylum claims--and they tend to fall within 
the same nine or ten countries--have to work together to try to 
ensure that the handling of fraudulent claims through things 
like expedited removal discourage forum shopping and minimize 
fraud.
    I have some examples in my testimony, some really glaring 
examples of fraud, of people posing as other people, claiming 
very specific allegations of membership in particular tribes 
that it turned out they were actually impostors, which actually 
were marquis cases brought to try to advance new asylum 
standards, all the way up through the appellate process, and 
the fraud was not even detected. When people show up without 
documents, Mr. Chairman, we do not know who they are. We have 
no idea who they are. We have not done a positive ID check. The 
Government has an obligation to detain these people until they 
can figure out who they are talking about. And as we see from 
many of these high-profile claims, we do not know, even after 
they have gotten asylum and been here for years, we have not 
even figured out who they are.
    Chairman Brownback. Mr. Stein, if we could go ahead and get 
the policy recommendations, I think my colleague here needs 
to--
    Mr. Stein. All right. Those are all included by reference. 
I think I pretty much have mentioned them all. We would like to 
see--
    Chairman Brownback. My colleague needs to get going here.
    Mr. Stein. Asylum needs to be decoupled from permanent 
residence, and deportation needs to be enforced if, you know, 
the asylum decision is ultimately decided against the claimant. 
There are others, but I will leave it at that.
    Thank you very much, Mr. Chairman. I appreciate the 
opportunity to testify and hope this will be an ongoing dialog.
    [The prepared statement of Mr. Stein follows:]

  Statement of Dan Stein, Executive Director, Federation for American 
                           Immigration Reform

                              Introduction
    Thank you, Mr. Chairman for the opportunity to present the views of 
the Federation for American Immigration Reform (FAIR) on the important 
issue of asylum policy and problems with regard to implementation of 
the law as it exists today. I am Dan Stein, FAIR's executive director.
    FAIR is a national, non-profit organization of 70,000 concerned 
citizens nationwide promoting better immigration controls and a return 
to a moderate level of legal immigration to insure that today's 
policies serve the current and future best interests of the American 
people. FAIR does not receive any federal grants, contracts or 
subcontracts.
                    fair stands by these principles:
    Illegal immigration can and must be substantially reduced by humane 
measures that are consistent with our democratic ideals;
    immigration should not be permitted to undermine opportunities for 
America's poor and disadvantaged to improve their wages and working 
conditions;
    our immigration laws must be fairly and effectively enforced; there 
should be no favoritism toward or discrimination against a person on 
the basis of race, religion or ethnicity;
    all immigration should come within a single, stable ceiling which 
is periodically reviewed on the basis of reasoned, explicit population 
goals for the U.S.
    three criteria should guide the selection of immigrants: our fair 
share of refugees for resettlement, our national manpower policy and 
concerns for the maintenance of intact nuclear families;
    the United States should not contribute to a brain drain that 
entices away the skilled and talented who are desperately needed in 
their homelands; we should meet our need for skilled professionals by 
training and retraining our own;
    the United States should make greater efforts to encourage 
population size stability, economic development and alleviation of 
poverty worldwide and especially in countries of great out migration;
    the era of mass international migration as a solution to national 
problems has come to an end; problems of poverty and overpopulation 
must be vigorously confronted where people live, rather than Postponing 
their solution by either the exportation or importation of masses of 
people;
    we should determine our own immigration and population policy 
broadly and democratically, as a sovereign right and responsibility of 
our nation.
    Mr. Chairman, the American people are extremely hospitable to 
immigrants and refugees, and our nation's record of generosity and 
compassion to people in need of special protection from war, anarchy, 
or natural disaster is exemplary. We have maintained a very munificent 
refugee resettlement pattern over the years, even though many of the 
people we have taken in are not considered true refugees by the United 
Nations High Commissioner for Refugees. The problem comes when the 
policies established become unrealistically broad or unintended avenues 
for abuse.
     mr. chairman, fair suggests these principles in asylum policy:
    1) Asylum policy should work to provide temporary protection here 
for persons to work for positive change back home. The goal is to 
strike a balance between providing protection for those who need it 
while encouraging people to--where possible--stay home to work for 
positive change.
    2) Asylum policy should be integrated with refugee policy to create 
a single, unitary statutory scheme. Asylum standards should not create 
incentives for persons to ``get within U.S. jurisdiction first'' with 
the expectation of preferred treatment over similarly situated persons 
overseas.
    3) Because asylum grants allow an alien to line jump in front of 
millions of other people, the grant must be made with care, consistent 
with the statutory scheme. The management of asylum policy must take 
into account the enormous worldwide migration pressure, the long 
waiting lists and backlogs, and the incentives that exist to gain 
residency through false claims. Someone wiser than I speculated ``if 
only refugees are admitted then everyone will become a refugee.''
    4) Other than for countries of first asylum, the grant should be 
restored to its original purpose: to provide temporary protection for 
persons here legally who, as a result of unforeseeable, changed 
circumstances can no longer return home. Certain evidentiary 
presumptions are appropriate in certain cases where a claimant is from 
a particular religious or social group and we possess very little home 
country information that would allow verification of claims. Asylum is 
to be a temporary status; it is to allow persons to work here for 
positive political change back home.
    5) Asylum should not be viewed as an alternative to regular 
immigration.
    6) Asylees should not be subject to preferred procedural and legal 
standards that give an advantage to the would-be asylum-seeker to get 
to the U.S. in order to make the claim. The ``credible fear'' pre-
screening standard for summary return should remain in the law and be 
actually used by the government.
    7) Asylum seekers should be expected to make a claim for protection 
at the first available opportunity in the first country of refuge. 
Asylum claimants should not forum shop or otherwise be allowed to pick 
and choose where they make their claim-passing through several safe-
haven nations before getting to the U.S.
    8) The legal standards for asylum must be consistent with our 
international obligations. There should be some ``State Action'' at the 
core of the claim of persecution. The newly evolving standard that 
allows claims to be made on the basis of an alleged absence of state 
protection for entire classes of ``social groups'' is fraught with 
peril as unmanageable and an invitation to fraud.
    9) The definition of ``membership in a social group'' must be 
defined narrowly enough that it retains some standard beyond the 
subjective parameters of an imaginative immigration bar.
    10) As a practical matter, under our current system, adjudicating 
asylum claims often involves allegations of abuse that took place tens 
of thousands of miles away; objective evidence may be entirely lacking 
and the entire claim may rest on a subjective judgment of the Asylum 
Officer. Where the procedural, legal or evidentiary standards become 
unworkable or an invitation to fraud, it is up to Congress to intervene 
to re-assert the proper standards to insure a manageable program.
               Background of the Mid-1990s Asylum Reform
    Our generosity and compassion must be reserved for those who are 
truly deseiving of it. That is the reason that there was widespread 
resentment at the revelations in the middle of the 1990's that the 
nation's asylum policy had become a major loophole for gaining illegal 
residence in the United States. So many foreign travelers were arriving 
in New York and other airports without entry documents and requesting 
asylum, that the INS had largely shut down efforts to decide the 
legitimacy of the asylum claims and was waiving the asylum claimants 
into the country, issuing them work permits and filing away their 
asylum applications to gather dust. So notorious was the practice that 
awareness of the loophole spread beyond the alien smuggling rings, and 
the backlog of pending asylum cases rose into the hundreds of 
thousands. It appeared to be so easy to get a green card by filing an 
asylum application that the practice even spread to ``green-card'' 
fixers in the United States who began enticing Mexicans who were here 
illegally to begin filing asylum applications.
    As Sen. Kennedy commented in the June 13, 1993 Washington Post, 
``The asylum system has broken down, and it's up to Congress and the 
administration to fix it.'' According to former INS Commissioner Doris 
Meissner, ``The problem we have faced in recent years (she told the 
March 30, 1994 Washington Post) is that people with no legitimate claim 
to asylum are applying in record numbers, some brought by smugglers, 
some using fake documents, and some overstaying the visas granted to 
them as visitors.''
    Against this background of fraudulent use of the asylum system, 
abusing the generosity and compassion of the American people, the 
Clinton Administration and the Republican-led Congress finally acted in 
1995 to reestablish the integrity of the asylum process and reassure 
the American public that only people who truly feared persecution were 
able to gain the nation's protection. The Administration acted first, 
trying to forestall a change in the law. Those changes in the screening 
system included a enlarged Asylum Corps, halting the automatic issuance 
of a work permit to new asylum applicants, and an accelerated 
processing of asylum applications. On July 9, 1995, Commissioner 
Meissner told the Post, ``After years in which fraudulent asylum claims 
were routinely used as a backdoor way to enter the United States, the 
Immigration and Naturalization Service finally has sufficient staff and 
resources to stop the abuse and ensure that legitimate asylum-seekers 
no longer pay the price for those who seek to misuse the system.''
    These measures were supplemented by Congress in 1996 to add new 
expedited removal procedures, but the protection against removing 
someone who feared persecution if returned to his homeland was 
protected by requiring a screening of all asylum claims by a member of 
the Asylum Corps. A recent example of the operation of this procedure 
was demonstrated when a surge of Colombians began arriving in the 
United States on transit visas--meaning that they were not documented 
to enter the United States--began requesting asylum in an effort to 
bypass consular screening of Colombian travelers to determine if they 
were intending immigrants. While it is certainly true that life is 
difficult in Colombia because of drug-related violence and a breakdown 
in the government's ability to assure order, most of the arriving 
Colombians were not targets for persecution. The Embassy in Bogata was 
able to suspend the issuance of transit visas for the U.S., this kind 
of thing demonstrates abuse potential. We hope that the Asylum Corps 
was able to meet this surge in frivolous asylum claims and, as a 
result, discourage recourse to this attempt to circumvent the U.S. 
immigration law. But the evidence is clear: if you create the 
opportunity for a loophole, it will be exploited.
    Earlier, in a similar fashion the Asylum Corps was pressed into 
service screening Cuban and Haitian ``rafters'' seeking to enter the 
United States. If the United States had continued to accept anyone who 
sought an opportunity for a better life, the stream of Cubans and 
Haitians setting sail for our country would have become enormous, and 
they would likely have been joined by nationals of countless other 
countries in the area.
    Other provisions adopted in 1996 reduce the ability of immigration 
lawyers to continue to seek sequential reviews of removal orders until 
they find a sympathetic judge and to use an asylum claim as a defense 
against removal if the alien has been living illegally in the United 
States for more than a year without initiating an asylum claim. These 
changes were adopted to redress the imbalance in favor of the asylum 
applicant at the expense of the American public.
                Asylum Reform Judged Largely Successful
    The asylum reform effort of the mid-1990s has been largely 
successful. The number of frivolous asylum claims have dropped off 
sharply. From a total of 127,000 claims in FY'93, the level in FY'99 
was about 32,000. However, there are still problems. Even with careful 
prescreening of asylum applicants by trained asylum officers, a large 
majority of asylum claimants who present a convincing enough claim to 
get referred to an Immigration Judge are still found meritless. The 
disapproval rate in FY'99 for claims before Immigration Judges was 62 
percent. There is no guarantee that people who get asylum are in fact 
bona fide asylees.
    The asylum process is still being used as a backdoor route for 
gaining illegal residence in the United States is the fact that the 
number of asylum applications is on the upswing again. From the 32,000 
in FY'99, the number jumped by about 28 percent in FY'00 to nearly 
41,000.
    In addition, the INS has no system in place to assure that the 
denied asylum applicants ever leave the United States. There is every 
reason to believe that these persons who have been trying to take 
advantage to the generosity of the American people stay on in the 
country illegally and hope to gain legal residence by enactment of 
another amnesty for illegal aliens. We should remember the warning of 
Barbara Jordan, former member of the House Judiciary Committee and 
Chairman of the Commission on Immigration Reform. She said in testimony 
in the House on February 24, 1995 ``. . .for the system to be credible, 
people actually have to be deported at the end of the process.''
    Mr. Chairman, I recognize that immigration lawyers are unhappy with 
the current state of the asylum screening process, because some asylum 
applicants at ports of entry may be sent back home without ever gaining 
access to the services of a U.S. immigration lawyer. If the purpose of 
the asylum provisions of the immigration law were intended to maximize 
the number of persons gaining permanent residence in the United States, 
that concern might have some logic. However, that is not the purpose of 
the asylum provision. The reason that asylum was created was to deal 
with people who would qualify for refugee status if they were abroad, 
but who were temporarily located in this country. It is clear today 
that most of the persons being accorded asylum in the United States 
would not be granted refugee status to the United States if they were 
outside of this country. Because asylum has proven to be a backdoor 
route to residence in the United States, policymakers have a 
responsibility to the American people to minimize the possibility that 
it is abused.
              The Shift in Legal Standards: Who Qualifies?
    Mr. Chairman, last December the nation learned from an INS leak 
that Adelaide Abankwah, a Poster child for granting asylum to prevent 
female circumcision (or genital mutilation), was an imPoster. (See 
Abankwah v. INS, 185 F.3d 22 (2d Cir. 1999). In fact, she had assumed 
the identity of another woman, had invented a story that her mother was 
the queen of a tribe in Ghana and she was due to succeed to that 
position--which would lead to the genital cutting ceremony. She 
succeeded in posing as an entirely different person throughout the 
entirely of the case--all the way through appellate review.
    What this case highlighted (in addition to a judicial willingness 
to second guess matters committed firmly by law to agency discretion) 
is that asylum procedure allows people to destroy identity documents 
during the trip over and fabricate stories out of whole cloth. Although 
the credible fear procedure was supposed to prevent this, the current 
asylum system does not insure that the INS even gets a ``positive ID'' 
on the alien. It does not allow us to take into account behavior by the 
alien before arrival--in committing calculated fraud and forum 
shopping--when determining the credibility of a claim. Limitations of 
resources prevent the State Department in the home country from 
individually investigating the claims of individual asylum claimants in 
the U.S.
    The invitation for false claims is compounded by the now 
unmanageably broad definitions of who is an asylee. The problems 
presented by broader and broader definitions of who can get asylum is 
sending this country into new and uncharted waters, especially over the 
question of who qualifies for a claim based upon membership in a 
particular social group. The asylum standard codified in U.S. 
immigration law in 1980 was based on the internationally accepted 
refugee definition. Whether a person had been persecuted or had a well-
founded fear of persecution if repatriated could be evaluated 
reasonably objectively when the criteria turned on the persons' race, 
religion, nationality or political opinion. Congress judged in 1980 on 
the basis of past experience that the maximum number of asylum 
claimants in a year would not reach 5,000, so they set that as a 
ceiling. However, experience has taught us what we should already have 
known: ``if you build a new avenue for admission, they will come.'' By 
1990, more than 15,000 approved asylum applicants were waiting in a 
backlog, and Congress doubled the annual ceiling.
    Today, we are facing a replay of the 1990 situation. Again there is 
a backlog of approved asylum claims in excess of the quota for three 
years. Legislation has been introduced in the House to again increase 
the ceiling (H.R.1560). Why has the number of asylum applicants been 
increasing? Is it because persecution is becoming more widespread? I 
don't think that is the explanation. In our view, it is more likely 
because of a systemic problem and because of the stretching in practice 
of the scope of eligibility for asylum coverage.
    Part of the explanation for the increasing number of asylum 
claimants is due to a prevailing culture in the INS that creates a much 
greater onus on an asylum officer or an immigration judge who denies an 
asylum application than if the application is approved. That appears to 
explain approval of the fraudulent Abankwah case. The INS said all 
along that it had doubts about the bona fides of her asylum claim, but 
extensive interest by the press and politicians in the case apparently 
overcame the INS professionals' good judgment.
    Another part of the explanation involves legislative and judicial 
expansion of asylum coverage. The congressional action occurred with 
the addition to the asylum definition of China's family planning policy 
as a form of political persecution by Sec. 601 of the 1996 Illegal 
Immigration Reform and Immigrant Responsibility Act (IIRAIRA).
    FAIR expressed it's concern that this change in the law would be 
another loophole phenomenon, i.e., that it would lead to an increase in 
fraudulent Chinese asylum applicants. We have been proven correct. In 
FY'96 there were 1,509 Chinese asylum applications. In FY'2000 there 
were 5,541 Chinese applications. There would have been even more except 
the United States began intercepting Chinese smuggling ships and 
diverting them to ports in neighboring countries where the smuggled 
Chinese could not gain entry making asylum based on claims of fear of 
family planning persecution. In these cases, the neighboring countries 
brought in representatives from the UN High Commissioner for Refugees 
and the International Organization for Migration to screen the Chinese 
for possibly valid asylum claims and found only a miniscule number of 
possibly valid claimants. If the same Chinese had succeeded in arriving 
in the United States, the 1996 provision in our law would likely have 
led to large numbers receiving asylum and few if any removals. That has 
been the experience with a surge of asylum claims from Chinese illegal 
entrants as coached by the Chinese snakehead smuggling rings. So called 
``one child per family'' claims were also asserted after the fact on 
behalf of the still detained smuggled Chinese from the Golden Venture.
    Increasingly over the past several years, asylum has been granted 
to people claiming to fear generalized social customs or conditions, 
such as female circumcision, and even social ostracism based on sexual 
orientation, disease or disability. While these practices are at best 
inconsistent with Western notions of decency and at worst 
reprehensible, they hardly fit the intended definition of political 
persecution as contemplated by the Geneva Convention or our other 
international obligations. The expansive nature of asylum grants over 
the past several years have moved us from the murky area of rendering 
judgments about the actions of foreign governments to the even murkier 
area of judging social and cultural practices that are at odds with our 
own. Asylum law has deviated from cases where there is direct State 
Action in perpetrating persecution to the hazy area of a government's 
alleged generalized failure to provide certain protections for 
marginalized groups.
    If the United States has sometimes been viewed as the world's 
policeman, these recent expansions of political asylum are moving us 
toward the role of trying to be the international nanny--of a nation 
trying to insure that no person encounters the vexations of life's 
misfortunes. How can the United States monitor what is taking place in 
every village square and in every bedroom around the world?
    Virtually everyone who is subjected to any injustice, whether 
perpetrated by a government, social group, or even a father or an aunt, 
can seek asylum protection by the United States--even if there is no 
plausible reason to explain why this particular alien is here making 
the claim in this particular country at this particular time. And, the 
most troubling aspect of this trend is that increasingly there are no 
objective criteria to assist the asylum officers and immigration judges 
in evaluating these claims in order to be able to limit asylum grants 
to truly meritorious cases. Despite the lessons learned in the early 
1990's, there is still very little ``discipline in the system'' to 
insure that claims without merit are not approved. If advocates are 
concerned about claims with merit being denied (and there's little 
evidence of that fact), what about the problem of merit-less claims 
being granted? Isn't that a problem, too?
    As if this were not already a difficult enough situation, and one 
that has already fueled more asylum claims than were ever contemplated 
when the asylum law was adopted, a last 'gasp effort of the preceding 
administration bequeathed us a new avenue for asylum claims. Under this 
parting proposal, women around the world who are battered by their 
spouses may become eligible to receive residence in this country--and 
asylum generally now seems to mean de facto permanent residence.\1\ We 
have asked the Bush Administration to withdraw these proposed w rules. 
Already, the asylum provision, intended to protect people from 
persecution by their governments, has been broadened to include a whole 
range of people who might be subjected to objectionable cultural and 
social practices.
---------------------------------------------------------------------------
    \1\ See also, Aguirre-Cervantes v. INS, No. 99-70861,2001 WL 274698 
(9<SUP>th</SUP> Cir. Mar. 21, 2001). In this case, the Mexican 
Government was held to be unable or unwilling to provide adequate civil 
remedies and protective facilities for battered spouses, and that the 
family was the social group involved--where one member (the father) was 
abusing another member (the daughter).
---------------------------------------------------------------------------
    It is unfair to the American people to ask them to embrace a policy 
that attempts to right every wrong and rectify every misfortune, 
wherever it occurs, no matter who is responsible by bringing the 
victims into the United States for permanent residence and giving them 
instant access to welfare programs, housing assistance, and other 
taxpayer-supported public assistance programs that are available only 
to the neediest Americans.
    Moreover, unlike political persecution, which can be assessed 
objectively, rendering judgments about cultural and social practices is 
highly subjective. It forces the United States into a position of 
passing judgment on social practices and cultural mores in every 
society on earth. If ostracism due to sexual orientation is grounds for 
asylum, how is a line to be drawn to exclude asylum claims from women 
who in Islamic societies are required to wear veils, or denied the 
right to drive a car or work outside the home? At that point asylum 
ceases to be a mechanism to protect the persecuted, and becomes a 
process of imposing our values on others or using the asylum law to 
obtain ``legitimacy'' for some international cause.
    In a world of 6 billion people, most of whom live under political 
systems and cultures that leave a lot to be desired, real world 
conditions mean we must be selective in granting asylum protection. 
Political asylum must not become social asylum, or it will destroy our 
ability to help anyone. One test: try to apply the asylum standard 
contemplated to international refugee resettlement screening. If the 
standard produces refugee eligibility for tens or hundreds of millions 
of people, then the standards is probably not tenable.
                         Fair's Recommendations
    Mr. Chairman, as I have outlined above, the gains in control over 
asylum abuse adopted beginning in 1995 are again beginning to weaken as 
a deterrent to fraudulent claims. Part of this, as I noted, is a 
culture in the INS bureaucracy that makes it more difficult to deny an 
asylum claim than to approve it. Another part of the problem is the 
process over the past few years of expanding the scope of eligibility 
for asylum. That not only complicates the asylum adjudication process, 
it attracts additional claimants.
    Now we are faced once again with a backlog of approved asylum 
claims as in 1990. The socalled ``ABC'' backlog has been dealt with--
even though most of those claimants were never able to perfect asylum 
claims.\2\ The question is what is an appropriate policy response. 
Another increase in the asylum admissions ceiling is not the solution. 
FAIR opposes that approach and believes that the American people would 
be ill served by that measure. The solution to the mounting immigration 
pressure cannot always be to raise numbers.
---------------------------------------------------------------------------
    \2\ The ABC backlog illustrates the need for speed in asylum 
adjudications. Backlogs among claimants inside the U.S. will soon 
obtain the equities to insist that their right to remain be determined 
on factors other than the merits of the asylum claim itself.
---------------------------------------------------------------------------
    The objective we should be striving to achieve is continued assured 
protection for asylum applicants who fear persecution from governments 
or from organized non-governmental elements that are oppressing people 
with the tacit backing of their government, while discouraging the 
abuse of the American people's hospitality and compassion. We believe 
that three reforms would serve that purpose.
    The first of the reforms would decouple the grant of asylum from 
permanent residence. International practice demonstrates that there is 
no standard requiring us to grant permanent residence to asylees. There 
is no reason that a bona fide asylum applicant can not be admitted as a 
nonimmigrant with the right to work in the United States. That status 
should not be adjusted to permanent residence until after a minimum of 
five years. There is no reason that a person who has shown the 
resourcefulness to get to the U.S. to ask for asylum should be accorded 
welfare benefits and other public assistance that should be reserved to 
our most needy citizens. As international circumstances change, the 
asylum status should be periodically reviewed to determine whether the 
original circumstances that led to the asylum grant have been reversed. 
In that case, when the fear of persecution is no longer valid, the 
asylees should be required to return home. Similarly, an asylum grantee 
should face a presumption that a fear of persecution no longer exists 
if he or she travels back to the home country.
    The advantage of the adoption of this reform is that it would 
discourage the still sizable number of asylum applicants who see asylum 
as a way to permanent residence in the United States, even if their 
main objective is not the public assistance that comes with a grant of 
asylum.
    The second reform proposal is an amendment to the refugee and 
asylee definition to delete the reference to ``membership in a 
particular social group.'' This change would preserve the scope of 
asylum protection for the traditional range of persecution, i.e., for 
race, religion, nationality and political opinion, while ending the 
expansion of asylum claims into areas of social policy never intended 
by the framers of the law. Asylum claimants should be judged by the 
same standards as persons screened as refugees overseas.
    The third proposed reform is to put an end to the quasi-asylum 
status of Cubans who arrive illegally in this country. The Cuban 
Adjustment Act is an anachronism of the Cold War that treats all Cubans 
as if they were fleeing persecution. In our current practice, we 
recognize that is not the case any longer. Those Cubans who are 
intercepted attempting to enter?the United States illegally are given 
the opportunity to request asylum and are given a hearing if they 
present a convincing case that they have been persecuted or will be 
persecuted if they are returned to Cuba. However, most of the 
intercepted Cubans fail this test and are returned to Cuba, where 
follow-up programs have convincingly demonstrated they are not 
subjected to persecution. If the Cuban Adjustment Act is abolished, 
Cubans will be put on an equal footing with Haitians and all others who 
arrive illegally in the United States and seek to stay. They will have 
to present an asylum claim, and if they are not entitled to that 
protection, they will be removed.
    Even if this reform were not inherently logical in it's own right--
which it clearly is--it is essential to restoring the even-handedness 
and fairness of our asylum policy. It will assure persons from other 
countries who today are denied the opportunity to stay in the United 
States accorded only to the Cubans--that our policy is not 
discriminatory against them.
                               Conclusion
    The context in which we make these recommendations is the overall 
rise in immigration to a level never contemplated by the legislators 
who created the current system of immigration in 1965. From moderate 
levels of immigration between a quarter of a million to a third of a 
million admissions per year during most of the past century, 
immigration today is averaging closer to one million admissions per 
year, and it is well above that level when illegal residents are 
included. That massive influx is clear from the 2000 Census numbers. 
The net increase of over ten million immigrants during the 1990's 
demonstrates a trend that also drives the rapid increase in the overall 
population of the country. FAIR, like the U.S. Commission on 
Immigration Reform, is concerned that the preservation of a welcoming 
climate for new immigrants will be difficult unless the level of 
immigration is scaled back to a more moderate level.
    Legitimate, merits-based refugee and asylee admissions deserve our 
highest priority and attention. They should get first priority in 
admissions. However, as long as there is no real definable national 
interest or objective governing our immigration policy, we will 
continue to be unable to make trade-offs in order to reallocate 
priorities. Therefore, asylum policy, too, must be looked at critically 
as part of any effort to scale back the level of immigration. As I 
noted above, FAIR thinks that asylum claims can be reduced without any 
jeopardy to the policy of protecting persons who fall within generally 
accepted international norms for asylum. We urge on behalf of our 
members and the American public in general that the pressure from 
advocates for improper widening the admissions criteria for asylum 
applicants be resisted, and further reform of the asylum process be 
adopted in order to assure continued public understanding and support 
of this program which, when it is properly administered, is a necessary 
humanitarian program.

    Chairman Brownback. And we will be happy to receive your 
entire testimony into the record.
    Mr. DeWine, I want to turn to you for questions first 
because I have had the chance to question the other panel 
earlier.
    Senator DeWine. Mr. Chairman, I do not have any questions. 
I missed Mr. Hammond's and I will read his testimony. I 
appreciate it very much. I just want to say that I found Mr. 
Glickman's testimony extremely compelling, and we appreciate 
that very much.
    Chairman Brownback. Thanks.
    I have a couple questions, if I could, for the panelists. 
Mr. Hammond, Dr. Hammond, I believe you identified 40 countries 
in your testimony, substantial religious persecution was 
occuring. I wonder if you could help us in identifying those. 
What was your source for those?
    Mr. Hammond. It is the Open Doors World Watch List. They do 
a yearly report on religious freedom around the world, and it 
is published every year. It is used within the context of the 
State Department religious freedom initiative. So that is 
available, and I could get that for you.
    Chairman Brownback. If you would, I would appreciate having 
that. One of the other roles I have is chairing the 
Subcommittee on the Near East and South Asia, and there is a 
great deal of religious persecution that occurs within that 
region. I constantly get comments from individuals on religious 
persecution; I think it would be good for us to have the 
documentation here to show that.
    Mr. Glickman, we heard earlier testimony that detention 
varies from place to place across this country. Apparently this 
is because of the decentralization within the INS Service, so 
that there is a lot of local decisionmaking. We have also heard 
a number of compelling cases, extraordinary cases of people 
being detained that should not have been, and did not need to 
be detained, and also programs that are in the alternative.
    Is there a way that this can be addressed without 
legislation so that action can take place more quickly? Can 
there be more standardization or a local option of working with 
non-governmental organizations to take care of asylum seekers?
    Mr. Glickman. Mr. Chairman, I think the centralization--
    Chairman Brownback. Pull that microphone closer.
    Mr. Glickman. I think the centralization versus 
decentralization of the INS is woven within the whole fabric of 
the INS structure and the need to reorganize the entire agency. 
I think the prior Commissioner did try to take this on a little 
bit in trying to rein in, as it is known, some of the district 
directors. She was not successful in that effort, and I do 
think it is going to take some guidance from Congress to apply 
uniform standards within all of the districts.
    I think the treatment of asylum seekers is a national issue 
and demand national standards. And I think if--
    Chairman Brownback. Well, I agree with you there. It is 
just that Congress takes time to act, and in the mean time 
there are a lot of people sitting in detention that are seeking 
asylum. The only reason they are there is because it is being 
interpreted, at least locally that they should be there rather 
than trusted out with a non-governmental organization.
    Mr. Glickman. We heard examples earlier of some pilot 
projects where NGO's were used to care for asylum seekers and 
they were released into the community, and we heard some really 
fantastic statistics about the positive effect that had been.
    Now, obviously, from where I sit, I would strongly advocate 
increasing use of NGO's to deal with this problem. I think it 
should be an issue for the new Commissioner, and I would 
encourage, as the confirmation process goes through on the new 
Commissioner, that this issue be put before him or her.
    Chairman Brownback. I think that is a good point.
    Mr. Glickman. And now it is official, right?
    Chairman Brownback. What is that?
    Mr. Glickman. It is official now. It is a him.
    Chairman Brownback. Yes. I think it is official it is a 
him.
    Mr. Hammond. Mr. Chairman, I would invite you also to look 
at the report that Mr. Glickman asked to be put in from the 
Lutheran Immigration Refugee Services. That has some good ideas 
that are not in my head right now of how regulations could be 
shifted, different categories people could be put out into once 
they have gone through a certain process. There is also some 
stuff on kids, on children, in their report. That would be very 
helpful.
    What it takes is someone in the administration to say this 
is something that we want to happen. These are regs that need 
to be put into the Federal record to see if we can get them 
through.
    The NGO's have stood very firm behind their interest in 
helping and being accountable to what happens in the process. 
We did it with Cubans when they came in and were incarcerated. 
Some of us helped with that process, and we are very open to 
providing help for them. Churches stepped up to the plate in 
many instances. So the NGO community, the private sector, is 
prepared. It just needs to be some changes in regulations and 
some careful looks at what groups could or should be let out 
into the public with work documentation.
    Mr. Glickman. I think Don is right. I think all of us in 
the NGO community are not only prepared to help in this regard, 
but we are prepared on accountability standards and to be 
accountable for our actions.
    Chairman Brownback. Good. Mr. Stein, you have often talked 
about leaving people in their countries to help change the 
political system, and I understand that point of view. Do you 
deem that if people are being persecuted for their faith in 
their home country, they should be encouraged to stay in that 
home country when they are being persecuted for their religious 
faith?
    Mr. Stein. That is a good question. Ultimately, it breaks 
down into the whole question of what is persecution as a 
factual matter. We are talking about--
    Chairman Brownback. Being killed, family members being 
killed.
    Mr. Stein. Well, obviously, a person who is working for 
positive political change who is under life-threatening 
circumstances who finds themselves needing refugee or asylum 
protection needs that protection.
    Chairman Brownback. You would agree then with asylum for 
that.
    Mr. Stein. Sure. I mean, I think FAIR has tried to make 
this point, that our asylum and refugee laws which need to be 
integrated are also a high priority for bona fide refugees. But 
an individual who dislikes generalized social conditions of 
hostility to a particular faith and does not want to live their 
any longer because the government has a bias, that kind of 
class-based asylum claim, it is not practical to provide asylum 
for that kind of a factual claim.
    Chairman Brownback. You have heard mention here of some 40 
countries of persecution for faith, various types of faith. You 
have heard statements from a Tibetan refugee. I personally have 
interviewed Tibetans there, some jailed, who could not get 
work, and who fled for those reasons. They also wanted to be 
able to worship in freedom. Do you believe they should be 
entitled to refugee status?
    Mr. Stein. Not everybody who disagrees with the government 
policy or does not live under freedom as we understand it is 
going to be able to come here and get asylum as a practical 
matter. The numbers matter in terms of the manageability of the 
claim. All the Baha'i in Iran could not come here and claim 
asylum, and it does not serve their purposes or ours, 
ultimately, to try to--
    Chairman Brownback. If they could get here, would they be 
deserving of asylum?
    Mr. Stein. All of them?
    Chairman Brownback. If they could get, here would they be 
deserving of asylum?
    Mr. Stein. All the Baha'i in Iran? Probably--
    Chairman Brownback. If whoever could get here, is the 
question. If you will hear the question, if who could get here 
and they have been persecuted for their faith and members have 
been jailed, some who are on death row, would they be entitled 
to asylum status in the United States?
    Mr. Stein. People who would be entitled to--I mean, I 
dislike by definition handling hypotheticals. People who are 
politically active trying to work for positive change, who are 
being targeted by the government for persecution, need that 
protection. Everybody else does not.
    Chairman Brownback. So you would say that unless they are 
personally targeted by the government, even though they cannot 
practice the faith the way they choose to--
    Mr. Stein. Our asylum laws cannot deliver everyone from the 
vexations and misfortunes of human conflict as a practical 
matter. No nation can, no community can. That is the great 
balance we have to achieve in determining asylum policy. How do 
you--
    Chairman Brownback. What if there was--
    Mr. Stein. You are doing hypotheticals again.
    Chairman Brownback. Well, let's do close to a hypothetical, 
because I think here lies the rub: It is the great American 
tradition to be a refuge for those seeking it. This country was 
founded by those who were seeking simply to be able to practice 
their own faith as they saw fit. While we did not have borders 
or laws then, they came here. God bless them that they did. So 
now, what if we had 800 Baha'i in a boat from Iran, 200 of whom 
had been targeted by the government, and they somehow got to 
our shores: should they be granted asylum?
    Mr. Stein. The appropriate thing is to provide, if they are 
coming as a country of first asylum, a screening process to 
determine if they have got a basis for state-action-targeted 
persecution, those people--
    Chairman Brownback. I think the Baha'i in Iran would.
    Mr. Stein. But can you give asylum to everyone who says 
they would be better off living here versus living elsewhere? 
That is the great charge of the statesmen and the policymakers 
to figure out where the balance lies.
    I mean, the St. Louis is an interesting case in point. We 
have mythologized it. But even under U.S. asylum laws and 
standards, the Jewish children on that boat would not 
necessarily have qualified for asylum if they had the ability 
to return to another safe country. And the countries that they 
were returned to were not at that time under Nazi occupation. 
Our asylum laws are not able to divine the future and have all-
knowing omnipotence about future events. The best we can make 
is sound judgments based on a balancing pattern while 
discouraging fraudulent claims or the preferential treatment 
someone might get if they go to a refugee--if they go to a U.S. 
embassy overseas and apply for refugee status and the claim is 
not valid under the State Department determination, that is the 
end of the discussion, or if they go to the UN-sponsored 
screening agency near an area of conflict. The U.S. ability to 
help the most people for the most amount of money, rationally, 
is to try to help people where they are, near the site of a 
conflict, with expectation of ultimate repatriation. We have 
not solved the problem in Cuba with an unduly broad migration 
policy between here and Cuba. What we have done is prolong 
Fidel Castro's occupation there.
    Chairman Brownback. On the St. Louis case, I do not think 
anybody can rationally say that, in looking back on that, we 
should have rejected that ship. And I think--
    Mr. Stein. I did not say that.
    Chairman Brownback. Those chapters, though--but you will 
not categorically say we should have absolutely accepted them.
    Mr. Stein. Who?
    Chairman Brownback. The people on the St. Louis.
    Mr. Stein. Knowing what happened to them?
    Chairman Brownback. What is that?
    Mr. Stein. Knowing what happened to them?
    Chairman Brownback. Yes.
    Mr. Stein. Of course we would accept them.
    Chairman Brownback. We should--but we are turning back now 
a number of people, and we know they are going back into tough 
conditions. But I hope--
    Mr. Stein. Mr. Chairman, we are not aware of anyone who has 
been sent back under summary exclusion who then suffered any 
direct political persecution. We are aware of an awful lot of 
people who have gotten asylum who probably did not deserve it. 
And where you balance those interests is, I guess, a subjective 
judgment in the end. We care about both these issues.
    Chairman Brownback. We have a vote on the floor. I thank 
you all for being here, and I appreciate it. The hearing record 
will remain open for the requisite number of days. Thank you 
very much.
    The hearing is adjourned.
    [Whereupon, at 4:13 p.m., the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
